<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Leahy, Murray, Landrieu, Voinovich, 
Cochran, Brownback, and Murkowski.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY


              opening statement of senator robert c. byrd


    Senator Byrd. Good afternoon. The subcommittee will be in 
order.
    Secretary Napolitano, you lead a Department of 219,000 men 
and women who are on the front line every day protecting our 
citizens. We commend those employees for their service.
    We welcome you to the subcommittee today.
    I also welcome Senator George Voinovich, our ranking 
member. I look forward to working with all of our subcommittee 
members this year.
    Secretary Napolitano, I thank you for your service to the 
Nation. You took on a Department with many challenges. We share 
the common goal of working to secure the homeland while 
striving to protect the rights and the liberties that our 
Founding Fathers set forth in the Constitution.
    Recently you submitted to the Congress the first 
quadrennial homeland security review, A Strategic Framework for 
a Secure Homeland, and the review lays out a thoughtful 
strategy that details five core missions for the Department. I 
am pleased to say that these five missions are very similar to 
the missions that the committee approved last year.
    Now, it is our responsibility to align those missions with 
the resources necessary to accomplish those missions.
    Quoting from the Strategic Framework--and I quote--``We 
have learned as a Nation that we must maintain a constant, 
capable, and vigilant posture to protect ourselves against new 
threats and evolving hazards.''
    As I review the details of the President's budget, I find 
significant gaps between the mission assignments stated in the 
Strategic Framework and the resources requested in the 
President's budget. The budget includes a modest increase of 
2.6 percent for the Department with most of the increase 
provided to the Transportation Security Administration in 
response to the December 25 attempted attack on Northwest 
Airlines Flight 253. While the proposed increases for 
checkpoint explosives technology and additional Federal Air 
Marshals may be appropriate, it is an example of responding to 
the latest threat rather than anticipating future threats.
    The fiscal year 2011 budget does not request the resources 
necessary to allow the Department to be nimble. You remember--
the old poem, Jack Be Nimble and Jack Be Quick?--to be nimble 
in responding to known vulnerabilities as well as to future 
threats.
    The President proposes to reduce funding critical to 
maintaining the ability of the Coast Guard to secure our ports, 
interdict illegal migrants and illegal drugs, and to save 
lives. To save lives.
    The budget proposes to reduce the number of Border Patrol 
agents and reduce our ability to secure containers shipped from 
overseas.
    The budget proposes status quo funding--status quo 
funding--for programs that address known vulnerabilities such 
as cyber security, bioterrorism, port security, and transit 
security.
    Last year, with your leadership, the President requested 
significant resources--significant resources--for homeland 
security. I was pleased the Congress sent to him a bipartisan 
bill that the President signed in October. And I look forward 
to working with you again this year. I hope that we will have 
your support in identifying ways to improve upon the fiscal 
year 2011 budget so that necessary resources are available to 
meet the mission requirements established in your Strategic 
Framework.
    Finally, I appreciate the Department's efforts through FEMA 
to help my State as West Virginians dig out from the tremendous 
amount of snow that fell this year. I support Governor Joe 
Manchin's request for Federal assistance in response to the 
December snowstorm, and I look forward to working with you to 
ensure that the February storms that packed a one-two punch are 
handled appropriately.
    Following Senator Voinovich's opening remarks, we will hear 
from Secretary Napolitano. After we hear from the Secretary, 
each member will be recognized by seniority for up to 7 minutes 
for remarks and questions. Now, I recognize Senator Voinovich 
for any opening remarks that he may wish to make.


                statement of senator george v. voinovich


    Senator Voinovich. Thank you, Chairman Byrd. I am pleased 
to join you today in welcoming our witness, the Secretary of 
Homeland Security, Janet Napolitano.
    I appreciate your being here today, Madam Secretary, to 
provide your insights on the Department's priorities as we 
begin the fiscal year 2011 appropriations process. I enjoyed 
our recent meeting, and I look forward to a continuing dialogue 
on improving the management of the Department of Homeland 
Security. These last few months have presented a number of 
challenges for you and all of your Department's employees.
    For fiscal year 2011, the President's total discretionary 
request for the Department is $43.6 billion. This is a 3 
percent increase from the fiscal year 2010 level. To put this 
in a different context, this is a $13.5 billion, or a 45 
percent, increase from the first appropriations act that funded 
the Department in fiscal year 2004. A 45 percent increase in 8 
years. We are quickly approaching the time when we will have 
doubled the resources of your Department.
    Increased security requirements as a result of 9/11, 
including land, border, cargo, transportation, and maritime 
security, have led to Federal spending without offsets or 
revenue increases to pay for it. In other words, during this 
last period of time, we have increased the budget 45 percent, 
but we have not asked the American people to come up with any 
more money to pay for it, on top of everything else that many 
of those agencies that formed the Department did--I think it 
was 22 of them. Given all the new requirements brought about by 
9/11, in my opinion, I think we should have asked the American 
people to help pay for it.
    The Congressional Budget Office projects that if current 
laws and policies remain unchanged, the Federal budget would 
show a deficit of about $1.3 trillion for fiscal year 2010, 
with projected deficits averaging about $600 billion per year 
over the next 10 years. Now, this is not sustainable. If we are 
not careful, we will not have any money for anything.
    These continuing deficits will push the debt to 
increasingly higher levels. It is interesting that foreign 
creditors now own roughly half of our debt, China being lead 
among them.
    Proverbs teaches, chapter 22, verse 7: ``The rich rules 
over the poor, And the borrower is the servant to the lender.'' 
I am very concerned about it.
    So, Secretary Napolitano, given all our debt, do we really 
need to make some of the investments your budget calls for? The 
budget request reflects a response to events of the last few 
months, but it is not clear to me that all these investments 
are wise ones. Why is it a budget priority to invest almost 
$500 million in new machines and personnel at the TSA just 
because the Christmas Day bomber boarded a plane in Amsterdam? 
What is really wrong with the current system? The folks in 
Cleveland did not believe the new machine piloted added to 
their ability. They piloted it and they sent it back. Where is 
the cost-benefit analysis of that decision?
    Why are you not applying the same logic to transportation 
security that you applied to biometric air exit, for which no 
funding is requested? You have made a case to me that it would 
not be cost effective to implement a biometric air exit system. 
If this is the situation, why do you not recommend the repeal 
of the statutory requirement for it and make the case that you 
can provide this capability through less costly means? In other 
words, it is a requirement, and if you cannot justify it from a 
cost-benefit standpoint, then get rid of it, get rid of the 
statutory requirement and tell us how you are able to do it 
without spending the money provided for it.
    Another area I question is the connection of the grants we 
are funding to our national security. One of my concerns, when 
we set up the Department, was that such funding would become a 
revenue sharing operation that, in some instances, would have 
nothing to do with homeland security. And I have to tell you, 
like every other Member of the Senate, I just love those news 
releases going out to my State that I am buying a fire engine 
or I am buying this and I am buying that, but I got to ask, 
what has this got to do with our national security?
    Now, we did have that program before 9/11, but it has 
really increased substantially, and we are funding--and I am a 
former mayor and I am a former Governor--but, we are really 
funding a lot of stuff that, frankly, I think is the 
responsibility of State and local government, although they are 
in a tough spot right now.
    After investing over $28 billion in grants to improve the 
preparedness and response capabilities of State and local 
governments, we have no reliable measures to show that this 
investment has improved the Nation's preparedness. I would like 
to know where we are investing this money and how is it helping 
to take care of our Nation's preparedness. And what are you 
doing to examine if some programs are working, making a 
difference, and what portion of grants can be categorized as 
revenue sharing under the guise of national security?
    It is important to note that the fiscal year 2011 budget 
does not propose, as 2010 did, adequate resources to pay for 
border initiatives funded in previous fiscal years, as the 
chairman has pointed out. In fact, the budget proposal is to 
step back from the administration request of only a year ago, 
intended to strengthen border security, eliminating the funding 
in fiscal year 2011, for example, of the 120 additional 
personnel requested by CPB air and marine operations.
    Obviously, you would have not recommended this unless you 
were satisfied the Department can get the job done with this 
level of resources. And you can be assured that if you do not 
make good on this case, this money will be added back, quite 
possibly at the expense of your other priorities. And I would 
ask why increase the grant funding pot at the same time the 
budget that is in front of us cuts the Border Patrol. What is 
the rationale for both of those?
    Although I understand you may be reevaluating your 
priorities. This morning the Department unofficially let us 
know that you are revising the budget request to include full 
funding for 20,163 Border Patrol agents in fiscal year 2011. I 
am most interested to hear what program you will be proposing 
to reduce by $15.5 million in order to do that.
    On a more positive note, I have long been interested in 
improving the efficiency and effectiveness of the Federal 
Government during my time in the Senate. In my role on the 
Homeland Security and Governmental Affairs Committee, I have 
worked toward reforming how the Federal Government manages its 
most valuable resource, its people. And, I am pleased to see 
you are asking for more money to improve hiring and to 
strengthen the acquisition workforce at the Department.
    In addition to hearing about your budget initiatives for 
the next fiscal year, I hope to hear your thoughts on the 
issues I have raised.
    Mr. Chairman, thank you very much.
    Senator Byrd. Thank you, Senator.
    Secretary Napolitano?
SUMMARY STATEMENT OF JANET NAPOLITANO
    Secretary Napolitano. Mr. Chairman, Senator Voinovich, 
members of the subcommittee, thank you for the opportunity to 
discuss President Obama's 2011 budget for the Department of 
Homeland Security. I want to thank the subcommittee for the 
support you have shown the Department in my year here and for 
the opportunity to work with you on particular issues as we 
have moved through the past fiscal year.
    President Obama's budget for the Department of Homeland 
Security focuses resources where they can be put to the most 
effective and efficient use. As you noted, Chairman Byrd, the 
request for fiscal year 2011 is an increase over the prior 
year's funding, and while we are focused at all times on 
protecting the American people, we are also committed to 
exercising strong fiscal discipline, making sure we are 
investing the resources in what works, cutting down on 
redundancy, eliminating ineffective programs, and making 
improvements across the board.
    I think it is important to note that while this budget will 
not go into effect until October 1, the events of the past 
months underscore the importance of the investments to our 
mission and to our ongoing activities. The attempted attack on 
Flight 253 on Christmas was a powerful illustration that 
terrorists will go to great lengths to try to defeat security 
measures we have put in place since September 11, 2001. We are 
determined to disrupt and thwart those plans and to dismantle 
and defeat terrorist networks by employing multiple layers of 
defense that work in concert with one another to secure the 
country. This effort involves not just the Department of 
Homeland Security but, indeed, many other Federal agencies with 
responsibilities for the Nation.
    As President Obama has also made clear, the administration 
is determined to find and to fix vulnerabilities in our systems 
that allowed the breach on Christmas Day to occur, and the 
President's budget prioritizes security enhancements in order 
to do so.
    I would also just pause for a moment there to say that the 
equipment being purchased in this budget, Senator Voinovich, 
Chairman Byrd, was already designed to be purchased. What we 
have proposed in this budget is accelerating the purchase and 
the installation of AIT, and I look forward to discussing that 
with you.
    As Chairman Byrd noted, the President's budget is focused 
on the five major mission areas determined by our quadrennial 
homeland review to be the focus of our Department: preventing 
terrorism and enhancing security; securing and managing the 
borders; smart and effective enforcement of the immigration 
laws; safeguarding and securing cyberspace. The first I think 
any quadrennial review has singled out cyberspace; and ensuring 
resiliency to disasters. My written statement goes into more 
detail on each of these.
    I have already mentioned to prevent terrorism and enhance 
security, the President's budget request enhances the multiple 
layers of aviation security. In addition to the machines, we 
are also looking to continue deployment of personnel, increases 
for the Federal Air Marshals Service, as well as more explosive 
detection teams, trained K-9 teams, and behavior detection 
officers at the domestic airports.
    To secure and manage our borders, the President's budget 
request strengthens initiatives that have resulted in concrete 
border security successes this past year. For example, it 
includes monies to expand the Border Enforcement Security Task 
Force, known as the BEST teams, a multi-agency model that has 
helped increase our seizures of contraband in every major 
category last year. Using an intelligence-based approach to 
going after the drug cartels, we are able to achieve more 
successes than in any year in history. And to do that and to 
make that approach intelligence-driven, the budget provides 
monies for more intelligence analysts.
    We also have within the budget the money to sustain Border 
Patrol efforts at the border at the levels previously stated. 
If I might just pause here, I cannot say it enough today, but 
we do not anticipate any reduction in Border Patrol staff in 
this budget and certainly no reduction at either the northern 
or the southern border.
    I would also like to pause a moment on the issue of Mexico 
because while we are dealing daily with terrorists who seek to 
injure us from abroad, there is a situation just south of our 
border that requires attention. The President of the United 
States has joined with the President of Mexico to combat the 
drug cartels. This is an ideal and golden opportunity for us to 
do so, and it is an urgent time to do so. The city of Juarez, 
which is just over the bridge from El Paso, the State of 
Chihuahua, which is the state in which Juarez is located, is 
essentially lacking the entire rule of law at this point in 
time. We are, therefore, supporting efforts and working across 
the Government to work with Mexico to achieve greater security 
border-wide in relation to the cartels.
    In response to our mission area to enforce the immigration 
laws, we bolster critical initiatives. E-Verify, which is the 
program necessary to ensure that businesses provide a legal 
workforce--those monies will help us with broad detection 
capabilities, as well as the continued registration of more and 
more employers.
    In addition, the budget includes more money for secure 
communities, which is the program where we insert into local 
jails or State prisons the ability to identify criminal aliens 
who are already incarcerated so that they may be removed from 
the country.
    To safeguard and secure cyberspace, the President's budget 
includes a total funding of $379 million for the National Cyber 
Security Division to identify and reduce vulnerabilities in our 
Nation's key cyber networks. As I mentioned before, we have 
already delineated this as one of our top five mission areas, 
and in addition to the monies that are in the President's 
budget, we have also requested and received the authority to do 
direct hiring of up to 1,000 cyber security experts over the 
next 3 years.
    To ensure resilience to disasters, the President's budget 
request includes an increase for the Disaster Relief Fund. It 
also includes $100 million in pre-disaster mitigation grants to 
support the efforts of State, local, and tribal governments to 
reduce the risks associated with disasters.
    And finally, as I think this subcommittee can appreciate, 
the Department of Homeland Security--in some respects, I liken 
it to building the plane while we are flying it, it is a 
Department that is still being pulled together out of the 20-
some-odd agencies that were put under the DHS umbrella. This 
requires budget investment. It requires budget investment in a 
consolidated headquarters. I thank the Congress very much for 
putting part of that headquarters money in the ARRA, in the 
Recovery Act. This is the headquarters that will be located at 
St. Elizabeths.
    But in addition to that, we want to consolidate leases. We 
are now spread in almost four dozen locales around the 
District. We want to consolidate to fewer than 10. That will 
save money in the long run. It will make it easier to manage in 
the long run. It requires some investment now. Those are just a 
few of the examples, some of the items that get lumped as 
management, but really are essential to building the bones of 
this organization so it can sustain the muscle around it.
    We are moving full speed ahead with our efficiency review 
initiative that I outlined for you last year, and we have 
identified millions in cost reductions and cost avoidances and 
institutionalized a new culture of efficiency at the 
Department.
    In all of the initiatives I have outlined today with you, 
we are dedicated to making sure not only that we protect the 
American people but that we get the most out of our security 
dollars.


                           prepared statement


    I am happy, Mr. Chairman, to answer questions and to 
provide other information with the subcommittee this afternoon.
    [The statement follows:]

                 Prepared Statement of Janet Napolitano

    Mr. Chairman, Senator Voinovich, and members of the subcommittee: 
Let me begin by saying thank you for the strong support you have 
provided me and the Department this past year. I look forward to 
another year working with you to make certain that we have the right 
resources to protect the homeland and the American people and that we 
make the most effective and efficient use of those resources.
    I am pleased to appear before the subcommittee today to present 
President Obama's fiscal year 2011 budget request for the Department of 
Homeland Security (DHS).
    As you know, the attempted attack on Northwest Flight 253 on 
December 25 was a powerful illustration that terrorists will go to 
great lengths to try to defeat the security measures that have been put 
in place since September 11, 2001. This administration is determined to 
thwart those plans and disrupt, dismantle and defeat terrorist networks 
by employing multiple layers of defense that work in concert with one 
another to secure our country. This effort involves not just DHS, but 
also many other Federal agencies as well as State, local, tribal, 
territorial, private sector and international partners. As President 
Obama has made clear, this administration is determined to find and fix 
the vulnerabilities in our systems that allowed this breach to occur--
and the fiscal year 2011 budget request prioritizes these security 
enhancements.
    The Department is also working hand-in-hand with our Federal 
partners to respond to the devastation and loss of life in Haiti 
following the January 12 earthquake. Collaboration within DHS among our 
many components has allowed us to leverage unprecedented resources and 
personnel to assist with the humanitarian efforts in Haiti. once again 
demonstrating what these offices can accomplish together. The fiscal 
year 2011 budget request strengthens the ongoing work in each of our 
Department's offices to fulfill our unified mission.
    I will now summarize the fiscal year 2011 budget request along with 
some of our key accomplishments from last year.
                    fiscal year 2011 budget request
    The fiscal year 2011 DHS budget will strengthen efforts that are 
critical to the Nation's security, bolster the Department's ability to 
combat terrorism and respond to emergencies and potential threats, and 
allow DHS to tackle its responsibilities to protect the Nation and keep 
Americans safe.
    DHS executes a wide array of responsibilities in its unified 
security mission. To bolster these efforts, DHS collaborates and 
coordinates with many partners--State, local and tribal governments and 
law enforcement agencies, international allies, the private sector and 
other Federal departments. These partnerships are essential to DHS' 
ability to fulfill its security mission.
    The fiscal year 2011 budget continues efforts to use our resources 
as efficiently and effectively as possible. We must exercise strong 
fiscal discipline, making sure that we are investing our resources in 
what works, cutting down on redundancy, eliminating ineffective 
programs and making improvements across the board.
    To institutionalize a culture of efficiency across the Department, 
DHS launched the Department-wide Efficiency Review Initiative in March 
2009. One major element of the Efficiency Review is the Balanced 
Workforce Strategy, a three-pronged approach to ensuring that the right 
workforce balance is achieved. First, we are taking steps to ensure 
that no inherently governmental functions are performed by contractors. 
Second, we put in place rigorous review procedures to ensure that 
future activities do not increase our reliance on contractors. Third, 
we are coordinating workforce assessments across the Department to seek 
economies and service improvements and reduce our reliance on 
contractors. In fiscal year 2011, the Department will continue 
executing the Balanced Workforce Strategy by converting contractor 
positions to Federal jobs.
    DHS secures the United States against all threats through five main 
missions, each of which is strengthened by this budget:
  --Preventing Terrorism and Enhancing Security.--Guarding against 
        terrorism was the founding mission of DHS and remains our top 
        priority today. A key element of preventing terrorism is 
        recognizing the evolving threats posed by violent extremists 
        and taking action to ensure our defenses continue to evolve to 
        deter and defeat them.
  --Securing and Managing Our Borders.--DHS monitors our air, land and 
        sea borders to prevent illegal trafficking that threatens our 
        country, while facilitating lawful travel and trade. We will 
        continue to strengthen security efforts on the Southwest border 
        to combat and disrupt cartel violence and provide critical 
        security upgrades--through infrastructure and technology--along 
        the northern border.
  --Enforcing and Administering Our Immigration Laws.--DHS is 
        responsible for enforcing the Nation's immigration laws while 
        streamlining and facilitating the legal immigration process. In 
        fiscal year 2011, we will continue to strengthen enforcement 
        activities while targeting criminal aliens who pose a threat to 
        public safety and employers who knowingly violate the law.
  --Safeguarding and Securing Cyberspace.--The Department defends 
        against and responds to attacks on the cyber networks through 
        which Americans communicate with each other, conduct business 
        and manage infrastructure. DHS analyzes and reduces cyber 
        threats and vulnerabilities, distributes threat warnings, 
        coordinates the response to cyber incidents and works with the 
        private sector and our State, local, international, and private 
        sector partners to ensure that our computers, networks and 
        cyber systems remain safe.
  --Ensuring Resilience to Disasters.--The Department provides the 
        coordinated, comprehensive Federal response in the event of a 
        terrorist attack, natural disaster or other large-scale 
        emergencies while working with Federal, State, local, and 
        private sector partners to ensure a swift and effective 
        recovery effort. DHS will continue its increased efforts to 
        build a ready and resilient nation by bolstering information 
        sharing, providing grants and training to our homeland security 
        and law enforcement partners and further streamlining 
        rebuilding and recovery along the Gulf Coast.
    Ensuring shared awareness of risks and threats, increasing 
resilience in communities and enhancing the use of science and 
technology underpin these national efforts to prevent terrorism, secure 
and manage our borders, enforce and administer our immigration laws, 
safeguard and secure cyberspace and ensure resilience to disasters.
    The total fiscal year 2011 budget request for DHS is $56.3 billion 
in total funding; a 2 percent increase over the fiscal year 2010 
enacted level. The Department's fiscal year 2011 gross discretionary 
budget request \1\ is $47.1 billion, an increase of 2 percent over the 
fiscal year 2010 enacted level. The Department's fiscal year 2011 net 
discretionary budget request is $43.6 billion,\2\ an increase of 3 
percent over the fiscal year 2010 enacted level. For purposes of 
comparison the Overseas Contingency Operation funding and transfer from 
the National Science Foundation are not included in the fiscal year 
2010 enacted level.
---------------------------------------------------------------------------
    \1\ Gross Discretionary funding does not include funding such as 
Coast Guard's retirement pay account and fees paid for immigration 
benefits.
    \2\ This does not include fee collections such as funding for the 
Federal Protective Service (NPPD), aviation security passenger and 
carrier fees (TSA), credentialing fees (such as TWIC-TSA), and 
administrative costs of the National Flood Insurance Fund (FEMA).
---------------------------------------------------------------------------
    The following are highlights of the fiscal year 2011 budget 
request:
Preventing Terrorism and Enhancing Security
    Advanced Imaging Technology (AIT).--An increase of $214.7 million 
is requested to procure and install 500 advanced imaging technology 
machines at airport checkpoints to detect dangerous materials, 
including non-metallic materials. This request, combined with units the 
Transportation Security Administration (TSA) plans to install in 2010, 
will mean a total of 1,000 AIT scanners are providing AIT coverage at 
75 percent of Category X airports and 60 percent of the total lanes at 
Category X through II airports.
    Transportation Security Officers (TSOs) to Staff AITs.--An increase 
of $218.9 million is requested for additional Transportation Security 
Officers (TSOs), managers and associated support costs to operate 
additional AITs at airport checkpoints. Passenger screening is critical 
to detecting and preventing individuals carrying dangerous or deadly 
objects and materials from boarding planes.
    Federal Air Marshals (FAMs).--An increase of $85 million is 
requested for additional FAMs to increase international flight 
coverage. FAMs help detect, deter and defeat terrorist and other 
criminal hostile acts targeting U.S. air carriers, airports, passengers 
and crew.
    Portable Explosive Trace Detection (ETD).--An increase of $60 
million is requested to purchase approximately 800 portable ETD 
machines ($39 million) and associated checkpoint consumables ($21 
million).
    Canine Teams.--An increase of $71 million and 523 positions (262 
Full-Time Equivalents, or FTE) is requested to fund an additional 275 
proprietary explosives detection canine teams, 112 teams at 28 Category 
X airports and 163 teams at 56 Category I airports.
    Behavior Detection Officers (BDOs).--An increase of $20 million and 
350 BDOs (210 FTE) is requested to further enhance TSA's Screening 
Passengers by Observation Techniques program. The fiscal year 2011 
request includes a total of 3,350 officers to enhance coverage at lanes 
and shifts at high risk Category X and I airports and expand coverage 
to smaller airports.
    Domestic Nuclear Detection Office Systems Engineering and 
Architecture.--An increase of $13.4 million is requested to fund 
systems engineering efforts to address vulnerabilities in the Global 
Nuclear Detection Architecture, the multi-layered system of detection 
technologies, programs and guidelines designed to enhance the Nation's 
ability to detect and prevent a radiological or nuclear attack.
    Radiological/Nuclear Detection Systems.--An increase of $41 million 
is requested for the procurement and deployment of radiological and 
nuclear detection systems and equipment to support efforts across the 
Department.
    Law Enforcement Detachment Teams.--An increase of $3.6 million is 
requested to bring deployable U.S. Coast Guard Law Enforcement 
Detachment (LEDET) teams to full capacity. LEDETs help prevent 
terrorism, secure U.S. borders, disrupt criminal organizations and 
support counter drug missions overseas. In fiscal year 2009, for 
example, LEDETs aboard U.S. naval and partner nation assets accounted 
for more than 50 percent of total maritime cocaine removals.
    2012 Presidential Campaign.--Total funding of $14 million is 
requested for startup costs associated with the 2012 Presidential 
Campaign including training for candidate/nominee protective detail 
personnel. The Secret Service will also begin to procure and pre-
position equipment, services and supplies to support candidate/nominee 
protective operations throughout the country.
    Secret Service Information Technology.--Total funding of $36 
million is requested for the Information Integration and Transformation 
program. This funding will allow the Secret Service to successfully 
continue its comprehensive Information Technology (IT) transformation 
and provide a multi-year, mission-integrated program to engineer a 
modernized, agile and strengthened IT infrastructure to support all 
aspects of the Secret Service's mission.
Securing and Managing Our Borders
    Journeyman Pay Increase.--In the spring of 2010, DHS will implement 
the journeyman pay increase, raising the journeyman grade level for 
frontline Customs and Border Protection (CBP) Officers (including 
Border Patrol agents and Agricultural Specialists) from GS-11 level to 
the GS-12 level. An adjustment to the base of $310.4 million will fund 
the full-year impact of the salary and benefit requirements associated 
with this implementation.
    CBP Officers.--An increase of $44.8 million is requested to fund 
318 CBP Officer FTEs within the Office of Field Operations and 71 
support FTEs for CBP. The decline in the number of passengers and 
conveyances entering the United States in fiscal year 2009 resulted in 
an almost 8 percent decrease in revenues from inspection user fees. 
CBP, therefore, has fewer resources to maintain critical staffing 
levels for CBP officers. The proposed funding will allow CBP to 
maintain staffing for critical positions to protect the United States 
at its ports of entry.
    Border Enforcement Security Task Forces (BESTs).--An additional $10 
million is requested to establish BESTs in three additional locations; 
Massena, NY; San Francisco, CA; and Honolulu, HI. These multi-agency 
teams work to identify, disrupt and dismantle criminal organizations 
posing significant threats to border security, including terrorist 
groups, gang members, and criminal aliens.
    Intellectual Property Rights (IPR) Enforcement.--An increase of $30 
million is requested to support CBP and ICE IPR enforcement efforts. 
This includes information technology systems that support IPR 
activities and implementation of the 5-year IPR Plan. An increase of $5 
million is also requested for the Immigration and Customs Enforcement 
(ICE)-led National Intellectual Property Rights Coordination Center 
(IPR Center). The IPR Center brings key U.S. Government agencies 
together to combat IPR violations that threaten our economic stability, 
restrict the competitiveness of U.S. industry and endanger the public's 
health and safety. ICE will also use these funds to focus on disrupting 
criminal organizations through the Internet and support for anti-
counterfeiting efforts.
    Intelligence Analysts.--An increase of $10 million is requested to 
fund 103 Intelligence Analysts for CBP. This staffing increase will 
support 24/7 operations of CBP Intelligence Watch, Operations 
Coordination and the Commissioner's Situation Room.
    Coast Guard Asset Recapitalization.--A total of $1.4 billion is 
requested to continue recapitalization of aging Coast Guard surface and 
air assets. Included in this request is $538 million for production of 
the Coast Guard's fifth National Security Cutter to continue 
replacement of the 378-foot High Endurance Cutters fleet. Also included 
is $240 million for production of four Fast Response Cutters to 
continue replacement of the 110-foot Class Patrol Boat fleet. The Fast 
Response Cutters have enhanced capability, high readiness, speed, and 
endurance, which will allow them to quickly and effectively respond to 
emerging threats. Additionally, $40 million is requested to purchase 
one Maritime Patrol Aircraft (MPA) HC-144A. The HC-144A will address 
the Coast Guard's MPA flight hour gap by providing 1,200 hours every 
year per aircraft. Finally, $13.9 million is requested for improvement 
and acquisition of housing to support military families.
Enforcing and Administering Our Immigration Laws
    E-Verjfy.--A total of $103.4 million and 338 FTEs is requested for 
the E-Verify Program. In fiscal year 2011, U.S. Citizenship and 
Immigration Services (USCIS) will develop and implement an E-Verify 
portal that will provide a single-user interface for the program's 
products and services. In addition, USCIS will enhance E-Verify's 
monitoring and compliance activities through analytical capabilities 
that will support more robust fraud detection and improved analytic 
processes and will continue developing system enhancements in response 
to customer feedback, surveys, mission requirements, and capacity 
needs.
    Secure Communities.--Total funding of $146.9 million is requested 
to continue fiscal year 2010 progress toward nationwide implementation 
of ICE's Secure Communities program--which involves the identification, 
apprehension and removal of all Level 1 criminal aliens in State 
prisons and local jails through criminal alien biometric identification 
capabilities. Secure Communities, in cooperation with Federal, State 
and local law enforcement agencies, will provide a safeguard to 
American communities by removing those criminal aliens from the United 
States who represent the greatest threats to public safety and by 
deterring their reentry through aggressive prosecution.
    Immigrant Integration.--A total of $18 million is requested to fund 
USCIS Office of Citizenship initiatives, including expansion of the 
competitive Citizenship Grant Program to support national and 
community-based organizations preparing immigrants for citizenship, 
promoting and raising awareness of citizenship rights and 
responsibilities, and enhancing English language education and other 
tools for legal permanent residents. The Office of Citizenship will 
support the implementation of the Immigration Integration program and 
lead initiatives to educate aspiring citizens about the naturalization 
process, monitor and evaluate the administration and content of the new 
naturalization test, and develop educational materials and resources 
for immigrants and the organizations that serve them.
Safeguarding and Securing Cyberspace
    National Cyber Security Division (NCSD).--Total funding of $379 
million is requested for the NCSD to support the development of 
capabilities to prevent, prepare for and respond to incidents that 
could degrade or overwhelm the Nation's critical information technology 
infrastructure and key cyber networks. These funds will identify and 
reduce vulnerabilities, mitigate threats and ensure that cyber 
intrusions and disruptions cause minimal damage to public and private 
sector networks.
    National Cyber Security Center (NCSC).--A total of $10 million is 
requested for the NCSC to enhance cyber security coordination 
capabilities across the Federal Government including mission 
integration, collaboration and coordination, situational awareness and 
cyber incident response, analysis and reporting, knowledge management, 
and technology development and management.
Ensuring Resilience to Disasters
    Disaster Relief Fund (DRF).--The budget seeks funding of $1.95 
billion, an increase of $350 million for the DRF. The DRF provides a 
significant portion of the total Federal response to victims in 
declared major disasters and emergencies.
    Federal Emergency Management Agency (FEMA) Facilities.--An 
additional $23.3 million is requested to address critical FEMA real 
estate needs. By fiscal year 2011, the capacity of FEMA facilities will 
be unable to accommodate key mission responsibilities and staff FEMA 
also faces a critical need to maintain and repair aging and 
deteriorating national facilities. To address these needs. FEMA has 
developed a 5-year capital plan to begin critical regional facility 
acquisitions and repairs.
    Pre-Disaster Mitigation Grants.--Total funding of $100 million is 
requested to provide program support and technical assistance to State, 
local and tribal governments to reduce the risks associated with 
disasters, support the national grant competition and provide the 
required $500,000 per State allocation. Resources will support the 
development and enhancement of hazard mitigation plans, as well as the 
implementation of pre-disaster mitigation projects.
    Flood Map Modernization.--A total of $194 million is requested to 
analyze and produce flood hazard data and map products and communicate 
flood hazard risk. The funding will support the review and update of 
flood hazard data and maps to accurately reflect flood hazards and 
monitor the validity of published flood hazard information.
    Rescue 21.--A total of $36 million is requested for the Rescue 21 
system, enabling the U.S. Coast Guard to enhance preparedness, ensure 
efficient emergency response and rapidly recover from disasters. The 
Rescue 21 system replaces the U.S. Coast Guard's legacy National 
Distress and Response System and improves communications and command 
and control capabilities in the coastal zone. The system is the 
foundation for coastal Search and Rescue and enhances maritime 
situational awareness through increased communications ability with 
mariners and other responders.
Maturing and Strengthening the Homeland Security Enterprise
    St. Elizabeths Headquarters Consolidation.--To streamline the 
Departments core operations, $287.8 million is requested to consolidate 
executive leadership, operations coordination and policy and program 
management functions in a secure setting at St. Elizabeths, the 
Department's facilities are currently dispersed over more than 40 
locations throughout the National Capital Region (NCR). This 
consolidation at St. Elizabeths will reduce the fragmentation of 
components and will improve communications, coordination and 
cooperation across all DHS headquarters organizations.
    Lease Consolidation--Mission Support.--A total of $75 million is 
requested to align the Department's real estate portfolio in the NCR to 
enhance mission performance and increase management efficiency in 
conjunction with St. Elizabeths Headquarters Consolidation.
    Data Center Migration.--A total of $192.2 million is requested for 
the continuation of system and application migration of legacy data 
centers to two enterprise-wide DHS Data Centers to meet current and 
anticipated data service requirements. Funding will also be utilized 
for upgrading infrastructure requirements.
    Acquisition Workforce.--The fiscal year 2011 request includes an 
increase of $24.2 million to strengthen the Department's acquisition 
workforce capacity and capabilities. The increase is requested to 
mitigate the risks associated with skill gaps of the acquisition 
workforce, ensure that the Department achieves the best terms possible 
in major acquisitions and improve the effectiveness of the workforce.
    Science and Technology (S&T) Safe Container (SAFECON)/Time Recorded 
Ubiquitous Sensor Technology (TRUST) R&D.--A total of $8 million is 
requested for the S&T SAFECON and TRUST programs. These initiatives 
develop high reliability, high-throughput detection technologies to 
scan cargo containers entering the country for weapons of mass 
destruction, explosives, contraband, and human cargo.
    Grants.--A total of $4 billion is requested for grant programs to 
support our Nation's first responders. This funding assists State and 
local governments in the prevention of, protection against, response 
to, and recovery from incidents of terrorism and other events.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Fiscal year 2011 Gross Discretionary funding increases by $1.1 
billion, or 2 percent, over fiscal year 2010.
    There is an decrease of $123 million, or 1 percent, in estimated 
budget authority for Mandatory Fees, and Trust Funds over fiscal year 
2010.
    Excludes supplemental funding and rescissions of prior-year 
carryover funds.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Notes: Departmental Operations is composed of the Office of the 
Secretary & Executive Management, the Office of the Federal Coordinator 
for Gulf Coast Rebuilding, the Office of the Undersecretary for 
Management, the Office of the Chief Financial Officer, the Office of 
the Chief Information Officer and the National Special Security Event 
Fund.

                                     TOTAL BUDGET AUTHORITY BY ORGANIZATION
                              [Gross Discretionary & Mandatory, Fees, Trust Funds]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year
                                             -------------------------------------------------------------------
                                                                                                       2011 +/-
                                                                              2011       2011 +/-    fiscal year
                                              2009 revised  2010 revised  President's   fiscal year      2010
                                               enacted \1\   enacted \2\     budget    2010 enacted    enacted
                                                                                                      (percent)
----------------------------------------------------------------------------------------------------------------
Departmental Operations \3\.................     $659,109      $802,931    $1,270,821     $467,890            58
Analysis and Operations.....................      327,373       335,030       347,930       12,900             4
Office of the Inspector General.............      114,513       113,874       129,806       15,932            14
U.S. Customs & Border Protection............   11,250,652    11,449,283    11,180,018     (269,265)           -2
U.S. Immigration & Customs Enforcement......    5,968,015     5,741,752     5,835,187       93,435             2
Transportation Security Administration......    6,992,778     7,656,066     8,164,780      508,714             7
U.S. Coast Guard............................    9,624,179    10,122,963    10,078,317      (44,646)            0
U.S. Secret Service.........................    1,640,444     1,702,644     1,811,617      108,973             6
National Protection and Programs Directorate    1,188,263     2,432,755     2,361,715      (71,040)           -3
Office of Health Affairs....................      157,621       139,250       212,734       73,484            53
Federal Emergency Management Agency.........    5,971,159     6,194,268     6,527,406      333,138             5
FEMA: Grant Programs........................    4,220,858     4,165,200     4,000,590     (164,610)           -4
U.S. Citizenship & Immigration Services.....    2,876,348     2,859,997     2,812,357      (47,640)           -2
Federal Law Enforcement Training Center.....      332,986       282,812       278,375       (4,437)           -2
S&T Directorate.............................      932,587     1,006,471     1,018,264       11,793             1
Domestic Nuclear Detection Office...........      514,191       383,037       305,820      (77,217)          -20
                                             -------------------------------------------------------------------
      TOTAL.................................   52,771,076    55,388,333    56,335,737      947,404          1.71
                                             ===================================================================
Less Rescission of Prior Year Carryover           (61,373)      (40,474)  ...........       40,474          -100
 Funds \4\..................................
                                             -------------------------------------------------------------------
ADJUSTED TOTAL BUDGET AUTHORITY.............   52,709,703    55,347,859    56,335,737      987,878             2
                                             ===================================================================
SUPPLEMENTAL \5\............................    3,354,503       295,503   ...........     (295,503)  ...........
Less Rescission of Prior Year Carryover          (100,000)  ............  ...........  ............  ...........
 Funds \5\..................................
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 revised enacted reflects:
  --Net reprogramming/transfer adjustments for OSEM ($17.4 million); OIG ($16.0 million); CBP (-$24.1 million);
  ICE ($16.4 million); TSA (14.4 million); USCG ($.400 million); USSS ($2.5 million); NPPD ($30 million); OHA
  ($.430 million); FEMA (-$39.5 million).
  --Technical adjustments to revise fee/trust fund estimates for ICE--Immigration Inspection User Fee ($7.0
  million); ICE--Detention and Removal Examination Fee ($1.4 million); ICE--Breached Bond/Detention Fund ($15.0
  million); TSA--Transportation Threat and Credentialing--Registered Traveler (-$10.0 million), TSA--
  Transportation Threat and Credentialing--Transportation Worker Identification Credentials ($22.7 million);
  TSA--Transportation Threat and Credentialing--HAZMAT (-$3.0 million); TSA--Transportation Threat and
  Credentialing--Alien Flight School ($1.0 million); CIS ($185.4 million); USCG ($7.9 million).
  --Realignment of USCG Operating Expenses funding and Pursuant to Public Law 110-53 reflects TSA realignment of
  funds for 9/11 Commission Act implementation ($3.675 million--Aviation Security, 13.825 million--Surface, $2.5
  million--Support).
  --Scorekeeping adjustment for a rescission of prior year unobligated balances from USCG--AC&I (-$20.0
  million).
\2\ Fiscal year 2010 revised enacted reflects:
  --Technical adjustments for TSA Aviation Security Fees of ($128.9 million); USCG Health Care Fund ($5.0
  million).
  --Scorekeeping adjustment for a rescission of prior year unobligated balances from USCG--AC&I (-$.800
  million).
  --For comparability purposes, excludes USCG Overseas Contingency Operations ($241.5 million) and National
  Science Foundation transfer to USCG of $54.0 million.
\3\ Departmental Operations is comprised of the Office of the Secretary & Executive Management, the Office of
  the Federal Coordinator for Gulf Coast Rebuilding, the Office of the Undersecretary for Management, the Office
  of the Chief Financial Officer, the Office of the Chief Information Officer, and the National Special Security
  Events Fund (NSSE).
\4\ Pursuant to Public Law 110-329, reflects fiscal year 2009 rescissions of prior year unobligated balances:
  Analysis and Operations (-$21.373 million); TSA (-$31.0 million); FEMA--Cerro Grande (-$9.0 million).
Pursuant to Public Law 111-83, reflects fiscal year 2010 rescissions of prior year unobligated balances:
  Analysis and Operations (-$2.4 million); TSA (-$4.0 million); Counter-Terrorism Fund (-$5.6 million); FEMA (-
  $5.6 million); S&T (-$6.9 million); DNDO (-$8.0 million).
\5\ In order to obtain comparable figures, Net Discretionary, Gross Discretionary, and Total Budget Authority
  excludes:
  --Fiscal year 2009 supplemental funding pursuant to Public Law 110-252: USCG ($112 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-5 (ARRA): USM ($200 million); OIG ($5
  million); CBP ($680 million); ICE ($20 million); TSA ($1.0 billion); USCG ($240 million); FEMA ($610 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-8: USSS ($100 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-32: CBP ($51.2 million); ICE ($66.8
  million); USCG ($139.5 million); FEMA ($130.0 million).
  --Pursuant to Public Law 111-32 reflects fiscal year 2009 rescissions of prior year unobligated balances: FEMA
  (-$100.0 million).
  --Fiscal year 2010 Overseas Contingency Operations funding provided in Public Law 111-83: USCG ($241.5
  million).
  --Fiscal year 2010 Supplemental funding pursuant to Public Law 111-117: USCG ($54.0 million).


                                   NET DISCRETIONARY AUTHORITY BY ORGANIZATION
            [Excludes Discretionary Offsetting Fees & Mandatory, Non-Offsetting Fees, & Trust Funds]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year
                                             -------------------------------------------------------------------
                                                                                                       2011 +/-
                                                                              2011       2011 +/-    fiscal year
                                              2009 revised  2010 revised  President's   fiscal year      2010
                                               enacted \1\   enacted \2\   budget \3\  2010 enacted    enacted
                                                                                                      (percent)
----------------------------------------------------------------------------------------------------------------
Departmental Operations \3\.................     $659,109      $802,931    $1,270,821     $467,890            58
Analysis and Operations.....................      327,373       335,030       347,930        2,900             4
Office of the Inspector General.............      114,513       113,874       129,806       15,932            14
U.S. Customs & Border Protection............    9,803,667    10,134,554     9,817,117     (317,437)           -3
U.S. Immigration & Customs Enforcement......    5,005,615     5,436,952     5,523,800       86,848             2
Transportation Security Administration......    4,369,358     5,129,505     5,724,000      594,495            12
U.S. Coast Guard............................    8,104,707     8,541,749     8,466,537      (75,212)           -1
U.S. Secret Service.........................    1,415,444     1,482,644     1,571,617       88,973             6
National Protection and Programs Directorate    1,188,263     1,317,755     1,246,715      (71,040)           -5
Office of Health Affairs....................      157,621       139,250       212,734       73,484            53
Federal Emergency Management Agency.........    2,777,560     2,963,268     3,292,860      329,592            11
FEMA: Grant Programs........................    4,220,858     4,165,200     4,000,590     (164,610)           -4
U.S. Citizenship & Immigration Services.....      152,490       224,000       385,800      161,800            72
Federal Law Enforcement Training Center.....      332,986       282,812       278,375       (4,437)           -2
S&T Directorate.............................      932,587     1,006,471     1,018,264       11,793             1
Domestic Nuclear Detection Office...........      514,191       383,037       305,820      (77,217)          -20
                                             -------------------------------------------------------------------
      TOTAL.................................   40,076,342    42,459,032    43,592,786    1,133,754          2.67
                                             ===================================================================
Less Rescission of Prior Year Carryover           (61,373)      (40,474)  ...........       40,474          -100
 Funds \4\..................................
Mandatory, Fees, and Trusts.................   12,694,734    12,929,301    12,742,951  ............  ...........
                                             -------------------------------------------------------------------
      ADJUSTED TOTAL BUDGET AUTHORITY.......   52,709,703    55,347,859    56,335,737      987,878             2
                                             ===================================================================
SUPPLEMENTAL \5\............................    3,354,503       295,503   ...........     (295,503)  ...........
Less Rescission of Prior Year Carryover          (100,000)  ............  ...........  ............  ...........
 Funds \4\..................................
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 revised enacted reflects:
  --Net reprogramming/transfer adjustments for OSEM ($17.4 million); OIG ($16.0 million); CBP (-$24.1 million);
  ICE ($16.4 million); TSA (14.4 million); USCG ($.400 million); USSS ($2.5 million); NPPD ($30 million); OHA
  ($.430 million); FEMA (-$39.5 million).
  --Technical adjustments to revise fee/trust fund estimates for ICE--Immigration Inspection User Fee ($7.0
  million); ICE--Detention and Removal Examination Fee ($1.4 million); ICE--Breached Bond/Detention Fund ($15.0
  million); TSA--Transportation Threat and Credentialing--Registered Traveler (-$10.0 million), TSA--
  Transportation Threat and Credentialing--Transportation Worker Identification Credentials ($22.7 million);
  TSA--Transportation Threat and Credentialing--HAZMAT (-$3.0 million); TSA--Transportation Threat and
  Credentialing--Alien Flight School ($1.0 million); CIS ($185.4 million); USCG ($7.9 million).
  --Realignment of USCG Operating Expenses funding and Pursuant to Public Law 110-53 reflects TSA realignment of
  funds for 9/11 Commission Act implementation ($3.675 million--Aviation Security, 13.825 million--Surface, $2.5
  million--Support).
  --Scorekeeping adjustment for a rescission of prior year unobligated balances from USCG--AC&I (-$20.0
  million).
\2\ Fiscal year 2010 revised enacted reflects:
  --Technical adjustments for TSA Aviation Security Fees of ($128.9 million); USCG Health Care Fund ($5.0
  million).
  --Scorekeeping adjustment for a rescission of prior year unobligated balances from USCG--AC&I (-$.800
  million).
  --For comparability purposes, excludes USCG Overseas Contingency Operations ($241.5 million) and National
  Science Foundation transfer to USCG of $54.0 million.
\3\ Departmental Operations is comprised of the Office of the Secretary & Executive Management, the Office of
  the Federal Coordinator for Gulf Coast Rebuilding, the Office of the Undersecretary for Management, the Office
  of the Chief Financial Officer, the Office of the Chief Information Officer, and the National Special Security
  Events Fund (NSSE).
\4\ Pursuant to Public Law 110-329, reflects fiscal year 2009 rescissions of prior year unobligated balances:
  Analysis and Operations (-$21.373 million); TSA (-$31.0 million); FEMA--Cerro Grande (-$9.0 million).
Pursuant to Public Law 111-83, reflects fiscal year 2010 rescissions of prior year unobligated balances:
  Analysis and Operations (-$2.4 million); TSA (-$4.0 million); Counter-Terrorism Fund (-$5.6 million); FEMA (-
  $5.6 million); S&T (-$6.9 million); DNDO (-$8.0 million).
\5\ In order to obtain comparable figures, Net Discretionary, Gross Discretionary, and Total Budget Authority
  excludes:
  --Fiscal year 2009 supplemental funding pursuant to Public Law 110-252: USCG ($112 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-5 (ARRA): USM ($200 million); OIG ($5
  million); CBP ($680 million); ICE ($20 million); TSA ($1.0 billion); USCG ($240 million); FEMA ($610 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-8: USSS ($100 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-32: CBP ($51.2 million); ICE ($66.8
  million); USCG ($139.5 million); FEMA ($130.0 million).
  --Pursuant to Public Law 111-32 reflects fiscal year 2009 rescissions of prior year unobligated balances: FEMA
  (-$100.0 million).
  --Fiscal year 2010 Overseas Contingency Operations funding provided in Public Law 111-83: USCG ($241.5
  million).
  --Fiscal year 2010 Supplemental funding pursuant to Public Law 111-117: USCG ($54.0 million).

            key fiscal year 2009 accomplishments and reforms
    In 2009, our 230,000 employees strengthened existing efforts and 
launched new initiatives to meet our five key responsibilities: 
guarding against terrorism; securing our borders; engaging in smart, 
effective enforcement of immigration laws; preparing for, responding to 
and recovering from disasters of kinds; and building a mature and 
unified Department.
    DIE has emphasized three cross-cutting approaches to achieve these 
aims--increasing cooperation with Federal, State, tribal, local, 
private sector, and international partners; deploying the latest 
science and technology to support our mission; and maximizing 
efficiency and streamlining operations across the Department.
    As a result, we have made major advances in addressing new and 
emerging threats to keep our homeland safe, fostering trade and travel 
and continuing to build a ready and resilient nation able to meet the 
challenges of the 21st century. The following are some key initiatives 
accomplished this past year.
Guarding Against Terrorism and Threats to Cyber Networks and Critical 
        Infrastructure
    Protecting the American people from terrorist threats is the 
founding purpose of the Department and a top priority. Over the past 
year, DHS has continued to guard against terrorism by enhancing 
explosives detection and other protective measures in public spaces and 
transportation networks, working with the private sector to protect 
critical infrastructure and cyber networks from attack, improving 
detection of chemical, biological, radiological, and nuclear materials, 
and building information-sharing partnerships with State and local law 
enforcement that enable law enforcement to better mitigate threats.
    Fulfilling a key 9/11 Commission recommendation, TSA began 
implementing Secure Flight, which prescreens passenger name, date of 
birth and gender against government watch lists for domestic and 
international flights.
    TSA achieved the 9/11 Act requirement of screening 50 percent of 
air cargo transported on domestic passenger aircrafts by February 3, 
2009. Currently, 100 percent of cargo is screened on more than 95 
percent of flights originating in the United States and 100 percent of 
all baggage is screened for explosives.
    The Domestic Nuclear Detection Office directly trained more than 
3,600 Federal, State and local officers and first responders in 
radiological and nuclear detection and began demonstrating the first-
of-its-kind Cargo Advanced Automated Radiography System, which aims to 
detect special nuclear materials and shielding material in cargo at 
ports of entry.
    DHS opened the new National Cyber Security and Communications 
Integration Center--a 24-hour DHS-led coordinated watch and warning 
center that will improve national efforts to address threats and 
incidents affecting the Nation's critical IT and cyber infrastructure.
    DHS worked with the Office of Personnel Management to attain new 
authority to recruit and hire up to 1,000 cyber security professionals 
across the Department over the next 3 years to help fulfill DHS' broad 
mission to protect the Nation's cyber infrastructure, systems and 
networks.
    S&T partnered with the U.S. Secret Service, industry and academia 
to digitize more than 9,000 ink samples to expedite the investigation 
of criminal and terrorist activities by reducing matching times from 
days to minutes.
    DHS held the 5-day National Level Exercise 2009 the first national 
level exercise to focus on terrorism prevention--in conjunction with 
Federal, State, local, tribal, private sector, and international 
partners.
    In accordance with the Chemical Facilities Anti-Terrorism Standards 
Act (CFATS), which allows DHS to regulate the security measures at 
high-risk chemical facilities, DHS is working with 2,300 facilities on 
strengthening security measures. In 2009, DHS received Site Security 
Plans from over 900 regulated facilities.
    DHS signed agreements to prevent and combat crime with Italy, 
Greece, Portugal, and Spain. These agreements allow for the exchange of 
biometric and biographic data to bolster counterterrorism and law 
enforcement efforts while emphasizing privacy protections.
    DHS and Spanish Interior Minister Perez Rubalcaba signed a 
Declaration of Principles formalizing the Immigration Advisory 
Program--which identifies high-risk travelers at foreign airports 
before they board aircraft bound for the United States.
    DHS forged partnerships with Germany and Spain to facilitate 
scientific research and collaboration to combat transnational threats.
    DHS and Canadian Public Safety Minister Peter Van Loan announced a 
series of cooperative initiatives between the United States and Canada 
to address terrorism and organized crime while expediting the lawful 
flow of travel and trade--including a biometric data sharing initiative 
also involving Australia, the United Kingdom and, eventually, New 
Zealand.
Securing Our Borders While Facilitating Lawful Travel and Trade
    In 2009, DHS continued to strengthen security on the Southwest 
border through additional manpower and new technology to disrupt the 
flow of illegal drug, cash, and weapon smuggling that fuels cartel 
violence in Mexico. The Department also received security on the 
northern border while facilitating lawful travel and trade.
    The Obama administration announced the Southwest Border Security 
Initiative, a joint effort of the Departments of Homeland Security, 
Justice and State to crack down on Mexican drug cartels by enhancing 
border security through additional personnel, increased intelligence 
capability and better coordination with State, local and Mexican law 
enforcement authorities. As of December 8, 2009, CBP has seized more 
than $38.3 million in southbound currency--an increase of more than 
$29.3 million compared to the same period in 2008. In total thus far in 
2009, CBP and ICE have seized more than $101.7 million and nearly 1.59 
million kilograms of drugs--an increase of more than $48.2 million and 
more than 423,167 kilograms of drugs compared to the same period in 
2008.
    DHS implemented the Western Hemisphere Travel Initiative for land 
and sea travel to the United States, increasing border security while 
facilitating lawful travel and trade by requiring U.S. and Canadian 
citizens to present a passport or other approved secure document that 
denotes identity and citizenship when crossing the border.
    DHS and the Department of Justice joined with the Office of 
National Drug Control Policy to release the National Southwest Border 
Counternarcotics Strategy, the Obama administration's strategy to stem 
the flow of illegal drugs and their illicit proceeds across the 
Southwest border and reduce associated crime and violence.
    The Department announced the expansion of Global Entry--a CBP pilot 
program that streamlines the screening process at airports for trusted 
travelers through biometric identification--as a permanent voluntary 
program at airports across the United States. Global Entry reduces 
average wait times by more than 70 percent and more than 75 percent of 
travelers using Global Entry are admitted in less than 5 minutes.
    DHS launched a joint Coast Guard-CBP effort to use Predator 
Unmanned Aerial Systems (UAS) to provide improved surveillance of the 
United States maritime borders. DHS will conduct the first UAS 
operations along maritime borders in 2010.
    DHS, the Department of Justice and the Government of Mexico signed 
a Letter of Intent to develop a coordinated and intelligence-driven 
response to the threat of cross-border smuggling and trafficking of 
weapons and ammunition. This first-of-its-kind arrangement leverages 
the combined investigative capabilities of ICE the Bureau of Alcohol, 
Tobacco, Firearms and Explosives and the Attorney General of Mexico to 
combat violence and criminal activity along the United States-Mexico 
border.
    Through Global Entry, DHS launched a first-of-its-kind initiative 
with the Netherlands to open membership in U.S. and Dutch expedited air 
travel programs to citizens of both countries in an effort to 
streamline entry processes for pre-screened fliers.
Engaging in Smart, Effective Immigration Law Enforcement
    Over the past year, DHS has strengthened its immigration 
enforcement activities, targeting criminal aliens and employers who 
violate the Nation's immigration laws, while making improvements to the 
legal immigration system.
    DHS implemented a new, comprehensive strategy to reduce the demand 
for illegal employment and protect employment opportunities for the 
Nation's lawful workforce by targeting employers who knowingly hire 
illegal workers through investigations, prosecution and civil and 
criminal penalties. Since January 2009, DHS' new worksite enforcement 
policies have led to 1,897 cases and 2,069 Form I-9 inspections 
targeting employers, 58 companies and 62 individuals debarred, and 142 
Notices of Intent to Fine totaling $15,865,181 issued.
    DHS is reforming the immigration detention system, enhancing 
security and efficiency nationwide while prioritizing the health and 
safety of detainees. New initiatives include creating an Office of 
Detention Policy and Planning to ensure uniform conditions of 
confinement, medical care and design; implementing a medical 
classification system; centralizing all detention facility contracts 
under ICE headquarters' supervision; developing a plan for alternatives 
to detention; more than doubling the number of Federal personnel 
providing onsite oversight at the facilities where the majority of 
detainees are housed; creating two advisory boards comprised of 
community and immigration advocacy groups; and establishing an 
independent Office of Detention Oversight reporting directly to the ICE 
Assistant Secretary.
    DHS expanded the Secure Communities initiative--which uses 
biometric information to target criminal aliens in U.S. correctional 
facilities--from 14 to 107 locations in 2009, reflecting an increased 
emphasis on identifying and removing criminal aliens who pose the 
greatest threat to public safety. To date, the program has identified 
more than 111,000 aliens in jails and prisons who have been charged 
with or convicted of criminal offenses.
    USCIS and the FBI cleared the backlog of a year or more for 
background checks on people seeking to work and live in the United 
States or become citizens--reflecting DHS' commitment to quick, 
thorough and fair adjudication of immigration applications. The vast 
majority of these checks are now answered within 30 days. At the end of 
fiscal year 2009, USCIS also reduced the backlog of pending immigration 
applications and petitions by more than 90 percent and reduced average 
processing times for naturalization applicants by nearly 5 months as 
compared to fiscal year 2008.
    USCIS launched a redesigned Web site--available in English and 
Spanish--which provides a one-stop location for immigration services 
and information, including real-time alerts on the status of 
immigration applications via text message and e-mail.
    USCIS increased employer participation in E-Verify, the Nation's 
preeminent employment eligibility verification system, from 88,000 
companies at the end of fiscal year 2008 to more than 177,000 employers 
today.
Preparing for, Responding to and Recovering from Disasters
    In the event of a terrorist attack, natural disaster or other 
large-scale emergency, the Department provides a coordinated, 
comprehensive Federal response and works with Federal, State, local, 
and private sector partners to ensure a swift and effective recovery 
effort. This year, DHS increased efforts to build a ready and resilient 
nation by providing grants and training to our homeland security and 
law enforcement partners, coordinating the Federal Government's 
response to H1N1, and streamlining rebuilding and recovery along the 
Gulf Coast.
    DHS led the Federal response to the H1N1 outbreak, creating 
regional coordination teams comprised of representatives from DHS and 
the Departments of Defense and Health and Human Services to oversee, 
coordinate and execute national incident management responsibilities. 
DHS also coordinated outreach efforts to congressional, State, local, 
tribal, private sector and international officials regarding the H1N1 
outbreak.
    Since January 20, 2009, Louisiana and Mississippi have received 
more than $2.1 billion in public assistance from DHS, including $125 
million for debris removal and emergency protective measures, $935.5 
million in public works and infrastructure projects, $258 million for 
mitigation activities to increase resilience and more than $542 million 
for K-12 education. In addition, more than 6,000 displaced households 
in Louisiana and Mississippi have been transitioned to permanent 
housing.
    To cut through red tape and streamline and expedite the decision-
making process for public assistance for recovery efforts in the Gulf 
Coast, DHS established two joint public assistance teams and a new 
arbitration process to resolve longstanding issues over public 
assistance funding. Over the past 10 months, the Joint Expediting Team 
and the Unified Public Assistance Project Decision Team have resolved 
156 projects, distributing more than $100 million to support the repair 
and replacement of fire and police stations, schools like the Southern 
University of New Orleans and Holy Cross School, libraries and other 
infrastructure critical to the recovery of Gulf Coast communities.
    FEMA has responded to 47 declared disasters since January 21, 2009, 
including the Red River flooding in North Dakota and Minnesota, the 
September flooding in Georgia and the earthquake and tsunami that 
struck American Samoa.
Unifying and Maturing DHS
    Six years since the Department's creation. DHS' goal remains the 
same: one enterprise dedicated to a shared vision for homeland 
security. Over the past year, DHS implemented a series of wide-ranging 
efficiency initiatives that leverage the economies of scale in DHS in 
order to recover millions of dollars and create a culture of 
irresponsibility and fiscal discipline. At the same time, the 
Department leveraged new technology to improve DHS operations, 
coordination and outreach.
    DHS broke ground on its new headquarters at the St. Elizabeths 
Campus. While DHS currently operates in more than 40 offices around the 
National Capitol Region. The consolidated headquarters will unify DHS' 
many components into one cohesive department and is expected to save 
taxpayers $163 million over the next 30 years.
    DHS launched the Efficiency Review Initiative to improve 
efficiency, streamline operations and promote greater accountability, 
transparency and customer satisfaction through a series of 
initiatives--including eliminating non-mission critical travel, 
renegotiating contracts, utilizing government facilities instead of 
private rentals, reducing printing and postal mail and maximizing the 
use of Web-based communication, training and meetings, implementing 
energy efficiencies in DHS facilities and maximizing DHS' buying power 
to receive the lowest price possible when acquiring office supplies and 
software licenses. These initiatives collectively are expected to lead 
to hundreds of millions of dollars in cost avoidances. This past year, 
DHS identified more than $100 million in cost savings including $22 
million by eliminating non-mission critical travel; $16 million by 
utilizing software licensing agreements DHS-wide; $7 million through 
the mandatory review of contracts; $9 million by eliminating redundancy 
in processing mariner credentials; $8 million by consolidating the DHS 
sensitive-but-unclassified portal system; almost $4 million by posting 
documents online or using e-mail in lieu of printing and postal mail; 
$2 million by streamlining boat maintenance and support schedules; $2 
million by utilizing government facilities instead of private rentals; 
almost $2 million by increasing energy efficiencies at facilities and 
many more examples across the Department.
    S&T launched the Virtual USA initiative, an innovative. 
information-sharing initiative that helps Federal, State, local and 
tribal first responders communicate during emergencies by linking 
disparate tools and technologies in order to share the location and 
status of critical assets and information--such as power and water 
lines, flood detectors, helicopter-capable landing sites, emergency 
vehicle and ambulance locations, weather and traffic conditions, 
evacuation routes and school and government building floor plans--
across Federal, State, local and tribal governments.
                selected dhs priority performance goals
Prevention Terrorism and Enhancing Security
    Improve security screening of passengers, baggage, and employees 
while expediting the movement of the traveling public (aviation and 
surface transportation security).
    Fiscal year 2011 initiatives include deploying new technology, law 
enforcement and canine assets at domestic airports, enhancing 
checkpoint technology, implementing the Transportation Workers 
Identification Credential (TWIC) program--which requires transportation 
workers to obtain a biometric identification card to gain access to 
secure areas of transportation facilities, and strengthening our 
Visible Intermodal Prevention and Response (VIPR) teams--which use 
unpredictability to deter, detect, and disrupt potential terrorist 
activities, will help us to achieve these goals.
Securing and Managing Our Borders
    Prevent terrorist movement at land ports of entry and maritime 
borders through enhanced screening while expediting the flow of 
legitimate travel.
    Fiscal year 2011 initiatives include implementing the Western 
Hemisphere Travel Initiative by deploying new technology, upgrading our 
processing capabilities at border checkpoints. and enhancing 
information sharing among law enforcement, as well as continuing 
recapitalization of aging Coast Guard surface and air assets to quickly 
and effectively respond to emerging threats.
Enforcing and Administering Our Immigration Laws
    Improve the efficiency of the process to detain and remove illegal 
immigrants from the United States.
    Improve the delivery of immigration services.
    Fiscal year 2011 initiatives include increasing our targets for 
detaining and removing dangerous criminal aliens from the United States 
through our Secure Communities program--which uses biometrics to 
identify and remove criminal aliens incarcerated in State and local 
jails--by 4 percent per year. Additionally, we will improve the 
delivery of immigration services by modernizing our adjudication 
process for new immigrants and potential citizens.
Ensuring Resilience to Disasters
    Strengthen disaster preparedness and response by improving FEMA's 
operational capabilities and enhancing State, local and private citizen 
preparedness.
    In fiscal year 2011, FEMA will continue to enhance its training 
programs to help State and local entities prepare for all types of 
disasters. FEMA is also developing a national strategy to house up to 
half a million households within 60 days of a disaster--increasing 
current capacity by 200 percent.
Maturing and Strengthening the Homeland Security Enterprise
    Mature and unify the Homeland Security Enterprise through effective 
information sharing.
    Improve acquisition execution across the DHS acquisition portfolio, 
by ensuring key acquisition expertise resides in major program office 
and acquisition oversight staffs throughout the Department.
    In fiscal year 2011, our efforts will focus on information sharing 
across all departmental components. Additionally, the Department is 
undertaking an initiative to enhance the capability and capacity of its 
acquisition workforce to ensure that major acquisition projects do not 
exceed cost, schedule, and performance objectives.
    We will focus on these goals over the next 2 years and continue to 
work closely with the Office of Management and Budget in the monitoring 
and reporting of milestones and performance measures associated with 
them. As we continue the Bottom-Up Review associated with the QHSR, we 
may update these goals and associated measures.
                               conclusion
    The fiscal year 2011 budget proposal reflects this administration's 
continued commitment to protecting the homeland and the American people 
through the effective and efficient use of DHS resources. As outlined 
in my testimony today, the Department will build on past successes in 
several areas including information sharing with our partners, aviation 
and port security measures and immigration reform efforts.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
fiscal year 2011 budget request and other issues.

                     INTERNATIONAL AIRPORT SECURITY

    Senator Byrd. Thank you very much.
    Given the fact that the Christmas Day bomber on Flight 253 
was not flagged for additional scrutiny until after he was to 
have landed in Detroit, what steps have you taken to get more 
information through our customs officers earlier so that 
potentially threatening individuals are prevented from boarding 
planes bound for the United States?
    Secretary Napolitano. Yes, Mr. Chairman. One of the things 
that we have done in the wake of December 25 is to change the 
amount of information that we push forward to customs officers 
who are located overseas. They are located in nine airports. 
They are not universally located. But where we have them.
    Now, prior to Christmas, we pushed out the Terrorist 
Screening Database, the TSDB, and we also pushed out the no-fly 
list. Abdulmutallab was on neither. That was a watch-listing 
error. That is part of the watch-listing review process that is 
underway.
    We are now pushing out other data. Specifically we are 
providing overseas the information about anyone who is on a 
State Department list where there is any visa note that has 
been entered that makes any reference to terrorism or to 
extremism. That would have picked up Abdulmutallab in 
Amsterdam, at which point the Amsterdam authorities would have 
subjected him to a secondary inspection. So that is one of the 
several changes that we have already made.
    Senator Byrd. Your budget seeks a significant increase to 
deploy additional transportation security officers, new 
scanning technology, Federal Air Marshals, and K-9 teams at 
airport checkpoints. These measures are in response to the 
failed bombing attack aboard Flight 253 on Christmas Day. Just 
last week, TSA expanded the random explosives detection 
swabbing of passengers at airports.
    The increases you request for the TSA are mainly in 
response to the last attack. What are you doing to address 
future threats?
    Secretary Napolitano. If I might, Mr. Chairman, I would 
differ somewhat in the characterization that these efforts are 
only in response to the Christmas Day terrorist attack. Many of 
these programs were underway and were already in process prior 
to Christmas. What we have done is to accelerate them.
    One of the reasons, of course, we have done so is because 
the intelligence we are receiving shows a consistent effort by 
al Qaeda and its affiliates to target commercial aviation as 
the way to attack the American people. So in response to that, 
we have moved to harden, as you would, security and the use of 
better technology for security at our Nation's airports.
    In addition, we are working around the world globally to 
improve security at international airports that are last points 
of embarkation for the United States.
    So the monies in the 2011 budget are really an acceleration 
of programs, initiatives that had already been begun, but the 
need for urgency is really quite clear.

                                 MEXICO

    Senator Byrd. With regard to the drug cartel violence in 
Mexico, on March 24, 2009, you stated: ``This issue requires 
immediate action. We're going to do everything we can to 
prevent the violence in Mexico from spilling over across the 
border.'' That is the end of the quotation.
    You then announced the redeployment of existing resources 
from elsewhere in the United States to initially respond to 
this violence.
    Congress responded by providing you with $100 million to 
hire new agents and officers and to purchase equipment for a 
response to Southwest border violence. In the past 11 months, 
the violence and the brutal killings in Mexico have continued, 
and yet your budget request provides almost no new resources to 
address the violence and the threat to our Southwest border.
    I am pleased to learn that you intend to modify your 
request in order to maintain the current level of 20,163 Border 
Patrol agents. That is the right thing to do.
    Now, how do you intend to modify the budget request and 
fund these additional agents?
    Secretary Napolitano. Yes, Mr. Chairman. That is about, if 
I recall correctly, $15.5 million. It will be a combination of 
moving some monies that were allocated for Border Patrol 
personnel but who were not on the border itself, to make sure 
that they are deployed at the border. There are some monies 
attributable to some attrition savings that had not been 
previously allocated and that will be allocated now.
    The plain fact of the matter is that if you read the budget 
document we submitted, you would rationally assume that we were 
cutting the Border Patrol by 180-some-odd positions. We are not 
and we will not. It was unfortunate that was presented in that 
way.
    If I might go to the Southwest border and what is happening 
there in terms of the border initiative. You are right. The 
monies that you allocated last year were designed in part to 
prevent spill-over violence. As I mentioned in my opening, 
northern Mexico, particularly in the Juarez area, is a very, 
very troubled place right now. We are doing the following:
    We have deployed more K-9 teams, more explosive detection 
equipment, more mobile radar teams to inspect not just vehicles 
coming north, but vehicles going south and to look specifically 
for explosives and for bulk cash.
    We are also inspecting all of the southbound rail going 
into Mexico.
    We are working very closely with the federal government of 
Mexico--in fact, I was just there last week--on combined 
efforts looking not just at the drug cartel leadership but also 
others who are involved in the drug trade within Mexico and 
also what needs to be done, particularly in Juarez, to help 
with security situations or getting a secure situation there.
    And then finally, Mr. Chair, we are not the only Department 
that is now involved in the Mexico effort. There are monies in 
other Departments and efforts underway by other Departments as 
well that are all being collaborated or brought together to 
assist the federal government of Mexico.
    Senator Byrd. With a weak economy and stronger enforcement, 
the number of illegal aliens trying to enter the country is 
down. But when the economy recovers, we need strong border 
enforcement. How do these proposed reductions help to 
accomplish your mission?
    Secretary Napolitano. Well, Mr. Chair, I think there are no 
proposed reductions. And I fully appreciate, particularly given 
my own background, the need to anticipate what can happen when 
our economy comes back, that there can be another increase in 
illegal immigration into the United States.
    So in addition to boots on the ground, it is better 
technology between the ports of entry, and in addition to that, 
expanding our efforts at work-site enforcement because the big 
incentive to cross and to make that very dangerous illegal 
crossing is to get a job. And if we can clamp down now on the 
ability to get a job, we will, we think, deter some of that 
illegal immigration.
    So we have increased the number of employers who are being 
audited. We are increasing the sanctions on those employers, 
although I must say we would like some more or stronger 
sanctions and fines that we could impose. And we are also 
deporting a record number of criminal aliens and removing a 
record number of other aliens from the United States.
    So we understand that the issue is today but it also very 
well is tomorrow.

                               CBP BUDGET

    Senator Byrd. The budget proposes to cut CBP by over $300 
million. I am troubled by this proposed cut.
    Secretary Napolitano. Mr. Chair, if I might, we think and I 
think the budget gives the CBP what it needs to secure our 
borders. Some of the monies that were in last year's budget we 
do not need this year. By way of example, we increased the 
number of license plate readers. These are machines that read 
license plates and report lost and stolen vehicles as they move 
back and forth across the border. Well, we bought the machines 
last year. We do not need to buy new machines this year. There 
are a number of other similar types of investments in last 
year's budget that we do not need to replicate.
    Senator Byrd. Senator Voinovich.

                      ADVANCED IMAGING TECHNOLOGY

    Senator Voinovich. Thank you, Mr. Chairman.
    First of all, I would like to have you provide me, not now, 
the background on the advanced imaging technology and when the 
decision was made to go forward with the purchase of it, just 
the whole scenario of how it came about and why you made the 
decision and so forth. Okay?
    Secretary Napolitano. Senator Voinovich, we would be glad 
to. As you know, there was money for the AIT even in the 
Recovery Act funds. So this has been a longstanding movement. 
We have simply accelerated it, but we will get you a good 
briefing on that.
    [The information follows:]

    The Transportation Security Administration (TSA) has been 
evaluating Advanced Imaging Technology (AIT) for almost 3 years. 
Through covert testing, ongoing airports assessments, and operational 
testing at 19 airports in the primary and secondary screening 
positions, AIT has proven itself as an effective tool for the detection 
of metallic and nonmetallic threats in the laboratory and in the field.
    The Transportation Security Administration (TSA) recently used ARRA 
funds to purchase 150 Advanced Imaging Technology (AIT) units from 
Rapiscan and intends to procure an additional 300 units from Rapiscan 
and L3, the two currently qualified vendors. This next award is 
currently in the final stages of review and TSA intends to announce the 
recipient(s) in the March/April timeframe. TSA proposes to procure an 
additional 500 units using 2011 funding, bringing the total to 
approximately 1,000 units. Further procurement decisions for AIT, as 
with any screening technology, will be based on ongoing risk 
assessments and funding availability.

    Senator Voinovich. Thank you.

                      FIRST RESPONDER PREPAREDNESS

    The other is that the request in front of us includes $4 
billion for grants to improve preparedness and response 
capabilities of State and local government. This is about 9 
percent of the Department's total discretionary request. This 
is $4 billion, and it will be in addition to the $28 billion 
that we have already appropriated since fiscal year 2004.
    The question I have is, does the Department have the 
capacity to ascertain what we are getting for the money that is 
being invested there? Do you have something that looks at it 
and determines whether or not it helps our homeland security 
and also, of course, multi-hazard situations?
    Secretary Napolitano. Senator, indeed. And there is a fine 
balance to be struck between homeland security and revenue 
sharing, for example. I will say that we are--actually there 
have been metrics put in place to evaluate how these grant 
monies are being used. I am having the metrics re-examined to 
see whether they really match up with what we need now.
    Now, one of the things the President's budget does is it 
consolidates a number of grant programs. That was in response 
to a request from a number of Governors and mayors that they 
were filing multiple grant applications, had to file multiple 
reports. They wanted fewer grants and more flexibility, and so 
in this year's budget, we attempt to meet those things so that, 
for example, they can use grant monies not just to buy a new 
piece of equipment, but to maintain it. Previously they could 
not use monies in that fashion. So we have tried to make it as 
user-friendly as possible from the recipient perspective.
    But your concern is one that I share. Have we married those 
monies up really with the homeland security perspective?
    Senator Voinovich. I would like to have you share that with 
our folks. Thank you.
    Secretary Napolitano. I would be pleased to do so.
    [The information follows:]

    A review of the Department's efforts in this area revealed the 
existence of multiple Federal assessment efforts that could benefit 
from improved coordination combined with reduced administrative burdens 
on our stakeholders. FEMA is establishing a Preparedness Task Force, as 
outlined in House Report 111-298, the Conference Report to Public Law 
111-83. This Task Force is to be comprised of State, tribal, local, 
private sector and Federal experts who will be charged with, among 
other duties, making recommendations as to the system that should be 
implemented to measure national preparedness. Establishing a 
consolidated framework for the measurement of preparedness is a 
priority. We look forward to working with Congress and our stakeholders 
toward adopting a common assessment methodology that will best inform 
future decisionmaking across all levels of government.

                          DISASTER RELIEF FUND

    Senator Voinovich. The other one, of course, is the one I 
asked about last year, and that is there is a request for $3.6 
billion in emergency supplemental appropriations for fiscal 
year 2010. And less than 2 weeks later, the amount went up to 
$5.1 billion for emergency spending. And if you look at--you 
know, the question I have got is, does that emergency request 
include the claims for Katrina that are outstanding?
    Secretary Napolitano. Yes. The $5.1 billion supplemental 
for the DRF takes into account the recent arbitration award for 
Charity Hospital. It also includes $1.1 billion for the schools 
in the New Orleans area, and it includes monies for the 
outstanding arbitrations that have not yet occurred.
    The idea, Senator, is that with that $5.1 billion 
supplemental for the DRF, we will be able to finish out the 
Katrina-related claims.
    Senator Voinovich. Great.

                                US-VISIT

    Do you believe that the biometric exit system is the most 
cost effective way to track departure of legitimate travelers 
to the United States? It gets back to something you and I have 
been talking about because I am very interested in visa waiver, 
and we have got a stipulation. You know the details.
    Secretary Napolitano. I do.
    Senator Voinovich. If you do not have the biometrics in 
place, then the program is not going to go forward, and if it 
is not required, then what is the substitute?
    Secretary Napolitano. Senator, the President's budget does 
not request any dollars for the biometric exit program this 
year. There are $50 million of unspent monies that will be 
used. This is for US-VISIT, the other name for it.
    I think we can and are moving for a biometric entry/exit 
modality for airports. The problem we have as a country is the 
fact that we have huge land borders and lots and lots of ports 
of entry on those borders, and we have not yet ascertained 
whether what we are doing in the airports is feasible at all at 
the land ports. And if it is not, then the Congress and the 
Department and the executive branch really need to have a 
discussion about whether this is the best way to go with the 
monies that we have.
    Senator Voinovich. I would really like to maybe get Senator 
Lieberman and Senator Collins and have a hearing on this or 
maybe Senator Akaka to talk about what are the alternatives and 
how we can change that law so that this program does not end up 
on a clothes line someplace. So I would like to do that.

                   WORKSITE ENFORCEMENT AND E-VERIFY

    According to statistics from the U.S. Immigration and 
Customs, there has been a dramatic decrease in the number of 
administrative and criminal arrests in worksite enforcement. 
Administrative arrests--they have gone from 5,184 in fiscal 
year 2008 to 1,600 in 2009. I mean, how are you measuring the 
outcomes of this worksite enforcement guidance announced on 
April 30, 2009 versus the outcomes of the old policy?
    In other words, it looks to me, if you take E-Verify, which 
some of my colleagues wanted to say should be made available to 
employers so they can go after them, and there was objection to 
that, of using E-Verify. And then you look at the number of 
arrests that are down, there appears to be maybe a different 
approach in terms of dealing with these illegal people that are 
in the workforce.
    I mean, I cannot understand why you do not allow me as an 
employer to take my workforce and put it through E-Verify. It 
has the capacity of, I think, 65 million, and we are only doing 
about 9 million. If you put everything together, it looks like 
maybe you are slacking off or taking the pressure off in terms 
of illegal aliens that are working throughout the United 
States.
    Secretary Napolitano. I think absolutely the opposite, 
Senator. You have to look at the entire program we are doing on 
the workforce. And I say this as someone who as a Governor 
signed the Nation's first basically mandatory E-Verify law.
    E-Verify to me is the tool we have available--and the 
President's budget supports this--for employers to use for 
easy, quick verification of the legal qualifications of someone 
to work. We have around 185,000 employers on it now. We are 
signing up about 1,000 per week. We are joining that with an 
effort to audit more employers to see if they are using E-
Verify or if they are keeping proper track of their employees 
through what are called I-9 audits. I-9 is the form that is 
used.
    We have greatly increased by multiples of hundreds of 
percent the number of employers who are being asked to perform 
or undergo an I-9 audit. That helps us target who are the 
employers that are really not even making a good faith effort 
to comply with our Nation's immigration laws.
    We have coupled that as well with record deportations of 
illegals this year over the prior year, as well as record 
deportations of criminal aliens this year over the prior year.
    So I think if you had the opportunity to speak with many of 
the employer groups, they are actually quite unhappy with us 
because they feel like we have been clamping down on them. We 
are.
    Senator Voinovich. Thank you.
    Thank you, Mr. Chairman.
    Senator Byrd. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

                            AIRPORT SCANNING

    Madam Secretary, in the airports where they are going to 
put these new virtual scanners, whatever you call them, the 
machines that basically undress people walking through, what do 
you do if you have a passenger who does not want to go through 
one? Does that mean they cannot fly?
    Secretary Napolitano. No, it does not, Senator. They have 
the option of going through a standard magnetometer with a 
possible pat-down, the same as now.
    I think it is important to recognize, first of all, that 
the machines now are very different than the original version 
of the machines so that they are not a virtual strip----
    Senator Leahy. You put the Gumby view now?
    Secretary Napolitano. That is one view. The ones in 
Amsterdam now are just a stick figure, and they are really 
designed to identify where anomalies are. And the readers are 
not where the person is. So they do not even associate the 
image they see with an individual. So it is a very different 
setup than was originally contemplated.
    Senator Leahy. I can imagine you have been asked that 
question by others because I know I get asked it all the time 
by people on airplanes.
    Secretary Napolitano. Correct, yes.
    But I think it is fair to say that this is the new version 
of screening technology. It is objectively better than just the 
magnetometer because it helps us identify liquids, powders, 
other methods that somebody may be trying to take down an 
airplane with.
    And the machines that we are buying now, the contracts are 
written such that as the software improves, it has to be 
designed so it fits within the current hardware that we are 
buying. So we hopefully will not have to keep coming back for 
new machines. The software is part of the package.
    Senator Leahy. Thank you. I would have assumed your 
predecessors would have done that, but I am glad you have done 
that. That makes a great deal of sense.

                             RAINVILLE FARM

    I talked to you briefly about the Rainville Farm at Morses 
Line. It is a border crossing in Vermont, on the State of 
Vermont/Province of Quebec border. Last spring, DHS announced 
plans to use over $15 million in economic stimulus funds to 
build a new port of entry at Morses Line. I understand the need 
to upgrade the facility. It is a 75-year-old brick house. It is 
not equipped to operate in a post-9/11 environment. But I also 
look at an area where you do not have an awful lot of traffic. 
It is very small, and you also have the tradition of the people 
around there.
    I was concerned when the first plans came out, they were 
going to take 10 acres of prime farmland from an adjacent 
landowner. Since then, they scaled it down, now down to 4.9 
acres and considerably less money. I keep getting asked the 
question back in Vermont, is there a need to keep this port 
open?
    So the letter I handed you goes into more detailed 
questions. But I was wondering what is the current status of 
the project. Are there going to be any public hearings in 
Vermont on this project?
    Secretary Napolitano. Senator, I will make sure my staff 
gets you the correct information. My current understanding on 
that particular port is that it is a small port. As you know, 
most of those northern border ports are, maybe 40 cars a day. 
There is a port there because there is a road there, and it is 
as simple as that. It fits within the small business carve-out 
for the Recovery Act funds, and my understanding is that they 
are now choosing among three Vermont businesses to do the 
actual improvement to the port.
    Senator Leahy. Will there be another public meeting on it, 
do you know?
    Secretary Napolitano. I do not know the answer to that.
    Senator Leahy. But you could let me know.
    Secretary Napolitano. Yes, sir.
    [The information follows:]

    CBP personnel have discussed this issue with staff members from the 
Office of Senator Leahy. CBP and USACE met with the landowners on March 
12, 2010 to discuss the matter. A final environmental assessment of the 
project was released on March 12, 2010.

    Senator Leahy. Thank you.

                          AGENCY COORDINATION

    As we all know, a core mission of DHS is to prepare for and 
manage the effects of a major homeland security incident in the 
United States, to coordinate with other Federal agencies. We 
saw in the aftermath of Hurricane Katrina what happens when 
they do not coordinate Federal, State, and local resources and 
the tragedy became even worse. Senator Landrieu would 
understand it better than all the rest of us. Now, that was a 
natural disaster, but if you have to respond to a terrorist 
attack using chemical or biological, radiological or even 
nuclear weapons, the whole scenario is not beyond the realm of 
possibilities. But as we know, you are going to have to have 
even better coordination.
    Now, you became Secretary only last year, but DHS is now 7 
years old. I am concerned it still does not have final plans 
and guidance as to how it is going to work with other agencies 
in such an attack.
    DOD just completed its 2010 quadrennial defense review. 
They went forward with a number of plans of what they would do 
in case of such an attack.
    Now, DHS is obviously going to have to call on other 
agencies, State, local, Federal. But do we have an overall 
plan? And I am suggesting this is something that should have 
been done by your predecessors long before you got there. I am 
not trying to dump that all on you, but where are we in getting 
an overall plan?
    Secretary Napolitano. There are plans and there are plans. 
There are plans that----
    Senator Leahy. I do not want a plan just for the sake of a 
plan.
    Secretary Napolitano. Exactly right. And particularly for 
chemical, biological, or radiological, nuclear, the CBRNE, that 
is an area of great concern in part because we now are seeing 
an increase in the number of homegrown extremists.
    There are plans. There is a framework. We also have our own 
quadrennial review. We are now in the process of marrying that 
review to our planning structure so that they come together. We 
have exercised at the White House level what our administration 
would do at the Cabinet level, the Vice President, and the 
President should such an incident occur. And I would have to 
say, Senator, if we have such an attack, the President 
ultimately will be at that point--you know, he will be running 
the event as it were. But there are plans that are in place and 
that have been exercised.
    Senator Byrd. Senator Cochran.
    Senator Cochran. Mr. Chairman----
    Senator Leahy. I am sorry, Mr. Chairman. I thought because 
the first two questions went an extra minute, I might have a 
chance to put in my final question. But I will send it to you 
to indicate my support for the Law Enforcement Support Center 
in Williston, Vermont. And I thank you very much.
    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming the distinguished Secretary of Homeland Security to 
this hearing to review the budget request for the Department 
for fiscal year 2011. The responsibilities of this Department 
are the security of our homeland. Madam Secretary, I 
congratulate you on your leadership and applaud your effort to 
procure and deploy advanced imaging technologies to screen 
passengers at our airports.
    One of your first initiatives as Secretary was to visit the 
gulf coast areas which suffered terrible damage from Hurricanes 
Katrina and Rita. I know that our State's Governor, Haley 
Barbour, has been very impressed with your attention to the 
issues that continue to require our best efforts in Mississippi 
and Louisiana as we continue to rebuild and recover from the 
devastating effects of the most destructive natural disaster in 
our Nation's history.
    I was pleased with the rulemaking your Department issued in 
January of this year that outlines how hurricane victims can 
seek forgiveness of community disaster loans. I am hopeful that 
the Federal Emergency Management Agency will continue to work 
closely with our State and the communities along the gulf 
coast, which still have a lot of work to do to recover from the 
devastating effects of that monstrous hurricane.

                              COAST GUARD

    There are some specific requests that are included in the 
budget with regard to Coast Guard aircraft and some unmanned 
aerial system pre-acquisition activities, although there is no 
specific request or speculation about the needs that exist to 
begin that process. And in every other Coast Guard aircraft 
program, there are specific requests.
    I wonder, is that an oversight or is that going to be part 
of a supplemental request? What is your plan for funding those 
aircraft?
    Secretary Napolitano. Senator, I do not have that 
information now. I would have to go back and look at the 
budget.
    I will share with you, however, that our theory in crafting 
this budget where the Coast Guard is concerned was that the 
number one priority is the recapitalization of the Coast Guard 
so that, for example, we have included the funding for national 
security cutter (NSC) number 5 and things of that sort. And 
having now had a year at the Department and having been on 
Coast Guard vessels in places from Charleston to Kuwait, that 
recapitalization is absolutely necessary.
    [The information follows:]

    For fiscal year 2011, Coast Guard aircraft will be funded using the 
Acquisition, Construction and Improvement appropriation for air assets. 
Funds will be distributed according to the Capital Investment Plan. The 
President's budget requests $101 million for the recapitalization and 
enhancement of air assets.
    Unmanned Aerial System (UAS) pre-acquisition activities will be 
funded using the Research, Development, Test and Evaluation (RDT&E) 
appropriation. The total RDT&E request is for $20 million.

    Senator Cochran. The other program of great interest 
because Northrop-Grumman Shipyard is in Pascagoula, 
Mississippi, and it has built the national security cutter in 
the process of developing this most technologically advanced 
ship in the Coast Guard's fleet.
    I wonder if you could tell us about the request. My notes 
show that $538 million is in the fiscal year 2011 budget 
request for production of the fifth security cutter. And the 
future year budget plan includes $640 million over the next 3 
fiscal years to continue that program. Is that program on 
schedule and on track? Are there any difficulties or challenges 
that we need to know about as a subcommittee?
    Secretary Napolitano. Senator, right now it is on track. It 
had a rough start. In part, I think Katrina showed that some of 
these Coast Guard assets need to be able to perform functions 
that previously had not been contemplated for the Coast Guard.
    But it is on track. We had a bit of a tussle last year 
getting some of the funding for NSC 4, but that came into 
place, and now we have the funding for 5.
    I think it also important to recognize that as we add on 
these new assets, we are also decommissioning old ones, and 
that is according to a prior schedule of the Coast Guard. And 
that accounts for some of the reduction in Coast Guard 
personnel that you see in the President's budget this year.
    Senator Cochran. Turning again to the specific request for 
assistance to hurricane victims, I think I am compelled to 
point out that our State and Louisiana too, well represented 
here on the subcommittee, are going to continue to need funds 
to rebuild and recover from the devastating effects of that 
hurricane, the most destructive natural disaster in our 
Nation's history.
    Secretary Napolitano. Thank you, Senator.
    Senator Cochran. Thanks, Mr. Chairman.
    Senator Byrd. Senator Landrieu.
    Senator Landrieu. Thank you, Secretary Napolitano for 
testifying before the subcommittee today. The fiscal year 2011 
budget request for the Department will bolster emergency 
preparedness and support disaster recovery. I was pleased to 
see increases for the State Homeland Security Grant Program, 
Urban Area Security Initiative, and FEMA management and 
operations, as well as, level funding for the Port Security 
Grant Program, Pre-Disaster Mitigation Program, and Emergency 
Management Performance Grants. These programs are very 
important to Louisiana.
    I am concerned however with the proposed cuts to the 
National Domestic Preparedness Consortium, the Emergency 
Operations Centers and the incorporation of the Metropolitan 
Medical Response System (MMRS) into the UASI program. I look 
forward to discussing these issues in more detail today.
    Let me also begin by following up on the comments made by 
my colleague from Mississippi to thank your Department for 
focusing so much effort and attention on fixing FEMA and 
strengthening our response to disasters by actually living up 
to the promise to try to help us, which we want to do, build 
better and smarter and stronger, which actually, as you and I 
have talked so many times, is technically against the current 
law and with the waivers that you are providing with the open 
interpretation that you and your staff are providing are giving 
us an opportunity.

                           ARBITRATION PANEL

    Specifically, the push for the arbitration panel, where in 
the past all the communities could do, as Senator Cochran well 
knows, is to continue to ask FEMA for new decisions over and 
over and over again. There was no third party, independent 
arbiter that could come in say was FEMA right or was 
Mississippi right, or was FEMA right or was Louisiana right. 
And because of your leadership, that arbitration panel is in 
effect. It may not always rule in our behalf. So far, so good. 
We are doing pretty well. But just to have that process now, I 
just cannot thank you enough.
    I want to communicate how many local elected officials have 
said, you know, they may not rule for us, but please tell the 
Secretary at least we are getting our day in court to be able 
to get a decision. So thank you.
    Let me ask, to follow up with what Senator Voinovich said--
and I thank him for raising this. We are very concerned that 
this fund may run out of money, Madam Secretary, because there 
are still some major projects pending for reimbursement. Are 
you confident that the money that is in the President's budget 
request, which is I think $1.95 billion for fiscal year 2011, 
and the additional $5.1 billion in supplemental will cover the 
outstanding or anticipated request from not just the gulf 
coast, but we have got the California fires and some other 
things that have happened in the last 5 years as well.
    Secretary Napolitano. Senator, first off, let me say that 
the arbitration panels in my view have been extraordinarily 
helpful in helping us get to a process closure. And I think you 
should be thanked for your leadership in getting an amendment 
to the statute that would allow those panels to go forward. It 
may be something we want to discuss having added for other 
disasters as well.
    I cannot answer the DRF question without also 
congratulating you on the victory of the New Orleans Saints in 
the Super Bowl.
    Senator Landrieu. Thank you.
    Secretary Napolitano. Well done.
    Senator Landrieu. Thank you. I keep raising it myself. So I 
am so happy when others raise it. Thank you.
    Secretary Napolitano. On the DRF issue, it is our judgment 
that the $5.1 billion supplemental, combined with the 2011 
budget request, will be adequate to cover all of those claims.
    Senator Landrieu. And thank you because it is very 
important. And the chairman will be very pleased to know 
because he has been really an extraordinary advocate for our 
recovery on the gulf coast. I have said this publicly many 
times. Without this chairman, I am not sure where we would be.
    But one law that we have passed is to allow both 
Mississippi and Louisiana and some others to receive 
reimbursements en bloc. As opposed to one classroom at a time, 
you could receive it for several schools in a lump sum, which 
helps the communities to rebuild, Mr. Chairman, much more 
smartly. And that is really what is at stake here if there is 
enough money to allow us to do that. So I thank you.
    My second question is the National Domestic Preparedness 
Consortium, which is a group of seven universities--Louisiana 
State University is one of them, which is why I bring it to 
your attention. Over 1,000 courses were taught last year in all 
50 States. It is a consortium that has been in existence now 
for 12 years. It is widely supported and very effective. 
Unfortunately, in this budget it has been cut by 30 percent. 
Yet, the overall budget for State/local programs has been 
increased by 33.
    If you are not familiar specifically with this program, 
would you look into it? Because we believe it is extremely cost 
effective and it is helping us train our first responders 
actually in the communities where they live as opposed to 
expensive transportation to get them to either the capital or 
some other place in the country.
    Secretary Napolitano. Senator, yes, we will look into that.
    [The information follows:]

    The fiscal year 2011 administration proposal for NDPC funding is 
consistent with the fiscal year 2010 proposal. States are assuming 
increased responsibility for awareness level, refresher, and 
sustainment training that will allow our institutional partners to 
focus resources on more advanced, specialized training consistent with 
their respective expertise.

    Senator Landrieu. Thank you.

                            HAITIAN ORPHANS

    And finally, on another subject that is near and dear to my 
heart and also many members, is the issue of orphans in Haiti 
and also orphans around the world. Your Department really 
stepped up with the Department of State to help process about 
900 adoptions that were in process when the earthquake hit. We 
think 700 to 900 is the number. And we believe, because of your 
quick work with Secretary Clinton, that all of those adoptions 
will be processed within the next 30 days.
    But there still is a great need for safe, transparent 
processes as we identify children that are, indeed, orphans and 
have no one, no parents, no extended family, which may not be 
the majority but is a substantial number.
    Do we have your commitment to continue to work with other 
partners, including our Secretary of State, to try to make sure 
that we have the right safeguards so those adoptions cannot be 
halted but processed as appropriate?
    Secretary Napolitano. Absolutely.
    Senator Landrieu. Thank you, Madam Secretary.
    Senator Byrd. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Madam Secretary, good to see you.
    I join with my colleague about the support for orphans in 
Haiti. We had a number as well that were in the adoption 
pipeline and that we were able to clear on through. And your 
agency, your office, was good to work with on this, and I 
appreciate that a lot.
    I thought that was a shameless political statement about 
the Saints, though. I do not know if you noticed but Kansas was 
the top basketball team in the country.
    Senator Landrieu. Oh, you see what it starts?
    Secretary Napolitano. I really like Kansas too, Senator. It 
is the appropriations subcommittee, so I am prepared to be 
flexible.

                NATIONAL BIO- AND AGRO-DEFENSE FACILITY

    Senator Brownback. I just wanted to note that for you.
    We have talked often about the NBAF facility, the bio-agro-
terrorism facility, funded last year. I really appreciated the 
subcommittee doing that, a number of steps going on. It hinges 
on the Plum Island assets being sold, which apparently is being 
held up now or the market conditions are poor for that to 
happen. As I understand, DHS is committed to reprogram $40 
million in unobligated balances in the science and technology 
directorate budget to fund that for fiscal year 2011. Is that 
your understanding as well?
    Secretary Napolitano. Yes, sir, Senator, and that would be 
married with $40 million that the State of Kansas will be 
putting in to begin the NBAF design and construction process in 
Kansas. So we are moving ahead with full commitment to that 
project.
    Senator Brownback. It is your understanding that the 
reprogramming request is moving forward in the agency and is 
coming for congressional approval?
    Secretary Napolitano. Yes, sir.
    Senator Brownback. Okay.
    And then that $40 million--you say, well, that will be used 
for the design phase for this?
    Secretary Napolitano. I believe that is the phase that we 
are in. That is absolutely correct.
    Senator Brownback. Do you know the status on the 
disposition of Plum Island? What is taking place on that? 
Because that sale holds the rest of the funding formula for 
this.
    Secretary Napolitano. Senator, right now, as you might 
imagine, the market is not optimal. So there are efforts being 
made. Our view is that our number one issue is an NBAF facility 
that really deals with the cutting-edge science that we need 
for biological- and agricultural-related issues and security, 
security of the food chain. You and I have discussed this from 
time to time.
    So our 2011 budget request includes the commitment to 
reprogram the $40 million which will be, as I said, matched 
with $40 million from Kansas for planning. Then depending on 
what happens with Plum Island, that may require an adjustment 
in our 2012 budget numbers. But we think it important that that 
project keep moving ahead.
    Senator Brownback. So these ought to be able to keep that 
project on track at the speed that it can go while we are still 
getting Plum Island sold off into the future.
    Secretary Napolitano. Senator, at least through 2011. Now, 
next year at this hearing, we may be having another discussion 
because there may have to be some other options that are being 
pursued. But I just want to make very clear that in our 
judgment that is a very important project for the country and 
we need to move it along.
    Senator Brownback. Good. And the State of Kansas has 
committed a great deal on this, has committed assets, is 
committing assets, and they want to make sure that the Federal 
Government continues to commit its assets on it as well.

                             FLOOD MAPPING

    I want to raise one other issue with you that I have 
previously, and this is--actually I cannot believe I am raising 
this with you as an issue, but it keeps coming up. I was in 
Garden City, Kansas last week. It is a semi-arid region. I 
mentioned this to you previously. They dug these ditches along 
the Arkansas River 50 years ago to drain water if they got a 
big rainstorm. It is fairly flat. If they got a heavy rain, 
they said they wanted to drain into it.
    In the last reallocation on your flood mapping, they deemed 
these as water courses that could flood and put another 600 
homes in the flood plain. These are manmade ditches. I am sure 
you have seen a fair number of them in Arizona that they would 
have done something similar.
    Well, now they have got 600 more homes that are in the 
flood plain. They got to get flood insurance. They do not have 
their qualifying to do that.
    And then most recently, Gypsum, Kansas--this is a town of 
400 people. They had something similar happen. This is on a 
levee that they put in, and FEMA is requiring them because of, 
again, remapping to upgrade their certification on their levees 
even though the Corps of Engineers already does this, and it is 
going to cost the town $200,000. Well, you got 400 people here. 
This is not something they can afford to do, and the Corps 
already does this.
    I would ask you again, if you could, to look at the flood 
plain mapping and these FEMA regulations on a small community. 
I will get you the specifics of it. But this is what gives the 
Federal Government a bad name because people look at this and 
they go this makes no sense to me. We have had these here for 
50 years. If you want me to go fill them in, I will fill them 
in. But that is dumb because then we are going to have actual 
flooding that would take place instead of the water running off 
the course.
    So we have been very frustrated with this. The city has 
even sued. Garden City has sued FEMA, and the court says, no, 
that is not going to last. We are going to get the regional 
FEMA director out, the new one, to Garden City.
    I met with you previously on this. It would really help if 
you could break through the logjam on these two issues because 
they have been like this for a long time, and it just really 
frustrates people when they happen this way.
    Secretary Napolitano. Senator, in my prior life, I was the 
Governor of a State that had some similar issues. So I am very 
familiar with this from the recipient side.
    We are re-looking at flood mapping at large. There are lots 
of issues around the country. Garden City is not unique in this 
regard. My goal is to have the flood mapping and flood zone 
creation based on the best science, but the best science also 
needs to combine with common sense.
    And so what I would like to propose is or offer is that we 
will, if you would find it helpful, have the FEMA Administrator 
come brief your staff or somebody from his staff brief your 
staff on where we are right now on re-looking at how we are 
doing the flood mapping all over, as well as trying to 
troubleshoot these two towns.
    Senator Brownback. Thank you.
    Thank you, Chairman.
    Senator Byrd. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman and 
Senator Voinovich. I appreciate your having this hearing today.
    Madam Secretary, thank you for being here. Before I start, 
I want to personally thank you and all the members of your 
staff who do such a great job all the time keeping our Nation 
safe. And I know how hard they work. I just wanted to thank you 
for that.

                             PORT SECURITY

    I wanted to talk to you today about port security. As a 
Senator from one of the most trade-dependent States in the 
Nation, the security of our Nation's ports has long been a very 
top concern of mine. We know in my home State that seaports are 
the lifeblood of our economy and that our ports move billions 
of dollars of goods each and every year and generate tens of 
thousands of jobs.
    I am reminded of this every time I go home because my 
office sits on the 29th floor of the Jackson Building looking 
down over the Port of Seattle and I recognize so well that one 
container coming in with some kind of nuclear device or other 
explosive could have tremendous damage on people, on property, 
and on the entire Nation's economy if our ports were shut down.
    I worked with Senator Collins and wrote the Safe Port Act 
under the Bush administration, and I am pleased that we passed 
that. But I am following the implementation very carefully, and 
I wanted to raise some concerns with you today.
    Recognizing the unique, catastrophic attack that could come 
from a nuclear device, the Safe Port Act that we wrote required 
that all cargo entering through our top ports be scanned by 
radiation detectors, which your Department has done that. But 
the Department's budget only proposes $8 million for the 
radiation portal monitor program under DNDO so that we can have 
these radiation portal monitors at all of our ports, including 
our smaller ports.
    The funding that has been requested is nowhere near enough 
to meet that goal. It just absolutely does not come close. And 
I wanted to ask you today why, when there is still a lot of 
vulnerable ports in the Nation, in my part of the country in 
the Pacific Northwest and around the country, did you only ask 
for $8 million for these radiation monitors when your 
Department has not yet met its goals on this.
    Secretary Napolitano. Well, Senator, a couple of things, 
and I need to be careful here that I do not tread into some 
areas that are classified. But if I might just say I am very 
cognizant of this issue. There is a plan in place, and I would 
prefer to be able to brief you in a nonpublic setting.
    Senator Murray. Well, I would be happy to do that, but I am 
very concerned that $8 million only provides 10 additional 
monitors. We are far short from the 752 that are supposed to be 
out there. So if you would like to do it in a classified 
setting, I am happy to do that. But I am deeply concerned that 
this part of the Safe Port Act has not been moved forward and I 
am deeply concerned that the budget request is not going to get 
us there. So we will do that.
    Secretary Napolitano. Yes. Put that on your schedule.
    Senator Murray. Okay, good.
    [The information follows:]

    Senator Murray's office was contacted on February 26 to schedule a 
classified briefing on the Radiation Portal Monitoring Program budget 
request.

                                OLYMPICS

    Senator Murray. And on another topic, as we speak, the 
Winter Olympics are occurring, and I know you were up in my 
home State and saw the coordination center firsthand that has 
been built there on the border. They have done a remarkably 
great job, and I personally want to thank you for your support 
of that effort and all the resources that were available to 
make sure that we had a coordinated security response at this 
time.
    The Olympics are going to be over in a few days, and 
Washington State still has the third busiest border crossing 
across the country. Canada is our largest trading partner. We 
all know the ongoing security challenges that occur at that 
border, a very, very complex border with water, mountains, 
highways, urban areas, rural areas. You name it, we have got in 
our region.

                  NORTHERN BORDER COORDINATION CENTER

    I have thought for a long time, because a lot of our 
attention has been focused on the southern border. Finally, 
with this coordination center, we are getting to the point 
where we are really recognizing that we have got to put the 
resources in, and this coordination center has been a great 
model.
    So I wanted to ask you if you think that we can maintain 
this going forward because of the great success that we have 
had with it.
    Secretary Napolitano. Senator, as you know, I was out there 
earlier on looking at the ops center, the coordination center, 
as it was getting up and running. I am going to go back out 
this weekend. Part of my job, or one of the things I want to 
talk to people about, is would this make sense to do because I 
have heard great reports. So my mind is very open. I want to 
just see what have we seen over the past couple of weeks, how 
has it been during the fall, and just get a sense of people on 
the ground about their feelings.
    Senator Murray. Okay, good, because I think this would be a 
great effort to continue with all the complexities that we have 
at the border. People really came out of the woodwork to do a 
good job of coordinating across a lot of different agencies, 
and I think to pull the plug on that and lose that would be, I 
think, the wrong direction. So I look forward to working with 
you on that.

                               HANSON DAM

    One last issue I wanted to raise with you while you are 
here, and I do not know if you are familiar with the Howard 
Hanson Dam in my home State. Because of heavy rainstorms back 
in January 2009, which resulted in a presidentially declared 
disaster, the Howard Hanson Dam was damaged, and as a result, 
the Corps could not hold back as much water as it normally 
should be doing. We have been very lucky and we have not had 
the rain and snow that this end of the world has had this year. 
The Olympics know that as well. But because of that, we have 
been able to be okay this year.
    But it is a very complex project. It has to be repaired. We 
have been working with FEMA on this, and I know their 
challenges and the limited role that they can do because of 
their scope and funding. It is not imminent, but if we have a 
rainstorm, we literally could take out entire communities below 
that dam.
    One of our cities below the dam, Kent, is trying to use its 
own funding to repair the levees, but they are stuck in this 
horrible bureaucratic mess because in order to reduce the 
impacts of being in a flood plain, which they now are, their 
levees have to be certified. But FEMA will not recognize the 
rebuilt or repaired levees because they have not been certified 
by the Army Corps, and the Army Corps is not going to certify 
them because of measures that are required under NOAA and the 
Endangered Species Act. So this city is caught in the middle of 
all of these agencies. They are trying to do the right thing 
with their own money to get these levees and the protection for 
a very important community there, and they are in this 
bureaucratic mess.
    So I just wanted to ask you if you could sit down with me 
in my office and the agencies and see if we can help them work 
their way through this.
    Secretary Napolitano. We will see if we can troubleshoot 
that problem.
    Senator Murray. Okay. Thank you very much. Appreciate it.
    Senator Byrd. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    Secretary Napolitano. Thank you.
    Senator Murkowski. Good to see you.

                      COAST GUARD VESSEL ACUSHNET

    I want to talk just briefly this afternoon about the 
situation with the Coast Guard and the proposal in the fiscal 
year 2011 budget to decommission the Coast Guard cutter 
Acushnet. This is one of the three large Coast Guard cutters 
that is serving up in the Alaska waters and I am greatly 
concerned about the decommissioning of this cutter and the 
negative impacts that we could potentially see on the safety 
and security, particularly within our commercial fishing 
industry.
    The folks up there have 3.5 million square miles of ocean 
that they have got to cover. I mean, I always say it is big, 
but 3.5 million is a pretty good reminder of what the Coast 
Guard District 17 is responsible for, and they do a wonderful 
job of it. We are very, very proud of the men and women who are 
serving us there.
    But with the decommissioning of the Acushnet, along with 
the four other high endurance cutters along the west coast, 
there is a very real concern that it is going to make it 
impossible or exceptionally difficult for the Coast Guard to 
meet its already very challenging mission that it faces in 
Alaska. We have got over 60 percent of the national fishing 
totals for the Nation up there within our industry, and just 
again, a real concern as to the direction that we are taking 
here.
    Now, I do understand that the effort is to mitigate the 
shortfall of this decommissioning by replacing them with 
cutters that are going to be created from the deepwater 
acquisition project, but it is my understanding that at this 
point in time, only two of those national security cutters have 
been accepted by the Coast Guard and neither of them have been 
proven to be able to operate in some pretty challenging 
maritime conditions up north.
    So the concern is that the proposal--as you take the 
Acushnet out, you have vessels that have not yet been accepted, 
not yet--basically we do not have the assurance that they are 
going to be able to meet the needs. And you have clearly a 
resource gap that will impact our ability to provide for the 
level of service necessary and impact the economy there.
    So what I would like to hear from you is, given the 
President's desire to decommission the Acushnet, how do we--how 
do you, through the Department of Homeland Security, and the 
Coast Guard plan to address the mission and the resource 
shortfalls that we anticipate to be created. And is it wise to 
be removing the Acushnet from service before we have 
replacement vessels that are suitable?
    Secretary Napolitano. Senator, let me suggest that I will 
get back to you specifically on the Acushnet, but let me add to 
that. The theory underlying the Coast Guard plan of the 
recapitalization of the Coast Guard is actually--we are several 
years into it. In other words, it predates my tenure as the 
Secretary. And the notion was that as we recapitalized with the 
national security cutters, that other vessels would be 
decommissioned, and that schedule is now moving along. We are 
proceeding really on the same basis.
    With respect to the Acushnet, I will have to get back to 
you as to have we somehow left a gap there that is not going to 
be filled. I cannot imagine that we have. I know the leadership 
of the Coast Guard is very focused on Alaska, but I cannot 
right now tell you what is the specific plan for the Acushnet. 
So we will get that back for you.
    [The information follows:]

    The Coast Guard expects to execute its Living Marine Resources and 
Other Law Enforcement responsibilities in the North Pacific and Bering 
Sea in fiscal year 2011.
    We are currently working on our fiscal year 2011 operational 
planning process to best allocate our cutter fleet to maximize 
performance and minimize risk across all statutory missions. The Coast 
Guard will explore strategies to improve Living Marine Resource program 
management by increased targeting of high precedence fisheries and 
continue to leverage international and domestic partnerships to aid in 
coverage of these areas.

    Senator Murkowski. I would like to have a discussion with 
you on that or whoever that you should designate because we do 
want to make sure that these vessels that have been identified 
as the replacement, again, are going to be accepted and that 
you do not have----
    Secretary Napolitano. A gap, yes.
    Senator Murkowski [continuing]. A substantial gap.

                     TRANSPORTATION WORKER ID CARD

    The other issue that I want to bring up is the 
transportation worker identification credentials, the TWIC. I 
do appreciate the Department's effort to make much of the TWIC 
application information available on the Internet and to place 
the enrollment centers in certain parts of south and 
southeastern Alaska. That does help.
    But we are just really struggling with our geography in 
Alaska, as we seem to do. But we have got situations where 
folks that must obtain their TWIC certificate live far from any 
area where they are able to receive that. We have got a TWIC 
center in Juneau, our State's capital now, but if you happen to 
be down in Ketchikan, which is the next community south--it is 
probably equivalent in size or close to approaching Juneau--you 
are an hour flight because both Juneau and Ketchikan are 
islands, no road to drive. It is $200 one way to fly from 
Ketchikan to Juneau to make your application, and then you have 
to come back to pick it up. So you have got to make two trips 
up to Juneau.
    Now, we are getting a lot of complaints. I cannot tell you 
the number of complaints that we get out of southeast, but some 
of the other issues are even worse.
    In Unalaska out in the Aleutian Chain, the Nation's largest 
fishing port, we do not have a facility out there. We are 
trying to get a mobile facility, and I understand that there 
was a unit there but now it is closed. We are not entirely 
certain what the status was on that. But there again, you have 
got a situation where Unalaska is at the end of the Aleutian 
Chain and the next closest place for them to go to get their 
TWIC card is in Anchorage. That is a $600 ticket one way. It is 
over a 3\1/2\ hour airplane trip.
    So we are just really, really challenged by this. We are 
trying to figure out how we can avoid the--we are going to have 
to do the round trips, but not two trips. It is bad enough to 
have to send you to Anchorage to get your card, but it is 
really kind of a poke in the eye that you have to travel back 
to pick it up.
    So the question that I would have for you is whether or not 
with these mobile application centers, whether we can set 
something up to allow the folks who need to get their TWIC 
card, if there is a certified mail option that they could pick 
up that card without having to do a round trip. I am trying to 
figure out some way to make this happen because right now it is 
causing more bad language coming from dock workers and 
fishermen directed toward the Department of Homeland Security. 
We need to try to figure out how we can make this more 
workable. So I would like to work with you to see if we cannot 
come to a better resolve.
    Secretary Napolitano. Senator, I will task someone at the 
Department to see, again, if we can troubleshoot this. Maybe 
the answer is to reopen a mobile site. You know, we have issued 
now, I believe, somewhere in the neighborhood of 1.3 million 
TWIC cards, and the process has smoothed out as we have moved 
forward. But I can appreciate the issue and the frustration and 
the cost that you are describing. So I will task somebody to 
work this issue with your office, and let us see if we can fix 
this.
    [The information follows:]

    The TWIC system and compliance to DHS policy do not support direct 
mailing of TWICs to individual transportation workers. The TWIC 
Program, however, has been working with an Alaska Working Group to 
address the unique enrollment and activation challenges in Alaska. 
Currently the options to limit travel costs for transportation workers 
in Alaska include the use of mobile enrollment sites and a concept of 
Enroll Your Own (EYO) centers. There are now four fixed enrollment 
sites supporting Alaska in Juneau, Anchorage, Valdez, and Nikiski. Two 
locations, Ketchikan and Skagway have reached agreements to establish 
an EYO center. The EYO concept allows local ports to purchase 
Enrollment Work Stations and provide fully trained Trusted Agents to 
support enrollment. It provides the capability to modify and change 
operational hours, as well as location, to accommodate enrollments in 
the most economic way. Discussions are also ongoing with Unalaska 
(Dutch Harbor) to establish an EYO center. In addition, the USCG and 
TSA will be meeting with representatives from Alaska to look at the 
possibility of adding an additional fixed site and to again review the 
concerns and issues unique to Alaska.

    Senator Murkowski. I appreciate it greatly. Thank you.
    Thank you, Mr. Chairman.
    Senator Byrd. Thank you, Senator.

                          CHEMICAL FACILITIES

    On January 23, 2010, there was a chemical leak at a DuPont 
facility in Belle, West Virginia, resulting in a tragic loss of 
life. During the initial investigation, it was determined that 
first responders to the incident had difficulty receiving the 
critical information they needed in responding to the accident, 
such as the nature of the leak and the chemical involved. This 
incident is similar to the August 2008 chemical explosion at 
Institute, West Virginia where first responders were left 
guessing as to the nature of the explosion and the chemicals 
involved and were even refused information by the company.
    The chemical industry has a duty to maintain the utmost in 
safety standards to protect communities, and these two 
incidents indicate that the industry as a whole has a lot of 
work to do to maintain safe operations and provide the 
necessary information to first responders.
    Last October, I asked you to determine what more could be 
done to improve safety at chemical plants, and I look forward 
to receiving your recommendations soon. What is the Department 
doing to ensure that first responders have access to the 
critical information needed in responding to these types of 
incidents?
    Secretary Napolitano. Thank you, Mr. Chairman. I think one 
of the key tools is the process by which we are putting into 
tiers chemical facilities around the country under the so-
called CFATS legislation which also provides for inspections 
and information sharing and the like. That is well underway. We 
are going to continue it. Different States do different things 
in addition to CFATS, but that is a primary tool at our 
disposal.

                           COAST GUARD BUDGET

    Senator Byrd. I am troubled by the Coast Guard's budget 
request which reduces military strength by 1,112 billets. The 
Coast Guard is the only branch of the military to see its 
workforce decreased in the President's budget. It is a 
reduction of capacity and capability for an agency that has 
rescued 33,000 people following Hurricane Katrina and was first 
on the scene to evacuate over 1,000 U.S. citizens from Haiti.
    The Commandant said that the cuts to military personnel 
were necessary to pay for capital priorities, particularly the 
fifth national security cutter. No other military service chief 
was faced with this tradeoff of people versus assets. Why was 
the Commandant of the Coast Guard faced with this false choice?
    Secretary Napolitano. Well, Mr. Chairman, several things.
    One is I could not support the Coast Guard more or echo its 
effectiveness and its utilization in the protection of our 
country. It is a valued, and should be valued, branch of our 
service.
    Second, in a budget year where there were tight 
constraints, there was a prior plan to decommission vessels and 
add national security cutters. As we decommissioned, we 
decommissioned the crews associated with those vessels, were no 
longer necessary. On the other hand, as we add new equipment--
it is not a one-for-one tradeoff--with increased technology for 
every Coast Guard member that we lose, we do not necessarily 
have to replace on a one-for-one basis. But that was the 
process that we went through in terms of the budget.
    Senator Byrd. I share the concern of the able Senator from 
Alaska about decommissioning four Coast Guard cutters when it 
will be over 3 years before we have four national security 
cutters to replace these. Reduction in billets is the wrong 
thing to do.
    Secretary Napolitano. Mr. Chairman, let me just, please, 
suggest that that is the kind of issue that we could continue 
to work with the subcommittee on as we move through the 
appropriations process.

                                E-VERIFY

    Senator Byrd. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    I am going to hit a couple of issues that are likely to 
come up when the committee marks up the bill, or as amendments 
I expect may be offered to the bill on the floor, if we do not 
get them clarified.
    Do you support allowing employers to voluntarily apply E-
Verify to their existing workforce, not just new hires?
    Secretary Napolitano. On a voluntary basis? Yes, I believe 
E-Verify is a very useful tool in terms of deterring or 
ensuring that we have a legal workforce.
    Senator Voinovich. Well, that was a requirement in the 
Senate bill and I think it got knocked out in the conference 
committee, that the employers be able to. So you would be able 
to, this year, support an employer if they want to use E-
Verify, to----
    Secretary Napolitano. They could do that now. That is not a 
change in existing law, as I understand it.
    Senator Voinovich. Okay.

                                 SBINET

    The other one is that we got into the whole fence issue 
last year, the 670 miles. And my colleague, Senator DeMint, had 
an amendment to put more fencing up. And the question I have is 
that as far as, I think, you are concerned, we have got enough 
fence up, but at the same time, we have had significant delays 
in developing this SBInet. The original schedule was to 
complete it in two areas of the Southwest border by October 
2008, and as of January, CBP delayed operational testing of the 
initial deployment in your State of Arizona until the fall of 
2010.
    Now, the logic here is that if you do not have the fence, 
then what else is out there to make sure these people do not 
come in that are illegal. And I would like you to answer that 
question.
    Secretary Napolitano. Yes. You are right. If I might, 
Senator, divide it into three categories: a fixed fence, SBInet 
which was the virtual fence, and then other technology, such as 
mobile radar systems and the like.
    Fixed fence. We are on schedule to complete what Congress 
appropriated monies for. There are very few miles left. That 
has some utility if it is a part of a plan that includes 
technology and boots on the ground. But a fixed fence in and of 
itself is really simply a bumper sticker in my view in terms of 
actual border protection. The notion that you are going to 
build a fence from San Diego to Brownsville and keep out 
illegal immigration is just not the way the border works. But 
certain areas, a fixed fence, yes, and we are scheduled to 
complete what Congress has appropriated.
    The virtual fence. This is SBInet. This was a project, I 
think, originally undertaken in 2004 or 2005 to build cell 
towers along the border. There would be a fixed radar system. 
It has suffered from a number of problems. One is when it was 
contracted, they contracted and designed it without really 
incorporating what the operational needs of the people who 
actually use it are. So there were those problems. The 
environment is very harsh in that part of the country.
    Senator Voinovich. The question really is, when are we 
going to have it? And second of all, what do you say to some 
other people that we are going to hear from that say we have 
got to have more fence because we have got openings out there 
where people can come across the border?
    Secretary Napolitano. What I say to them is, first of all, 
we are not going to commit right now to finish SBInet across 
the border. I do not want to send good money after bad.
    But this gets to the third area and that is other 
technology. There is mobile radar. There are backscatters. 
There are all sorts of things we can deploy along that border 
to be force multipliers for our boots on the ground, and we are 
fully committed to doing that. That is a much more effective 
way to police that border than any fixed fence sort of 
structure.
    Senator Voinovich. I would like to have a memorandum or 
something from you in a great deal of detail, and I think it is 
really important that the American people understand the good 
job that is being done. Of course, you and I have talked about 
this, that you can have the greatest fence in the world, but we 
are still going to have the problems with a lot of illegal 
immigrants or aliens that are here in the United States that we 
have to go after, which means more people for ICE, more beds, 
and so forth. So that ultimately, even though it is the third 
rail--we will not get it done this year--this country is going 
to have to take on a realistic immigration policy to deal with 
the problem.
    [The information follows:]
Physical Fence
    There are currently 645.2 miles of physical fence (346.7 miles of 
pedestrian fence and 298.5 miles of vehicle fence) in place along the 
Southwest border.
    DHS/CBP current plans, based on Border Patrol's operational 
requirements, call for an additional 6.4 miles of fence.
SBInet Technology
    A prototype for a fixed-tower based surveillance system called 
Project 28 (P-28) was deployed to the Tucson area in February 2008. 
Although P-28 was a proof-of concept, the leave-behind capability 
continues to provide operational benefit to Border Patrol.
    The initial deployments of the ``SBInet Block 1'' system are 
Tucson-1 (TUS-1) and AJO-1 (AJO-1).
    TUS-1 construction is complete, but testing has been delayed to 
clean up remaining technical issues.
    Final system acceptance testing should begin in the summer, with 
turnover to the Border Patrol for operational testing in the fall.
    Despite delays to testing, Border Patrol has been operating the 
system since February 6, and have provided positive feedback on the 
system.
    AJO-1 construction is underway, and should be complete this summer.
    Final system acceptance testing should be complete in November.
    SBInet delays have been a source of major concern to the Secretary, 
and as a result she has initiated a program reassessment, which is 
currently ongoing.
    The Secretary also announced a ``freeze'' on all SBInet Block 1 
funding beyond the initial deployments to TUS-1 and AJO-1 until the 
assessment is completed, and a reallocation of the $50 million of ARRA 
funding originally allocated for SBInet technology to other 
commercially available technologies.
    The assessment is intended to be a comprehensive, science-based 
analysis of alternatives to SBInet to ensure that we are utilizing the 
most efficient and effective technological and operational solutions in 
all of our border security efforts.
    In addition to the fixed tower solutions provided by P-28 and 
SBInet Block 1, there are other technology solutions being used to help 
secure the Southwest border. Among those are:
    About 40 Mobile Surveillance Systems (MSS), which are truck mounted 
systems that include cameras and radar. Operators monitor the radar and 
camera images from a terminal in the cab of a truck;
    Remote Video Surveillance Systems (RVSS) which are remote-
controlled camera systems that display pictures at a central dispatch 
location and allow U.S. Customs and Border Protection personnel to keep 
an eye on selected areas;
    Unattended ground sensors (UGS) which are clandestine sensors that 
can detect movement in their vicinity and relay an electronic signal to 
a central location that is monitored by the Border Patrol.

                             DHS MANAGEMENT

    Senator Voinovich. The Department promised me information 
on management integration initiatives with action plans and 
milestones. On December 31, we received seven of the 
initiatives, but I have yet to see the action plans for the 
initiatives. I would like to see them. How are you going to get 
it done? And maybe also tell me what you have already done. We 
have been on that for a long time.
    Secretary Napolitano. Yes, and I appreciate your focus on 
management. It is one of mine as well. We will continue moving 
along. Some of them, quite frankly, are tied to some of the 
budget decisions for 2011, but we will keep in constant touch 
and be giving you more and more as they are prepared.

                        COAST GUARD ICEBREAKERS

    Senator Voinovich. Great Lakes icebreakers. We asked for a 
study. We are talking about buying a new icebreaker, and the 
Coast Guard said that we could take the money and put it and 
rehabilitate another seven of them. And we are supposed to get 
a report back from you by the 28th of this month on what is the 
best thing to do. Is that report going to--did anybody tell you 
about it?
    Secretary Napolitano. If it is not done, it will be done.
    Senator Voinovich. That is wonderful.
    Secretary Napolitano. Just nod yes. Right?

                               CYBERSPACE

    Senator Voinovich. Cyberspace was another one. You just 
glibly said we are going to hire 1,000 people. The question I 
have is do we have the flexibilities to find these people 
today? I really think--Senator Byrd talked about the things 
that we know and we do not know. But cybersecurity is one 
area--I have someone in my family that is very familiar with 
it, and he sat down one afternoon and explained to me how they 
are going to shut the country down.
    And the question is these are very smart people that are 
out there, and do you have the flexibilities to go out, in 
terms of human capital flexibilities, to find these people and 
pay them and get them on board?
    Secretary Napolitano. We have direct-hire authority to hire 
up to 1,000 over the next 3 years. That in and of itself is not 
an answer to the problem. This country needs a civilian cyber 
command, just as it needs a military cyber command. And we need 
to pursue that with as much alacrity as possible.
    There are things that are difficult. Cyber individuals, the 
really good ones, tend to be pretty young. They are spread 
around the country. They are used to a different salary 
structure, among a whole host of issues. We are working our way 
through that. That may be something that we need to have 
further dialogue with this subcommittee on.
    Second, even with direct-hire authority, we do not have the 
ability just to snap our fingers and on-board a person. In the 
cyber world, we almost need to be able to work that fast, and 
we are not there yet. So that is another issue that we are 
going to have to continue to work with the subcommittee on.
    So we are not where I would like to see us from an overall 
capacity, but we have moved a great deal forward in the past 
months. It is really front and center as part of our 
priorities.

                          DISASTER RELIEF FUND

    Senator Voinovich. Thank you.
    And the last question I have--a real quick one--is about 
the money that you have requested for FEMA disaster relief--
fiscal year 2010 supplemental appropriations of $5.1 billion, 
and then you've got $1.9 billion in the 2011 budget request. 
Can you guarantee me and the chairman--I will not be around, he 
will--whether or not next year you are going to be in here with 
a supplemental because you underfunded this budget for fiscal 
year 2011 in terms of dealing with all natural disasters?
    Secretary Napolitano. Senator, the DRF by nature, because 
you are dealing with Mother Nature, is difficult to predict. 
The $1.9 billion in the request is the 5-year rolling average 
for non-catastrophic disasters, which we define as disasters 
that are $500 million or less. You have got to have a number 
somewhere I suppose. The supplemental is designed to cover all 
known existing disaster liabilities, including the Katrina/Rita 
liabilities that we know of.
    Senator Voinovich. Thank you.
    Thank you, Mr. Chairman. You have been very patient.

                     BALANCED WORKFORCE INITIATIVE

    Senator Byrd. In addition to the 220,000 men and women who 
work at the Department, the Department pays for over 210,000 
contractors. This is a hidden workforce. This hidden workforce 
grew exponentially during the last administration with very 
little oversight. Many of these contractors were asked to 
provide services that are inherently governmental, including 
intelligence activities. For years, the Department did not have 
enough procurement personnel to provide responsible oversight 
for these contractors.
    Since I became chairman in 2007, I have pushed the 
Department to end its reliance on contractors, and I have 
worked to provide the resources to provide appropriate 
oversight. I commend you for joining the effort.
    Please describe the actions that you have taken and that 
you are proposing to address this problem.
    Secretary Napolitano. Well, thank you, Mr. Chairman, and 
thank you for your efforts in this regard.
    We have an initiative. It is known as the Balanced 
Workforce Initiative. It is designed to identify positions 
currently occupied by contractors that should be brought into 
and handled by full-time employees. There are a number of 
advantages to doing so, fiscal as well as management and 
supervision and all the rest. That is across the Department and 
it is part of not only our budget process but our evaluation 
process, how well different supervisors are doing that. Some 
areas are more susceptible to it than others.
    It is not easy in part because of something I alluded to 
with Senator Voinovich, which is the length of time it takes to 
on-board a Federal employee. It is just way too long even if 
they do not work in the cyber arena. It has become too 
complicated, too long, and people just cannot stand to wait 
that long. So we are working as well across the Federal 
Government through the Office of Personnel Management to see 
what can be done to shorten that process.
    Senator Byrd. The detailed congressional justification 
materials that you submitted to the subcommittee on February 1 
clearly identify proposed reductions of 181 Border Patrol 
agents. Now, I am pleased that you are modifying your proposal, 
but in order to understand the modifications, would you please 
resubmit the justification materials specifying where the 
savings will come from? Will you do that?
    Secretary Napolitano. Yes, sir.
    [The information follows:]

    These materials were provided to the subcommittee on March 9, 2010.

    Senator Byrd. Finally, Madam Secretary, are you prepared to 
predict that the West Virginia Mountaineers will win both the 
men's and the women's NCAA basketball tournaments?
    Secretary Napolitano. Absolutely.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. Secretary Napolitano, I thank you for your 
testimony and for your responses to the questions. We all share 
the goal of securing this wonderful homeland of ours. We look 
forward to your rapid response to our written questions for the 
record, and we ask that all responses be received by March 30 
to ensure that we have the proper information to prepare the 
fiscal year 2011 Homeland Security appropriations bill.
    Secretary Napolitano. Yes, we will be happy to do so, and I 
appreciate the subcommittee's time this afternoon.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Robert C. Byrd
                        departmental management
                 overdue reports and expenditure plans
    Question. It has been over 4 months since the President signed into 
law the Department of Homeland Security Appropriations Act for fiscal 
year 2010. Within that Act, Congress required 35 expenditure plans, of 
which 30 are now past due. Congress requires these reports in an effort 
to ensure that the Department is providing the appropriate amount of 
oversight and discipline to these complex programs. Expenditure plans 
that have not yet been received include: TSA's Explosive Detection 
Systems, the Border Security Fencing, and Technology program, the 
Removal of Deportable Criminal Aliens program, Coast Guard Deepwater 
Quarterly Acquisition Report, and the Cyber Security program. It is 
difficult for this Committee to make important resource allocation 
decisions to address critical homeland security issues for fiscal year 
2011 if the DHS has not informed us of how the dollars in the current 
year are being spent. Do I have your commitment that these reports, 
many of which are 2 months or more overdue, will be submitted no later 
than March 31, 2010?
    Answer. The Department and its Components are making every effort 
to prepare and transmit reports required for the Appropriations 
Committees as quickly as possible. I regret the delay we've experienced 
in transmitting a number of our required reports and assure you that we 
are doing our best to provide the Committees with the information 
needed to make resource allocation decisions for our homeland security 
needs as soon as possible.
                              acquisitions
    Question. For each of fiscal year's 2008-2011, how much funding is 
dedicated to major acquisitions? For each of those years, provide 
details on the classification level of each acquisition, i.e. how many 
are designated as Level 1, Level 2, or Level 3 as defined by the 
Department's Acquisition Management Directive? Provide a DHS Major 
Acquisition Status tracking chart listing each program and milestones 
necessary to achieve approval for full-scale procurement.
    Answer. Total funding dedicated to major acquisition programs is 
displayed in the following table:

                         [Dollars in thousands]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Fiscal year:
    2008...................................................    7,896,915
    2009...................................................    8,291,734
    2010...................................................    9,174,758
    2011...................................................    7,739,646
------------------------------------------------------------------------
Source: Future Years Homeland Security Program (FYHSP) System Capital
  Investment Plans. Issued on April 24, 2009.

    Following is a list of DHS major acquisitions (Level 1 and 2) that 
are overseen at the Department level. In accordance with Acquisition 
Management Directive 102, non-major programs (Level 3) are overseen by 
the respective Component Head.
    DHS programs have multiple projects in different stages of the 
acquisition life cycle. Consequently, most programs are listed as mixed 
life cycle (or phase) in the OMB Exhibit-300s.
    DHS manages projects as they progress through the acquisition life 
cycle and is currently in the process of compiling a complete list of 
projects and their status in the acquisition life cycle.

----------------------------------------------------------------------------------------------------------------
            Component               Program  acronym       Program name     Threshold level          Type
----------------------------------------------------------------------------------------------------------------
USCG............................  OPC................  Offshore Patrol                   1   Non-IT
                                                        Cutter.
TSA.............................  EBSP...............  Electronic Baggage                1   Non-IT
                                                        Screening Program.
DHS.............................  ITP................  Infrastructure                    1   IT
                                                        Transformation
                                                        Project.
USCG............................  NSC................  National Security                 1   Non-IT
                                                        Cutter.
USCG............................  HC-130H............  HC-130H Conversion/               1   Non-IT
                                                        Sustainment
                                                        Projects.
CBP.............................  StrAP/A&M..........  Strategic Air Plan/               1   Non-IT
                                                        Air & Marine.
USCG............................  HH-65..............  HH-65 Conversion/                 1   Non-IT
                                                        Sustainment
                                                        Projects.
USCG............................  MPA................  HC-144A Maritime                  1   Non-IT
                                                        Patrol Aircraft.
CBP.............................  SBInet.............  Secure Border                     1   IT
                                                        Initiative net.
CBP.............................  BPF................  Border Patrol                     1   Non-IT
                                                        Facilities.
CBP.............................  ACE/ITDS...........  Automated                         1   IT
                                                        Commercial
                                                        Environment
                                                        International
                                                        Trade Data Systems.
USCG............................  MEC MEP............  Medium Endurance                  1   Non-IT
                                                        Cutter Sustainment.
FEMA............................  Risk MAP...........  Risk Mapping,                     1   Non-IT
                                                        Analysis and
                                                        Planning.
CBP.............................  NII................  Non-Intrusive                     1   IT
                                                        Inspection Systems
                                                        Program.
USCG............................  FRC-B..............  Fast Response                     1   Non-IT
                                                        Cutter (FRC) B
                                                        Class.
USCG............................  IDS-COP............  C4ISR-COP..........               1   IT
TSA.............................  PSP................  Passenger Screening               1   Non-IT
                                                        Program.
USCG............................  R21................  Rescue 21..........               1   IT
NPPD............................  US-VISIT...........  United States                     1   IT
                                                        Visitor and
                                                        Immigrant Status
                                                        Indicator
                                                        Technology.
TSA.............................  TOP................  TSA Operating                     1   IT
                                                        Platform.
NPPD............................  NCPS...............  National                          1   IT
                                                        Cybersecurity &
                                                        Protection System
                                                        (formerly US CERT).
TSA.............................  IHOPP..............  Integrated Hiring                 1   Non-IT
                                                        Operations &
                                                        Personnel Program.
DNDO............................  ASP................  Advance                           1   Non-IT
                                                        Spectroscopy
                                                        Portals.
USCG............................  RB-M...............  Response Boat--                   1   Non-IT
                                                        Medium.
USCG............................  CPB................  Coastal Patrol Boat               1   Non-IT
USCG............................  NAIS...............  Nationwide                        1   IT
                                                        Automatic
                                                        Identification
                                                        System for MDA.
CBP.............................  WHTI...............  Western Hemisphere                1   IT
                                                        Travel Initiative.
CBP.............................  TECS MOD...........  Traveler                          1   IT
                                                        Enforcement
                                                        Compliance System--
                                                        Modernization.
ICE.............................  ATLAS..............  ATLAS..............               1   IT
OHA.............................  BioWatch...........  BioWatch Gen-3.....               1   Non-IT
USCG............................  HH-60..............  HH-60 Conversion/                 1   Non-IT
                                                        Sustainment
                                                        Projects.
TSA.............................  SF.................  Secure Flight......               1   IT
USCG............................  IOC/C21............  Interagency                       1   IT
                                                        Operations Centers
                                                        (Command-  21).
USCIS...........................  ...................  Transformation.....               1   IT
NPPD............................  NCCC...............  National Command &                1   IT
                                                        Coordination
                                                        Capabil-  ity.
TSA.............................  TWIC...............  Transportation                    1   IT
                                                        Worker
                                                        Identification
                                                        Credentialing.
DHS.............................  TASC...............  Resource Management               1   IT
                                                        Transformation/
                                                        Financial
                                                        Transformation &
                                                        Systems
                                                        Consolidation.
CBP.............................  FMP................  Fleet Management                  1   Non-IT
                                                        Program.
CBP.............................  SBI TI.............  Secure Border                     1   Non-IT
                                                        Initiative
                                                        Tactical
                                                        Infrastruc-  ture.
CBP.............................  SBI Trans..........  Secure Border                     1   Non-IT
                                                        Initiative
                                                        Transportation.
FEMA............................  eNEMIS.............  eNEMIS.............               1   IT
USCG............................  UAS................  Unmanned Aircraft                 1   Non-IT
                                                        Systems (UAS).
USCG............................  PB MEP.............  Patrol Boat                       2   Non-IT
                                                        Sustainment.
FEMA............................  ...................  Housing Inspection                2   Non-IT
                                                        Services.
USCIS...........................  IDP................  Integrated Document               2   IT
                                                        Production.
NPPD............................  ...................  Information Systems               2   ...................
                                                        Security Line of
                                                        Business (LoB).
CBP.............................  ATS................  Automated Targeting               2   IT
                                                        System Maintenance.
S&T.............................  NBAF...............  National Bio- and                 2   Non-IT
                                                        Agro-Defense
                                                        Facility.
DHS.............................  HSDN...............  Homeland Secure                   2   IT
                                                        Data Network.
USCG............................  HSC-130J...........  HC-130J Fleet                     2   Non-IT
                                                        Introduction.
DNDO............................  CAARS..............  Cargo Advanced                    2   Non-IT
                                                        Automated
                                                        Radiography System.
A&O.............................  HSIN...............  Homeland Security                 2   IT
                                                        Information
                                                        Network.
ICE.............................  DROM...............  Detention and                     2   IT
                                                        Removal
                                                        Modernization.
S&T.............................  NBACC..............  National Biodefense               2   Non-It
                                                        Analysis and
                                                        Countermeasures
                                                        Center Facility.
FEMA............................  TAV................  Total Asset                       2   IT
                                                        Visibility (Phase
                                                        I & II).
FEMA............................  Risk MAP IT........  Risk Mapping,                     2   IT
                                                        Analysis and
                                                        Planning IT.
USCIS...........................  VIS/EEV............  Benefits Provision--              2   IT
                                                        Verification
                                                        Information System/
                                                        Employment
                                                        Eligibility
                                                        Verification.
CBP.............................  TAC-COM............  EWP Tactical                      2   IT
                                                        Communications
                                                        (TAC-COM).
USCG............................  ...................  Small Boats........               2   Non-IT
CBP.............................  LPR................  License Plate                     2   IT
                                                        Reader.
DHS.............................  HR-IT..............  HR-IT..............               2   IT
CBP.............................  APIS...............  Advance Passenger                 2   IT
                                                        Information System.
NPPD............................  IICP...............  Infrastructure                    2   IT
                                                        Information
                                                        Collection &
                                                        Visualization--IIC
                                                        P.
A&O.............................  COP................  Common Operational                2   IT
                                                        Picture.
ICE.............................  SEVIS..............  Student and                       2   IT
                                                        Exchange Visitor
                                                        Information System.
CBP.............................  SFI................  Secure Freight                    2   IT
                                                        Initiative.
CBP.............................  ESTA...............  Electronic System                 2   IT
                                                        for Travel
                                                        Authorization.
A&O.............................  MS.................  Mission Systems....               3   IT
CBP.............................  APIS...............  Advance Passenger                 3   IT
                                                        Information.
CBP.............................  AFI................  Analytical                        3   IT
                                                        Framework for
                                                        Intelligence.
CBP.............................  AES................  Automated Export                  3   IT
                                                        System.
CBP.............................  ESTA...............  Electronic System                 3   IT
                                                        for Travel
                                                        Authorization.
CBP.............................  SAP................  SAP................               3   IT
DNDO............................  JACCIS.............  Joint Analysis                    3   IT
                                                        Center Collective
                                                        Information System.
FEMA............................  ...................  Consolidated Alerts               3   IT
                                                        & Warning System.
FEMA............................  DAIP...............  Disaster Assistance               3
                                                        Improvement Plan.
FEMA............................  ...................  Disaster Management               3   IT
                                                        (e-Gov).
FEMA............................  IFMIS..............  Integrated                        3   IT
                                                        Financial
                                                        Management
                                                        Information System.
FEMA............................  NFIP...............  Information                       3   IT
                                                        Technology Systems
                                                        & Services.
FLETC...........................  SASS...............  Student                           3   IT
                                                        Administration &
                                                        Scheduling Sys-
                                                        tem.
ICE.............................  FFMS...............  Federal Financial                 3   IT
                                                        Management System.
NPPD............................  CWIN...............  CIKR Information                  3   IT
                                                        Sharing.
NPPD............................  IICV...............  Infrastructure                    3   IT
                                                        Information
                                                        Collection Program
                                                        & Visualization-
                                                        iCAV.
NPPD............................  IICV...............  Infrastructure                    3   IT
                                                        Information
                                                        Collection Program
                                                        & Visualization
                                                        PCII.
NPPD............................  ISCP...............  Infrastructure                    3   IT
                                                        Security
                                                        Compliance CSAT.
OHA.............................  BCON...............  BioSurveillance                   3   IT
                                                        Common Operating
                                                        Network.
TSA.............................  AFSP...............  Alien Flight                      3   IT
                                                        Student Program.
TSA.............................  ...................  Crew Vetting.......               3   IT
TSA.............................  MSNS...............  FAMS Mission                      3   ...................
                                                        Scheduling &
                                                        Notification
                                                        System.
TSA.............................  ...................  FAMSNet............               3   IT
TSA.............................  FAS................  Freight Assessment                3   IT
                                                        System.
TSA.............................  HAZMAT.............  HAZMAT Threat                     3   IT
                                                        Assessment Program.
TSA.............................  PMIS...............  Performance                       3   IT
                                                        Management
                                                        Information Sys-
                                                        tem.
TSA.............................  STIP...............  Security Technology               3   IT
                                                        Integrated Program.
USCG............................  ALMIS..............  Asset Logistics                   3   IT
                                                        Management
                                                        Information
                                                        Systems.
USCG............................  CG-LIMS............  Logistics                         3   IT
                                                        Information
                                                        Management System.
USCG............................  CGBI...............  Coast Guard                       3   IT
                                                        Business
                                                        Intelligence.
USCG............................  CAS................  Core Accounting                   3   IT
                                                        System.
USCG............................  ...................  Direct Access......               3   IT
USCG............................  MISLE..............  Marine Information                3   IT
                                                        for Safety and Law
                                                        Enforcement.
USCG............................  PAWSS..............  Ports and Waterways               3   IT
                                                        Safety System.
USCG............................  VLS................  Vessel Logistics                  3   IT
                                                        System.
USCIS...........................  BASICS.............  Baseline Automation               3   IT
                                                        Support
                                                        Infrastructure for
                                                        Citizenship
                                                        Services.
USCIS...........................  CSP................  Customer Service                  3   IT
                                                        Portal.
USCIS...........................  FIPS...............  ...................               3   IT
USCIS...........................  ...................  Immigration--CLAIMS               3   IT
USCIS...........................  NFTS...............  National File                     3   IT
                                                        Tracking System.
USCIS...........................  ...................  Naturalization                    3   IT
                                                        CLAIMS 4.0.
USSS............................  TOPS...............  Enterprise                        3   IT
                                                        Financial
                                                        Management System.
----------------------------------------------------------------------------------------------------------------

    Question. The Department's acquisition policy requires programs to 
have an approved Test and Evaluation (T&E) Master Plan prior to 
commencing associated T&E unless a specific waiver is granted by the 
Science and Technology's T&E Director. How many waivers have been 
granted since acquisition management guidelines were revised in 
November 2008? What were the reasons for the waivers?
    Answer. Since November 2008, no specific program waivers have been 
granted.
    Question. The Department's acquisition policy suggests that 
operational test and evaluation (OT&E) of a system or component be 
conducted by an independent evaluator, and not controlled by the 
program manager. The purpose is to provide objective and unbiased 
conclusions regarding the system's or equipments' effectiveness and 
suitability. Is OT&E for all major DHS acquisitions (levels I, II, and 
III) conducted by an independent evaluator? If not, which acquisitions 
are not and describe why an independent evaluation is not being 
conducted?
    Answer. Since the interim Acquisition Management Directive 102-01 
was approved, all Level I and non-delegated Level II programs use an 
operational test agent independent of the program office to conduct 
operational test and evaluation (OT&E).
                         acquisition workforce
    Question. The request includes $24.2 million and 150 positions to 
strengthen the Department's acquisition workforce. The purpose is to 
increase the capacity of the acquisition workforce by approximately 8 
percent (100 positions) in the contracting functional area and add an 
additional 50 positions in other acquisition series to include systems 
engineers, program managers, logisticians, and business cost 
estimators. Has the Department completed an assessment of its 
acquisition workforce to better understand the need for positions 
described above? Does the request completely fill the gap in 
acquisition workforce needs?
    Answer. In February 2009, the Department completed its first 
acquisition workforce human capital succession plan in accordance with 
guidelines in the fiscal year 2008 National Defense Authorization Act. 
DHS is currently refining the plan, and we anticipate completion in 
summer 2010.
                            terrorist threat
    Question. Provide a summary of the number of terrorist attacks 
worldwide since 2003 on trains, subways, buses, and airplanes, 
including an estimate of injuries or loss of life.
    Answer. The Department of Homeland Security does not compile data 
on worldwide terrorist attacks. The National Counterterrorism Center 
(NCTC) compiles this data in the Worldwide Incident Tracking System 
(WITS) which serves as the U.S. Government's official data base for 
terrorist incidents. There are two versions of WITS, a restricted 
access site that requires a password and training to access, and a 
public one found on the NCTC.gov Web site. There are two significant 
differences between the publicly available and restricted versions: 
timeliness and vetting. The restricted site is updated daily; the 
public site is about 60-90 days behind on posted incidents. All 
incidents are listed in the restricted site with analysts' comments. 
The public site contains only vetted terrorist incidents and has no 
comments.
    The database was established in 2004 and does not contain many 
incidents before that date. The primary reason for this is that one 
single definition was not accepted by the various government agencies 
prior to 2004 when NCTC established the criteria for inclusion. 
Terrorism incidents captured in the database are only those that meet 
this criteria which NCTC defines as ``when groups or individuals acting 
on political motivation deliberately or recklessly attack civilians/
non-combatants or their property and the attack does not fall into 
another special category of political violence, such as crime, rioting, 
or tribal violence.''
    I&A enlisted the assistance of researchers at NCTC as well as 
senior management at TSA to compile the response below. NCTC 
researchers have compiled more finite detail at the classified level to 
provide context to the raw numbers shown here should there be any 
follow-on questions regarding attacks on any specific mode to include 
graphics. They stand ready to assist.
    The dates for this data pull are from 1/1/2004 to 1/1/2010. During 
this period there were 1,706 attacks across the sectors represented in 
the query with 4,758 people killed, 15,093 injured, and another 2,555 
taken hostage during the event.
    The specific numbers by mode break out as follows:

----------------------------------------------------------------------------------------------------------------
                                     Number of
     Mode of transportation           attacks         Killed          Injured         Hostage          Total
----------------------------------------------------------------------------------------------------------------
Train/Subway....................             280             744           5,052             314           6,110
Buses...........................           1,068           3,368           8,994           1,294          13,656
Airport.........................             188             155             763              10             928
Aircraft........................             170             491             284             937           1,566
----------------------------------------------------------------------------------------------------------------

                               test-beds
    Question. There are several test-beds funded by the Department's 
budget. Provide a comprehensive list (by component), the purpose of 
each test-bed, and associated funding level for each. Has the 
Department assessed the need for all of these test-beds and whether 
duplicative services exist?
    Answer. Following is a list of S&T's test-beds, which includes both 
funding and purpose. None of the test-beds are duplicative.
Borders and Maritime Division
    Test-bed Name: Port Security Test-bed.
    Fiscal Year 2010 Funding: $1,100,000.
    Fiscal Year 2011 Requested Funding: $1,000,000.
    Test-bed Description: The Port Security Test-bed provides an 
environment to demonstrate maturing technologies in an operationally 
relevant environment for customers including U.S. Coast Guard, Customs 
and Border Protection (CBP), and other Federal, State, and local first 
responders in and around a port area.

    Test-bed Name: Maritime Security Technology Pilot.
    Fiscal Year 2010 Funding: $4,000,000.
    Fiscal Year 2011 Requested Funding: $0.
    Test-bed Description: As mandated by Congress, this platform allows 
for the testing and demonstration of new sensors and surveillance 
technologies for improved situational awareness of open waters and 
integration of wide area sensors with data. These funds were 
appropriated in fiscal year 2010 and will be expended over a 12-month 
period in fiscal year 2010-fiscal year 2011.

    Test-bed Name: North East Test-bed (NET-B).
    Fiscal Year 2010 Funding: $1,000,000.
    Fiscal Year 2011 Requested Funding: $1,000,000.
    Test-bed Description: The NET-B provides an environment to evaluate 
new technologies that might enhance CBP capabilities along the Northern 
border.
Chemical and Biological Division
    Test-bed Name: Chemical, Biological, Radiological, Nuclear 
Explosives Test-bed.
    Fiscal Year 2010 Funding: $500,000.
    Fiscal Year 2011 Requested Funding: $0.
    Test-bed Description: This test-bed is currently sponsoring an 
integration test-bed located at the Navy Monterey Post Graduate School 
(MPS), and jointly operated by MPS and the Navy SPAWAR System Center. 
The test-bed serves as a collaboration site for those in the first 
responder and emergency management community seeking to achieve 
interoperability between various detection hardware and information 
systems. The test-bed hosts a number of examples of open interface 
standards developed by the government and industry that enable seamless 
sharing of data and information using non-proprietary methods.

    Test-bed Name: Bioaerosol Test-bed.
    Fiscal Year 2010 Funding: $260,426.
    Fiscal Year 2011 Requested Funding: $282,007.
    Test-bed Description: This test-bed is responsible for determining 
collection efficiency and viability over time for the biological 
collector systems developed in the Viable BioParticle Capture Project.

    Test-bed Name: Detect-to-Protect Test-bed.
    Fiscal Year 2010 Funding: $0.
    Fiscal Year 2011 Requested Funding: $0.
    Test-bed Description: Edgewood Chemical and Biological Center is a 
provider of testing support to Detect-to-Protect project including in-
lab and field evaluation of trigger and confirmer biological detection 
systems.
Command, Control, and Interoperability Division
    Test-bed Name: Experimental Test-bed for Cyber Security Research 
Tools and Techniques.
    Fiscal Year 2010 Funding: $2,800,000.
    Fiscal Year 2011 Requested Funding: $3,900,000.
    Test-bed Description: This test-bed is part of the Cyber Security 
Research Tools and Techniques Thrust Area that evaluates defense 
mechanisms against attacks on infrastructure and supports mitigation of 
attacks.
Transition Division
    Test-bed Name: Homeland Security Science and Technology Test-bed 
(HSSTT).
    Fiscal Year 2010 Funding: $ (User Funded).
    Fiscal Year 2011 Requested Funding: $0 (User Funded).
    Test-bed Description: This test-bed supports S&T research, 
development, test and evaluation efforts of DHS components and 
customers by objectively identifying, exploring, assessing, and raising 
awareness of homeland security challenges and solutions. The HSSTT 
allows technology developers and users to address the real-world 
concerns of new capabilities by conducting field experiments in 
conjunction with regional homeland security operations.
Explosives Division
    Test-bed Name: Bomb Squad Test-bed (MI State).
    Fiscal Year 2010 Funding: $350,000.
    Fiscal Year 2011 Requested Funding: $750,000.
    Test-bed Description: This test-bed tests and evaluates bomb squad 
technologies that access, diagnose, and defeat vehicle bombs.

    Test-bed Name: Standoff Technology Integration and Demonstration 
Program.
    Fiscal Year 2010 Funding: $3,200,000.
    Fiscal Year 2011 Requested Funding: $3,000,000.
    Test-bed Description: This test-bed tests and evaluates sensors in 
order to integrate them into a system that detects suicide bombers and 
vehicle bombs.
                          working capital fund
    Question. Is the $790.5 million request for the Working Capital 
Fund (WCF) fully accounted for within DHS component budgets? Are any 
components being required to absorb WCF increases in the fiscal year 
2011 request?
    Answer. Major increases in the WCF activities, such as Data Center 
Migration, were requested in the fiscal year 2011 budget and were not 
absorbed. The Working Capital Fund is required by law to recover full 
costs for its services. Whether the components decide to absorb the 
costs or seek funding depends on the individual component, activity, 
and the actual charge.
    Question. The request for subscription services paid from the WCF 
doubles from $11 million to $22 million. Why is there such a large 
increase for subscriptions? What capabilities will be gained from this 
increase?
    Answer. The Department's Efficiency Review has consolidated 
subscriptions that were previously purchased across the Department. 
Components now request them centrally rather than individually, 
leverage the purchasing power of the larger Department. Through the 
consolidation of subscriptions to Dun & Bradstreet, Congressional 
Quarterly, West Government Services and LexisNexis, DHS has avoided 
approximately $2 million in fiscal year 2010 costs. The increase from 
$11 million to $22 million represents the centralization of the 
subscriptions within the Department-wide Working Capital Fund, where 
previously it was decentralized within many components.
    As a result of the Efficiency Review consolidation, DHS will have 
the ability to manage subscriptions through a single financial process 
in the Working Capital Fund thereby reducing the administrative burden 
on the Components, subscriptions program office, the financial system, 
and contracting officers.
                   dhs headquarters at st. elizabeths
    Question. It is our understanding that the budget does not include 
$69 million necessary tenant build-out of IT equipment. Is this funding 
necessary for the Department to stay on schedule to complete Phase 1A 
and Phase 1B by 2013 (Coast Guard Headquarters and shared use 
facilities)? Why would this shortfall delay the construction project? 
What is the amount necessary in fiscal year 2011 to prevent a delay in 
the project? If funding is not provided, what is the estimated delay in 
the project? Are sufficient funds available within component base IT 
budgets to pay for the tenant build-out of IT equipment?
    Answer. DHS is on track to execute the plans as described for the 
new headquarters consolidation at the St. Elizabeths campus with the 
fiscal year 2011 budget we submitted to Congress in February.
    To ensure the most efficient and effective use of resources, DHS is 
looking at IT funding in components' base budgets for equipment 
replacements and other items that will be synchronized with their 
relocation to the St. Elizabeths campus. This will ensure that the 
Department is utilizing its resources in the most efficient manner as 
construction activities at St. Elizabeths continue.
    Question. In accordance with the current plan for St. Elizabeths, 
the majority of space for FEMA will be located on the opposite side of 
Martin Luther King Jr. Blvd. from the DHS National Operations Center 
(NOC). Will FEMA have an operations center separate from the NOC? If 
so, how will FEMA's operations center be effectively integrated into 
the NOC?
    Answer. The FEMA Operations Center (National Response Coordination 
Center--NRCC) will be co-located with the National Operations Center 
(NOC) and other component operations centers on the St. Elizabeths West 
Campus. While the NRCC will remain a separate and distinct operations 
center under FEMA control, co-location of the NRCC with the NOC and the 
component operations centers will facilitate improved Departmental 
communications, coordination, and cooperation in the preparation for 
and response to natural disasters and terrorist activities.
                          workforce balancing
    Question. Across departmental components, the request proposes to 
move resources from contract service providers to in-house staff. 
Provide a department-wide chart for this effort by component, including 
the shift in personnel from contractor to Federal FTE and associated 
cost savings. What is the total cost reduction to contractual services 
in the fiscal year 2011 budget as compared to fiscal year 2010? What is 
the total increase in Federal personnel funding as a result of this 
initiative?
    Answer. DHS is strongly committed to decreasing its reliance on 
contractors. In 2009, all DHS directorates, components and offices were 
directed to develop contractor conversion plans, and over the past 
year, the Department has been actively converting contractor positions 
to government positions. A DHS-wide assessment is currently underway to 
build on the Component efforts at an even more aggressive pace while 
sustaining the workforce required to carry out its mission 
responsibilities. Upon conclusion of this assessment, DHS will provide 
a comprehensive plan detailing anticipated conversions in fiscal year 
2010 and fiscal year 2011 to Congress.
                          security clearances
    Question. The Committee continues to hear from DHS components about 
delays in hiring due to the security clearance process. What is the 
current backlog of individuals awaiting a security clearance? In fiscal 
year 2010, Congress appropriated the request to create a Personnel 
Security Adjudication Team of 12 positions. What is the status of this 
effort and are funds included in fiscal year 2011 to enhance the 
Department's capabilities to reduce the existing backlog?
    Answer. Please see the table below.

------------------------------------------------------------------------
                               Individuals awaiting a security clearance
          Component                           by component
------------------------------------------------------------------------
Headquarters.................  12 security clearances
FLETC........................  13 security clearances
FEMA.........................  0 security clearances
CIS..........................  78 security clearances
ICE..........................  607 security clearances
TSA..........................  76 security clearances
CBP..........................  205 security clearances; there are no EOD
                                delays associated with the pending
                                clearance actions
USSS.........................  709 security clearances; there are no EOD
                                delays associated with the pending
                                clearance actions
USCG.........................  2,014 are being adjudicated. NOTE: Coast
                                Guard normally averages 400, but due to
                                an end-of-year push to catch up on HSPD-
                                12 requirements, they experienced a
                                workload spike to approximately 3,000
                                individuals per USCG, these are
                                predominately NACLC investigations which
                                meet HSPD-12 standards.
------------------------------------------------------------------------

    Additionally, in fiscal year 2010, the Office of the Chief Security 
Officer (OCSO) received $1 million to fund 10 positions for a Personnel 
Security Adjudication Team. Selections for these positions have been 
completed, and those selected are in the background investigations 
process.
    OCSO also received $2 million to conduct background investigations 
in the fiscal year 2010 budget. In fiscal year 2011, funds in the 
amount of $582,000 were included to annualize these positions.
                           efficiency review
    Question. According to a White House report released on December 
21, 2009, DHS expects to save $87.5 million over 6 years by 
standardizing its office computer system and reducing software 
contracts. What is the projected savings in fiscal year 2011? What 
other specific efficiencies are being achieved at DHS as a result of 
the administration's efforts to streamline Federal contracting 
spending? Include dollar amounts for each initiative.
    Answer. DHS expects to achieve a cost avoidance of approximately 
$14.6 million in fiscal year 2011 in software licensing and maintenance 
costs for its Microsoft Enterprise Licenses contract.
    The Department is aggressively working to achieve additional 
efficiencies, such as securing enterprise licenses for other widely 
used software products and leveraging strategic sourcing. While these 
efforts are still under development, DHS has streamlined and improved 
Federal contract spending in other areas, achieving the following:
  --A DHS program which sets aside contracts for 100 percent Service 
        Disabled Veteran Owned Small Business will replace multiple 
        individual procurements, avoiding approximately $5 million in 
        administrative fees over the 5-year life of the contracts 
        beginning in fiscal year 2010.
  --USCG consolidated ten support contracts (accounting, 
        administrative, data entry, material handling, packing and 
        warehousing) into three new contracts for an anticipated 
        savings of $1.7 million.
    The USCG Academy awarded an Energy Savings Performance Contract to 
increase lighting, water, heating, and ventilation efficiency in 
existing facilities at the Coast Guard Academy, generating an estimated 
energy savings of $450,000 a year, which will fully pay for the project 
over 11 years.
                        treasury forfeiture fund
    Question. What percent of Treasury Forfeiture Fund receipts for 
fiscal year 2011 are estimated to be derived from DHS activity?
    Answer. Because of the uncertain nature of the legal process around 
forfeiture, there is no way to accurately project the timing of 
revenue.
    For the past 3 years, the revenue breakdown (in millions) is as 
follows:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 Fiscal year 2007                Fiscal year 2008                Fiscal year 2009
                                                         -----------------------------------------------------------------------------------------------
                                                                            Percent of                      Percent of                      Percent of
                                                              Dollars          total          Dollars          total          Dollars          total
--------------------------------------------------------------------------------------------------------------------------------------------------------
IRS.....................................................           165.9            40.4           233.3            41.7           291.6            52.3
ICE.....................................................           161.4            39.3           241.1            43.1           171.8            30.8
CBP.....................................................            55.1            13.4            62.9            11.3            65.1            11.7
USSS....................................................            16.1             3.9            16.2             2.9            29.1             5.2
ATF.....................................................            12.5             3.0             5.7             1.0  ..............  ..............
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Based on large-scale investigations that TEOAF is following, future 
large forfeitures will be primarily attributed to IRS and secondarily 
to USSS. However, the Secret Service forfeitures are likely to involve 
Ponzi schemes and the revenue will be paid out as remission to the 
victims.
                           small boat threat
    Question. Your budget either cuts or zeroes out many of the 
capabilities the Department has highlighted as critical to countering a 
small boat attack. Five Coast Guard Maritime Safety and Security teams 
are decommissioned, reducing port and waterway security patrols by 
12,000 hours annually. Acquisition funding for port operation centers 
and the National Automatic Identification System is zeroed out. The 
budget reduces assets and funding for the Coast Guard's Maritime 
Security Response Team, which was developed for maritime terrorism 
response. Has the threat environment changed to justify these cuts? 
What impact will this have on the Coast Guard's maritime domain 
awareness? Please be specific on any decrease in capabilities.
    The Department released its small vessel security strategy on April 
28, 2008. Nearly 2 years later, an implementation plan to carry out the 
strategy has not been released. You committed to completing that plan 
in the beginning of 2010. When will that plan be completed? What are 
the budget requirements to execute the plan?
    Answer. The Coast Guard remains committed to performing its 
statutory missions in the most effective, efficient, and professional 
manner possible.
    As shown in the 2011-2015 Capital Investment Plan, the Nationwide 
Automatic Identification System (NAIS) and Interagency Operations 
Centers (IOCs) programs are funded through their completion in 2014. No 
funding is requested for fiscal year 2011 because the Coast Guard plans 
to use $17.8 million of prior year funding to continue the acquisition 
of new capability for IOCs and NAIS, which will enhance maritime domain 
awareness.
    To make the most of current operating capabilities, the fiscal year 
2011 budget request transitions the Maritime Safety and Security Teams 
(MSST) to a regional model, enabling the Coast Guard to rapidly deploy 
teams of skilled professionals to ports and operating areas across the 
country based on risk and threats as needed. The teams were selected 
based on existing Coast Guard presence in their region. Transitioning 
the MSSTs to a regional model will enable the Coast Guard to rapidly 
deploy teams of skilled professionals to ports and operating areas 
across the country based on risk and threats as needed. The Coast Guard 
will also continue to leverage all available intelligence resources and 
partnerships across DHS, the Federal Government and State and local law 
enforcement to collectively mitigate risks and ensure the security of 
the Nation's ports.
    Furthermore, nearly three quarters of the difference in the fiscal 
year 2010 and fiscal year 2011 budget requests for the Coast Guard's 
Ports, Waterways and Coastal Security Mission is attributable to the 
funding profile for specific asset acquisitions (RB-M, MPA, HH-65), 
primarily reflecting year-to-year variation in the planned acquisition 
expenditures. Those changes do not translate into decreased capability 
as the corresponding legacy assets continue to do the job.
    The Department of Homeland Security Small Vessel Security 
Implementation Plan is expected to be released in 2010.
                         chemical plant safety
    Question. On January 23, 2010, there was a chemical leak at a 
DuPont facility in Belle, West Virginia that resulted in a tragic loss 
of life. During the initial investigation, it was determined that first 
responders to the incident had difficulty receiving the critical 
information they needed in responding to the accident, such as the 
nature of the leak and the chemical involved. This incident is similar 
to the August 2008 chemical explosion in Institute, West Virginia, 
where first responders were left guessing as to the nature of the 
explosion and the chemicals involved, and were even refused information 
by the company. The chemical industry has a duty to maintain the utmost 
in safety standards to protect their communities, and these two 
incidents indicate that the industry as a whole has a great deal of 
work to do to maintain safe operations and provide the necessary 
information to first responders.
    Last October, I asked you to determine what more could be done to 
improve safety at chemical plants and I look forward to receiving your 
recommendations soon. What is the Department doing to ensure that first 
responders have access to the critical information needed in responding 
to these types of incidents?
    Answer. The Department of Homeland Security (DHS) is engaged in a 
number of efforts to facilitate information sharing with State and 
local responders.
    High-risk chemical facilities covered under the Chemical Facility 
Anti-Terrorism Standards (CFATS) must submit to DHS Site Security Plans 
(SSPs) that meet the CFATS risk-based performance standards. These 
SSPs, which include exercise, training, and response programs, 
encourage facilities to build meaningful relationships with State and 
local law enforcement and emergency response personnel prior to a 
security incident.
    DHS's Office of Infrastructure Protection (IP) has also developed 
the Chemical Hazardous Material Information Reference Portal (CHIRP), 
which is a collaborative effort between IP and states to provide a 
secure data portal for chemical information. CHIRP links critical site 
information with chemical inventories, chemical hazards information 
based on the inventory, and emergency contact information for each 
site. The secure portal has been a valuable tool during incidents to 
help identify infrastructures in an affected area that may not be 
considered a high security risk but are locally significant.
    DHS also conducts voluntary security seminars and exercises with 
State chemical industry councils to fosters communication between 
facilities and local emergency response teams.
   national special security event state and local reimbursement fund
    Question. Who will determine what an ``unplanned'' event is? How 
many such events were there in fiscal year 2008, fiscal year 2009, and 
fiscal year 2010? What were the estimated costs for State and local law 
enforcement for such events?
    Answer. The Secretary of Homeland Security will determine what 
events are unplanned NSSEs.
    There was one unplanned NSSE each year between fiscal year 2008-
fiscal year 2010. The details are as follows:
  --Fiscal year 2008--Summit on the World's Economy (G-20--Washington, 
        DC). The State and local reimbursements for this event from the 
        Department of Justice fund was approximately $1 million.
  --Fiscal year 2009--Pittsburgh Economic Summit (G-20--Pittsburgh, 
        PA). The State and local reimbursements for this event from the 
        Department of Justice fund was approximately $10 million.
  --Fiscal year 2010--Anticipated NSSE: Nuclear Non-Proliferation 
        Summit (Washington, DC). The State and local reimbursements for 
        this event are unknown at this time.
                                 haiti
    Question. A number of your agencies have served admirably in 
response to the devastating earthquake in Haiti. The Coast Guard was 
first on scene in Haiti and its operating costs to support the United 
States' humanitarian assistance and disaster response efforts have been 
costly. The Coast Guard estimates that $76 million is necessary to 
cover costs for 90 days. CBP, ICE, and FEMA have also contributed to 
the recovery effort.
    Are you preparing to submit a supplemental budget request to pay 
for the Department's response?
    Answer. On March 24, 2010, OMB submitted a supplemental 
appropriation for $60 million to recoup the costs associated with the 
Department's activities in Haiti.
                      office of inspector general
                            disaster relief
    Question. In fiscal year 2010, $16 million was provided for the 
Inspector General to use on disaster related activities. How much does 
the Office of Inspector General plan to spend on disaster related 
activities in fiscal year 2010, and fiscal year 2011? Also, provide a 
detailed breakdown of the $16 million provided from the DRF in fiscal 
year 2010 (including FTEs).
    Answer. The Office of the Inspector General (OIG) plans on spending 
$27 million on disaster related activities in fiscal year 2010. This 
includes $4.6 million carried over from fiscal year 2009, and $6.4 
million from our fiscal year 2010 S&E appropriation. For fiscal year 
2011, the OIG plans to spend $16 million to continue to provide 
adequate oversight of FEMA and its disaster related activities.
    The Emergency Management Office (EMO) has 75 full time equivalents 
(FTEs) and 52 Cadre of On-Call Response/Recovery (CORE) temporary 
employees.
    Below is the breakdown for the $16 million.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
                    Item description                       2010 planned
                                                           expenditures
------------------------------------------------------------------------
Personnel Costs:
    Personnel Compensation..............................           8.751
    Personnel Benefits..................................           1.679
                                                         ---------------
      Total Personnel Costs.............................          10.430
                                                         ===============
Non-Personnel Costs:
    Travel..............................................           1.000
    Rental Payments to GSA..............................           2.838
    Contracts...........................................           1.500
    Other...............................................           0.232
                                                         ---------------
      Total Non-Personnel Costs.........................           5.570
                                                         ===============
      TOTAL.............................................          16.000
------------------------------------------------------------------------

           the american recovery and reinvestment act (arra)
    Question. Five million dollars was provided to the Inspector 
General in ARRA funds. Provide a detailed breakdown of these funds, how 
much has been spent, and on what are the funds being spent? How many 
FTEs are working on ARRA oversight?
    Answer. The Office of the Inspector General plans on using the $5 
million to fund seven full-time temporary positions that are used 
exclusively to review the Department's use of $2.75 billion of American 
Reinvestment and Recovery Act (ARRA) funds. This funding will also be 
used to coordinate with the Recovery Accountability and Transparency 
Board, and other OIG staff who are assigned to ARRA projects. As of 
February 28, 2010 $1.575 million of the $5 million has been obligated. 
Below is the breakdown of how these funds have been used.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
                    Item description                       2010 planned
                                                           expenditures
------------------------------------------------------------------------
Salary and Benefits.....................................           1.316
Travel..................................................           0.163
Other Services..........................................           0.096
                                                         ---------------
      TOTAL.............................................           1.575
------------------------------------------------------------------------

            measurable outcomes and investigative statistics
    Question. Provide fiscal year 2009 and fiscal year 2010 measurable 
outcomes and investigative statistics.
    Answer. The OIG audits and inspects programs for fraud, waste, and 
abuse. The OIG also reviews programs to promote economy, efficiency, 
and effectiveness. Where appropriate, OIG audit and inspection reports 
include recommendations to improve the respective program. The 
measurable outcomes reflect the percent of recommendations made by the 
OIG that are accepted and implemented by the Department of Homeland 
Security.
    In fiscal year 2009, the OIG issued 111 management reports (audits 
and inspections) and 55 financial assistance grant reports. Currently, 
due to these efforts, $156.7 million of questioned costs was 
identified, of which $46.6 million was determined to be unsupported. In 
addition, $63.6 million was recovered as a result of identifying 
disallowed costs from current and prior year reports.
    In fiscal year 2010, the OIG plans on issuing 115 management 
reports and 55 financial assistance grant reports. The Department of 
Homeland Security management concurred with 93 percent of the OIG's 
recommendations in fiscal year 2009. OIG's target percentage for fiscal 
year 2010's acceptable rate by DHS is 85 percent.
    OIG's Investigative Statistics:

                                                       INVESTIGATIVE STATISTICS--FISCAL YEAR 2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          CBP        CIS        FEMA     ICE/FPS      TSA        USCG       USSS      Other      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Number of Complaints Received........................      3,981        667      3,997      2,480        680         69         57        527     12,458
Number of Investigations Initiated...................        576         64        207        164         35          1  .........         38      1,085
Reports Issued.......................................        315         46        343        136         47          3          2          9        901
Arrests..............................................         61         30        173         24          7  .........  .........         18        313
Indictments..........................................         54         28        177         21         11          1  .........          1        293
Convictions..........................................         42         14        192         22         10          1  .........  .........        281
Personnel Actions....................................         27          4          4         14          9          1  .........  .........         59
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fines, Restitution, Administration Cost Savings and Recoveries $85,776,187.


                                                 INVESTIGATIVE STATISTICS--FISCAL YEAR 2010 YEAR-TO-DATE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          CBP        CIS        FEMA     ICE/FPS      TSA        USCG       USSS      Other      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Number of Complaints Received........................        515        653        520        906        132         16          8      1,902      4,652
Number of Investigations Initiated...................        279         28        102         77         27         16          1         16        546
Reports Issued.......................................        209         32        135         58         14          2  .........          7        457
Arrests..............................................         24          8         86          4          5  .........  .........          6        133
Indictments..........................................         23          3         68          3          7  .........  .........  .........        104
Convictions..........................................         23          5         80          3          9  .........  .........          1        121
Personnel Actions....................................         10          1          3          8          5  .........  .........  .........         27
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fines, Restitution, Administrative Cost Savings and Recoveries $117,595,905.

                                  cbp
            united states-mexico border security cooperation
    Question. Last week, your office announced an agreement you had 
reached with your Mexican government counterparts on securing our 
mutual border and combating transnational threats. The agreement calls 
for intelligence-driven operations to target criminal activity, short- 
and long-term deployment of personnel, infrastructure and technology at 
our ports of entry, and sufficient personnel, infrastructure and 
technology to sustain bilateral efforts to combat threats posed by 
criminal organizations along the border.
    This looks like a good agreement and is something I support. How do 
you intend to pay for it with a budget that is at best a status quo 
budget?
    Answer. U.S. Customs and Border Protection will utilize existing 
resources in an efficient and targeted manner. Because these efforts 
are intelligence-driven, they are target- and location-focused, which 
inherently maximizes operational efficiencies. By engaging in joint 
operations with our law enforcement partners in Mexico, our collective 
efforts will be doubled and our expenditure of resources will be 
shared. DHS expects these programs to largely be cost neutral, but if 
and where there is a requirement to increase funding levels, DHS plans 
to re-allocate from within our current budget.
                        layered border security
    Question. Your budget purports to maintain and enhance the concept 
of ``layered security'' and ``pushing the border out'', yet your budget 
drastically cuts two key programs which are the first layer of defense 
to prevent cargo containers which may contain radiological and 
biological weapons from reaching the seaports which are so vital to our 
country's economic well-being. The budget cuts over $50 million--nearly 
one-third of this year's level--from the Container Security Initiative. 
It also cuts the Secure Freight Initiative by 83 percent. These 
programs station U.S. Government officials at overseas ports to work 
with foreign port officials to target and screen containers before they 
are loaded on a container ship bound for our ports. We cannot base our 
Nation's security solely on technology controlled remotely from 
Washington.
    Based on what threat information can you justify these deep cuts?
    Answer. CBP has made tremendous progress towards securing the 
supply chains bringing goods into the United States from around the 
world, and preventing their potential use by terrorist groups, by using 
cutting-edge technology to increase the ability of front-line CBP 
Officers to successfully detect and interdict illicit importations of 
nuclear and radiological materials; moving resources where they are 
most needed; integrating all CBP offices; sharing information, 
including actionable intelligence, across all aspects of CBP; and 
utilizing a multi-layered approach to ensure the integrity of the 
supply chain from the point of stuffing, through arrival at a U.S. port 
of entry.
    CBP also requires advanced electronic cargo information for all 
inbound shipments for all modes of transportation. This advanced cargo 
information is evaluated using the Automated Targeting System (ATS) 
before arrival in the United States. ATS provides decision support 
functionality for CBP officers working at our ports of entry in the 
United States and Container Security Initiative ports abroad. The 
system provides uniform review of cargo shipments for identification of 
the highest threat shipments. Additionally, the Importer Security 
Filing interim final rule, also more commonly known as ``10+2'', went 
into effect earlier this year and will provide CBP timely information 
about cargo shipments that will enhance our ability to detect and 
interdict high risk shipments. Shipments determined by CBP to be high-
risk are examined either overseas as part of our Container Security 
Initiative, or upon arrival at a U.S. port.
                            rail inspections
    Question. What percentage of cargo entering the United States via 
rail at our land borders is screened for possible radiation and/or 
nuclear materials through Radiation Portal Monitors?
    Answer. One hundred percent of the rail cars entering from Mexico, 
and 96 percent of the rail cars entering from Canada undergo a non-
intrusive inspection through large scale, fixed gamma ray systems. CBP 
does not currently screen rail using radiation portal detectors.
                          border patrol agents
    Question. While the budget submitted on February 1, 2010, 
specifically calls for cutting 181 Border Patrol agents, you committed 
during our hearing that this cut will not occur. What other projects/
activities/personnel totaling $15.5 million do you propose to cut to 
pay for the restoration of these agents?
    Answer. CBP will realign travel funding from across CBP to restore 
the $15.5 million need to fund the 181 Border Patrol Agents. The below 
table identifies funding reductions, by PPA.

                        [In thousands of dollars]
------------------------------------------------------------------------
                          PPA                                 Amount
------------------------------------------------------------------------
Headquarters Management and Administration at the Ports            (959)
 of Entry..............................................
Headquarters Management and Administration between the             (959)
 Ports of Entry........................................
Inspections, Trade, and Travel Facilitation at the               (2,306)
 Ports of Entry........................................
International Cargo Screening..........................          (1,007)
Other International Programs...........................             (61)
C-TPAT.................................................          (1,102)
Trusted Traveler Program...............................             (22)
Inspections and Detection Technology...................             (60)
Systems for Targeting..................................             (83)
National Targeting Center..............................            (138)
Training at the Ports of Entry.........................            (820)
Border Security and Control between the Ports of Entry.          (6,898)
Training Between the Ports of Entry....................            (930)
Air and Marine Operations Salaries.....................            (178)
                                                        ----------------
      Total............................................         (15,523)
------------------------------------------------------------------------

                        air and marine staffing
    Question. Congress fully funded the President's fiscal year 2010 
request to hire 144 new Air and Marine personnel. We understand, 
however, that you propose to forgo hiring 120 of these positions 
because of ``financial challenges in the CBP Budget''. Notwithstanding 
budget ``challenges'', what would be your priority in hiring at least a 
portion of these personnel fiscal year 2011?
    Answer. In the fiscal year 2011 budget request, OAM will maintain 
24 positions in the following areas:
  --5 UAS pilots/sensor operators;
  --9 AMOC, ASOC & TSS positions;
  --5 field administration/maintenance/support positions; and
  --5 headquarters positions.
           proposed border patrol construction cancellations
    Question. Please provide a list of the Border Patrol construction 
projects proposed for cancellation.
    Answer. Because the likelihood of completion for several Border 
Patrol projects was uncertain, CBP chose to redirect the funds 
originally allocated for them to more immediate fiscal year 2011 needs. 
Since the request has been proposed as a cancellation request, funds 
are not being withheld from any specific project and the proposed list 
will be updated at the time of enactment.
    The table that follows provides the proposed list of projects that 
could be impacted by the cancellation request of prior year unobligated 
balances, once approved by Congress.

                        PROPOSED LIST OF PROJECTS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                               Proposed
                                                              amount to
            Location                 Project description          be
                                                              cancelled
------------------------------------------------------------------------
Amistad, TX....................  50 Agent BP Station/Co-           3,000
                                  location w/National Parks
                                  Service.
El Paso, TX....................  Vehicle Maintenance              16,900
                                  Facility.
Oroville, WA...................  75 Agent BP Station.......       19,100
Houlton, ME....................  Houlton Sector HQ--100           11,500
                                  Agents/50 Agent BP
                                  Station.
Colville, WA...................  50 Agent BP Station.......       15,500
Champlain, NY..................  50 Agent BP Station.......       10,500
Comstock, TX...................  250 Agent BP Station/             3,200
                                  Checkpoint.
Freer, TX......................  150 Agent BP Station/             1,500
                                  Checkpoint.
Various........................  Alterations projects......       18,572
                                                            ------------
      Total Amount Proposed for  ..........................       99,772
       Cancellations...........
------------------------------------------------------------------------

    Question. Please provide a chart showing how many Border Patrol 
agents worked in Border Patrol facilities in fiscal year 2003 and what 
the total square footage of these facilities was in fiscal year 2003 
and compare that to how many agents are now on board in fiscal year 
2010 and to what is the current total square footage of these 
facilities. Also, what is the total planned square footage for the 
Border Patrol construction projects proposed for cancellation?
    Answer. The table that follows provides the requested information. 
Please note that this table only provides a comparison of stations, 
checkpoints, and sector HQs, so the El Paso Vehicle Maintenance 
Facility and the alterations projects are not listed.

                                                                PROPOSED LIST OF PROJECTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  2003 facility        Current facility today       Proposed facility
                                                                           -----------------------------------------------------------------------------
                  Location                        Project description                                                                           Office
                                                                             Number of      Total      Number of      Total       Capacity      space
                                                                               agents    square feet     agents    square feet               square feet
--------------------------------------------------------------------------------------------------------------------------------------------------------
Amistad, TX................................  50 Agent BP Station \1\/Co-             12          896           22          896           40        5,400
                                              location w/National Parks
                                              Service.
Oroville, WA...............................  75 Agent BP Station..........           20        3,100           49        3,100           75        7,900
Houlton, ME................................  Houlton Sector HQ 100 Agent/            26       14,400          113       16,440          150       37,000
                                              50 Agent BP Station.
Colville, WA...............................  50 Agent BP Station..........           17        1,700           33        1,700           50        7,000
Champlain, NY..............................  50 Agent BP Station..........           17        7,845           42        7,845           50        7,000
Comstock, TX...............................  250 Agent BP Station/                   38        5,470          175       11,870          250       47,000
                                              Checkpoint.
Freer, TX..................................  250 Agent BP Station/                   75        6,956          131        9,556          250       45,000
                                              Checkpoint.
                                                                           -----------------------------------------------------------------------------
      Total Amount Proposed for              .............................          205       40,367          565       51,367          865      156,300
       Cancellations.......................
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The BP Station in Amistad, TX is a co-location with the National Parks Service, who will provide space for only 40 Border Patrol agents. Also, the
  current facility was occupied in 2007.

    Question. What are the unobligated balances in the ``Construction 
and Facilities Management'' account for Border Patrol facilities?
    Answer. As of March 5, 2010, the total unobligated balance in the 
``Construction and Facilities Management'' account for Border Patrol 
facilities for fiscal year 2010 and prior years is $217 million.
    Question. Please provide a list of prior year unobligated balances.
    Answer. The table that follows provides a list of prior year 
unobligated balances for the Border Patrol facilities, as of March 5, 
2010. This includes unobligated balances from the Border Patrol 
construction account, Border Patrol Rapid Response funds, and fiscal 
year 2010 resources provided for maintenance, repairs, operations, and 
alterations activities.

                              [In millions]
------------------------------------------------------------------------
                                                            Unobligated
             Activity                      Office             balance
------------------------------------------------------------------------
OBP Construction..................  OBP.................             106
OBP Rapid Response................  OBP.................              10
OBP Fiscal Year 2010 MRO/           OBP.................             101
 Alterations.
                                                         ---------------
      Total.......................  ....................             217
------------------------------------------------------------------------

                        southwest border fencing
    Question. How many miles of pedestrian fencing and tactical 
infrastructure along the Southwest border has the Border Patrol 
identified as being required to gain and maintain effective control of 
that border? As of February 1, 2010, how many of those miles have been 
completed and how many more miles need to be constructed? Are any funds 
in the fiscal year 2011 budget request intended for construction of 
additional miles of fencing and infrastructure?
    Answer. Over 650 miles along the Southwest border were identified 
for fencing. As of February 26, 2010, CBP has constructed 347 miles of 
pedestrian fence and 299 miles of vehicle fence, with approximately 8 
miles of pedestrian fence left to construct. There are funds in the 
fiscal year 2011 budget request for this construction.
                            internal affairs
    Question. How many people are in CBP's internal affairs/officer 
integrity office? How many new positions were added this fiscal year? 
Are any new positions requested in the President's budget for the next 
fiscal year?
    Answer. As of February 13, there are 259 employees in the 
Investigative Operations Division. The fiscal year 2010 DHS 
Appropriations Act (Public Law 111-83) provided $500,000 to expand 
integrity investigations and Internal Affairs staffing. No new 
positions are requested in the fiscal year 2011 budget request.
             full-time equivalent (fte) increases/decreases
    Question. Please provide a chart listing all FTE increases and 
decreases by position type and activity.
    Answer. Please see the following chart.

                                                                               U.S. CUSTOMS AND BORDER PROTECTION
                                                                         [Fiscal year 2011 staffing changes (positions)]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                     Air
                                                                 Border      CBP        CBP     Interdiction     Marine       Import      Intel                  General
               President's Budget by Initiative                  Patrol    Officer    Officer-      Agent     Interdiction  Specialist   Analyst    Auditor   Investigator    Other      Total
                                                                 Agent                  OTD        (Pilot)        Agent
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Position Increases:
    OIOC.....................................................  .........  .........  .........  ............  ............  ..........        103  .........  ............  .........        103
    Intellectual Property Rights.............................  .........         25  .........  ............  ............          27  .........         16  ............        132        200
    Contractors to Fed FTE...................................  .........  .........  .........  ............  ............  ..........  .........  .........  ............        950        950
    OFO Staff................................................  .........        318         18  ............  ............  ..........  .........  .........  ............         53        389
Position Reductions:
    Office of Training and Development.......................  .........  .........  .........  ............  ............  ..........  .........  .........  ............        -50        -50
    Office of Administration.................................  .........  .........  .........  ............  ............  ..........  .........  .........  ............        -30        -30
    Human Resource Management................................  .........  .........  .........  ............  ............  ..........  .........  .........  ............         -6         -6
    Fiscal Year 2010 Air and Marine Staffing.................  .........  .........  .........          -52           -18   ..........  .........  .........  ............        -50       -120
                                                              ----------------------------------------------------------------------------------------------------------------------------------
      Total..................................................  .........        343         18          -52           -18           27        103         16  ............        999      1,436
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                             annualizations
    Question. You claim that you will be hiring the additional Border 
Patrol agents and CBP officers funded in the fiscal year 2010 
Appropriations Act. However, your budget request does not annualize the 
funding to maintain these agents and officers in your fiscal year 2011 
budget request. Are you intending to hire these individuals this year 
and let them go next year? Assuming that is not the case, how much 
additional funding is required to annualize these positions?
    Answer. CBP's fiscal year 2011 request sustains the increase in 
Border Patrol requested in the fiscal year 2010 budget request. The 
fiscal year 2011 budget request does not include funding to sustain all 
125 CBPOs and support personnel that were funded in the fiscal year 
2009 War Supplemental. The request supports sustainment of 63 CBPOs and 
11 support personnel.
                      southwest border enforcement
    Question. Please provide specific examples of what CBP is currently 
doing and plans to do in fiscal year 2011 for outbound enforcement on 
the Southwest border (based on the Secretary's March, 2009 surge 
announcement and the Supplemental funds provided by Congress).
    Answer. The security of our Southwest border remains a key priority 
for the Department, and the fiscal year 2011 budget request strengthens 
investments in smart and effective border security initiatives. In the 
past year, DHS increased resources through additional law enforcement 
and technology along the border, and took a more collaborative and 
intelligence-based approach to combat smuggling.
    As part of the administration's Southwest Border Initiative, 
launched in 2009, DHS doubled assignments to Border Enforcement 
Security Task Forces, tripled the number of intelligence analysts, and 
quadrupled the number of Border Liaison Officers working at the border. 
Additionally, DHS started screening 100 percent of southbound rail 
shipments for illegal weapons and cash--for the first time ever. We 
have also increased resources at ports of entry, deploying additional 
Border Patrol agents to augment outbound inspections, technology to 
help identify anomalies in passenger vehicles, and cross-trained canine 
teams to detect both weapons and currency. The Border Patrol is better 
staffed today than at any time in its 85-year history, having nearly 
doubled the number of agents from approximately 10,000 in 2004 to more 
than 20,000 in 2009. DHS has completed 643 miles of fencing of a 
planned 652 miles--including 344 miles of pedestrian fencing and 299 
miles of vehicle fencing. As a result of these efforts, seizures of 
contraband--guns, drugs and cash--have increased across the board and 
illegal crossings continue to decline. Additionally, for the first 
time, DHS began screening 100 percent of southbound rail shipments for 
illegal weapons, drugs, and cash.
    DHS also continues to leverage partnerships with local, State, 
Federal and tribal law enforcement agencies, as well as counterparts in 
Mexico to mutually address threats and combat cartel violence. CBP is 
expanding cooperative law enforcement efforts along the border with 
Mexico to include sharing basic seizure and license plate reader 
information relevant to law enforcement, expanding joint bi-national 
operations and supporting Mexico's law enforcement capacity via the 
Merida initiative.
    In 2008, ICE initiated Operation Armas Cruzadas--a comprehensive, 
collaborative, intelligence-driven and systematic partnership with the 
Government of Mexico to identify, disrupt and dismantle the criminal 
networks that illicitly transport arms across the border into Mexico. 
As part of this operation, DHS initiated a surge operation along the 
Southwest border in an effort to identify, interdict and investigate 
weapons trafficking organizations. Additionally, in 2009 DHS began 
screening 100 percent of southbound rail shipments for illegal weapons, 
drugs, and cash--for the first time. Increased resources will also 
directly support CBP's outbound efforts by ensuring that trained CBP 
Officers and Border Patrol Agents are available to conduct outbound 
operations; that CBP possesses adequate outbound facilities, equipment, 
and technology to conduct these operations; and that CBP Officers and 
Border Patrol Agents have the automated targeting assistance they need 
to identify violators.
    In order to address the escalating violence in Mexico and to 
increase outbound operations throughout the United States, CBP created 
the Outbound Programs Division within the Office of Field Operations in 
March 2009. The Outbound Program works to stem the illegal flow of 
firearms and currency out of the United States; increase the 
interdictions of stolen vehicles and fugitives who are attempting to 
flee the country; and augment compliance with the Nation's export laws.
    The deployment of outbound teams is both random and based on 
intelligence, which maximizes the impact of our resources. In fiscal 
year 2011, CBP will continue to build on the current cooperative 
efforts with Federal, State, local and tribal law enforcement agencies. 
This strategy, further supported by the development of port 
infrastructure, equipment and technology, will greatly enhance CBP's 
ability to target and interdict illicit currency and smuggled firearms.
    Additionally, ICE is utilizing $100 million in fiscal year 2010 
appropriations to augment existing capabilities and take on additional 
tasks in order to confront a surge in illegal activities on the 
Southwest border. This funding allows ICE to deploy additional staff to 
provide a greater level of investigative activity.
              western hemisphere travel initiative (whti)
    Question. It has been suggested that border security could be 
enhanced if WHTI were extended for use by the Border Patrol at Border 
Patrol checkpoints. Does Border Patrol have the authority to use WHTI 
at its checkpoints? If so, what would be the additional cost of 
extending use of it to the checkpoints?
    Answer. CBP's authority to conduct Border Patrol checkpoints is 
rooted in 8 U.S.C. 1357 and implementing regulations of 8 CFR section 
287. CBP counsel has conducted a legal review of the privacy issues 
surrounding the use of WHTI technology at checkpoints and has given its 
approval. The authority to utilize LPRs at checkpoints, and issues 
related to privacy, are covered by the TECS System of Records Notice 
(SORN) (http://edocket.access.gpo.gov/2008/E8-29807.htm). The August 
2009 GAO report entitled Checkpoints Contribute to Border Patrol's 
Mission, references CBP's use of LPRs at checkpoints. The TECS SORN, 
which is the Privacy Act notice that explains CBP's, including Border 
Patrol's, use of the TECS system, specifically covers: ``Owners, 
operators and/or passengers of vehicles, vessels or aircraft traveling 
across U.S. borders or through other locations where CBP maintains an 
enforcement or operational presence,'' and CBP believes applies to LPRs 
and their interface with TECS and TECS queries. LPRs are a tool that 
facilitates the initiation of TECS queries.
    WHTI Technology: The implementation of technology as part of the 
Western Hemisphere Travel Initiative (WHTI) has greatly improved U.S. 
Customs and Border Protection's (CBP) ability to both gather 
intelligence and target suspected smugglers and other violators. WHTI 
has enhanced CBP's ability to capture data on vehicles and occupants 
entering the United States through the land border, allowing for real-
time analysis of available information and intelligence.
    Newly deployed license plate reader (LPR) technology deployed at 
ports of entry under WHTI improves the accuracy of vehicle license 
plate reads by more than 10 percent compared to the previous 
technology. The Vehicle Primary Client (VPC) application provides the 
capability, for the first time, to link drivers, passengers, vehicles, 
and their registered owners, together into ``packages.'' The VPC also 
provides officers with valuable information by interfacing with DHS, 
Department of State, and State and provincial Enhanced Driver's License 
(EDL) databases, allowing for documents to be verified back to their 
source in real-time.
    Border security can be significantly enhanced through improved 
targeting and intelligence gathering by further extending WHTI 
technology to Border Patrol checkpoints. The VPC was successfully 
piloted to two lanes at checkpoints in June 2009, which resulted in 
over 1,100 law enforcement hits ranging from alien smuggling, narcotics 
smuggling to armed and dangerous subjects. The pilot had minimal impact 
to traffic flow and significantly enhanced agent safety and awareness.
    Estimated Cost.--The following is an estimate of the cost of 
deploying WHTI LPR technology to Border Patrol checkpoints in a phased 
approach:
  --Phase I: 22 lanes @ $175,000: $3,850,000;
  --Phase II: 25 lanes @ $175,000: $4,375,000;
  --Phase III: 55 lanes @ $175,000: $9,625,000;
  --Maintenance (O&M): $10,000 a year per lane;
  --Total cost: For all three phases--$17,850,000/Yearly O&M cost--$ 
        1,020,000.
                       passenger name record data
    Question. Mandating that a traveler's passport number be added to 
the passenger name record data collected by the airlines would likely 
provide CBP with more information earlier to better determine whether a 
traveler should be allowed to board a plane. What is preventing this 
from being mandatory? Are there costs for the U.S. Government in 
requiring this be added to the field of information submitted to the 
airlines?
    Answer. Mandating passport information as part of a PNR submission 
would present several challenges. It is common for travelers to book 
their reservations well in advance of obtaining a passport for travel 
or book travel and not have their passport information available at the 
time of reservation. Likewise, since PNR information is provided by the 
passenger or their designee and in most cases cannot be validated at 
the time of reservation, there is the possibility of receiving invalid 
information or incorrect information.
                        advanced training center
    Question. How much is requested in the President's budget for 
training activities and training operations at the Advanced Training 
Center (ATC) in fiscal year 2011? Also, what is the staffing target for 
the ATC?
    Answer. The budget requested for training activities and training 
operations at the Advanced Training Center (ATC) in fiscal year 2011 
includes the following:
  --Fiscal year 2011 staffing target--102 positions;
  --Fiscal year 2011 projected programmatic expenses = $20,648,000 
        (includes Salaries & Benefits and other programmatic expenses);
  --Fiscal year 2011 projected national training plan budget--
        $14,862,827; and
  --Fiscal year 2011 projected Office of Training Development total = 
        $35,510,827.
                continued dumping and subsidy offset act
    Question. During my tenure in Congress I have worked closely with 
CBP officials on implementation of the Continued Dumping and Subsidy 
Offset Act of 2000 (CDSOA). Besides providing a portion of the duties 
to qualifying injured businesses, the program provided reports on the 
amounts of duties collected, disbursed, and uncollected.
    In general, the program worked well over the years before CDSOA was 
repealed in October 2007. Most importantly, it provided CBP with the 
ability to manage the collection and distribution of duties into the 
U.S. General Treasury. However, collections continue to be a challenge 
for the agency.
    One of the leading manufacturing sectors that attach a high 
priority to customs enforcement issues is the domestic steel pipe and 
tube industry. The steel industry has played an important role in the 
development of our country, and today it continues to be a leader in 
our economy. Steel also has a long history in West Virginia, and has 
employed generations of West Virginians.
    Historically the industry has had to pursue trade remedies to stem 
the flow of unfair trade. This is where the role of CBP is paramount--
in the enforcement of the collection of these duties.
    I have recently heard from U.S. steel pipe and tube producers that 
they are growing concerned about escalating levels of customs fraud 
taking place at U.S. seaports. They tell me these activities are 
primarily taking place at the West Coast seaports of Los Angeles and 
Long Beach in California. What is most troubling is that imports of 
steel pipe and tube from China may be entering into the United States 
with no duty. In fact, one document indicated that the tubing was 
entered as ``used books'' from China. More importantly, this is the 
same pipe and tube from China that is covered by anti-dumping and 
countervailing duty orders from 2008. I further understand that since 
September 2009, the industry has collected the data and has shared it 
with officials at CBP.
    What is the Department's commitment to ensuring that enforcement of 
the collection of duties assessed on unfairly traded imports is given 
the highest priority as it relates to the economic security of the 
United States?
    Answer. The enforcement of AD/CVD laws to protect U.S. industries 
from unfair trade practices is a priority for Customs and Border 
Protection (CBP). CBP uses a strategically layered risk management 
approach to prioritize its focus on trade issues based on the potential 
impact of noncompliance. CBP has designated seven Priority Trade Issues 
(PTI) to focus resources on trade enforcement issues presenting the 
greatest risks; Antidumping and Countervailing Duty is one of these 
PTIs.
    Question. What is CBP doing to track imports and document trade 
anomalies? What is CBP doing to ensure that import specialists at the 
seaports and borders are prepared and trained to intervene to ensure 
that they enforce the law?
    Answer. CBP has designated Priority Trade Issues (PTI) to focus 
resources on trade enforcement issues presenting the greatest risks. 
Each PTI has its own designated National Targeting and Analysis Group 
(NTAG) that is staffed with International Trade Specialist (ITS). ITS 
perform trade analysis and target shipments for a review based on that 
analysis.
    On a local level, Import Specialists monitor their PTI areas and/or 
commodity, and initiate trade enforcement actions. Those actions are 
recorded in CBP systems and available at a national level to other 
Import Specialists and NTAGs for review. NTAGs review these results and 
determine if national and/or further action is necessary.
    Import Specialists receive training through a variety of different 
courses. For example, CBP's National Import Specialists conduct regular 
classification training throughout the country. In addition, 
specifically for the U.S. steel industry, CBP coordinates with the 
American Iron and Steel Institute (AISI) to hold seminars to address 
classification of steel products and fraud issues For CBP, U.S. 
Immigration and Customs Enforcement (ICE) and private industry. Formal 
training on fraud is provided through the ICE advanced fraud course at 
the Federal Law Enforcement Training Center (FLETC) in Glynco, Georgia.
    Question. How will the Department ensure that appropriate resources 
are dedicated to prosecuting those committing customs fraud and that 
the necessary law enforcement authority is provided to CBP or other 
agencies to conduct prompt review and investigations of the types of 
complaints submitted by the steel pipe and tube industry, and others in 
the business community, that may be experiencing similar problems?
    Answer. CBP and U.S. Immigration and Customs Enforcement (ICE) work 
jointly to initiate and implement enforcement activities through the 
Commercial Enforcement Allegation Response (CEAR) Process. The 
objective of the CEAR process is to support the CBP commercial 
enforcement program by:
  --effectively prioritizing commercial enforcement issues and 
        allocating resources;
  --properly determining and evaluating suitable commercial enforcement 
        responses; and
  --responsively following through on commercial enforcement referrals 
        made through the CEAR process.
    Each of the CBP Service Ports has a CEAR process which is led by a 
Trade Enforcement Coordinator (TEC) who is a manger experienced in 
fraud matters.
    As to handling complaints submitted by industry, CBP has 
established an online trade violation reporting system called e-
Allegations. e-Allegations provides a means for the public to 
confidentially report any suspected violations of trade laws. e-
Allegations also provides a means to report a possible violator who is 
importing substandard steel, claiming that it is of a higher grade, 
therefore creating a potential health and safety issue.
    All allegations are recorded in Commercial Allegation Recording 
System (CARS)--which provides CBP with a standardized methodology for 
recording the review, processing, referral, analysis, and results of 
commercial allegations.
                             journeyman pay
    Question. Last fall, the Acting Commissioner of Customs and Border 
Protection made a commitment to the hardworking men and women of CBP, 
who daily defend our borders, that the legally mandated journeyman pay 
adjustment would take effect in March of this year. No funds were 
requested in the current year's budget to accommodate this increase. 
This Committee has yet to be informed how this requirement is intended 
to be funded this fiscal year. The full amount for fiscal year 2011 is 
requested in next year's budget, but we understand that approximately 
$150 million is required this year.
    How do you intend to pay for this increase? Did you request of the 
Office of Management and Budget that this unfunded requirement be 
addressed through a Supplemental appropriation? When do you intend to 
honor this commitment and begin implementation of journeyman increase 
for the hardworking men and women of CBP?
    Answer. The CBP fiscal year 2011 budget request includes funding 
required for full implementation of the Journeyman Pay Adjustment. The 
Department intends to fund these costs by the fourth quarter of fiscal 
year 2010.
    Approximately 30 percent of CBP officers--including most 
agriculture specialists at our ports--are funded through fees collected 
on processing passengers and cargo at our borders. Given the downturn 
in the global economy, fee revenue collections across the board are far 
lower than planned for in the current year's budget. You request that 
appropriated dollars be transferred from the Border Patrol, which is 
not fee-funded, and other appropriated activities to meet the fee 
shortfalls and maintain current staffing for CBP officers. Yet I 
understand you intend to pay for the journeyman pay adjustment by 
making additional cuts to CBP operations. This has a direct impact on 
border security.
    Question. Absent additional resources, will you need to make a 
reduction in overall CBP officer staffing this fiscal year?
    Answer. CBP will be proposing a reprogramming from internal sources 
to cover fiscal year 2010 shortfalls from fees to maintain staffing 
levels. In fiscal year 2011, CBP has requested additional appropriated 
dollars to offset the impact of lower fees.
           impact of the lack of a confirmed cbp commissioner
    Question. Given the deep cuts to U.S. Customs and Border Protection 
in the proposed budget, did the fact that it does not have a Senate 
confirmed Commissioner hinder CBP when advocating for its fiscal year 
2011 budget? How important is it to have a Senate confirmed 
Commissioner to lead the frontline agency defending our borders; an 
agency which also happens to be responsible for collecting the 2nd 
largest amount of revenue for the Nation?
    Answer. President Obama recess appointed Alan Bersin as 
Commissioner of CBP on March 27, 2010.
  proposed elimination of the foreign language awards program for cbp 
                               employees
    Question. Since its implementation in 1997, the Foreign Language 
Awards Program (FLAP) has been instrumental in identifying and 
utilizing Customs and Border Protection (CBP) employees who are 
proficient in a foreign language, a skill especially important in their 
role of dealing directly with foreign travelers and trade. Under the 
program, which incorporates more than two dozen languages, CBP Officers 
and Agriculture Specialists who qualify after language proficiency 
testing can earn awards of between 1 and 5 percent of their pay if they 
use a language other than English for more than 10 percent of the time 
during their daily duties. Thousands of frontline CBP employees use 
their language skills in this way every day.
    CBP employees' foreign language skills enhance the agency's 
important homeland security and trade-related missions. Rewarding 
employees for using their language skills to protect our country, 
facilitate the lawful movement of people and cargo across our borders, 
and collect revenue that our government needs makes sense. Congress 
agreed that employees should be encouraged to develop their language 
skills by authoring FLAP. Not only does it improve efficiency of 
operations, it makes the United States a more welcoming place when 
foreign travelers find CBP Officers can communicate in their language.
    At CBP, this program has been an unqualified success, and not just 
for employees but for the travelers who are aided by having someone at 
a port of entry who speaks their language, for the smooth functioning 
of the agency's security mission. For these reasons I am quite 
concerned that the fiscal year 2011 DHS budget proposes to eliminate 
this congressionally authorized program, and was further surprised to 
learn that, on February 4, 2010, CBP notified its employees that it was 
immediately suspending this program citing lack of fiscal year 2010 
funding.
    Why was this program immediately suspended? What budget planning 
went into this decision to immediately suspend and eliminate FLAP at 
CBP? FLAP has a dedicated funding source--customs user fees collected 
from the traveling public and the trade community. How will customs 
user fees that formerly funded FLAP now be distributed? For what 
programs will these user fees be used? And is this customs user fee 
diversion supported by statute?
    Answer. CBP Officers and Agriculture Specialists hired since June 
2004 and initially assigned to the southern border, Puerto Rico and 
Miami have a mandatory Spanish proficiency requirement as a condition 
of employment and are expected to utilize that skill, as needed, in the 
performance of their duties. Officers and Agriculture Specialist 
lacking sufficient proficiency in Spanish are provided five additional 
weeks of language training. Managers will continue to encourage all 
employees to utilize their language skills to accomplish the CBP's 
mission, and will use other traditional awards to appropriately 
recognize and reward employees
    FLAP awards are funded through customs, immigration, and 
agriculture user fees. Due to a substantial reduction of airline travel 
and commercial conveyances entering the United States in recent years, 
there has been a substantial decline in fee revenues. The Customs user 
fee currently supports approximately $10.2 million of the FLAP program. 
By suspending the FLAP program, this funding would be redirected 
towards other requirements that are eligible under the fee legislation. 
The savings in Customs user fees from the FLAP reduction will allow CBP 
to more fully fund overtime and premium pay.
                      border patrol communications
    Question. Along our borders with both Canada and Mexico, there are 
many miles where no communication is possible, neither via cell nor 
land mobile radio. A few Border Patrol agents have the older bulky 
portable satellite phones or some that are mounted in vehicles that 
have no email or text capability. Almost one-third of our 1,900-mile 
border with Mexico has no communication coverage of any kind. Our 
Border Patrol agents face very dangerous situations with smugglers and 
drug and arms cartels which puts them in grave danger. Also, we have 
heard of instances where smugglers have utilized homemade devices that 
disable border agent vehicles, leaving agents with no way to 
communicate. With new smartphones coming on line soon that are capable 
of providing a combination of cellular and satellite communications for 
voice and data, do you plan to provide this type of tool to our Border 
Patrol agents? If not, why?
    Answer. CBP TACCOM is pursuing a digital standards based (i.e., 
Project 25) Land Mobile Radio (LMR) modernization program to meet user 
requirements and operational needs. The Project 25 solution leverages 
existing LMR infrastructure and subscribers owned and operated by CBP. 
Use of a standards based Project 25 solution promotes interoperability 
with other law enforcement agencies such as other Federal agencies and 
State, local and tribal partners.
                     secure border initiative (sbi)
    Question. Given continued delays in deployment of SBI-related 
technologies on the Southwest border, please describe what is in the 
fiscal year 2011 budget to deploy existing technologies to fill known 
gaps in our border security. If there are no such requests/plans, 
describe why.
    Answer. Not only do we have an obligation to secure our borders, we 
have a responsibility to do so in the most cost effective way possible. 
The system of sensors and cameras along the Southwest border known as 
SBInet has been plagued with cost overruns and missed deadlines. As a 
result, the Department of Homeland Security is redeploying $50 million 
of Recovery Act funding originally allocated for the SBInet Block 1 to 
other tested, commercially available security technology along the 
Southwest border, including mobile surveillance, thermal imaging 
devices, ultra-light detection, backscatter units, mobile radios, 
cameras and laptops for pursuit vehicles, and remote video surveillance 
system enhancements. Additionally, DHS is freezing all SBInet funding 
beyond SBInet Block 1's initial deployment to the Tucson and Ajo 
regions until the assessment Secretary Napolitano ordered in January is 
completed
                                  ice
                             visa security
    Question. Section 428 of the Homeland Security Act of 2002 created 
the Visa Security Program. As you know, this program calls for the 
placement of Homeland Security agents at overseas U.S. consular posts 
to assist in reviewing visa applications for people wishing to travel 
to this country. The program has been effective in pushing out our 
borders and preventing the issuance of visas to individuals who wish to 
do us harm. I am troubled, however, to learn that the assignment of 
agents to posts in such critical countries as Israel, Jordan, and Yemen 
have been pending for months. In the case of Yemen, it has been more 
than a year.
    Given the recent increase in threats to the United States from 
Yemen, what is the reason for the delay? And given the major security 
benefits received from this program at a relatively low cost, why is 
the budget for the program flat?
    Answer. For fiscal year 2011, the President has requested the same 
level of funding and resources as fiscal year 2010: $30.6 million and 
67 FTEs. This funding will cover existing Visa Security Units, the 
planned fiscal year 2010 expansion, as well as a new office in Saudi 
Arabia. The expansion process requires close coordination with the host 
country and the Department of State, and ICE is coordinating with the 
Department of State to collectively further advance visa security.
                          worksite enforcement
    Question. One of the many tools in the immigration enforcement 
toolkit is real worksite enforcement. To ensure that we end the lure to 
foreigners of jobs in this country, we must prevent unscrupulous 
employers from seeking cheap, illegal alien labor. But we must also 
demonstrate to people who may try to cross our borders seeking work 
that we will take action to remove them from this country because they 
are here illegally.
    I have been a strong supporter of this program and have ensured 
that it has the resources it needs to enforce the law by adding funds 
above the request for the past 3 years. I am troubled by the impact I 
am seeing of your April, 2009, announcement of a change in how worksite 
enforcement is conducted. You have moved from aggressive enforcement 
actions at worksite to a paper-based system of auditing employee 
records. The numbers underscore my concerns.
    Administrative arrests dropped from 5,184 in fiscal year 2008 to 
1,654 in fiscal year 2009. That is more than a two-thirds drop. And 
criminal arrests of employees dropped from 968 in 2008 to 296 in 2009.
    Why have you cut back on enforcement actions and retreated to a 
relatively toothless paper-based process?
    Answer. Over the past year, U.S. Immigration and Customs 
Enforcement's (ICE) has implemented smart and effective worksite 
enforcement strategies, prioritizing the identification, arrest and 
removal of criminal aliens that threaten public safety, which has led 
to real results. Overall, criminal and non-criminal removals and 
returns increased by 5 percent between fiscal year 2008 and fiscal year 
2009 with criminal removals and returns increasing by 19 percent. This 
year, ICE has already removed 40 percent more aliens convicted of 
crimes in fiscal year 2010 to date as compared to the same time last 
year.
    Additionally, ICE's new, comprehensive worksite enforcement 
strategy targets employers who cultivate illegal workplaces by breaking 
the country's laws and knowingly hiring illegal workers. This strategy 
protects employment opportunities for the Nation's lawful workforce by 
targeting the magnets that attract illegal workers to the United 
States.
    A successful immigration enforcement strategy also includes the use 
of all available civil and administrative tools at our disposal, 
including civil fines and debarment, to deter employers who knowingly 
hire illegal labor. Employers need to understand that the integrity of 
their employment records is just as important to the Federal Government 
as the integrity of their tax files or banking records. Accordingly, 
ICE has increased inspections to ensure that businesses are complying 
with employment laws, and is aggressively pursuing prosecution, fines 
and debarment where justified. In fact, ICE audited more employers 
suspected of hiring illegal labor in a single day in 2009 than had been 
audited in all of 2008.
    These strategies are working. Since January 2009, DHS has audited 
more than 2,300 employers suspected of hiring illegal labor (compared 
to 500 audits in 2008), debarred 70 companies and 63 individuals, and 
issued more than $15 million in fines.
    By targeting the demand side of illegal employment and focusing on 
criminal aliens who pose a threat to public safety, DHS is making great 
strides in moving from enforcement actions that look tough to 
immigration enforcement that is truly effective.
    Question. How many I-9 audits for worksite enforcement 
investigations were initiated in each of fiscal years 2007-2009 and how 
many indictments were handed down in each of those years?
    Answer. Please see the following chart.

                  WORKSITE ENFORCEMENT AUDITS INITIATED
------------------------------------------------------------------------
                                                Form I-9
                 Fiscal year                   inspections   Indictments
------------------------------------------------------------------------
2007........................................           254           750
2008........................................           503           900
2009........................................         1,444           376
------------------------------------------------------------------------

    Question. How many criminal arrests and how many administrative 
arrests were made in each of fiscal years 2007-2009? Of those arrests, 
how many employers were arrested in each of those fiscal years and how 
many individuals were deported or removed from the United States?
    Answer. Please see the following charts.

                   CRIMINAL AND ADMINISTRATIVE ARRESTS
------------------------------------------------------------------------
                                Criminal    Administrative    Employer
         Fiscal year             arrests        arrest         arrests
------------------------------------------------------------------------
2007........................           863          4,077             92
2008........................         1,103          5,184            135
2009........................           410          1,644            114
------------------------------------------------------------------------


                         INDIVIDUALS REMOVED \1\
------------------------------------------------------------------------
                        Fiscal year                            Removed
------------------------------------------------------------------------
2007......................................................       291,060
2008......................................................       369,221
2009......................................................       387,790
------------------------------------------------------------------------
\1\ Includes returns.

    Question. How much funding is requested in the fiscal year 2011 
budget for Worksite Enforcement?
    Answer. In fiscal year 2010, ICE received $134.5 million in 
appropriations to support worksite enforcement investigations. For 
fiscal year 2011, as is the case for all other investigative case 
categories, ICE is not requesting a specific funding level for worksite 
enforcement. ICE anticipates it will sustain the same level of activity 
from fiscal year 2010 to fiscal year 2011 for its worksite enforcement 
operations.
    Question. Currently, is there a limit on how large a fine can be 
levied against an employer who employees illegal aliens? If so, do you 
have the authority to increase the fine administratively or does it 
need to occur legislatively?
    Answer. ICE can only increase fines to adjust for inflation. The 
Federal civil monetary penalties have a Congressionally mandated cap. 
The civil fine range, per violation, for Form I-9 violations is $110 to 
$1,100. The civil fine range for each count of knowingly hiring or 
continuing to employ an unauthorized worker ranges from $375 to 
$16,000.
    Question. How many on-site worksite enforcement actions occurred 
between January 20, 2009 and June 30, 2009? And how many occurred 
between July 1, 2009 and February 1, 2010?
    Answer. The ICE case management system, Treasury Enforcement 
Communication Systems (TECS), does not specifically track on-site 
worksite enforcement actions; therefore, the exact number of operations 
is unavailable.
                             detention beds
    Question. The fiscal year 2010 Department of Homeland Security 
Appropriations Act mandates maintaining ``a level of not less than 
33,400 detention beds through September 30, 2010''. However, for the 
week ending February 15, 2010, only 28,027 detention beds were filled. 
That means that 5,373 illegal aliens were not being detained when they 
could have been. In fact, the number of illegal aliens being detained 
has steadily dropped since the beginning of this administration (over 
the past year). Why are you not adhering to the law? Does ICE lack the 
funds to maintain these additional beds?
    Answer. ICE is currently exploring options to increase detention 
efficiencies. Through the Institutional Removal Program at State and 
local detention facilities, ICE is focused on increasing the number of 
criminal aliens who have removal orders by the time they complete their 
criminal sentence, removing the burden to detain these aliens beyond 
their criminal sentences while awaiting removal orders.
                           secure communities
    Question. The focus of the Secure Communities is on Level 1 
(criminal) illegal aliens who are located in Federal, State, and local 
jails and prisons through the use of biometrics (i.e. fingerprints). 
However, if you encounter Level 2 or 3 illegal aliens in these 
facilities--even though you are not targeting them--what do you do with 
them? Are they identified as being here illegally in any event and is a 
detainer put on them for immigration proceedings or for ultimate 
removal from the country upon completion of their sentence?
    Answer. While ICE places the highest priority on the most dangerous 
criminal aliens convicted of level 1 offenses, aliens charged or 
convicted of level 2 or level 3 offenses are also placed in immigration 
proceeding for removal at the completion of their sentence.
    Question. With the funds requested in the budget for Secure 
Communities, how much of the Level 1 population is covered and how of 
the Level 2 population is covered?
    Answer. ICE anticipates that Secure Communities will be deployed in 
locations that cover 96 percent of the criminal alien population by the 
end of fiscal year 2011.
                          bulk cash smuggling
    Question. Last year, Congress provided $30 million above the 
President's request for a number of Southwest border violence-related 
activities--including bulk cash smuggling. How are those funds being 
put to use for bulk cash smuggling efforts? Which agency has the 
primary authority for addressing bulk cash smuggling as it relates to 
our borders?
    Answer. ICE has primary authority for addressing bulk cash 
smuggling as it relates to our borders, but works with the Department 
of Justice to ensure bulk cash smuggling investigations that have a 
border nexus are coordinated government-wide.
    In March 2009, ICE deployed an additional 110 Special Agents to the 
Southwest border as part of the administration's Southwest Border 
Initiative. These agents have been initiating and supporting 
investigations into transnational crime, including bulk cash smuggling 
investigations.
    Additionally, ICE's National Bulk Cash Smuggling Center (BCSC) is 
designed to identify, disrupt, and dismantle criminal organizations 
profiting from financial crime. The BCSC, located in Burlington, 
Vermont, is a 24-hour tactical intelligence and operations facility 
providing real-time intelligence to Federal, State and local law 
enforcement agencies (LEAs) involved in enforcement and interdiction of 
bulk cash smuggling. The BCSC coordinates intelligence information with 
LEAs to refer viable investigative leads to the field and help identify 
smuggling routes and trends to address system vulnerabilities.
    As the lead DHS agency responsible for border enforcement 
activities (to include bulk cash smuggling) at our ports of entry, CBP 
will use CBP officers hired through its fiscal year 2009 appropriations 
to conduct outbound ``pulse and surge'' along the Southwest border. The 
focus of these officers will be to interdict and seize bulk cash, 
firearms, ammunition, stolen vehicles, and arrest fugitives destined to 
Mexico. ``Pulse and surge'' operations are short in duration and 
involve periodic outbound inspections followed by periods without 
inspections. This allows CBP to manage staffing, maintain the element 
of surprise, prevent operations from being predictable, counter the use 
of ``spotters,'' and to control the flow of outbound traffic.
                 transportation security administration
                    passenger screening technologies
    Question. What is the Department's long-term goal for passenger 
screening by means other than a magnetometer? Is it TSA's intention to 
screen every passenger for explosives either through Advanced Imaging 
Technology (AIT), explosives trace swabbing, canines, or pat-downs?
    Answer. TSA's fiscal year 2011 request supports the deployment of 
more than 500 AITs, which, when added to machines purchased with prior 
year funds, will screen approximately 64 percent of the traveling 
public using approximately 1,000 AITs.
    The fiscal year 2011 request also includes funding for 
Transportation Security Officers (TSOs) to staff AIT machines being 
deployed. TSA estimates that 500 machines will be deployed by the end 
of calendar year 2010.
    Question. The fiscal year 2011 request includes funding for 
Transportation Security Officers (TSOs) to staff AIT machines being 
deployed. TSA estimates that 500 machines will be deployed by the end 
of calendar year 2010. How is TSA accommodating staffing needs for AIT 
machines in fiscal year 2010?
    Answer. TSA has reallocated available resources to meet the 
additional AIT staffing requirements in fiscal year 2010.
    Question. Does the request for 5,355 additional TSO's to staff the 
new AIT machines assume that the auto resolution feature will be ready 
for deployment at the beginning of fiscal year 2011? In the event it is 
not available, what adjustments in TSA's staffing requirement are 
necessary?
    Answer. TSA's fiscal year 2011 request assumes Automated Target 
Recognition (ATR) capability will be deployed to the AIT fleet in both 
fiscal year 2010 and fiscal year 2011. TSA's fiscal year 2011 staffing 
request is sufficient to meet the staffing needs of the accelerated 
deployment of AIT units across the country.
    Question. Will there be a need for facility modifications at 
airports to accommodate AIT equipment?
    Answer. The optimal configuration and installation of AIT units at 
the airport will be determined on a case-by-case basis. Depending on 
the airport checkpoint layout, there is the possibility that facility 
modifications may be needed for AIT use.
    Question. Have airport-by-airport estimates on additional space/
facility requirements been developed?
    Answer. TSA has made preliminary estimates of the required space 
needed for multiple configurations of AIT units. In addition, TSA will 
closely coordinate with local airport authorities to ensure that all 
space/facility requirements and constraints have been taken into 
consideration.
    Question. How do you intend to pay for any additional space or 
facility upgrades that may be required to accommodate AIT equipment?
    Answer. The fiscal year 2011 budget request includes funding for 
minor facility upgrades necessary to accommodate AIT equipment.
    Question. Are sufficient resources contained in the fiscal year 
2011 request for facility modifications?
    Answer. The fiscal year 2011 budget request includes funding to pay 
for minor facility modifications that may be required to accommodate 
the AIT equipment.
    Question. What efforts will be undertaken to consult and coordinate 
with airport operators regarding deployment plans at individual airport 
facilities?
    Answer. AIT design drawings are prepared in collaboration with 
airport operators and local TSA officials prior to finalization. 
Airport authorities have numerous opportunities to comment on and 
approve designs before any work is started.
    Question. What sort of impact will the greater utilization of AIT 
equipment have on passenger wait times?
    Answer. TSA's fiscal year 2011 request provides the appropriate 
staffing level and equipment to manage passenger loads efficiently and 
expects no negative impact on passenger wait times.
    Question. What are the different requirement ``tier'' levels for 
AIT? Has AIT been certified beyond Tier 1? What is the schedule to 
attain certification for the remaining tiers?
    Answer. The AIT procurement specification outlines different 
``tiered'' requirements based on security and detection capabilities. 
The specification is classified. The AIT units that have been awarded 
have either met or exceeded stated security requirements in the 
security specification.
    From fiscal years 2002 through 2010, over $1.5 billion has been 
invested in the development and deployment of checkpoint screening 
technologies. Your budget requests an additional $360 million in fiscal 
year 2011. In October 2009, the Government Accountability Office 
criticized the Transportation Security Administration for not having a 
risk assessment, cost-benefit analysis, or performance measures to 
guide procurement decisions. Given the significant investment made in 
this area, what are you doing to address the concerns raised by GAO? 
What is the status of the congressionally mandated report on risk 
analysis and resource allocations across all transportation modes? This 
requirement was mandated in the explanatory statement accompanying the 
Department of Homeland Security Appropriations Act, 2009 (signed into 
law on September 30, 2008).
    Question. The Office of Inspector General concluded in its review 
of TSA's expenditure plan for the American Recovery and Reinvestment 
Act (ARRA) that the ``unavailability of qualified technology may delay 
projected contract award dates and the expenditure of Recovery Act 
funds.'' Of the passenger screening program acquisitions, how many are 
still undergoing qualification and operational testing? What is TSA's 
schedule for completing this testing and deploying them to the field? 
What is TSA's remaining ARRA balance? Does TSA anticipate lapsing ARRA 
funds given the IG's concerns?
    Answer. TSA is building modeling and simulation tools that balance 
levels of risk (based on current threats) with cost effective 
procurement decisions (based on available technologies). In addition, 
TSA is continuing work on the Aviation Modal Risk Assessment (AMRA), 
formerly known as the Aviation Domain Risk Assessment, as part of a 
larger cross-modal Transportation Systems Sector Risk Assessment 
(TSSRA). The TSSRA is currently undergoing Executive Level review 
within DHS. Once finalized, the TSSRA will be delivered to the 
Appropriations Committees and the Office of Management and Budget. The 
report should be delivered to the committees by the end of third 
quarter fiscal year 2010.
    Of the technologies planned for purchase with American Reinvestment 
and Recovery Act (ARRA) funding, only the Next Generation Advanced 
Technology (AT-2) X-Ray is currently undergoing operational (field) 
testing. The AT-2 is scheduled to complete all testing by June 2010, 
and contract award is anticipated in June/July (resulting in initial 
deployments commencing in July/August 2010). As of March 6, 2010, TSA 
has obligated $581 million, leaving a balance of $419 million in ARRA 
funding. All TSA ARRA funds will be obligated by the September 30, 2010 
deadline.
    Question. For passenger screening technologies, what is TSA's 
process to achieve certification of technologies prior to wide-scale 
deployment? Is each technology reviewed by the acquisition review board 
before a contract is awarded? Is operational testing conducted by a 
non-TSA independent entity for all passenger screening systems or 
equipment?
    Answer. In evaluating and procuring new Passenger Screening Program 
(PSP) technologies, TSA uses a structured methodology and process that 
complies with requirements specified by DHS Acquisitions Directive 102. 
Technology requirements are followed by both laboratory and field 
testing, resulting in the published requirements for each vendor 
submission. The collected testing results are presented at yearly (or 
on an as needed basis) TSA Investment Review Boards and DHS Acquisition 
Review Boards to review the PSP program before contracts are awarded.
    Question. The request includes funding for 350 additional behavior 
detection officers as part of the Screening Passengers by Observation 
Techniques (SPOT) program. What is the justification to increase this 
program given that an independent assessment of the program's 
effectiveness has not been completed?
    Answer. The increase in Behavior Detection Officers (BDOs) will 
allow for additional coverage at high risk Category X and I airports, 
as well as expanded coverage at smaller Category III and IV airports. 
The BDOs provide mitigation deterrence against multiple threat areas, 
and risk modeling and deterrence data strongly suggest BDOs are 
effective at detecting person-based threats.
    Question. Is SPOT training being provided to Federal Air Marshals 
or Customs and Border Protection Officers staffing international 
airports?
    Answer. The Federal Air Marshals receive similar training that 
includes behavior detection recognition and other law enforcement 
techniques. Several of their behavior cues overlap those of the SPOT 
program.
    TSA is actively working with CBP on joint training opportunities. 
The SPOT program, for example, recently trained a small number of CBP 
agents who staff overseas airports in behavioral detection.
    Question. TSA has base funding to purchase 497 advanced imaging 
technology systems (body scanners) for airports. Once deployed, what 
percentage of the flying public will be screened by AIT? If funding 
requested in the fiscal year 2011 request is approved, what percentage 
of passengers will be screened once all 1,000 systems are deployed?
    Answer. By the end of calendar year 2010, the initial 497 units 
will be deployed and approximately 37 percent of passengers will be 
screened with AIT. If the funding requested for fiscal year 2011 is 
approved and an additional 500 units are procured, 64 percent of 
passengers will be screened by AIT. With 1,000 AITs deployed, there 
will be an AIT machine in most Category X, I and II airports, which 
represent approximately 97 percent of all passenger volume. Given this 
system coverage, we estimate that over 90 percent of the traveling 
public will have the potential to be screened by an AIT.
                   explosives detection systems (eds)
    Question. Will TSA comply with congressional direction to move to a 
fully competitive EDS procurement process no later than September 30, 
2010?
    Answer. TSA has already initiated a competitive procurement process 
for the purchase of Explosives Detection Systems (EDS). An announcement 
on the Federal Business Opportunities Web site was posted on December 
11, 2009, initiating a competitive Qualified Products List process for 
the three classes of EDS: high speed, medium speed and reduced sized. 
The current strategy anticipates contract awards in January 2011. The 
current competitive procurement initiative addresses Reduced-Size, 
Medium Speed and High Speed EDS. Currently, TSA only has one 
competitive award for EDS which is for Reduced-Size. ARRA EDS purchases 
were for Reduced-Size EDS.
    Question. When will existing sole source bridge contracts expire?
    Answer. The existing Medium Speed sole-source bridge contracts are 
set to expire July 2011.
    Question. What is TSA's schedule for a competitive EDS equipment 
award?
    Answer. The competitive Explosives Detection Systems equipment 
awards are currently scheduled to be made in January 2011. The current 
competitive procurement initiative addresses Reduced-Size, Medium Speed 
and High Speed EDS. Currently, TSA only has one competitive award for 
EDS which is for Reduced-Size. ARRA EDS purchases were for Reduced-Size 
EDS.
    Question. Was the final RFP released in January 2010?
    Answer. A shift in the acquisition strategy resulted in a revised 
RFP release date of September 2010. The most recent acquisition 
strategy calls for a Qualified Products List (QPL) for Explosives 
Detection Systems (EDS), permitting a greater number of vendor 
opportunities for contract awards. Vendors will be placed on a QPL 
after successfully completing Certification (CERT) testing, Baggage 
Handling System (BHS) Interface testing, and Operational Testing. CERT 
and BHS testing is scheduled to run from May 2010 through September 
2010. Operational Testing is scheduled to run from October 2010 through 
November 2010. The EDS contract award is anticipated in January 2011.
    Question. What security standards will manufacturers have to meet 
to be eligible under the competitive award and how do those standards 
differ from current requirements?
    Answer. EDS proposed under the competitive procurement must be 
certified to the Detection Requirements Version 5.8 and meet other 
specification requirements contained in EDS Specifications Version 3.1. 
The Detection Requirements include additional explosive threats above 
and beyond those of current requirements, including ``home-made 
explosives'' (HME). The specific HME categories included in the 
Detection Requirements were first identified in collaboration with the 
intelligence community.
    Question. Are TSA's new detection capability requirements tiered? 
Please describe the security enhancements each tier requires. What is 
TSA's schedule to require EDS manufacturers to meet the standards 
developed for each tier?
    Answer. The Detection Requirements Version 5.8 are grouped into 
three distinct levels for compliance and include requirements for 
detection probabilities, false alarm rates, and screening. Level C is 
the current threshold requirement in the competitive procurement for an 
EDS to be certified for the planned contract awards in January 2011. 
Level B includes more threats than Level C, and Level A includes yet 
more threats than Level B. Threshold requirements for detection will 
likely be elevated from Level C to Level B within 12 to 18 months of 
the first competitive contract awards. It is anticipated that the 
technology capabilities necessary for Level A detection could take 
approximately 3 to 4 years to develop.
    Question. What is the schedule to receive vendor proposals, test 
and evaluate systems, and make competitive awards?
    Answer. The current schedule calls for vendor proposals to be 
submitted in October 2010. Each system will be required to successfully 
pass certification testing at the Transportation Security Laboratory 
(TSL), baggage handling integration testing at the TSA Systems 
Integration Facility (TSIF), as well as Operational Test and Evaluation 
(OT&E) at selected U.S. airports. The testing cycle is scheduled to 
begin with certification readiness testing in May 2010 and run through 
November 2010, at which time OT&E will end. Contract award is 
anticipated in January 2011.
    Question. Has TSA's Test & Evaluation Master Plan (TEMP) been 
approved by the Science & Technology Directorate?
    Answer. The Electronic Baggage Screening Program Test and 
Evaluation Master Plan (TEMP) and Checked Baggage Inspection Systems 
TEMP Addendum are currently in review with the DHS Science and 
Technology Directorate (S&T). Final versions are on track for approval 
in April 2010.
    Question. Will test and evaluation of the systems be conducted by a 
non-TSA independent entity?
    Answer. Yes, Electronic Baggage Screening Program systems are 
required to be tested by DHS S&T's Transportation Security Laboratory 
(TSL) and certified by TSA prior to operational testing. TSL will also 
perform technical testing in addition to testing conducted by the TSA 
Systems Integration Facility test team.
    Question. Will delays in the schedule to procure new EDS systems 
impact current EDS balances and funds requested in fiscal year 2011?
    Answer. TSA may carryover some fiscal year 2010 EDS funds as the 
new competitive EDS contracts will not be awarded until January 2011. 
With the new acquisition vehicles in place, TSA anticipates obligating 
the remaining fiscal year 2010 funds and those appropriated in fiscal 
year 2011.
    Question. What is the average life span of an explosives detection 
machine? What is this assessment based on? What is TSA's strategy to 
recapitalize legacy EDS equipment?
    Answer. Based on historical maintenance data collected from TSA and 
other agencies deploying this equipment, the average life spans of an 
Explosives Detection System (EDS) and of an Explosives Trace Detection 
system (ETD) are 10 and 7 years respectively. TSA has strategized to 
create a level annual recapitalization procurement and installation 
process for all existing equipment to minimize funding fluctuations. 
TSA has prioritized recapitalization of legacy EDS and ETD equipment 
based on life-cycle maintenance rankings. Equipment with operational 
performance issues will be replaced first, followed by equipment that 
has reached the end of its useful life.
    Question. Is TSA in compliance with the legislative requirement to 
allocate 28 percent of EDS funding to small and medium sized airports?
    Answer. Yes.
                               air cargo
    Question. Provide an update on compliance with the requirement for 
100 percent screening of air cargo. If the requirement has not been 
met, provide an estimate of when it will be met and if sufficient 
resources are included in the fiscal year 2011 to ensure industry is 
complying with the mandate.
    Answer. The Implementing Recommendations of the 9/11 Commission Act 
of 2007 (9/11 Act) stipulated that industry must attain 50 percent 
screening by February 2009 and 100 percent by August 3, 2010. Airlines 
met--and continue to meet--the 50 percent level as of February 1, 2009. 
Compliance with 100 percent screening of cargo uplifted in the United 
States by August 3, 2010 is on track. TSA is continuing to work towards 
establishing a system to enable 100 percent screening of all 
international inbound air cargo.
    The fiscal year 2011 budget request includes sufficient funding to 
support air cargo staffing levels, including the annualization of the 
50 additional Transportation Security Inspectors-Cargo (TSI-Cs) 
provided by Congress in the fiscal year 2010 appropriations. TSA is 
committed to placing these TSI-Cs at airports with the greatest cargo 
oversight needs.
                       airport perimeter security
    Question. Congress appropriated $4 million in each of fiscal year's 
2008 and 2009 for perimeter security projects. Several projects have 
been funded to pilot technologies to secure identified gaps in airport 
perimeters. What is the next step for TSA? Will TSA be funding 
additional projects? Will TSA provide guidance and a qualified 
technology list to airports to use as they develop airport security 
plans?
    Answer. TSA provided funding for nine perimeter security projects 
with fiscal years 2008 and 2009 funding. Four projects have been 
completed, and the final report of these tests will be made available 
to the airport community.
    Question. What is the status of TSA's efforts to place new security 
requirements on general aviation aircraft? Describe differences between 
the proposed rule and final requirements planned.
    Answer. TSA is currently developing a Supplemental Notice of 
Proposed Rulemaking (SNPRM) for the Large Aircraft Security Program and 
is taking into consideration more than 7,000 public comments received 
from the original Notice of Proposed Rulemaking and input from 
stakeholder meetings. This draft proposal will significantly strengthen 
general aviation security.
    The SNPRM will include measures that protect against acts of 
criminal violence and air piracy; prevent or deter the introduction of 
explosives, incendiaries, or other dangerous articles into the secure 
area of commercial-use airports; and protect the public from the use of 
the aircraft/operation as a weapon or conveyance mechanism.
                    surface transportation security
    Question. The request highlights rulemakings and security standards 
that will be published in either fiscal year 2010 or fiscal year 2011 
with implementation to follow. Provide a summary of these rulemakings 
and security standards. Considering that the budget for surface 
transportation staffing and operations decreases in fiscal year 2011, 
would TSA have sufficient funds to carry out these plans and to oversee 
new regulations? Of the Surface Transportation budget, how much is 
available in fiscal year 2010 for regulation and security standards 
development and oversight? How much is requested in fiscal year 2011?
    Answer. In response to the 9/11 Act, TSA is conducting a rulemaking 
that will require surface mode employers to develop and implement 
programs to provide security training for their employees. TSA is 
conducting this rulemaking to implement sections 1408, 1517, and 1534 
of the 9/11 Act, which require security training programs for frontline 
employees of freight rail, transit agencies, passenger rail, and over-
the-road-bus (OTRB) operators. The rulemaking will include similar 
requirements for motor carriers transporting Highway Security-Sensitive 
Materials (HSSM).
    In addition, TSA is preparing a second rulemaking to implement 
sections 1405, 1512, and 1531 of the 9/11 Act, which direct TSA to 
issue a rule requiring freight rail employers, public transportation 
agencies, passenger rail carriers, and OTRB operators to develop 
comprehensive security plans and conduct vulnerability assessments. 
TSA's rulemaking would impose similar requirements on motor carriers 
transporting HSSM.
    The fiscal year 2011 request includes sufficient funds to carry out 
these plans and to oversee new regulations.
    The fiscal year 2010 appropriation provides $2.4 million in support 
of regulations development and oversight. The fiscal year 2011 budget 
request includes the same level of funding for this effort.
    Question. In fiscal year 2010, TSA plans to complete 16-20 
Intermodal Security Training Exercise Programs. How many are planned 
for fiscal year 2011?
    Answer. TSA plans to complete 16-20 Intermodal Security Training 
and Exercise Program exercises in fiscal year 2011 as well.
    Question. How much is requested for the Layered Security 
Operational Test-Bed? Provide historical funding for the effort and its 
success in developing technological and operational solutions to 
prevent terrorism in mass transit and passenger rail systems. What 
efforts are planned in fiscal year 2010 and fiscal year 2011?
    Answer. DHS S&T provides funding for the Layered Security 
Operational Test-Bed and the development of the technology and 
operational solutions. TSA provides subject matter support and works 
with S&T, as well as transit agency security partners, to plan and 
facilitate layered operational tests to evaluate the effectiveness of 
new technology and operational practices.
    One of the recent successful operational solutions that have gone 
through this process is bus disabling technology. This technology 
allows for the remote command from an operations center to immobilize a 
bus. This immobilization does not disable vehicle functions such as 
steering and braking, but rather affects the fuel control system 
allowing the bus to slow or stop. This precludes the bus being used as 
a weapon by terrorists. TSA is working with the Federal Emergency 
Management Agency to establish a new category for this technology on 
the Authorized Equipment List (AEL).
    Currently, there are on-going tests with the Blast-Resistant 
Autonomous Video Equipment, which can be used at bus and rail stations. 
The operational tests are being conducted at four locations (San Diego, 
New Orleans, Spokane, and Buffalo) to evaluate the system's performance 
under a wide range of diverse environmental conditions.
                           program integrity
    Question. How much (dollars and FTE) is included in the fiscal year 
2011 request for program integrity efforts compared to fiscal year 2009 
and fiscal year 2010. Please describe these activities.
    Answer. For fiscal year 2009, the Office of Inspection (OOI) had 
197 full-time employees, with a budget of $38.45 million. For fiscal 
year 2010, OOI has 197 full-time employees, with a budget of $40.4 
million. The fiscal year 2011 budget request includes $45.15 million 
and 209 FTE for OOI to fund current operations and increase covert 
testing in support of Advanced Imaging Technology (AIT) deployment.
    The Office of Inspection is an independent investigative/internal 
affairs component for TSA and reports directly to the TSA Administrator 
and Deputy Administrator. The OOI staff is located within TSA 
headquarters, 5 regional offices, and 18 satellite offices. These 
employees conduct criminal and employee misconduct investigations, 
compliance inspections, internal reviews, vulnerability assessments for 
insider threats, and covert testing.
                          federal air marshals
    Question. Under current procedures, the Federal Air Marshals decide 
which planes to put Air Marshals on based on factors related to the 
arrival and departure locations of the flight. According to recent 
agency briefings, Federal Air Marshals are not put on flights based on 
whether or not specific individuals, who might be a threat, are on a 
flight. CBP gets information 72 hours in advance of flights of 
individuals who have tickets for a flight. While this manifest may not 
include all ticketed passengers, can this information be shared in real 
time with the Federal Air Marshals so that when a selectee is expected 
to be on a flight, the Marshals have time to get on that flight?
    Answer. FAMs do not have jurisdiction on foreign flagged carriers 
and cannot provide in-flight security. Any selectee on a foreign air 
carrier's flight to the United States will undergo enhanced screening 
prior to boarding the flight, pursuant to TSA-mandated measures under 
the foreign air carrier's TSA-accepted security program. CBP will also 
conduct additional screening upon their entrance into the United 
States.
                              coast guard
                               workforce
    Question. The Coast Guard's budget request reduces military 
strength by 1,112 billets and cuts recapitalization efforts by 10 
percent. The Coast Guard is the only branch of the military to see its 
workforce decreased in the President's budget. It is a reduction of 
capacity and capability for an agency that rescued 33,000 people 
following Hurricane Katrina and was first on scene to evacuate over 
1,000 U.S. citizens from Haiti.
    The Commandant said the cuts to military personnel were necessary 
to pay for capital priorities, particularly the 5th National Security 
Cutter. No other military service chief was faced with this tradeoff--
people versus assets. Why was the Commandant of the Coast Guard faced 
with this false choice? If the Coast Guard were provided resources to 
maintain these billets, how would you re-allocate them to other Coast 
Guard priorities?
    Answer. The majority of these billets are associated with legacy 
assets that are being decommissioned as part of overall surface fleet 
recapitalization. Regardless of funding availability, these billets are 
removed once the assets are removed from inventory. Consistent with the 
Deepwater plan, these billet decreases are offset by billet increases 
associated with the new assets coming online. In fiscal year 2009 and 
2010, Coast Guard added 559 full-time positions (FTPs) to staff 
Deepwater assets. The fiscal year 2011 request funds another 336 FTP, 
for a total of nearly 900 new personnel to support Deepwater assets 
alone.
    The remaining billets are associated with several administrative 
and operational consolidation and realignment initiatives that more 
efficiently allocate resources to our highest priorities.
                 unintended loss of critical skillsets
    Question. The Coast Guard's budget request reduces military 
strength by 1,112 billets. This reduction will likely result in slower 
promotion/advancement rates for all levels within the Coast Guard. This 
is of particular concern for the CG members that are retirement 
eligible (20 or more years of service) who typically have more 
qualifications and critical skill sets that are needed to maintain 
integrity of the Coast Guard workforce. These members may decide to 
retire earlier than expected if promotion/advancement are significantly 
delayed, resulting in an unintended consequence that severely degrades 
the Coast Guard's capability even further. With these reductions, will 
the Coast Guard be able to maintain parity with DOD advancement rates? 
What are the projected delays/impacts to promotion rates (by rate/
rank)? Which CG specialties/ratings will be most significantly 
impacted?
    Answer. Most of the military strength reduction in fiscal year 2011 
will be associated with decommissioning of legacy assets.
    The following outlines the anticipated impacts of the fiscal year 
2011 budget request for both the officer and enlisted workforce:
  --Officer Workforce--.Coast Guard officer promotion points have 
        historically maintained parity with DOD promotion timing, which 
        are mandated by the Defense Officer Personnel Management Act. 
        The Coast Guard will continue to make annual internal 
        adjustments as needed to maintain promotion point targets.
  --Enlisted Workforce--.For the past few years, the Coast Guard has 
        been growing and advancing to meet the needs of the service. 
        The fiscal year 2011 budget will support efforts to increase 
        the experience and technical expertise of our workforce.
    The workforce changes reflected in the fiscal year 2011 budget 
request are associated with legacy assets that are being decommissioned 
as part of overall surface fleet recapitalization. The impacted 
positions include Maritime Enforcement Specialist, Electronics 
Technicians and Gunners Mate.
                     coast guard cutter reductions
    Question. How many high endurance cutter hours will be reduced by 
decommissioning four high endurance cutters and one medium endurance 
cutter in fiscal year 2011? How many of those hours be offset in fiscal 
year 2011 by new assets (National Security Cutters)? Is there already a 
gap in operational hours necessary for major cutters? What is the 
current gap? By how many hours will the gap increase in fiscal year 
2011 if the request is enacted? What is the gap (in years) between the 
planned decommissioning of the four HEC's and having four NSCs to 
replace them? Did the cutters proposed for decommissioning contribute 
to the removal of cocaine in fiscal year 2009? By how much and what is 
the estimated street value of this drug?
    The justification states that a disproportionate share of the depot 
level maintenance budget is being used to sustain these aging assets. 
Provide a chart (fiscal year 2004-fiscal year 2009) displaying the 
annual maintenance costs for each HEC cutter and the days out of 
service.
    Answer. The number of operational hours is not a measure of 
performance--while the fully operational fleet of NSC will have fewer 
operational hours, it is expected to perform more effectively than the 
HEC fleet.
    The four WHECs programmed to be decommissioned are CHASE, HAMILTON, 
JARVIS, and RUSH. In fiscal year 2009, these cutters contributed to the 
removal of 35,100 lbs of cocaine (10 percent of total cocaine removed 
by Coast Guard forces) and 400 lbs of marijuana. In 2009, in its first 
operational patrol, the first NSC successfully disrupted a multi-vessel 
drug transfer in the Easter Pacific.
    The justification states that a disproportionate share of the depot 
level maintenance budget is being used to sustain these aging assets.

                                     FISCAL YEAR 2004-2009 LOST CUTTER DAYS
----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal  Fiscal  Fiscal  Fiscal  Fiscal  Fiscal
                                                                   year    year    year    year    year    year
                                                                   2004    2005    2006    2007    2008    2009
----------------------------------------------------------------------------------------------------------------
CGC BOUTWELL (719)..............................................  ......  ......  ......  ......      34       5
CGC CHASE (718).................................................  ......  ......      10  ......  ......      40
CGC DALLAS (716)................................................  ......  ......      27       3       6     185
CGC GALLATIN (721)..............................................  ......  ......      30  ......      28     185
CGC HAMILTON (715)..............................................  ......  ......      40  ......  ......      39
CGC JARVIS (725)................................................  ......  ......     221      51      61       6
CGC MELLON (717)................................................  ......  ......      73  ......  ......      72
CGC MIDGETT (726)...............................................  ......  ......      61  ......       6       2
CGC MORGENTHAU (722)............................................  ......  ......       5  ......  ......  ......
CGC MUNRO (724).................................................  ......  ......  ......  ......  ......  ......
CGC RUSH (723)..................................................  ......  ......       1     114      59      14
CGC SHERMAN (720)...............................................  ......  ......      40      60     110      21
                                                                 -----------------------------------------------
      WHEC 378 Class (Total)....................................  ......  ......     508     228     304     569
----------------------------------------------------------------------------------------------------------------
Per the Cutter Employment Standards COMDTINST 3100.5B: Lost cutter days are defined as any day a cutter cannot
  meet its mission due to unforeseen circumstance; i.e., an engineering casualty, repairs, weather delays, storm
  avoidance thus affecting the readiness of the cutter. Collection for this data did not begin until 2006.


                    HM&E DEPOT OF MAINTENANCE EXPENDITURES RECORDED BY FISCAL YEAR (BY HULL)
----------------------------------------------------------------------------------------------------------------
                                           Total maintenance expense by hull (in fiscal year 2009 $)
                             -----------------------------------------------------------------------------------
                               Fiscal year   Fiscal year   Fiscal year   Fiscal year   Fiscal year   Fiscal year
                                  2004          2005          2006          2007          2008          2009
----------------------------------------------------------------------------------------------------------------
CGC BOUTWELL................     4,297,727     1,788,692     1,908,875     2,264,376     4,028,012     3,892,417
CGC CHASE...................     4,260,285     1,828,091     1,827,989     1,754,233     6,531,060     1,954,962
CGC DALLAS..................     2,187,403     1,897,620     3,218,009     2,554,173     2,158,867     8,598,201
CGC GALLATIN................     1,839,775     4,364,643     2,563,900     1,962,321     4,223,875    15,900,127
CGC HAMILTON................     2,113,341     2,812,460     1,426,031     4,828,757     2,481,080     3,283,410
CGC JARVIS..................     4,975,230     2,411,220     4,629,516     3,938,828     1,646,301     5,730,796
CGC MELLON..................     2,048,151     1,824,159     3,905,402     1,994,059     1,736,505     1,959,120
CGC MIDGETT.................     2,374,630     2,442,144     4,147,895     2,747,483     1,117,877       958,602
CGC MORGENTHAU..............     2,277,219     5,730,534     1,395,674     2,291,549     1,842,569     2,365,969
CGC MUNRO...................     5,395,923     2,706,633     1,944,422     5,817,612     1,065,122     3,686,054
CGC RUSH....................     3,213,709     4,038,253     2,902,747     3,803,210     2,133,902     7,238,903
CGC SHERMAN.................     2,247,616     5,565,939     2,491,801     3,972,786     1.343,174     1,592,630
                             -----------------------------------------------------------------------------------
      WHEC-378  Total.......    37,231,009    37,410,389    32,362,261    37,929,385    30,308,344    57,161,192
----------------------------------------------------------------------------------------------------------------
Hull, Mechanical & Electrical (HM&E) Depot Maintenance Expenditures include Depot Spare Funding (LSL), Equipment
  Obsolescence Funding & Engineering Services (CGMAP, SSMEB, TCTO Development, etc.). Does not include unit
  level maintenance, depot level maintenance or C4ISR equipment, or major repair and renovation funded by AC&I.

                decommissioned assets and surge capacity
    Question. How will the budget request to decommission various 
assets impact the Coast Guard's ability to surge in response to a 
crisis? For instance, what role (if any) did the assets proposed for 
decommissioning play in response to the earthquake in Haiti?
    Answer. None of the planned decommissionings in fiscal year 2011 
eliminate an entire asset type, and these types of assets will be 
available as future surge needs dictate.
                     national security cutter (nsc)
    Question. The budget request includes no funding for long lead time 
materials for National Security Cutter No. 6. What is the estimated 
cost of long lead time materials for NSC No. 6? For some acquisitions, 
longlead materials are funded in advance to maintain a planned 
production schedule. Does the fact that long lead time materials for 
NSC No. 6 are not funded in the request impact the Coast Guard's 
delivery schedule for the cutter? If so, what is the schedule delay? If 
long lead time materials for NSC No. 6 are funded in fiscal year 2011, 
would the full cost of the cutter be less than if the entire cost for 
NSC No. 6 was funded in fiscal year 2012. If so, what are the estimated 
savings?
    Answer. The fiscal year 2011 Capital Investment Plan includes 
funding for a sixth National Security Cutter. No separate request will 
be made for any long lead materials, as this type of incremental 
funding is not consistent with OMB Circular A-11.
                national automatic identification system
    Question. The budget provides no acquisition funding for the 
Nationwide Automatic Identification System (NAIS). The Maritime 
Transportation Security Act of 2002 required certain vessels operating 
in the navigable waters of the United States to be equipped with and 
operate an automatic identification system (AIS). The Coast Guard has 
been developing NAIS, which is critical to identify, track, and 
communicate with marine vessels that use AIS. The Coast Guard estimates 
that the system won't be completed until 2015; 13 years after Congress 
mandated that vessels be equipped with AIS.
    Why isn't this program a higher priority given the need to enhance 
the Coast Guard's Maritime Domain Awareness?
    Answer. As shown in the 2011-2015 Capital Investment Plan, the NAIS 
program is funded through its completion in 2014. No funding is 
requested for fiscal year 2011 because the Coast Guard plans to use 
$7.8 million of prior year funding to continue the NAIS acquisition.
    Question. According to the Coast Guard, NAIS' Acquisition Program 
Baseline (APB) is under DHS review. What is the status of the APB 
review (by individual NAIS increment)?
    Answer. The Nationwide Automatic Identification System (NAIS) 
Acquisition Program Baseline, including all increments, is currently 
under revision.
    Question. What is the cost to deploy current NAIS capability to the 
remaining 32 sectors (covering the remainder of the existing 58 major 
ports and coastal areas), in addition to the 3 sectors (Mobile, Hampton 
Roads, and Delaware Bay (Philadelphia)) that are funded via prior 
appropriations?
    Answer. The project is currently using prior year funds of $7.8 
million to design and test the new NAIS infrastructure. The projected 
out-year funding of $24 million will enable the Coast Guard to deploy 
this system to the existing 58 major ports and coastal areas.
    Question. Could the Coast Guard make use of these funds in fiscal 
year 2011 if available?
    Answer. The fiscal year 2011 request accurately reflects USCG 
acquisition priorities and we strongly supports the current funding 
profile.
    Question. Are there impediments to obligating funds in fiscal year 
2011?
    Answer. No.
    Question. Provide a chart showing the costs associated with each 
increment, how much has been funded to date for each increment, 
remaining requirements for each increment (by segment), and the 
acquisition review status for each increment and segment.
    Answer. Please see the following chart.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                        Project
                     Increments                          Mgmt      58 ports    Permanent  50-2,000nm     Total
----------------------------------------------------------------------------------------------------------------
Cost................................................        24.5        38.8        49.7         6.5       119.5
Funded..............................................        24.5        38.8        25.7         6.5        95.5
Remaining...........................................  ..........  ..........          24  ..........          24
Review..............................................     ( \1\ )     ( \2\ )     ( \3\ )     ( \3\ )     ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Not available.
\2\ Complete.
\3\ Under revision.

                     interagency operation centers
    Question. The Safe Ports Act of 2006 requires the Secretary to 
establish interagency operational centers for port security at all 
high-priority ports not later than 3 years after the date of enactment 
of the SAFE Port Act. According to the budget request, IOCs will not be 
completed until 2015. Why hasn't the Department complied with this 
mandate?
    Answer. The Department is meeting this mandate. The Coast Guard 
received its initial appropriation to establish Interagency Operations 
Centers (IOCs) in fiscal year 2008, and the first IOC (Charleston, SC) 
was established in September 2009. The WatchKeeper information 
management system, one of the foundational capabilities of IOCs, will 
be deployed to all 34 remaining high priority ports in fiscal year 
2010-2011.
    Question. Are the Coast Guard's plans for IOCs consistent with the 
legislative intent of section 108 of Public Law 109-347?
    Answer. Yes.
    Question. The Coast Guard plans for IOCs include different 
segments. Please describe them and the capabilities they will provide 
to the Coast Guard and its port partners.
    Answer. The IOC acquisition project contains the following 
segments:
  --Information Management.--The ``WatchKeeper'' Web-based software 
        will integrate data from existing interagency databases and 
        provide a single common display, allowing for joint targeting 
        and operations planning, monitoring, and execution between all 
        port partners.
  --Sensor Integration.--Existing sensors belonging to multiple 
        Federal, State, and local agencies, as well as private 
        industry, will be identified and integrated into WatchKeeper to 
        provide robust, in depth, real-time monitoring of ports and 
        waterways. Integration with port partner databases will also be 
        improved.
  --Other critical elements of an IOC include established protocols to 
        achieve interagency planning, coordination and operations, as 
        well as adherence to the best practices described in the 
        Maritime Port Operations Handbook and IOC Concept of 
        Operations.
    Question. A final test report for Watchkeeper is to be completed by 
March 2010. Provide a summary of the report's findings.
    Answer. The WatchKeeper schedule was updated to allow more time to 
finish operational testing, mature the WatchKeeper integrated logistics 
support approach, and minimize the impact of the deployment on the 
operations of the receiving IOC units. As such, the operational testing 
and evaluation report for the current version of WatchKeeper is being 
finalized with expected completion in the spring of 2010.
    Question. An acquisition decision to produce, deploy, and support 
the initial segment of Watchkeeper is scheduled for April. Is that 
decision on schedule and what does it entail?
    Answer. This acquisition decision will happen in June 2010, and it 
requires completion of project documentation in accordance with the 
Coast Guard Major Systems Acquisition Manual. The project will also 
meet the DHS Acquisition Decision Memorandum exit criteria for the next 
acquisition phase.
    Question. Originally, Watchkeeper was to be deployed to all Coast 
Guard sectors in fiscal year 2010. The Coast Guard has since delayed 
deployment, which will not be completed until the 3rd quarter of 2011. 
What is the cause of the delay?
    Answer. In accordance with the Coast Guard Commandant's March 2008 
Interagency Operations Center (IOC) Expenditure Plan to Congress, 
WatchKeeper deployment (via training and access) to the first sites 
will begin in the third quarter of fiscal year 2010 with the remaining 
high priority ports receiving the WatchKeeper capability in fiscal year 
2011.
    Question. Provide a chart showing the costs associated with each 
IOC Segment, how much has been funded to date for each segment, 
remaining funding requirements for each segment, and the acquisition 
review status for each increment. Facility cost requirements should be 
included.
    Answer. Please see the following chart.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                          IOC segments                           WatchKeeper    Sensors   Facilities     Total
----------------------------------------------------------------------------------------------------------------
Cost...........................................................        28.69        34.6       19.71          83
Funded.........................................................        28.69        22.6       19.71          71
Remaining......................................................  ...........          12  ..........          12
Review.........................................................      ( \1\ )     ( \2\ )     ( \3\ )     ( \4\ )
----------------------------------------------------------------------------------------------------------------
\1\ Pending ADE-3.
\2\ Pending ADE-2.
\3\ Completing.
\4\ Not available.

                         offshore patrol cutter
    Question. The Coast Guard awarded a contract for an alternatives 
analysis in July 2009. Results of the analysis are expected in Spring 
2010. What is the status of the work and initial findings? Provide the 
acquisition schedule for the OPC. Have requirements for the vessel been 
completed?
    Answer. The Alternative Analysis (AA) study is in progress and is 
expected to be completed in the fourth quarter of fiscal year 2010. The 
Offshore Patrol Cutter (OPC) project is in the Analyze/Select phase of 
the acquisition process; its schedule is being finalized and will be 
dependent upon the approval of the acquisition strategy.
                        patrol boat sustainment
    Question. No funding is included in the budget request (or 
outyears) to send the final three hulls (18-20) that were planned to go 
through the Mission Effectiveness Project (MEP). According to the Coast 
Guard, the MEP dramatically improves the overall mission effectiveness 
of the 110' WPB cutter class until it is replaced with appropriately 
capable assets. What is the justification for discontinuing this 
program? What is the current patrol boat operational gap? Will the gap 
increase because of this decision? If so, by how much?
    Answer. Recapitalization is critical to preserving future surface, 
air, and shore asset capability. The fiscal year 2011 budget focuses 
resources toward recapitalization of aging cutters, aircraft and 
supporting infrastructure, including the replacement of the 110-foot 
Island Class Patrol Boat to address the patrol cutter operational gap. 
Recapitalization is necessary to mitigate the long-term patrol gap, 
and, though the Mission Effectiveness Project will not be pursued, 
hulls 18-20 will continue to operate, and thus not exacerbate the near-
term operational gap.
                                 c-130s
    Question. Has an alternatives analysis been conducted of the Coast 
Guard's future capital investment in HC-130H and HC-130J? If so, what 
alternatives were studied? What were the conclusions of the study? 
Please include the alternatives considered and the life cycle cost 
estimate and mission effectiveness analysis. Are the findings of the AA 
consistent with the Coast Guard's investment strategy contained in the 
Capital Investment Plan? Is the Coast Guard considering revising its 
investment strategy based on the findings of the Alternatives Analysis? 
What is the mix of HC-130s (Hs & Js) to best meet Coast Guard mission 
requirements?
    Answer. A Business Case Analysis (BCA) was commissioned to 
determine the best investment option for the Coast Guard C-130 fleet. 
An internal study was completed in 2007, and a Naval Air Systems 
Command study was completed in 2008. The BCA showed the following life-
cycle costs for the below listed three alternatives:
    (a) Current Program of Record (16 HC-130Hs/six HC-130J)--Life cycle 
cost of $8.6 billion;
    (b) Full recapitalization (22 HC-130Js/retire all HC-130Hs)--Life 
cycle cost of $7.1 billion; and
    (c) Hybrid fleet (11 HC-130J/11 HC-130Hs)--Life cycle cost of $8 
billion.
    The life cycle costs of alternatives (a) and (b) are driven 
primarily by the need to replace all C-130s within the next 7 years. 
Sixteen will require recapitalization.
    While alternative (b) presents the lowest life cycle cost, it 
results in an increase in acquisition cost above the current 
Acquisition Program Baselines.
    The Coast Guard is considering revising its investment strategy 
based on these findings. The Capital Investment Plan supports the 
Acquisition Program Baselines for the current programs of record.
           coast guard unmanned aerial system (uas) strategy
    Question. No funding is included in the Coast Guard's Capital 
Investment Plan (fiscal year 2011-2015) for cutter based or land based 
UAS. What is the acquisition strategy for both the cutter based and 
land based UAS? Provide a schedule (by fiscal year) with incremental 
acquisition events and corresponding funding needs (to the extent 
known). Is the Coast Guard scheduled to complete the ``Need Phase'' 
(ADE-1) in fiscal year 2011, which authorizes the project to enter the 
``Analyze/Select Phase'' to explore alternatives? If so, how much is 
necessary in fiscal year 2011 for the ``Analyze/Select Phase''?
    Answer. DHS Headquarters approved the Coast Guard's unmanned 
aircraft system (UAS) strategy to acquire mid-altitude long-range and 
low-altitude cutter-based tactical UAS to meet mission requirements, 
while emphasizing (1) commonality with existing DHS and Department of 
Defense (DOD) programs; (2) project maturity in terms of technology and 
production; (3) using studies and analyses to mitigate risk using 
Advanced Concept Technology Demonstration (ACTD) and Low-Rate Initial 
Production (LRIP); and (4) leveraging UAS development in other 
organizations. Accordingly, the Coast Guard established formal 
partnerships with Customs and Border Protection (CPB) to collaborate 
with their maritime UAS program and the Navy's Vertical Takeoff and 
Landing Tactical Unmanned Air Vehicle (Fire Scout) program office.
    The Coast Guard expects to complete the UAS ``Need Phase'' (ADE-1) 
in fiscal year 2011. Using a disciplined systems engineering approach 
to ensure UAS technology and production maturity, the Coast Guard plans 
to conduct the Analyze/Select phase while the Coast Guard Research & 
Development Center conducts land-based and cutter-based UAS ACTDs in 
support of acquisitions analysis, planning, and decisions.
    The Coast Guard intends to continue its partnership with the Navy 
on the Fire Scout program and with CBP on the Guardian (Maritime 
Variant Predator (land-based UAS)). These activities will provide the 
Coast Guard opportunities to further study and analyze evolving UAS 
capabilities and refine operational and logistical requirements for 
Coast Guard specific applications. These efforts will also 
significantly mitigate the overall risk of the Coast Guard UAS 
acquisition program.
                             arctic policy
    Question. In his recent State of the Coast Guard address, when 
discussing Arctic policy and the Coast Guard's responsibilities, the 
Commandant said, ``some say it is mission creep and not our duty. I 
disagree and we need to have a serious discussion about it.'' What is 
the administration's position on this ``mission creep'' issue? When 
will a national arctic policy be completed and will it clearly define 
the Coast Guard's role, including the establishment of Federal 
requirements for the polar regions?
    Answer. National Security Presidential Directive-66/Homeland 
Security Presidential Directive-25, Arctic Region Policy, remains the 
administration's policy regarding the Arctic region. Implementation of 
the Arctic Region Policy, including any changes to current roles and 
responsibilities, would proceed through normal interagency coordination 
processes.
               maritime security and safety teams (mssts)
    Question. If the five MSSTs that are proposed for termination are 
eliminated, provide data on assets available in each of the five 
regions to meet mission requirements for those regions.
    Answer. To make the most of current operating capabilities, the 
fiscal year 2011 budget request transitions the Maritime Safety and 
Security Teams (MSST) to a regional model, enabling the Coast Guard to 
rapidly deploy teams of skilled professionals to ports and operating 
areas across the country based on risk and threats as needed. The teams 
were selected based on existing Coast Guard presence in their region. 
Transitioning the MSSTs to a regional model will enable the Coast Guard 
to rapidly deploy teams of skilled professionals to ports and operating 
areas across the country based on risk and threats as needed.
    The Coast Guard will also continue to leverage all available 
intelligence resources and partnerships across DHS, the Federal 
Government and State and local law enforcement to collectively mitigate 
risks and ensure the security of the Nation's ports.
                 maritime security response team (msrt)
    Question. The Coast Guard originally envisioned three MSRT teams 
(East, West and Gulf Coast). However only one exists today (East Coast) 
and the budget request proposes to eliminate two HH-60's from the 
Chesapeake, VA based team. What operational impact will this reduction 
have on the current MSRT? Prior to the submission of the fiscal year 
2011 budget, had the Coast Guard considered expanding MSRT 
capabilities? Given that the MSRT is east coast based, what 
capabilities does the Coast Guard have to respond to a terrorist event 
or plot on the West or Gulf Coasts? Is the Coast Guard the best Federal 
agency to perform this type of mission?
    Answer. While the Coast Guard is the lead Federal agency for 
maritime security, some high-end capabilities originally envisioned for 
the MRST, such as tactical vertical insertion against hostile vessels, 
already exist in other Federal agencies (e.g., the Departments of 
Justice and Defense). All these capabilities have been, and will 
continue to be, marshaled under the Maritime Operational Threat 
Response (MOTR) process, a paradigm that has proved extremely effective 
and capable of managing the coordinated dispatch of interagency 
resources to respond to maritime security threats and incidents.
                                loran-c
    Question. The Coast Guard estimates that long-term environmental 
remediation costs are estimated to be between $58 million for the best 
case scenario, to $242 million for the worst case scenario. Given these 
costs, why does the Coast Guard request to non-recur $12 million funded 
in fiscal year 2010 for LORAN? What is the estimate in fiscal year 2011 
to conduct environmental due diligence assessments and commence 
restoration to facilitate divestiture? How will the Coast Guard pay for 
these costs in fiscal year 2011?
    Answer. The $12 million in the fiscal year 2010 budget was for 
operations and maintenance (O&M) funding through January 2010. Since 
the system will not be operating in fiscal year 2011, and O&M funding 
cannot be used for Environmental Compliance and Restoration purposes, 
the funding has been terminated.
    The Coast Guard estimates that up to $12 million could be obligated 
in fiscal year 2010 and into fiscal year 2011 to conduct site 
assessments and begin environment remediation efforts to prepare the 
sites for divestiture.
       national strike force transition from coordination center
    Question. The Coast Guard's budget request eliminates the National 
Strike Force's (NSF) Coordination Center which provides specific 
functions for the three Coast Guard`s specialized response Strike 
Teams. The Coordination Center was created as a direct result of 
lessons learned from the Exxon Valdez spill and Oil Pollution Act (OPA) 
90, the need for coordination and standardization of the NSF Strike 
Teams. What analysis has the Coast Guard conducted to determine the 
benefits/efficiencies achieved by the elimination of the Coordination 
Center? Provide plan of where the authorities and responsibility of the 
coordination center will be transferred to, and what impact, if any, 
will that have on the three strike teams ability to maintain 
consistency. If a study was conducted to determine this decision, 
please provide report.
    Answer. The Coast Guard will continue to perform all functions 
required by the Oil Pollution Act of 1990 as amended by the Federal 
Water Pollution Control Act. The Coast Guard plans to align functional 
responsibilities within the Deployable Operations Group and the 
Headquarter's Office of Incident Management and Preparedness. 
Eliminating redundant fiscal, logistics, and administrative support 
already provided through the Deployable Operations Group will generate 
efficiencies in operations, oversight, and program management.
    Co-location of elements of the National Strike Force Coordination 
Center with the Deployable Operations Group and the Coast Guard's 
Office of Incident Management and Preparedness will enhance Marine 
Environmental Protection services and foster better administration of 
Strike Teams established under the National Contingency Plan.
                  uscg oil/hazmat response capability
    Question. What does the Coast Guard intend to do with the remaining 
NSF Strike Teams if the Coordination Center is eliminated? Has the 
Coast Guard conducted a workforce analysis to see if the Strike Teams 
are optimally manned and has there been an analysis of the type of 
response equipment that the Strike teams inventory and maintain 
comparted to what is regionally offered by industry? What impact has 
the CG's Sectorization of major shore units had on the HAZMAT/Oil Spill 
Response and environmental protection mission? Has there been an 
increase/decrease in Federal On-Scene Coordinator capacity and 
expertise, since the Coast Guard has gone to the Sector Model? If so, 
explain why?
    Answer. Co-location of elements of the National Strike Force 
Coordination Center with the Deployable Operations Group and the 
Headquarter's Office of Incident Management and Preparedness will 
enhance Marine Environmental Protection services and foster better 
administration of Strike Teams established under the National 
Contingency Plan. The fiscal year 2011 request does not impact the 
competencies or capacity of the three Strike Teams.
    The formation of Coast Guard Sectors strengthened Marine 
Environmental Protection mission performance. The Sector Command 
combines responsibilities and authorities previously shared by two or 
more commands into a single operational unit. This construct enables a 
Sector Commander to quickly assess a maritime emergency, whether 
terrorist attack, natural disaster or manmade incident, and have the 
assets and authority necessary for a rapid, well-coordinated response. 
Moreover, the same Command through its integrated daily operations is 
responsible for enforcing regulations governing maritime safety, marine 
environmental protection, and maritime security. Federal On-Scene 
Coordinator (FOSC) capacity and expertise remains a core function of 
the Sector organization and the Coast Guard currently has more 
qualified FOSC Representatives than positions requiring the 
qualification.
                   closing of michigan air facilities
    Question. How many individuals have been rescued, and how many 
lives saved with assets deployed from the two air facilities proposed 
for closure?
    Answer. Helicopters attached to Air Facility (AIRFAC) Muskegon 
saved six lives and assisted 21 individuals between 2004 and 2009. 
Helicopters attached to AIRFAC Waukegan saved seven lives and assisted 
sixteen individuals between from 2004 and 2009.
                             secret service
    Question. The intent of Congress in the fiscal year 2009 Homeland 
Security Appropriations Act was that the Secret Service would establish 
a field office in Tallinn, Estonia--in part to conduct investigations 
and respond to cyber attacks against government computer systems in 
that region. As requested in the President's fiscal year 2010 budget 
request, Congress provided the funds to open this office. To date, the 
Department has yet to submit the required NSDD-38 to the Department of 
State to begin the process of opening the office the President 
requested Congress fund and open. It has been nearly 2 years since 
these cyber attacks began and the Department claims that cyber security 
is a top priority. What is the delay in opening this office? Who in the 
Department is second-guessing the President on this issue?
    Answer. The NSDD-38 for the USSS office in Tallinn, Estonia was 
approved on March 10, 2010 by Deputy Secretary Lute, and the Department 
has now submitted the required NSDD-38 to the Department of State to 
begin the process of opening the office. Approval of the NSDD-38 for 
the USSS office in Tallinn, Estonia was initially delayed as it became 
part of a comprehensive review of the Department's overseas presence 
that the Deputy Secretary ordered in order to rationalize DHS's 
international footprint.
              national protection and programs directorate
                             cyber security
    Question. Both the fiscal year 2011 budget request and the 
Quadrennial Homeland Security Review Report single out ``safeguarding 
and securing cyberspace'' as a top five priority. Yet, the budget 
request includes a 4.6 percent cut compared to the fiscal year 2010 Act 
for National Protection and Programs Directorate cyber security 
efforts. The budget justification even indicates that the reduction 
will slow the deployment of the intrusion detection system and that we 
are playing catch up on having effective assessment, testing, and 
analysis functions. While some of these programs, like Einstein, have 
had implementation issues, the budget proposal and description does not 
inspire confidence that the necessary improvements will be made to the 
programs or that new programs are in the making. How does this budget 
request meet the necessary cyber security needs of this Nation, which 
is under daily attack from a very dynamic threat acted on by a wide 
range of those who wish to steal information or do us harm?
    Answer. The 2011 budget continues to fund key administration cyber 
security programs to address and counter the threat from cyber attack. 
Programs receiving increases in fiscal year 2011 include Situational 
Awareness (Assessment, Testing, and Analysis)--$9.569 million; 
Cybersecurity Coordination--$5.000 million; Strategic Initiatives 
(Cyber Exercises)--$3.283 million; Strategic Initiatives (Control 
Systems)--$0.700 million; and Outreach Programs (International Affairs 
and Public Policy)--$0.003 million, totaling $18.555 million. These 
increases ensure that core cyber security efforts will continue 
allowing DHS to mitigate the growing cyber threat within the funds 
requested.
    However, some cyber security programs within the National Cyber 
Security Division (NCSD) are reduced in the 2011 budget, totaling 
$38.882 million. The specific reductions include the discontinuation of 
earmarks ($13.600 million); the elimination of non-recurring costs such 
as the DHS Data Center Migration ($8 million); the transfer of the 
National Computer Forensics Institute (NCFI) to the Federal Law 
Enforcement Training Center (FLETC) ($4.000 million); and a reduction 
to the EINSTEIN program ($13.282 million). EINSTEIN procurements and 
deployments will continue at a lower level in fiscal year 2011 as 
EINSTEIN will be deployed to the most critical sites with 2010 funds.
    critical infrastructure/key resources vulnerability assessments
    Question. How many vulnerability assessments have been completed to 
date (by fiscal year--including projected for fiscal 2010), how many 
more need to be completed, and how many are projected to be completed 
in fiscal year 2011?
    Answer. The number of vulnerability assessments conducted by the 
Department of Homeland Security (DHS's) Office of Infrastructure 
Protection (IP) to date by fiscal year, and projected for current and 
future years, is as follows:
  --Fiscal year 2003: 53;
  --Fiscal year 2004: 319;
  --Fiscal year 2005: 391;
  --Fiscal year 2006: 178;
  --Fiscal year 2007: 271;
  --Fiscal year 2008: 399;
  --Fiscal year 2009: 461; and
  --Fiscal year 2010: Annual target is 450.
    As of March 9, 2010, 135 vulnerability assessments have been 
completed and IP is on track to meet or exceed the fiscal year 2010 
target.
    The fiscal year 2011 target is 275.
               chemical facility anti-terrorism standards
    Question. How many Tier One facilities are there? How many will be 
inspected in fiscal year 2010 and in fiscal year 2011? How many Tier 2 
facilities are there? How many will be inspected in fiscal year 2010 
and in fiscal year 2011?
    Answer. As of March 4, 2010, there are 229 (preliminary and final) 
Tier 1 facilities and 575 (preliminary and final) Tier 2 facilities. 
DHS intends to inspect all final Tier 1 facilities by the end of 
calendar year 2010 and complete inspections on approximately half of 
all final Tier 2 facilities by the end of calendar year 2011.
    Question. Under current law, could the current standards be revised 
to mandate that chemical facilities have dedicated phone lines to the 
local 9-1-1 emergency call center and mandate that certain information 
about a chemical release be made available to first responders? If not, 
please provide appropriate bill language.
    Answer. Under section 550(a) of the fiscal year 2007 DHS 
Appropriations Act, the Department is precluded from disapproving any 
covered (high-risk) chemical facility's Site Security Plan (SSP) based 
on the presence or absence of any particular security measure. Thus, 
DHS cannot require a covered chemical facility to adopt a specific 
security measure, such as a requirement for a facility to have a direct 
link to local 9-1-1 systems.
    The Department may, however, disapprove any SSP that does not 
satisfy the applicable risk-based performance standards adopted in the 
Chemical Facility Anti-Terrorism Standards regulations. One of those 
standards (``Response'') requires a covered facility to ``[d]evelop and 
exercise an emergency plan to respond to security incidents internally 
and with assistance of local law enforcement and first responders.'' 6 
CFR-27.230(a)(9). Although covered facilities have flexibility in 
developing specific measures and plans to satisfy these standards, it 
is likely that the specific communications system between each facility 
and appropriate first responders will be one issue considered by DHS in 
reviewing SSPs for compliance with the ``Response'' standard.
          federal protective service--growth in responsibility
    Question. For fiscal years 2006 through 2011: what are the total 
square footage, the total number of buildings, and the number of 
employees in each building for which the Federal Protective Service was 
or is responsible. Additionally, for the same time period, what are the 
total number of FTE, contract guards, and number of posts?
    Answer. Although the Federal Protective Service (FPS) has not 
captured historical data on the number of employees by building and 
guard posts, the available metrics for the years requested are provided 
in the following chart.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                        Fiscal year 2011
                                              Fiscal year 2006  Fiscal year 2007  Fiscal year 2008  Fiscal year 2009  Fiscal year 2010     (estimated)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Revenue (in dollars)..................      $984,769,261      $836,892,692      $942,458,425    $1,000,520,603    $1,115,000,000    $1,115,000,000
Number of Square Feet.......................       327,496,779       331,303,747       334,180,480       341,313,905       347,483,459       348,000,000
Basic Security Revenue Rate.................             $0.35             $0.39             $0.62             $0.66             $0.66             $0.66
Building Specific Overhead Rate (in percent)             14.96            \1\ 15                 8                 8                 6                 6
Reimbursable Security Overhead Rate (in                 \2\ :8            \3\ 15                 8                 8                 6                 6
 percent)...................................
Number of People in Protected Buildings (in                1 +               1 +               1 +               1 +               1 +               1 +
 millions)..................................
Number of Facilities........................             8,208             8,410             8,915             8,714             9,088             9,251
Number of FPS Employees (End of Each Year)..             1,277             1,109             1,094             1,241             1,248             1,248
Number of FPS FTE (Authorized)..............             1,491             1,541             1,200             1,225             1,225             1,225
Number of FPS Contract Guards...............            15,000            15,000            15,000            15,000            15,000            15,000
Number Communities with GSA Buildings.......           ( \4\ )           ( \4\ )             2,100             2,100             2,200             2,200
--------------------------------------------------------------------------------------------------------------------------------------------------------
FPS continued to use the General Services Administration (GSA) budget and accounting system in fiscal year 2003 and fiscal year 2004 and the specific
  financial records regarding security-related Reimbursable Work Authorizations (FPS instituted the Security Work Authorization in fiscal year 2005 as a
  result of the transfer to the Department of Homeland Security/Immigration and Customs Enforcement financial system) are no longer available.
\1\ Rates were set individually by FPS Region.
\2\ Regional Rates were limited not to exceed 8 percent.
\3\ In fiscal year 2007 and subsequent fiscal years, the Overhead Rates for Building Specific and Reimbursable Security were equalized and set
  nationally in the budget.
\4\ Unknown.

              federal protective service--surge capability
    Question. What is the projected costs and needed number of FTE for 
the Federal Protective Service for a surge related to terrorist trials 
in the United States for fiscal year 2011? Please describe the 
estimated timeframe used to determine the costs and provide a range 
that takes into account all reasonable locations.
    Answer. The Federal Protective Service (FPS) Regional Office in New 
York City is coordinating closely with its counterparts from the U.S. 
Marshals and the New York Police Department in planning for the 
possible conduct of the terror trials at the Daniel P. Moynihan U.S. 
District Courthouse.
    If the duration and scheduling for the trials requires heightened 
security measures for 2- to 4-week periods, current FPS Officers can be 
temporarily deployed from other locations. The cost estimate for a 30-
day deployment is provided in the following chart:

------------------------------------------------------------------------
                      30-day detail                        Cost estimate
------------------------------------------------------------------------
Temporary Duty Travel Costs for 98 Personnel for 30 days      $1,471,421
Overtime needed to maintain minimum operational coverage         207,366
 at duty station (10-hours per week, per detailee)......
Additional 10 Contract Guards (three posts 24/7 for 30            87,000
 days)..................................................
                                                         ---------------
      TOTAL 30-day Estimated Cost.......................       1,765,787
------------------------------------------------------------------------

           federal protective service--administrative support
    Question. Please provide to the Committee, as soon as it is 
completed, a copy of the signed memorandum of understanding between 
U.S. Immigration and Customs Enforcement and the National Protection 
and Programs Directorate related to the transfer of the Federal 
Protective Service (FPS) and the responsibility of each to support FPS.
    Answer. A copy will be provided following final signature.
                    federal protective service--fees
    Question. With attacks against Federal employees in 1993 at the 
World Trade Center, 1995 at the Oklahoma City Murrah Building, in 2001 
at the World Trade Center and the Pentagon, in 2009 at Fort Hood and 
the Las Vegas Federal Courthouse, and recently against IRS employees, 
why has the administration made no increase in fees to pay for security 
of Federal employees, or proposed to increase the number of security 
personnel?
    Answer. Security levels increased after the first World Trade 
Center bombing in 1993 as well as after the 1995 bombing of the Alfred 
P. Murrah Building in Oklahoma City. Since 2001, the level and quality 
of security provided by Federal Protective Service (FPS) has increased 
significantly.
                                us-visit
                           biometric air exit
    Question. Fourteen years ago, in the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996, Congress mandated the development 
and deployment of an entry and exit border control system. Eight years 
ago, the Enhanced Border Security and Visa Entry Reform Act of 2002 
expanded the requirement for collection of biometrics, such as 
fingerprints, as part of an entry/exit system. Almost 3 years ago, the 
9/11 Act mandated the creation of a biometric air exit system at our 
airports to record the departure of Visa Waiver Program participants 
from this country. This Committee has tried to get this 
administration--as well as the last one--to adhere to the laws and 
implement a biometric exit system. This Congress added $22 million in 
the fiscal year 2010 Appropriations Act to begin such deployment this 
year. Your budget includes no funds for biometric air exit and a 
decision on how to deploy such a system has yet to be made.
    The can keeps getting kicked down the road.
    This administration claims that immigration enforcement is a top 
priority. How can you make such a claim when we do not have the 
technological capability to know who has overstayed a visa and is 
residing illegally in this country?
    Answer. DHS currently has programs in place that use airline and 
ship manifest information, border crossing records, document reads 
enabled by the Western Hemisphere Travel Initiative, and information 
collected under the US-VISIT program to record who enters and exits the 
country for most individuals, and based on this information, assess 
whether an individual has overstayed the terms of their admission.
    The US-VISIT program analyzes entry records to help ICE apprehend 
individuals who remain illegally in the United States; enables CBP to 
deny admission to individuals who are ineligible to enter the United 
States; assists U.S. Citizenship and Immigration Services in denying 
immigration benefits to individuals who have violated the terms of 
their admission; and assists the Department of State in denying or 
revoking visas to individuals who may have overstayed but are no longer 
in the United States. Since September 2004, US-VISIT has provided 
immigration and border management officials with records of the entries 
and exits of individual foreign nationals. US-VISIT currently tracks 
overstay violator records based on airline and ship manifest 
information, border crossing records, document reads enabled by the 
Western Hemisphere Travel Initiative, arrival/departure form I-94 data, 
and other information collected under the US-VISIT program.
    The ICE Compliance Enforcement Unit (CEU) is responsible for 
identifying and investigating foreign students, exchange visitors, and 
other nonimmigrant aliens who violate their authorized terms of 
admission to the United States. The CEU focuses on preventing criminals 
and terrorists from exploiting the U.S. immigration system by 
proactively developing cases for investigation from the Student and 
Exchange Visitor Information System (SEVIS), the National Security 
Entry/Exit Registration System (NSEERS), and US-VISIT. These systems 
allow the CEU to access information on the millions of students, 
tourists, and temporary workers present in the United States at any 
time, and to proactively identify those who violate their status or 
overstay their visas.
    Additionally, over the past several years DHS has made significant 
strides in its ability to identify visa overstays as the percentage of 
air departure records collected has increased from less than 90 percent 
in the 1990s to more than 99 percent today. Continued improvements in 
the systems and processes used to capture automated records of 
nonimmigrant arrivals and departure have also improved DHS's ability to 
identify visa overstays.
                        office of health affairs
                           biowatch schedule
    Question. The BioWatch program has had a controversial history and 
I am not convinced that State and local first responders nor the public 
health community--who are the end users of the system--have become 
comfortable with the effectiveness of this program. The Generation 3.0 
BioWatch technology has been repeatedly delayed. According to the last 
update, it was projected that the field testing and competitive 
procurement phases of Generation 3.0 would be completed in December 
2010 and February of 2011 respectively. Will this timeframe be met? If 
not, what is the new timeframe for each? Further, given the historical 
delays of this program and the lack of agreement by the end users on 
its effectiveness, I am concerned that the aggressive approach in the 
budget with an increase of $84 million to deploy 476 new detectors is 
not realistic or wise. Will the Generation 3.0 technology be fully 
vetted and have the necessary community acceptance in fiscal year 2011? 
Will all of the detectors be deployed in fiscal year 2011? Please 
provide a detailed schedule of the deployment.
    Answer. DHS believes investing in automated detection is a wise and 
important investment, as this technology will reduce the time of 
detection to as little as 4 hours and potentially offer greater costs 
savings in the long-run.
    OHA is revising the schedule to account for prior program delays 
and to ensure the technology is capable of meeting end user 
requirements prior to DHS committing to a procurement decision. The new 
schedule may delay the purchase of the Gen-3 detectors to the first 
quarter of fiscal year 2012, however, DHS and OHA are currently looking 
at options to streamline and award this contract in fiscal year 2011 if 
possible.
    The updated timeline for the Generation 3 (Gen-3) program is 
reflected by the major milestones below:
  --Field Test Program Contract Award (Phase I)--November 12, 2009.
  --Field Test Program Task Order 1 Award--February 2, 2010.
  --Field Test Program Task Order 2 Award--3rd Quarter Fiscal Year 
        2010.
  --Completion of Field Testing--2nd Quarter Fiscal Year 2011.
  --Technology Readiness Review--2nd Quarter Fiscal Year 2011.
    Phase II Contract Award for Low Rate Initial Production (LRIP) and 
Operational Test & Evaluation (OT&E)--4th Quarter Fiscal Year 2011 or 
1st Quarter Fiscal Year 2012.
  --Conduct OT&E: Start--4th Quarter Fiscal Year 2012, Finish--3rd 
        Quarter Fiscal Year 2013.
  --Initial Operational Capability (IOC)--3rd Quarter Fiscal Year 2013.
    Prior to detector deployment, DHS is working with State and local 
public health and emergency response communities to promote community 
acceptance and technical understanding of the Generation-3 detectors. 
This includes working directly with these State and local partners in 
developing guidance and operating procedures, providing all Federal, 
State and local partners with information on our Generation-3 test and 
evaluation program so that they will be confident in the signals, and 
briefing their leadership on how networks are designed and how sites 
are selected for inclusion in the program.
                          bio-threat resources
    Question. The Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism recently gave the grade of F to 
the Nation's capabilities for rapid response to prevent biological 
attacks from inflicting mass casualties. The Commission points out that 
rapid detection is the first step in an effective response. Your budget 
does include $174 million--a 94 percent increase--for the BioWatch 
program.
    What worries me is that resources to pay for the other necessary 
steps to respond to a Bio-attack are proposed for cuts. Excluding 
BioWatch, the budget proposes a 21 percent reduction to the Office of 
Health Affairs, a 3.8 percent reduction to State and local homeland 
security grants and training, a status quo budget for preparedness in 
FEMA, and a 2.9 percent reduction to chemical and biological research 
programs.
    The Commission states that within a very few years what is likely 
to occur is ``an attack using weapons of mass destruction--probably a 
bioweapon''. Why does the budget propose to cut the very programs that 
proactively address this threat?
    Answer. The Department takes this report seriously and sees great 
value in the Commission's work. The administration has taken steps to 
enhance the Nation's capabilities to respond to a biological attack. 
After this report was published, DHS Assistant Secretary for Health 
Affairs and Chief Medical Officer Dr. Alexander Garza met with the 
Executive Director of the WMD Commission to discuss the Office of 
Health Affairs' related efforts and to build a relationship that will 
allow DHS to use the report card as a catalyst for continuing to 
improve national capabilities.
    The fiscal year 2011 budget request increases funds to proactively 
counter the possibility of an attack from bio weapons or bio agents. 
Specifically, the budget requests $173.5 million for the BioWatch 
program to ensure the Nation has an early detection system in place to 
detect the release of biological agents or use of a bioweapon. Of the 
$173.5 million, $89 million maintains the Generation-1 and Generation-2 
current operational program nationally and enhances the current 
system's capabilities in select jurisdictions. The remainder of the 
request is for the Generation 3 program, for which the procurement 
details are listed above.
                  federal emergency management agency
                        fema's budget priorities
    Question. In the fiscal year 2011 budget, FEMA lays out four goals: 
enhancing coordination between headquarters and regional offices; 
promotion and improvement of personal and citizen preparedness; a 
greater emphasis on underserved populations, including children, the 
elderly, and the disabled; and prioritizing recruitment, retainment, 
and better development of the next generation of emergency management 
professionals. Yet no specific programs or funding levels are tied to 
these important goals. Through what programs, and at what funding 
levels, will these goals be met and how will FEMA determine if it is 
meeting each of the goals in a timely fashion?
    Answer. These goals are meant to drive areas of emphasis within 
existing programs. Administrator Fugate has published his 
``Administrator's Intent,'' which details the manner in which FEMA will 
achieve its four goals.
                   disaster relief fund--known costs
    Question. The fiscal year 2011 budget request for the Disaster 
Relief fund is based on a 5-year average for non-catastrophic disasters 
and does not include funding for continued costs associated with 
Hurricanes Katrina, Rita, Wilma, Gustav, and Ike; the Midwest floods of 
2009; or the 2007 California wildfires and other major past disasters. 
Therefore, the Disaster Relief fund will have a short fall in fiscal 
year 2011 for known costs related to past disasters. What is the total 
amount of the estimated shortfall for fiscal year 2011? When will the 
President submit a request to meet this shortfall?
    Answer. The fiscal year 2011 President's budget for the Disaster 
Relief Fund (DRF) is $1.95 billion, an increase of $350 million over 
fiscal year 2010 enacted. As noted above, this amount is based on a 
funding methodology that uses the 5-year average obligation level for 
noncatastrophic disaster activity, and does not take into account 
continued expenditures necessitated by the recent catastrophic 
disasters. The funding methodology assumes that catastrophic events--
those with obligations above $500 million--will be funded through 
supplemental appropriations.
    The administration's DRF request and funding methodology of seeking 
direct appropriations for the average of noncatastrophic disasters and 
relying on supplemental funding for catastrophic events complies with 
this policy. Costs associated with catastrophic events have great 
variability, both in the amount and timing of obligations. Given these 
circumstances, and the fact that it is extremely difficult to predict 
with any certainty the occurrence of future catastrophic disasters, we 
believe that budgeting annually for the noncatastrophic 5-year rolling 
average and addressing catastrophic disasters through the supplemental 
appropriations process continues to be a reasonable approach. Further, 
seeking full funding of all estimated DRF obligations would result in a 
large corpus of unused funds pending obligation (DRF expenditures are 
slow--evidenced by large obligations still outstanding for Katrina over 
4 years later).
    Based on current funding availability and an expectation of 
Congress fully funding the fiscal year 2011 President's budget and the 
fiscal year 2010 Supplemental for the DRF, an additional $1-2 billion 
may be necessary in 2011 to fund the continuing liabilities associated 
with prior disasters. However, it is premature to assume that this is 
the true 2011 funding requirement at this time.
           principal federal official--policy on the pfo role
    Question. The issue of the role of a Principal Federal Official has 
caused confusion among State and local partners about who is in charge 
when there is Federal level involvement during a disaster. Therefore, 
section 522 under the General Provisions of the fiscal year 2010 
Homeland Security Appropriations Act prohibits the Secretary from using 
funds for any position designated as a Principal Federal Official 
except under certain very limited conditions. What policy has been 
implemented to ensure compliance with this restriction and to provide 
clarity for State and local government partners?
    Answer. The Department is currently reviewing the Principle Federal 
Official (PFO) policy and a decision on its implementation is imminent. 
DHS will provide the results of the review to the Committee prior to a 
formal announcement.
                grants for emergency operations centers
    Question. How much Federal funding, by fiscal year, have State and 
local governments used for Emergency Operations Center renovation or 
construction in each of the Department of Homeland Security grant 
programs for which it is an eligible expense?
    Answer. State and local governments have used a total of 
approximately $12 million between fiscal years 2005 and 2009 to 
renovate or construct Emergency Operations Centers under a variety DHS 
grant programs in which this is an eligible expense. A detailed 
breakout of this funding by fiscal year and State is marked For 
Official Use Only and has been provided to the Committee separately.
                              bus security
    Question. How much in State Homeland Security Grant Program and 
Urban Area Security Initiative funding has been provided for bus 
security activities? Does FEMA policy allow grantees to provide such 
funds to private companies?
    Answer. A chart marked For Official Use Only provides a breakout of 
the amount of funding used for bus security activities under the State 
Homeland Security Program and Urban Areas Security Initiative for 
fiscal years 2004 through 2009, and has been provided to the Committee 
separately. Grantees are allowed to provide grant award funds to 
qualified private companies as long as they are in compliance with the 
financial rules and regulations identified in the Homeland Security 
Grant Program, namely part 44 of the Code of Federal Regulations.
                      training at the ndpc and cdp
    Question. How many first responders have been trained by each of 
the partners in the National Domestic Preparedness Consortium and the 
Center for Domestic Preparedness, by fiscal year, since 2006?
    Answer. The following chart shows how many first responders have 
been trained by each of the partners in the National Domestic 
Preparedness Consortium and the Center for Domestic Preparedness, by 
fiscal year, since 2006.

----------------------------------------------------------------------------------------------------------------
                                       2006       2007       2008       2009       2010
----------------------------------------------------------------------------------------------------------------
Louisiana State University--           29,024     19,820     16,177     14,514      6,132  As of 3/8/2010
 National Center for Biomedical
 Research and Training.
Nevada Test Site--Counterterrorism      7,257     10,824     12,665     15,525      4,525  As of 3/8/2010
 Operations Support.
New Mexico Tech--Energetic             47,148     37,952     33,402     30,481     14,613  As of 3/8/2010
 Materials Research and Testing
 Center.
Texas Engineering Extension            19,508     20,963     21,937     27,405      9,749  As of 3/8/2010
 Service--National Emergency
 Response and Rescue Training
 Center.
The Center for Domestic                61,680     65,832    114,540     98,955     35,981  As of 2/27/2010
 Preparedness.
----------------------------------------------------------------------------------------------------------------
Note: The University of Hawaii and the Transportation Technology Center, Inc., are recent inductees to the
  National Domestic Preparedness Consortium and have not yet begun delivering training.

                         intelligence training
    Question. Given that there are approximately 800,000 State and 
local law enforcement personnel Nationwide, it is more likely that a 
non-Federal officer will be the first to encounter terrorist suspects 
or identify criminal behavior at the local level that might provide 
leads to terrorists' activity. How much funding was provided in fiscal 
years 2008, 2009, and 2010, and how much is proposed for fiscal year 
2011 for training State and local law enforcement in intelligence 
matters?
    Answer. DHS' Office of Intelligence and Analysis (I&A) serves as 
the two-way interface between the national Intelligence Community and 
State, local, tribal and private sector partners on homeland security 
intelligence and information--including warnings, actionable 
intelligence, and analysis--to ensure that frontline law enforcement 
have the tools they need to confront and disrupt terrorist threats. DHS 
has identified fusion centers as a priority in the Homeland Security 
Grant Program guidance and has recommended that State and local 
grantees prioritize the allocation of grant funding to support fusion 
centers. As such, based upon the self-reported information from State 
and local grantees, it is estimated that State and local jurisdictions 
have leveraged approximately $1.3 billion in support of fusion center-
related activities, supporting frontline law enforcement between fiscal 
years 2004 and 2009.
    The following chart shows how much funding was provided in fiscal 
years 2008, 2009, and 2010, and how much is proposed for fiscal year 
2011 for training State and local law enforcement in intelligence 
matters.

                                                                        TRAINING
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Training partner                2008            2009          2010 \1\         Catalog number          Course title        Development status
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                     .....................  Intelligence           Pilot
                                                                                                             Awareness for Law
                                                                                                             Enforcement
                                                                                                             Executives.
                                                                                    --------------------------------------------------------------------
                                                                                     AWR-171..............  Anti-Terrorism         Delivery
                                                                                                             Intelligence
                                                                                                             Awareness Training
                                                                                                             Program.
                                                                                    --------------------------------------------------------------------
Federal Law Enforcement Training                           $800,000        $500,000  PER-283..............  Introductory           Delivery
 Center.                                                                                                     Intelligence Analyst
                                                                                                             Training Program.
                                                                                    --------------------------------------------------------------------
                                                                                     AWR-170..............  Leading from the       Delivery
                                                                                                             Front: Weapons of
                                                                                                             Mass Destruction
                                                                                                             Awareness for Law
                                                                                                             Enforcement
                                                                                                             Executives.
                                                                                    --------------------------------------------------------------------
                                                                                     AWR-181..............  Developing an          Delivery
                                                                                                             Intelligence
                                                                                                             Capacity in State,
                                                                                                             Local and Tribal Law
                                                                                                             Enforcement
                                                                                                             Agencies: A Quick
                                                                                                             Start Program.
                                                                                    --------------------------------------------------------------------
Michigan State University--Intel                            500,000         400,000  AWR-199..............  Sustaining the         Delivery
 Program.                                                                                                    Intelligence
                                                                                                             Capacity.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Memorial Institute for the                                1,300,000       2,200,000  .....................  Information            Development
 Prevention of Terrorism.                                                                                    Collection on Patrol
                                                                                                             (INCOP) 1 & 2.
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                     .....................  Intelligence Writing   Development
                                                                                                             and Briefing.
                                                                                    --------------------------------------------------------------------
                                                                                     AWR-158..............  Advanced Criminal      Delivery
                                                                                                             Intelligence
                                                                                                             Analysis to Prevent
                                                                                                             Terrorism.
                                                                                    --------------------------------------------------------------------
National White Collar Crime Center--     $1,799,755                                  AWR-204..............  Foundations of         Delivery
 Intel Program.                                                                                              Intelligence
                                                                                                             Analysis Training
                                                                                                             (FIAT).
                                    --------------------------------------------------------------------------------------------------------------------
      Total........................       1,799,755       2,600,000       3,100,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The spend plan for fiscal year 2011 has not been determined yet; and courses with no number are under development.

                federal law enforcement training center
                 national computer forensics institute
    Question. The fiscal year 2011 budget proposes to transfer $4 
million for the National Computer Forensics Institute (NCFI) from the 
National Protection & Programs Directorate (NPPD), to the Federal Law 
Enforcement Training Center (FLETC). Why was the NCFI moved from NPPD 
to FLETC? How will the NCFI be paid for? Does FLETC need authority to 
provide training to non law enforcement personnel? Does the current 
language requiring the Director of FLETC to schedule basic or advanced 
law enforcement training, or both, at all four training facilities 
under the control of FLETC to ensure that such training facilities are 
operated at the highest capacity throughout the fiscal year need to be 
updated to include the NCFI?
    Answer. The requested transfer is intended to consolidate law 
enforcement training.
    The intention is to continue operating NCFI in the same manner as 
it is currently operating today, with the Secret Service continuing to 
administer training at this facility under an interagency agreement 
from FLETC to Secret Service.
    Not at this time. The Department's initial intent is to continue 
operating NCFI in the same manner as it is currently operating today.
    Providing funds to FLETC will help better align and coordinate law 
enforcement training.
    Question. Will the Secret Service continue to manage this facility 
under an interagency agreement?
    Answer. Yes.
    Question. Will the NCFI be moved to a FLETC facility?
    Answer. The Department intends to continue operating NCFI in the 
same manner as it is currently operating today, in Hoover, AL.
                                 uscis
                                e-verify
    Question. Do you support expanding E-Verify to allow employers the 
ability to use the system to verify the employment eligibility of their 
current employees--not just potential new hires--if they chose to do 
so?
    Answer. E-Verify currently has the capacity to query for work 
eligibility as many as 65 million employees per year, which is the 
estimated number of new employees hired per year. It does not currently 
have the capacity to query an additional 120 million employees, which 
is the estimated size of the existing workforce in the United States. 
To achieve that capacity, DHS would need funding for additional 
hardware to service the expanded use of E-Verify, and both DHS and the 
Social Security Administration would need additional staff to address 
the significantly increased workload that would follow from such a 
sizeable expansion of E-Verify's use.
    In addition, such a sizeable expansion of E-Verify's use would 
require the enhancement of processes and safeguards to reduce errors 
and to ensure that the E-Verify system is not used to improperly screen 
existing workers nor is otherwise abused.
    Substantial progress has been made toward improvements, but the 
existing pattern of growth in E-Verify usage, with 1,300 new employers 
joining each week, allows DHS to refine these systems in a measured 
way. Any new expansions in the coverage of E-Verify should be 
accomplished with a well-considered schedule for additional funding and 
for phased expansion of electronic verification.
    Question. Recent press reports claim that E-Verify is unable to 
identify nearly half of illegal aliens who are applying for a job. Is 
this true? Please explain.
    Answer. The press articles were inaccurate and misleading. The 
Westat report, which was based on a sample from a 3-month period during 
2008, concluded that E-Verify was accurate 96 percent of the time. The 
report found:
  --93.8 percent of workers screened by E-Verify were authorized for 
        employment--and the system instantly and accurately confirmed 
        more than 99 percent of these eligible workers.
  --The remaining 6.2 percent were not eligible for employment. Out of 
        this 6.2 percent, approximately half were told they are work 
        authorized when they were not--just 3.3 percent of the overall 
        population screened by E-Verify.
  --To be clear, this means that only 3.3 percent of all workers 
        screened by E-Verify were incorrectly told they were work 
        authorized.
    The system's accuracy and efficiency continues to improve, 
reflecting the changes and improvements to E-Verify that USCIS has made 
over the past year--and continues to make.
    Our anti-fraud efforts are improving E-Verify's ability to prevent 
illegal workers from using stolen identities to obtain employment--
including a photograph screening capability that allows a participating 
employer to check if photos on Employment Authorization Documents (EAD) 
or Permanent Resident Cards (green cards) are exact matches with the 
images stored in USCIS databases. USCIS has used this process to screen 
more than 300,000 photos and detect more than 1,000 cases of fraud.
    USCIS is also planning additional enhancements to E-Verify that 
will further improve employer compliance, reduce fraud and increase 
efficiency. USCIS is adding U.S. passports to the list of documents 
available to provide photo confirmation, and working with states to 
access State driver's license data--the No. 1 document used to validate 
identity. USCIS is also planning to launch a pilot program to explore 
the use of biometric or biographic-based verification.
                                real id
    Question. We have not yet received the plan for the REAL ID 
``hub''. What are your plans for this program?
    Answer. The REAL ID Expenditure Plan is currently being reviewed 
and will be delivered to Congress in the near future. This document 
will detail the plan for the expenditure of the appropriated $60 
million to collaboratively manage the design, development, testing and 
deployment of the required electronic information verification 
capabilities.
                               h&l fraud
    Question. What are the estimated fee collections for H and L fraud 
in fiscal year 2011?
    Answer. Total fiscal year 2011 fee collections for H and L fraud 
are estimated to be $105 million. The H and L fraud fee collections are 
deposited into the Fraud Detection and Prevention receipt account and 
are then divided evenly (33 percent each) between USCIS, the Department 
of State, and the Department of Labor. As a result, each agency is 
expected to receive approximately $35 million in fiscal year 2011.
                         science and technology
                          proposed reductions
    Question. When compared to the fiscal year 2010 enacted level, the 
President's request for Science and Technology research and development 
is cut by 12.3 percent. This is a puzzling cut considering that the 
administration made a concerted effort to boost other Federal science 
budgets. Your budget states that the request represents the ``minimum 
resources needed to provide the technologies to address the 
administration's threat prioritization.'' Why were homeland security 
science and technology efforts singled out for cuts? What research 
portfolios require additional resources to help the Department 
understand how to identify, counter, and respond to emerging threats?
    Answer. The Department remains committed to the mission of the 
Science and Technology Directorate, and the fiscal year 2011 budget 
supports the long-term development and use of new technology.
                      advanced imaging technology
    Question. Provide an assessment of the auto resolution technology 
to accompany the new Advanced Imaging Technology units? Based on S&T's 
assessment of auto resolution, will it be ready for deployment at the 
beginning of fiscal year 2011? What is the schedule for certification?
    Answer. Currently, human screeners are able to interpret AIT images 
more effectively than auto resolution technology.
    S&T is in the process of issuing a broad area announcement to 
competitively award development contracts to third party algorithm 
developers to support auto resolution technology. The pre-solicitation 
announcement was published on March 3, 2010. Further, through its 
research program, S&T is engaging the academic community and 
established parties in the medical, non-destructive evaluation, and 
defense industries to determine if image processing techniques that are 
effective in adjacent domains can also be leveraged in detection 
algorithms for AIT.
    TSA will determine the readiness of technology prior to deployment; 
when the schedule for qualification testing is set, S&T will perform 
these tests in order to determine if automatic detection algorithms are 
sufficiently mature for deployment.
    Question. Based on the current capabilities of Advanced Imaging 
Technology now being deployed to airports, would the machines have 
detected the explosives Farouk Abdulmutallab boarded Northwest Flight 
253 with on December 25, 2009?
    Answer. AIT machines provide added capabilities to detect 
explosives (bulk, liquids, and powders), as well as both metallic and 
nonmetallic weapons and prohibited items. While AIT units provide 
enhanced capabilities to detect person-borne threats, their 
effectiveness is further enhanced through use with other technologies 
and screening processes that are part of TSA's layered security 
approach, such as well-trained Transportation Security Officers, 
Behavior Detection Officers, Bomb Appraisal Officers, Federal Air 
Marshals, canine teams, and an engaged traveling public. More details 
can be provided in a classified setting.
                national bio- and agro-defense facility
    Question. The request states that the Science & Technology 
Directorate will request a reprogramming in fiscal year 2011 of prior 
year funds to build the National Bio- and Agro-Defense Facility central 
utility plant. What amount is S&T planning to reprogram? Will the 
funding source for the reprogramming come from just S&T or will other 
components contribute? Have the prior year funds been identified? From 
what projects and fiscal years will the funds be repurposed?
    Answer. S&T plans to submit a reprogramming for an estimated $40 
million to support the fiscal year 2011 construction of the central 
utility plant for the National Bio- and Agro-Defense Facility (NBAF). 
This reprogramming will come from S&T prior year unobligated balances, 
most likely the fiscal year 2007 through 2009 balances not currently 
committed to a contracting action. The exact distribution will be 
determined at the time of the reprogramming.
                        explosives trace portals
    Question. Has DHS given up on the explosives trace portals, also 
known as the ``puffers''? Is S&T allocating resources to improve the 
equipment's ability to operate in the airport environment?
    Answer. Several advanced trace sampling and detection technologies 
are currently under development that are possible candidates for the 
next generation of trace detection systems.
                   rad/nuc transformational research
    Question. The request transfers DNDO's Transformational Research 
and Development funding to the Science & Technology Directorate. What 
process will be put in place to make decisions on how the $106 million 
in Rad/Nuc research will be spent? Please describe the involvement of 
DNDO and other DHS components in the selection of transformational 
research priorities.
    Answer. S&T's established Integrated Product Team (IPT) process 
will guide investments in radiological and nuclear (rad/nuc) research. 
Before the transition of rad/nuc research from the Domestic Nuclear 
Detection Office (DNDO), S&T will conduct a program review to determine 
the progress and status of the existing rad/nuc research programs; 
establish a rad/nuc Capstone IPT to bring DHS customers and 
stakeholders together to determine the highest priority capability gaps 
and needs; and survey existing government and industry rad/nuc 
detection and countermeasure technology. After these preparatory steps, 
S&T will make decisions regarding the rad/nuc research portfolio.
                       technology readiness level
    Question. What is the status of the Department's plans to develop a 
formal Technology Readiness Level (TRL) process? The purpose of the 
process is to require TRL assessments of chemical, biological, 
radiological, nuclear detection, and other technologies prior to 
appropriate acquisition decision points. Has a management directive on 
this initiative been finalized? If so, provide a copy to the Committee.
    Answer. The framework for the Technology Readiness Level Management 
Directive is in place, and, before final approval, S&T will test the 
framework to ensure its effectiveness and alignment with Acquisition 
Management Directive (AD) 102-01.
                          performance metrics
    Question. What performance metrics are in place to evaluate the 
effectiveness and value of S&T research projects? Are there plans to 
improve the process? If so, describe them.
    Answer. S&T tracks and measures the effectiveness and value of 
research projects and programs with a high-level and focused set of 
milestones. These milestones show the achievement of critical actions, 
capabilities, and decisions toward program/project goals and 
objectives. They help identify specific and established criteria for 
measuring incremental progress associated with long-term activities and 
program outcomes.
    In addition to the Department-wide Bottom-Up Review of how DHS can 
better align its performance metrics to the strategic vision outlined 
in the Quadrennial Homeland Security Review, S&T has begun a review 
process in parallel to this year's budget cycle. S&T has engaged a 
nationally recognized expert in the field of performance to assist in 
establishing more effective outcome based metrics throughout the 
Directorate.
    Question. Please identify which of the S&T accomplishments listed 
in pages 132-135 of the DHS budget in brief have resulted in making 
Americans safer by modifying or improving DHS agency operations or 
programs.
    Answer. Budget in Brief Statement: Transitioned a BorderNet 
capability to CBP to connect law enforcement officers in the field with 
real-time tactical information such as detection, sensor data, agent 
location data, and local geographic features, also providing field 
access to select law enforcement databases using a GPS-enabled P25 land 
mobile radio.
    The BorderNet system is operating in the U.S. Border Patrol Douglas 
sector.
    Budget in Brief Statement.--Generated a comprehensive set of Self-
Propelled Semi-Submersible (SPSS) vessel data from national and 
international field experiments with 14 organizations to evaluate 
potential detection technologies, shape additional field campaigns and 
to better understand U.S. Government capabilities and shortfalls in 
detecting, discriminating, and tracking low-observable maritime vessels 
used to smuggle narcotics into the United States from South America.
    The data collected on SPSS vessels is being used to develop 
detection, identification, and tracking systems for this national 
security threat.
    Budget in Brief Statement.--Conducted a 2-week cargo supply-chain 
security demonstration of the Container Security Device, Advanced 
Container Security Device, Marine Hybrid Composite Container, Marine 
Asset Tag Tracking System, and mLOCK technologies in operational, 
performance, and anti-compromise environments.
    CBP and the TSA are both benefiting from these devices. TSA is 
incorporating the mLOCK in their trusted shipper program to secure 
cargo from know suppliers while in transit, and CBP is preparing to 
pilot the container security device in the global supply chain to 
secure shipping containers.
    Budget in Brief Statement.--Completed development and testing of 
Bio-Agent Autonomous Networked Detector (BAND), an automated, fully 
integrated ``lab-in-a-box'' biological agent detector that collects 
aerosols, performs molecular analysis and identification, and reports 
results for real-time control of the entire sensor network. 
Demonstrated automatic capture and genetic identification of biological 
agents at threat concentrations.
    The BAND technology was piloted in a major metropolitan area and 
provided aerosol detection capabilities. It has also been selected for 
the BioWatch Gen 3 procurement testing, where it will again be fielded 
in metropolitan areas to provide a reduced notification time in the 
event of a biological release.
    Budget in Brief Statement.--Completed a tabletop exercise to refine 
restoration guidance with participation of key Federal, State, and 
local stakeholders as well as a demonstration in the Los Angeles 
International Airport System to promote the range of restoration. This 
project will enable rapid recovery from a chemical agent release in a 
major transportation facility, minimize the economic impact of a 
chemical agent release, and inform defensible public health decisions 
concerning the re-opening of major transportation facilities following 
a chemical agent release.
    The restoration protocols developed by this project are now 
available to airports and other high throughput public venues for 
guidance on decontamination for rapid recovery from a chemical agent 
release.
    Budget in Brief Statement.--Developed an integrated laboratory 
response architecture to promote enhanced use of the Nation's 
laboratory networks in response to large-scale CBRN events, developed a 
Standard Operating Procedure for implementing the architecture, and 
assessed the architecture through table-top exercises.
    The integrated lab architecture reduces the time to identify 
chemical, biological, radiological, or nuclear (CBRN) contamination, 
which provides more rapid, actionable information to local decision 
makers trying to identify and respond to a CBRN attack.
    Budget in Brief Statement.--Determined how quickly next-generation, 
serotype-specific, foot-and-mouth disease (FMD) vaccines provide 
immunity, and how long the immunity lasts. Delivered proof-of-concept 
studies using different vaccine and biotherapeutic countermeasure 
platforms for other non-FMD Foreign Animal Diseases (FADs).
    Unlike current, foreign-manufactured FMD vaccines, the next-
generation, serotype-specific FMD can be manufactured in the United 
States without live FMD virus and can be deployed within 24 hours 
following an FMD outbreak. Proof-of-concept studies for non-FMD Foreign 
Animal Disease (FAD) targets using vaccine and biotherapeutic platforms 
will allow for development of FAD countermeasures for the National 
Veterinary Stockpile that currently do not exist (Rift Valley Fever, 
African Swine Fever, and Nipah/Hendra).
    Budget in Brief Statement.--Delivered Digital Ink Library to the 
United States Secret Service (USSS) forensic investigators to enhance 
mission effectiveness by digitizing the complete archive of ink 
samples, which reduces time to locate inks and protects inks from 
environmental degradation. As a result, ink-sample matching takes 
seconds as opposed to hours or days, and irreplaceable inks remain 
secure.
    This ink library has reduced the analysis time of USSS 
investigative missions as well as secured their ink library for future 
use.
    Budget in Brief Statement.--Initiated 18 new experiments on the 
DETER test-bed, enabling users to study and evaluate a wide range of 
computer security technologies including encryption, pattern detection, 
intrusion-tolerant storage protocols, next-generation network 
simulations; as well as develop and share educational material and 
tools to train the next-generation of cyber-security experts.
    These experiments will result in more robust security technologies 
including malware detection and mitigation, Internet infrastructure 
security improvements, and identity theft technologies that are better 
able to protect users from cyber crime. The benefits from these 
technologies will be available to the public, all levels of government 
and private industry to better protect our cyber/critical 
infrastructures.
    Budget in Brief Statement.--Piloted a Virtual USA cross-state 
information (e.g., shelter data, flood data, traffic accident 
information) exchange between Florida, Georgia, Louisiana, Mississippi, 
and Texas, which demonstrated that states can exchange information 
regardless of what statewide information system they use (ESRI, 
Google).
    S&T is coordinating with FEMA Region X on the Pacific Northwest 
Regional Pilot, a component of Virtual USA, to serve as a single point 
of Federal information exchange with participating states in support of 
FEMA's mission.
    Budget in Brief Statement.--Deployed the Critical Infrastructure 
Inspection Management System (CIIMS) to the Los Angeles Police 
Department, which allowed aerial-borne law enforcement officers to 
receive and respond to critical infrastructure and key resource (CI/KR) 
inspection metrics in real time. his inspection process adds a force 
multiplier to the critical infrastructure protection unit and improves 
flight-crew situational awareness.
    The deployment of this system has increased the efficiency of the 
LAPD in conducting their infrastructure inspection mission, reducing 
the amount of time they are kept away from their primary law 
enforcement duties.
    Budget in Brief Statement.--Conducted T&E on the large-aperture 
metal detector for air cargo to allow TSA to screen fresh produce, 
fresh flowers, seafood and meats, and printed material quickly, 
effectively, and inexpensively for the presence of metallic IED 
components.
    These systems are being used to screen for explosive devices in 
bulk cargo being shipped on passenger planes.
    Budget in Brief Statement.--Completed Homemade Explosives (HME) 
signature characterization of leakage rates of a variety of bottle 
types with hydrogen peroxide and nitromethane to inform TSA HME 
detection requirements for checkpoint and checked baggage liquid bottle 
screening applications.
    Results from these studies were used to inform TSA future detection 
requirements for explosives trace detection technology.
    Budget in Brief Statement.--Completed T&E of backscatter x-ray 
system for TSA for the detection of concealed explosive devices worn or 
carried by a person (i.e. suicide bombers).
    Independent Test and Evaluation (IT&E) was conducted for a portion 
of the specifications for the backscatter x-ray system by the 
Transportation Security Lab (TSL), and results were provided to the TSA 
as a portion of the entire test and evaluation (T&E) program for the 
system. Test results and analysis from all phases were used to inform 
TSA's acquisition of Advanced Imaging Technology.
    Budget in Brief Statement.--Delivered validated Hostile Intent 
Detection simulation product to TSA, validated the previously 
transitioned courseware prototype, piloted a deception training course 
for first responders (Las Vegas Metropolitan Police Department--LVMPD), 
resulting in a $900,000 savings in TSA training costs.
    The training and simulation products improved DHS operations 
through front line user education that saved government resources and 
enabled Transportation Security Officers to identify individuals with 
hostile intent.
    Budget in Brief Statement.--Transitioned validated multi-cultural 
indicators of hostile intent, and demonstrated a mobile device that 
enables TSA Behavioral Detection Officers to record observations, 
automatically calculate behavior-based scoring, and share information 
among peers and with supervisors in near-real time. This potentially 
saves TSA an estimated 60-120 FTEs.
    These deployed training protocols and devices have saved government 
resources and are enabling Transportation Security Officers to identify 
individuals trying to deceive security personnel or possibly intending 
to do harm.
    Budget in Brief Statement.--Demonstrated three prototypes for 
rapid, non-contact, three-dimensional fingerprint scanning to achieve 
much higher success rates at capturing fingerprints the first time, 
with greater detail, leading to increased speed and accuracy in records 
matching and identification at screening checkpoints with minimum 
impact on throughput.
    These demonstrations are a significant step towards collecting 
fingerprints with increased speed, accuracy, and detail than current 
fingerprint scanning technologies allow.
    Budget in Brief Statement.--Demonstrated a real-time malintent 
(desire or intent to cause harm) detection capability at a simulated 
speaking event using indicators such as heart beat, respiration, and 
pore count to develop a screening facility and a suite of real-time, 
non-invasive sensor technologies to rapidly, reliably, and remotely 
detect indicators of malintent to increase throughput and the accuracy/
validity of referral for secondary screening.
    These demonstrations validated the indicators of malintent in order 
to develop a screening system to help screeners at primary screening 
checkpoints identify potentially harmful individuals based on their 
behavior and send them to secondary screening using non-invasive 
sensors in real time.
    Budget in Brief Statement.--Demonstrated liquid explosive detection 
using ultra low-field Magnetic Resonance Imaging technology at the 
Albuquerque Airport. The demonstration showed the system's ability to 
distinguish between numerous threat and benign liquids in an 
operational environment, which will eventually lead to enabling TSA to 
rescind the 3-1-1 rule, allowing airline passengers to carry-on 
liquids.
    This demonstration is a significant step toward the deployment of a 
bag screening system capable of identifying liquid explosives.
    Budget in Brief Statement.--Piloted Unified Incident Command and 
Decision Support (UICDS) at the Virginia Department of Emergency 
Management, demonstrating data fusion among 24 commercial-off-the-shelf 
incident management proprietary applications and presenting the 
resulting data sharing through the State-developed VIPER viewer. UICDS 
enables multiple responding organizations (using their own equipment, 
procedures and protocols) to jointly manage personnel, direct 
equipment, and seamlessly gather, store, redistribute, and share, in a 
secure environment, mission-critical information needed by incident 
commanders and emergency responders.
    This project enabled data fusion between 24 commercial software 
applications being used by the State of Virginia that now operate 
seamlessly for incident response management and training purposes.
    Budget in Brief Statement.--Demonstrated and tested a Controlled 
Impact Rescue Tool (CIRT) with Fairfax County Fire training Rescue. 
CIRT is a stand-alone tool that creates shock waves that can shatter 
concrete walls in less than half the time as conventional methods.
    The Controlled Impact Rescue Tool (CIRT) has demonstrated 
significant time savings to the Urban Search and Rescue (USAR) team. 
CIRT does not rely on hoses or power cables, operates as a stand-alone 
tool, and will be commercialized in fiscal year 2010.
    Budget in Brief Statement.--Delivered more than 200 emergency 
escape hoods to USSS. This one-size-fits-all concealable hood weighs 
under a pound, is easy to carry, and can be donned in ten seconds. In 
addition to being maintenance-free, the hood filters nerve, blood, and 
blister agents, removes toxic industrial chemicals, and fits two-deep 
into a breast pocket--one for the protectee, the other for the 
protector.
    These escape hoods are now carried by Secret Service personnel.
    Budget in Brief Statement.--Published the final Environmental 
Impact Statement (EIS) for the National Bio- and Agro-Defense Facility 
(NBAF) in December 2008 and responded to over 5,000 public comments. 
S&T issued a Record of Decision selecting a site in Manhattan, Kansas 
to construct NBAF, which will house the study of foreign animal and 
zoonotic diseases to protect the Nation's agriculture and public 
health.
    This report is informing the design of NBAF in order to reduce and 
mitigate risk.
    Budget in Brief Statement.--Completed facility construction and 
most of facility commissioning for the National Biodefense Analysis and 
Countermeasures Center (NBACC), that will support national security by 
providing the Nation with the capability to understand and counter 
biological threats and conduct bioforensic analysis to attribute their 
use against the American public.
    The National Biodefense Analysis and Countermeasures Center will 
house the Bio Threat Characterization Center and National Bio-forensics 
Analysis Center, which provide DHS, as well as other Federal, State, 
and local entities, with forensic and threat analysis capabilities. 
Analysis on the anthrax attack of 2001 was conducted as part of this 
program.
    Budget in Brief Statement.--Conducted objective assessments and 
validations on commercial equipment and systems through the SAVER 
Program, and provided those results, along with other relevant 
equipment information, to the emergency response community in an 
operationally useful form.
    SAVER reviews are used by first responders to inform their 
decisions on the purchase of new equipment.
    Budget in Brief Statement.--Completed a standard for law 
enforcement specific CBRN protective ensembles, which support the FEMA 
grants programs and the needs of Federal, State and local responders.
    These standards ensure first responders are acquiring personal 
protective equipment that provides the protection that the 
manufacturers claim.
    Budget in Brief Statement.--Developed a Universal Biosignature 
Detection Array, which allows rapid detection of biowarfare agents and 
hosts such as Foot-and-Mouth Disease or Rift Valley Fever, cutting 
detection time for early responders down to minutes versus hours.
    This university project has furthered the scientific knowledge base 
in the area of bio-detection and increased the level of United States 
scientific expertise in this area. This work will allow first 
responders to identify the agents to which individuals have been 
exposed.
    Budget in Brief Statement.--Developed two new parametric hurricane 
meteorological models allowing for more comprehensive data inputs such 
as variations in storm behavior and forecast information to provide 
better storm surge prediction.
    This university project has furthered the scientific knowledge base 
in the area of storm surge prediction and increased the level of United 
States scientific expertise in this area. This effort will allow 
localities to better prepare for impending storm surges and reduce loss 
of life and property.
    Budget in Brief Statement.--Demonstrated the passive acoustic 
detection system's ability to detect swimmers, underwater vehicles, and 
small vessels under various test conditions and parameters to 
strengthen maritime domain awareness and safeguard populations and 
properties unique to U.S. islands, ports, and remote and extreme 
environments.
    This system will provide increased security in the maritime 
environment.
                   domestic nuclear detection office
                 radiation portal monitor (rpm) program
    Question. Provide a status update RPM requirements by vector 
including total RPMs required by vector, systems deployed, and the 
percentage completed. The request includes $8 million for RPM 
acquisitions. How will this money, in addition to unobligated balances, 
reduce the gap in RPMs necessary at each vector? Provide a plan for RPM 
unobligated balances and the $8 million requested for fiscal year 2011. 
Distinguish between current generation and ASP deployments. How is the 
Helium-3 shortage impacting this program? Can DNDO deploy current 
generation RPMs in fiscal year 2010 with available RPMP balances 
without a solution to the shortage? When does DNDO anticipate a viable 
solution to Helium-3 to be available? Given the gap between vector 
requirements for RPMs and available systems, and delays in developing 
next generation RPMs (Advanced Spectroscopic Portals), why isn't DNDO 
obligating a larger portion of currently available balances for first-
generation polyvinyl toluene (PVT) systems?
    Answer. The RPM coverage status by vector is detailed in the table 
below. Currently, 65 percent of the total sites defined in the scope of 
the RPM Program are deployed.

----------------------------------------------------------------------------------------------------------------
                                                                          Operational RPMS at completion
                                                                 -----------------------------------------------
                                                                  Total required              Status
                                                                      \1\ (at    -------------------------------
                                                                    completion)       Systems         Percent
                                                                                     complete      complete \2\
----------------------------------------------------------------------------------------------------------------
North Land (Containerized Cargo Volume 100 percent).............             503             491              98
South Land (Containerized Cargo Volume 100 percent).............             448             391              87
Seaports (Containerized Cargo Volume 99.3 percent)..............             756             436              58
    Seaport Cargo...............................................             541             436              81
    Seaport Break Bulk..........................................             173  ..............  ..............
    Seaport RO/RO...............................................              42  ..............  ..............
                                                                 -----------------------------------------------
      TOTAL SEA and LAND........................................           1,707           1,318              77
                                                                 ===============================================
Mail/ECCF.......................................................              54              53              98
Rail............................................................  ..............  ..............  ..............
Airports (Air Cargo)............................................             350               4               1
Other...........................................................              43              32              74
    PreClearance Airports.......................................              33              22              67
    Testing.....................................................              10              10             100
                                                                 -----------------------------------------------
      TOTAL.....................................................           2,154           1,407              65
----------------------------------------------------------------------------------------------------------------
\1\ The number of systems required at completion includes all containerized cargo, break bulk, RO/RO, POV,
  conveyor type systems, and deployment site revisions.
\2\ The percent complete above is based on the number of completed/deployed RPM systems divided by the number of
  required RPM systems at completion of the RPM Program.

    The $8 million requested for RPM acquisitions in fiscal year 2011 
will be combined with the remaining unobligated fiscal year 2009 funds 
and applied on top of fiscal year 2008/2009 dollars that are already 
obligated but not yet expended.
    Two scenarios are considered for the application of unobligated 
fiscal year 2008/2009 balances and the $8 million fiscal year 2011 
request. In both scenarios, the $8 million fiscal year 2011 request 
will predominantly fund pre-clearance sites at key international 
airports. The 2011 request is targeted at areas that currently have 
little or no radiological/nuclear detection coverage.
    DNDO plans to obligate fiscal year 2008 funds by the end of the 3rd 
quarter fiscal year 2010 to support Advanced Spectroscopic Portal (ASP) 
field validation and operational testing ($3.4 million), fund systems 
engineering support for field validation ($2 million) and further fund 
the RPMP PVT deployments ($11.8 million).
    There is approximately $58 million in fiscal year 2009 unobligated 
acquisition funds in the RPMP PPA. Fiscal year 2009 RPMP funds will be 
used for engineering efforts by the ASP vendor to support field 
validation and operational testing and evaluation ($6 million to be 
obligated in the 3rd quarter of fiscal year 2010); and to procure and 
deploy ASPs after the certification decision point ($52 million which 
will be carried forward to fiscal year 2011).
    As mentioned in the response to question 303, the $8 million 
requested for RPM acquisitions in fiscal year 2011 will be combined 
with the remaining unobligated fiscal year 2009 funds and applied on 
top of fiscal year 2008/2009 dollars that are already obligated but not 
yet expended.
    Based on current funding and guidance for the RPMP, the Helium-3 
shortage has had no appreciable impact on the deployment of systems in 
fiscal year 2010. The program has a sufficient inventory of PVT systems 
with Helium-3 available to support deployments through fiscal year 
2011.
    Early testing has shown that there are multiple viable alternatives 
to helium-3 based neutron detectors. Solutions are expected to be 
available to DNDO for testing in summer of 2010. If these solutions are 
proven successful, a commercial solution could be available by 2012.
    The program is continuing to deploy PVT systems and has a 
sufficient inventory of PVT based systems to meet the current 
deployment plan through fiscal year 2011. In order to ensure that 
sufficient funds are available to support ASP procurement and 
deployment for secondary inspection, DNDO is not obligating the 
currently available balances until the ASP certification decision is 
reached. If ASP is not certified, these funds will be used for PVT 
systems. This strategy ensures, pending successful certification, DNDO 
will be able to take advantage of the added performance of ASP, while 
maintaining the deployment rate for PVTs.
                          systems development
    Question. According to the request, the purpose of systems 
development is ``taking concepts for new detection systems from 
exploratory (or long-range) research into a level of maturity 
sufficient for production and deployment.'' Given that the exploratory 
(long-range) research funding has been transferred to the Science & 
Technology Directorate, please describe the process for determining 
which concepts from exploratory research will be selected for systems 
development funding?
    Answer. DNDO follows DHS Management Directive 102-01 to (1) 
identify and clarify user needs, (2) analyze and select the best 
solution to meet those needs, (3) obtain the solution, and (4) produce, 
deploy, and support the solution. As the exploratory research effort is 
initiated and matures, there are regular discussions about how 
technologies developed in exploratory research can address particular 
stakeholder needs. As an exploratory research effort approaches 
successful completion (i.e. targeted performance is being achieved), 
DNDO assesses the technology against stakeholder needs. During an 
Analysis of Alternatives, solutions that utilize technology developed 
through the exploratory program are assessed along with other 
approaches to the degree to which they can meet stakeholder needs in a 
cost effective manner.
               human portable radiation detection systems
    Question. Provide the conclusions from the Human Portable Wide Area 
Search Program, which identifies the needs for human portable systems. 
For fiscal year 2010, what is the schedule to achieve full rate 
production of geranium based handheld detectors that will be used for 
small area searches and secondary screenings? The schedule should 
detail progress from low-rate initial production, to operational 
testing, to full rate production. The budget indicates the DNDO will 
enter into ``full-rate production'' in fiscal year 2010. What is the 
budget for this effort? What is the follow-on amount in fiscal year 
2011?
    Answer. The analysis concluded there are four common roles for 
human portable radiation detection capabilities: tripwire detection, 
wide area search, small area search, and secondary screening.
    DNDO is developing High Purity Germanium (HPGe)-based handheld 
detection systems to support advanced operations. DNDO is on track to 
complete Operational Test and Evaluation during the third quarter of 
fiscal year 2010. Following the Operational Test and adhering to the 
guidelines of the DHS 102-01 Acquisition Directive, a decision will be 
made as to the readiness of this system to be acquired. It is 
anticipated that the first purchase of the HPGe-based handheld 
detection systems will be approximately five units in fiscal year 2011.
    DNDO fiscal year 2010 funds are set aside for the procurement of 
the Advanced Handheld Systems (HPGe). For fiscal year 2011, DNDO has 
identified the need for approximately $500,000 to buy these systems for 
Federal users, which is included in the Human Portable Radiation 
Detection Systems (HPRDS) fiscal year 2011 Systems Acquisition budget 
request.
          cargo advanced automated radiography system (caars)
    Question. When does DNDO anticipate completion of its test and 
evaluation campaign of the CAARS prototypes? When does DNDO anticipate 
completion of the cost benefit analysis (CBA) and recommendations with 
regard to future development and testing options? The DNDO budget 
indicates that an Analysis of Alternatives (AOA) will be conducted 
following the CBA. If already completed, what are the conclusions of 
the CBA and AOA? If the CBA and AOA were not completed when the DNDO 
budget request was formulated, how was the $13.3 million request for 
CAARS developed?
    Answer. The CAARS Advanced Technology Demonstration is a technology 
assessment program, designed to assess the maturity of technology for a 
possible application. The CAARS test campaign was completed on March 
12, 2010. The final test report is scheduled to be released in July 
2010 and the final program report is scheduled to be released in 
September 2010. This report will contain recommendations for future 
development and testing options. A cost benefit analysis (CBA) will be 
completed as part of any formal acquisition program utilizing CAARS 
technology. At this point, DNDO is in the process of harmonizing 
lessons learned from the CAARS ATD, user requirements, and the security 
strategy described by the Global Nuclear Detection Architecture (GNDA).
    DNDO has not yet performed a CBA for CAARS. A preliminary CBA will 
be performed as an integral part of an AOA. The AOA process will be 
initiated following the approval of a valid Mission Needs Statement 
(MNS). The $13.3 million represents the cost of executing the initial 
analytical phase of an Acquisition Program most likely to follow from 
this effort. This includes testing of viable alternatives resultant 
from the RFI, completing the MNS, formalizing suitable concepts of 
operations, development of an Operational Requirements Document (ORD) 
and forecasting a Life Cycle Cost Estimate (LCCE). All of the actions 
will contribute to a formal AOA, followed by a decision regarding 
development of an actual system.
     stand-off radiation detection system (sords) follow-on program
    Question. What is the schedule to complete the SORDS Advanced 
Technology Demonstration in fiscal year 2010? What is the timetable for 
DNDO to assess the results and determine if it will pursue a capability 
development program? The request indicates that DNDO has budgeted $11.2 
million for this program in fiscal year 2011 to develop a capabilities 
acquisition plan, complete an Analysis of Alternatives, and develop an 
initial Life Cycle Cost Estimate. How is the $11.2 million request 
allocated to these efforts?
    Answer. The SORDS Advanced Technology Demonstration has finished 
the data collection campaign at Savannah River National Laboratory and 
is currently analyzing the data. DNDO expects to finish the data 
analysis and the final report by the end of summer 2010. As a result of 
the demonstration of long range radiation detection, identification, 
and localization capability by the SORDS ATD, DNDO has initiated the 
Long Range Radiation Detection (LRRD) program. The LRRD program will 
conduct an Analysis of Alternatives in fiscal year 2011. In the 
Analysis of Alternatives, solutions that utilize technology developed 
through the SORDS program will be assessed, along with other 
approaches, on the degree to which they can meet stakeholder needs.
                              on-dock rail
    Question. The budget indicates that, in fiscal year 2010, DNDO will 
construct a prototype straddle carrier portal and evaluate its 
performance. What is the timetable to complete this effort? What is the 
timetable to evaluate alternative technologies and determine their 
potential in the seaport environment?
    Answer. Assembly of the Straddle Portal Prototype will be complete 
at the end of May 2010. Lab testing, to qualify the system for use at a 
port, will occur June-August 2010; port testing will be at the Port of 
Tacoma, November-December 2010. While the straddle carrier portal 
remains an attractive, cost-effective, near-term solution, we are 
conducting parallel efforts, conforming to DHS acquisition policy, to 
explore alternatives. In this regard, an Analysis of Alternatives is on 
schedule for completion in February 2011, following completion of the 
straddle carrier portal tests. Additionally, an industry-wide Request 
for Information (RFI) was issued in December 2009, resulting in nine 
responses, which we will complete evaluating by the end of March 2010.
                          boat-mounted sensors
    Question. The request includes $14.3 million for the boat-mounted 
sensor program. How close are DNDO, Coast Guard, and CBP to developing 
the operational requirements for the system? Provide DNDO's notional 
schedule leading up to the procurement of developmental systems and 
testing.
    Answer. Based on the outline that follows, operational requirements 
for the boat-mounted sensor program are being developed by DNDO, CBP, 
and USCG throughout fiscal year 2010 with finalization in fiscal year 
2011.
    Per the following outline, developmental systems (Commercial off-
the-shelf (COTS) and Government off-the-shelf (GOTS)) have been 
procured and are currently undergoing testing in the Dolphin Test 
Campaign. Full characterization is to be completed by June 2010.
    Boat-Mounted Sensor Program.--Results of the fiscal year 2008 
Maritime test campaign (Crawdad) and early deployments of selected 
systems in the West Coast Maritime Pilot in Puget Sound will lead to 
the definition of a boat mounted radiation detection system. The 
Dolphin Test Campaign to characterize several COTS and Government off-
the-shelf is ongoing and scheduled for conclusion in June 2010. If it 
is demonstrated that operational and technical requirements of the 
maritime mission area can be met by commercially available boat-mounted 
systems, systems may be incorporated into DHS acquisition programs. 
DNDO will develop and test a prototype system if commercially available 
systems cannot meet the requirements.
Milestones in Systems Development Boat-Mounted Sensors
    Fiscal year 2010 planned milestones include:
  --Collect and compile the mission needs of DHS operational components 
        in regards to maritime standoff detection to include boat-
        mounted, aircraft-mounted, fixed, and mobile;
  --Develop operational requirements specific to boat-mounted detection 
        systems from USCG, CBP-Air and Marine, and OBP; and
  --Complete an analysis of alternatives to compare cost effectiveness 
        and probability of detection of boat and aircraft-mounted 
        standoff detection systems with currently fielded detection 
        equipment carried by law-enforcement boarding teams.
    Fiscal year 2011 planned accomplishments include:
  --Finalize the requirements documents for a boat-mounted, stand-off 
        detector;
  --Develop an acquisition plan to include system specification;
  --Begin the development of boat-mounted systems to support evaluation 
        and deployment on selected DHS small boats;
  --Procure early developmental systems against the requirements; and
  --Test Engineering Design Models.
                     worksite enforcement sanctions
    Question. In your testimony at the hearing, you requested authority 
to impose stronger sanctions against employers to knowingly hire or 
employ illegal aliens.
    What is your proposal and will you be submitting it shortly?
    Answer. DHS supports legislation to increase criminal and civil 
penalties against employers who knowingly violate the law, particularly 
those who abuse and/or exploit the workers.
  office of the federal coordinator for gulf coast rebuilding (ofcgcr)
    Question. According to Presidential Directive, the OFCGCR will be 
closed at the end of March. However, the Gulf Coast rebuilding effort 
is on-going and will take years to come.
    How will the needed on-going activities of the OFCGCR be absorbed, 
and who will be responsible for the completion of those activities?
    Answer. From the first day of this administration, rebuilding the 
Gulf Coast communities from Hurricanes Katrina and Rita has been a top 
priority. The President and many members of his Cabinet have visited 
the Gulf Coast, representing the Obama administration's strong 
commitment to solving problems by making the Federal process move 
faster and be more responsive to the needs of the community.
    The closure of OFCGCR is in many ways a milestone in the recovery 
from Hurricanes Katrina and Rita. The recovery is moving into its next 
phase, and the OFCGCR has worked closely with other Federal agencies, 
as well as the State and local governments to address long term needs.
    Question. How much of the fiscal year 2010 funding for the OFCGCR 
is expected to be unobligated after the termination of the office is 
complete?
    Answer. The OFCGCR is expected to have approximately $843,000 
unobligated. The Department has requested that $100,000 be transferred 
to FEMA for the Long-Term Disaster Recovery Working Group.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                        immigration enforcement
    Question. Secretary Napolitano, many agricultural producers rely on 
an immigrant workforce and would like to publicly support immigration 
reform, but they are fearful that if they do so they will draw the 
attention of DHS.
    Should agricultural employers in my State be concerned that they 
will become a target for enforcement actions, such as an I-9 audit, if 
they speak out publicly to support comprehensive immigration reform?
    Answer. Immigration and Customs Enforcement (ICE) does not initiate 
investigations based on an individual, business or organization's 
political views. ICE initiates worksite enforcement investigations 
based on leads or intelligence information that indicate a possible 
worksite violation.
    Secretary Napolitano, as you may know, the I-9 form is a 2-page 
form with a 65-page manual, making it a complicated form for employers 
to complete. Our employers strive to complete the form accurately, 
including recording documents from potential employees, but they are 
not necessarily experts in verifying inaccurate or falsified documents.
    Question. Other than the E-Verify program, what other Department 
initiatives are available for employers around the country as they try 
to comply with their obligations?
    Answer. In 2007, to combat unlawful employment and reduce 
vulnerabilities that help illegal aliens gain such employment, ICE 
created the Mutual Agreement between Government and Employers (IMAGE) 
program--a voluntary tool for employers to reduce unauthorized 
employment and the use of fraudulent identity documents.
    As part of IMAGE, ICE and U.S. Citizenship and Immigration Services 
(USCIS) provide education and training on proper hiring procedures, 
fraudulent document detection, use of the E-Verify employment 
eligibility verification program, and anti-discrimination procedures. 
Among other participation requirements, the IMAGE program requires that 
its members enroll in E-Verify and the Social Security Number 
Verification Service (SSNVS) which allows employers to match their 
record of employee names and Social Security numbers with Social 
Security records before preparing and submitting Forms W-2.
    Secretary Napolitano, I'm aware of efforts by agencies within your 
Department to conduct I-9 audits around the country. One such audit has 
been completed in my home State and I understand that a few dozen more 
are underway. I've heard concerns from agricultural producers as well 
as community members about the effects of these audits on local 
communities.
    Question. Can you tell me how the Department is planning to move 
forward with I-9 audits in 2010?
    Answer. Form I-9 inspections are an integral part of Immigration 
and Customs Enforcement's (ICE) worksite enforcement strategy, which 
aims to hold employers accountable for their hiring practices and to 
promote compliance with immigration laws. Congress appropriated an 
additional $6 million in fiscal year 2010 for ICE to hire additional 
auditors, the primary personnel within ICE who conduct Form I-9 
inspections. ICE will continue to conduct inspections nationwide based 
on leads or intelligence information that indicates a possible worksite 
violation.
                             cyber security
    Question. You may be aware of a number of news stories and 
demonstrations in which terrorists or foreign governments are able to 
launch cyber attacks targeted at our Nation's power grid. Many of the 
key components of the power grid are owned and operated by private 
companies and their participation will be critical to prevent cyber 
attacks. But it is still undetermined whether the Department has the 
sufficient authority, the plans in place or the cooperation of private 
sector employees in order to protect critical Bulk Power System 
infrastructure in the case of an imminent, cyber threat.
    Without utility experts at the table, high-ranking government 
officials will be left to make choices with incomplete information and 
without the ability to implement the decisions they did make. And, of 
equal importance, during a crisis government officials may not be able 
to implement mitigation strategies without open lines of communication 
to private sector operators. As you know, Congress and the Department 
are looking at these questions now.
    Do you agree with experts in the utility industry who say that they 
need to receive from the Federal Government specific, actionable 
information in order to respond appropriately to an imminent cyber 
security threat?
    Answer. Yes, we agree. The majority of national critical 
infrastructure (including the Nation's power grid) is owned and 
operated by private industry. These owners and operators are 
responsible for the day-to-day operation and security of their 
infrastructure and, as such, should receive specific, actionable 
information to respond appropriately to an imminent cybersecurity 
threat. Furthermore, information sharing and regular communication 
between government and industry is important to ensure successful 
mitigation and prevention of incidents that might have national 
consequences. To this end, the Department of Homeland Security's (DHS) 
National Cyber Security Division and the Office of Intelligence and 
Analysis engage in a variety of activities designed to increase timely 
information sharing between government and private industry.
    Question. How will the Department provide, or make available, 
security clearances to potentially thousands of privately owned utility 
companies and private sector officials in order to allow them to be 
able to receive precise, actionable information about security threats?
    Answer. Actionable information is often unclassified--steps to 
protect networks from threats can be taken without access to classified 
knowledge regarding the origin of those threats.
    Additionally, the National Cyber Security Division is working to 
provide security clearances to representatives of each critical 
infrastructure and key resources sector under the National 
Infrastructure Protection Plan Partnership Framework. These 
representatives of each sector will have sufficient threat context to 
justify the implementation of an unclassified, actionable 
vulnerability-mitigation strategy without the need to disclose the 
classified information throughout the sector.
    In addition, DHS's National Cybersecurity Division is working with 
the DHS Office of Intelligence and Analysis as well as other partners 
within the Intelligence Community to improve ``tear-line'' processes, 
which will ensure that classified cybersecurity information can be 
brought down to ``Unclassified/For Official Use Only'' levels when 
appropriate to enable broader sharing with critical infrastructure 
representatives.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. On December 17, Senator Lamar Alexander and I introduced 
the Child Safety, Care and Education Continuity Act of 2010. As you 
know, in the aftermath of Hurricanes Katrina and Rita, almost 370,000 
children across the Gulf Coast were displaced from their homes, day 
care facilities, and schools. Kids are the focal point of the family, 
and getting them back into school or child care is essential to 
allowing their parents to get back to work. I appreciate FEMA's 
willingness to move forward on administrative recommendations from the 
National Commission on Children and Disasters, but more must be done. 
Our bill requires Child Care Centers to develop plans for evacuation, 
reunification plans, temporary operating standards, and special needs. 
It also requires the FEMA Administrator to encourage States and 
localities to address childcare services and facilities in their 
response and recovery plans.
    Has the Department been involved in discussions with states and 
localities to emphasize the need to address childcare services and 
facilities in their response and recovery plans?
    Answer. Yes, FEMA has been working with states and localities to 
address the need for preparedness, response, and recovery plans for 
childcare facilities. FEMA has also worked closely with the National 
Commission on Children and Disasters to clarify ways in which Homeland 
Security Grant Program (HSGP) dollars may be used to support 
preparedness and planning activities for children's needs, and several 
additions specifically addressing children were incorporated into the 
fiscal year 2010 HSGP guidance. Additionally, FEMA's Children's Working 
Group and the Department of Health and Human Services are working 
together to improve the overall availability of safe, healthy childcare 
for children during and immediately following a disaster. Through these 
efforts, HHS expects to issue preparedness and response guidance for 
states and child care grantees by the end of 2010.
    Question. Is your Department collaborating with the Department of 
Health and Human Services on joint emergency planning for child care 
facilities or with the Department of Education on joint emergency 
planning for schools?
    Answer. FEMA's Children's Working Group and the Department of 
Health and Human Services are working together to improve the overall 
availability of safe, healthy childcare for children during and 
immediately following a disaster. Through these efforts, HHS expects to 
issue preparedness and response guidance for States and child care 
grantees by the end of 2010.
    FEMA is also working with HHS to disseminate recently published 
guidance clarifying and HHS are also working together to provide 
guidance clarifying reimbursement eligibility for the cost of child 
care services. HHS will share this guidance with their child care 
grantees to help FEMA reach State and local jurisdictions.
    FEMA has also been working with the Department of Education to 
develop emergency planning guidance for schools. Additionally, FEMA 
recently began collaborating with Education and HHS to develop a more 
structured and comprehensive approach to increasing preparedness 
knowledge and behaviors of America's youth from pre-kindergarten 
through high school.
    The Government Accountability Office (GAO) issued a report in March 
2007 revealing significant waste, fraud, and abuse associated with 
payments made by the Department in response to Hurricanes Katrina and 
Rita. FEMA's Individuals and Households Program application process 
resulted in an estimated $1 billion in potentially fraudulent payments 
through February 2006. FEMA also made nearly $20 million in duplicate 
payments to individuals for property damage that submitted claims for 
both Katrina and Rita. I appreciate that the Department has 
significantly improved fraud controls since these problems were first 
discovered, but flaws still exist that leave the government vulnerable 
to additional waste, according to a follow-up report from GAO issued in 
June 2009. That report noted that FEMA had improved measures to verify 
identities but not the existence of claimed addresses. For example, 
FEMA failed to properly inspect a fabricated address that GAO used to 
apply for rental assistance and wound up sending several thousand 
dollars to the address as a result. It is my hope that further reform 
will lead to a Department which can perform nimbly and efficiently 
without squandering limited funding for response and recovery.
    Question. What additional protocols have been implemented to better 
protect the Department against waste, fraud and abuse since the 
issuance of the June 2009 GAO report?
    Answer. FEMA has taken several steps to better protect the Agency 
against waste, fraud and abuse since the issuance of the June 2009, GAO 
report.
    In October 2009, FEMA established an internal Audit Section 
responsible for auditing casework, reviewing how policy or procedural 
guidance affects decisions, conducting random checks on applicant 
documentation, and making recommendations for system changes. The Audit 
Section completed an audit directly associated with applicants who 
failed the automated identity verification process referenced in the 
GAO report. This audit identified improvements for caseworker training 
materials and guidance, as well as casework quality control.
    As a result of these findings, we have improved the document 
validation processes used by our casework staff and new training 
guidance and quality control procedures have been put in place. In 
addition, FEMA is working with the OIG to improve our caseworkers' 
ability to identify potentially fraudulent documents and identify the 
best tools for automated verification of applicant-provided 
information.
    On January 31, 2010, we deployed a new version of the National 
Emergency Management Information System (NEMIS). This updated version 
includes a number of new system controls to help FEMA prevent waste, 
fraud, and abuse.
    The Contract Management and Housing Inspection Services (CMHIS) 
Section has also instituted new quality assurance processes including 
the review of digital photographs of damages taken by the inspection 
contractors. This photo review is used to identify and correct 
inspections that have potential errors that could result in an 
incorrect payment to an applicant. In addition, CMHIS has updated 
inspection guidelines to direct the housing inspectors to flag suspect 
inspections for further review, and has implemented a process by which 
potentially fraudulent cases are referred to the OIG for investigation.
    On February 5, FEMA and the White House Long-Term Disaster Recovery 
Working Group released a preliminary draft of the National Disaster 
Recovery Framework (NDRF). This document is long overdue, and I applaud 
the administration for recognizing that recovery is fundamentally 
different than response, and that it requires intensive coordination 
between Federal agencies and stakeholders to effectively execute. Once 
complete, the Framework will function as a companion document to the 
National Response Framework (NRF) and identify the roles, 
responsibilities, and resources of Federal agencies, State and local 
governments, nonprofits, businesses, and individuals/families before 
and after a disaster with regard to recovery.
    Question. Will FEMA require money to implement the NDRF? If so, how 
much, and are those funds included in the Department's fiscal year 2011 
budget request?
    Answer. The National Disaster Recovery Framework (NDRF) is an 
important initiative that will describe how disaster recovery efforts 
and assistance are coordinated. EMA included the NDRF implementation 
activities within its base fiscal year 2011 budget.
    While the budget requests level funding for most grant programs, 
there are several proposed reductions that concern me. Congress 
appropriated $35 million for Emergency Operations Centers (EOC) grants 
last year, but the proposed budget would eliminate the program 
entirely. EOCs are a critical tool for emergency managers to exert 
command and control, obtain and share information in real time, and 
direct resources to address urgent needs.
    Question. What is the justification for eliminating this program 
entirely?
    Answer. Last year, 80 percent of EOC funds were awarded based on 
earmarks. The fiscal year 2011 Budget Request seeks to consolidate a 
number of grant programs to give states maximum flexibility to 
prioritize their greatest needs. States can continue to fund EOC 
activities under the Emergency Management Performance Grant (EMPG) as 
determined by their priorities.
    The budget also eliminates funding for the Metropolitan Medical 
Response System (MMRS) program, which helps localities to prepare for a 
mass casualty public health emergency caused, for example, by a 
biological attack or flu epidemic. As I understand it, the 
justification for eliminating the program is that funding from the 
Urban Area Security Initiative program can be used for this purpose. 
But there are some MMRS jurisdictions that are not designated Urban 
Areas according to the Department.
    Question. Can you explain the justification behind these proposed 
cuts?
    Answer. The fiscal year 2011 Budget Request seeks to consolidate a 
number of grant programs, so that states, territories, and metropolitan 
areas have maximum flexibility to fund their priorities and apply DHS 
grant funding to areas to address the most significant risks. The 
consolidation reduces the number of separate grant programs, which 
decreases the number of applications a State will need to submit. The 
MMRS activities can now be funded under both the State Homeland 
Security Program (SHSP) and the Urban Areas Security Initiative (UASI).
    Question. How does the Department plan to ensure that funding 
remains available for the MMRS jurisdictions that are not in a UASI 
region?
    Answer. The consolidation of programs means that those activities 
that were formerly allowed under the MMRS grant program are now 
allowable under both the State Homeland Security Program (SHSP), which 
provides funding to the District of Columbia, the territories, every 
State, as well as the Urban Areas Security Initiative (UASI). As such, 
MMRS jurisdictions are not limited if they are not in a UASI 
jurisdiction. In addition, this gives States that do not currently have 
an MMRS jurisdiction the freedom to establish one if they so choose.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. During the Newark Airport breach, the security of a busy, 
heavily traveled exit was left to just one TSA guard. The suspect was 
able to sneak in when that lone guard was distracted. The President's 
budget provides funding for an increase in the hiring of TSA airport 
security personnel. It's clear that Newark Airport does not have the 
necessary number of TSA personnel to provide the type of security that 
this airport requires.
    How many additional TSA personnel will Newark Airport receive under 
the President's budget request?
    Answer. TSA's staffing allocation model takes into account the 
security of exit lanes. Following the security breach at Newark 
International Airport on January 3, 2010, the Transportation Security 
Administration (TSA) deployed a team of security experts to the airport 
to evaluate, review, and make necessary security changes to the 
existing checkpoint layout. As a result of the review, TSA installed 
glass barricades to minimize the chance of recurrence and reconfigured 
the staffing coverage to address vulnerabilities. Additional personnel 
requirements for the Newark International Airport will be considered as 
part of the fiscal year 2011 Screener Allocation Model process.
    TSA's staffing allocation model to determine the number of TSA 
personnel at airports does not take into account the security of exit 
lanes. The Newark Airport security breach demonstrated the importance 
of securing airport exit lanes.
    Question. Will the TSA revise its staffing model to take into 
account TSA staffing at airport exit lanes?
    Answer. TSA's staffing allocation takes into account the security 
of exit lanes. TSA periodically evaluates staffing configurations at 
all airports as a part of its Screener Allocation Model. During this 
process, TSA assesses staffing and lane configuration at all 
checkpoints and the exit lanes that are co-located with checkpoints to 
optimize staffing and security nationwide.
    Question. In light of the Newark Airport security breach, what 
immediate steps has DHS taken to secure terminal exits at airports 
across the country?
    Answer. Immediately following the Newark International Airport 
security breach, TSA ordered all Federal Security Directors nationwide 
to review the security vulnerabilities at their airport checkpoints and 
make necessary changes, such as ensuring immediate access to closed 
circuit television records.
    In addition, TSA is evaluating Exit Lane Breach Control (ELBC) 
technologies as requested by Congress that are capable of detecting 
unauthorized individuals using exit lanes as a means to bypass security 
checkpoints and gain access into the sterile area. TSA will guide the 
selection, configuration, and evaluation of various technologies under 
a 6- to 18-month laboratory and field assessment to test and evaluate 
the performance capabilities and technical viability of ELBC 
technologies. Once the laboratory and field assessment is complete, TSA 
will determine if the technology provides value to the checkpoint 
environment.
    The President's budget cuts funding for the U.S. Coast Guard and 
proposes to eliminate five Maritime Safety and Security Teams, 
including the team assigned to the New York/New Jersey region. The Port 
of New York/New Jersey is the largest port on the East Coast and the 
second largest port in the country. It is directly linked to what the 
FBI deemed the most dangerous two miles in America for a terrorist 
attack.
    Question. Given the risks and vulnerabilities of this area of the 
country, why would you eliminate critical homeland security resources 
there?
    Answer. The New York Coast Guard Sector has one of the largest 
concentrations of Coast Guard units, boats, and people in the country 
with more than 700 personnel and 35 vessels, and is well equipped and 
prepared to protect the State's waterways and maritime borders. In 
2009, the New York Maritime Safety and Security Team (MSST) spent 
considerable time deployed outside of New York to Guantanamo Bay, Cuba, 
and the States of Washington, Florida, Michigan, and Connecticut. 
Accordingly, to make the most of current operating capabilities, the 
fiscal year 2011 Budget Request transitions the MSSTs to a regional 
model, enabling the Coast Guard to rapidly deploy teams of skilled 
professionals to ports and operating areas across the country based on 
risk and threats as needed.
    Question. Over 2 years ago, Congress required 100 percent scanning 
of all shipping containers coming to the United States. The last 
administration was only able to scan less than 5 percent of all U.S.-
bound containers and the GAO found that 100 percent screening has not 
been achieved at even one port.
    Has this administration increased at all the number of U.S.-bound 
containers being scanned?
    Answer. DHS is continuing to address this issue aggressively and 
comprehensively from a risk- and technology-based approach. DHS must 
mitigate threats across all potential pathways, evaluating all points 
of risk and vulnerability across a complex system.
    Question. What percentage of U.S.-bound containers are currently 
scanned?
    Answer. U.S. Customs and Border Protection (CBP) employs a risk-
based, layered approach to ensure the integrity of the supply chain 
through arrival at a U.S. port of entry. This multi-layered approach 
includes:
  --Advanced information under the 24-Hour Rule and Trade Act of 2002 
        (supplemented now by CBP's Importer Security Filing (ISF), or 
        ``10+2'' requirements);
  --Screening of all cargo information through the Automated Targeting 
        System (ATS) and National Targeting Center--Cargo (NTC-C);
  --Scanning of about 5 percent of U.S.-bound containers;
  --Scanning 99 percent of all seaborne containerized cargo upon 
        arrival at U.S. seaports;
  --Partnerships with industry and the private sector such as the 
        Customs Trade Partnership Against Terrorism (C-TPAT);
  --Partnerships with foreign governments, such as the Container 
        Security Initiative (CSI) and the Secure Freight Initiative 
        (SFI); and
  --Use of Non-Intrusive Inspection (NII) technology and mandatory 
        exams for all high-risk shipments.
  --The goal of this layered approach is to combine each of these 
        systems to allow us to receive, process, and act upon 
        commercial information in a timely manner so that we can 
        target, in a very specific fashion, suspect shipments without 
        hindering the movement of commerce through our ports.
    Question. The 9/11 Act, which was signed into law over 2 years ago, 
set a number of deadlines for TSA to secure our surface transportation 
networks. Unfortunately, TSA has missed many of these deadlines.
    When will TSA complete the comprehensive risk assessment and 
national security strategy for the rail sector that was due to Congress 
last year?
    Answer. The Freight Railroad Security Risk Assessment and National 
Strategy, as required by section 1511 of the Implementing 
Recommendations of the 9/11 Commission Act of 2007, is currently 
undergoing executive-level review within TSA. Once TSA, DHS, and the 
Office of Management and Budget clear the draft it will be delivered to 
the appropriate committees of Congress, expected by the end of third 
quarter fiscal year 2010.
    Question. The Disaster Relief Fund (DRF) is currently expected to 
be exhausted in early April and FEMA announced the temporary suspension 
of Public Assistance categories C-G and Hazard Mitigation grants on 
February 4. The President's fiscal year 2011 budget proposes $5.1 
billion in supplemental emergency spending for the DRF; however, the 
current fiscal year 2010 shortfall is estimated to be as much as $6.4 
billion.
    In light of the impact recent snow storms have had on East Coast 
communities, does the supplemental budget request provide sufficient 
funding for the DRF to cover the fiscal year 2010 shortfall and lift 
the suspension of Public Assistance Category C-G and Hazard Mitigation 
grant programs?
    Answer. The $5.1 billion supplemental request will provide 
sufficient funding for the DRF to cover the fiscal year 2010 shortfall 
and lift the suspension of Public Assistance Category C-G and Hazard 
Mitigation grant programs.
    Question. If so, how long will it take to lift the suspension if a 
supplemental becomes law?
    Answer. The suspension can be lifted immediately after the 
supplemental funding is enacted into law.
    Question. Three large snow storms have impacted communities in New 
Jersey since December and FEMA has declared one to be a disaster.
    Will the $5.1 billion supplemental request provide sufficient funds 
to allow FEMA to fund high priority Public Assistance Category B 
programs should a Presidential disaster be declared for the two 
additional storms?
    Answer. Yes, the $5.1 billion supplemental request will provide 
sufficient funds to allow FEMA to fund high priority Public Assistance 
Category B programs should a Presidential disaster be declared for the 
two additional storms.
    Question. A January 2010 report by the DHS Office of the Inspector 
General found that the Department reported 289 firearms as lost between 
fiscal year 2006 and fiscal year 2008. These guns were lost in bowling 
alleys, public restrooms, unlocked cars, and other unsecure areas, with 
some ending up in the hands of criminals.
    Were any of these lost guns used in connection with any crimes?
    Answer. At the time of the audit, none of the weapons had been 
reported as used in the commission of a crime.
    Question. During this administration, how has the Department 
improved systems for securing and tracking its firearms?
    Answer. DHS is strongly committed to ensuring that weapons utilized 
in support of its law enforcement mission are kept secure and the 
Department took immediate action to correct the deficiencies identified 
in this audit and to improve the overall management of firearms. DHS is 
in the process of implementing new policies and procedures to ensure 
that accurate and timely firearms property records and systems are 
maintained. These new policies and procedures will require the proper 
storage of weapons, annual firearms security requirements awareness 
training for all personnel issued firearms, and accountability and 
requirements for investigation when individuals fail to follow 
procedures.
    In addition to the department-wide activities, several components 
have taken specific actions to improve the securing and tracking of 
firearms.
ICE
    Ensured that officers and agents store their firearms in secure 
locations, including pistol lockboxes or other approved devices.
    Strengthened and updated its policies regarding firearm transfers, 
reporting lost or stolen firearms and other sensitive property, and 
annual firearm inventories.
    Instituted new procedures and timelines for updating records in the 
automated firearms inventory system.
    Promoting firearms security awareness through bulletins and other 
communications that reinforce firearms storage requirements and 
quarterly qualifications training.
    Expanding the scope of its field office inspection program to 
include a review of firearms security storage practices, and requiring 
supervisory review of firearms inventory.
    Assessing firearm security equipment needs and procuring the 
additional equipment required to ensure each armed officer is issued 
adequate equipment to secure their firearms.
CBP
    Transitioning to a Web-based firearms accountability system in 
April 2009.
    Created a monthly review process of lost firearms to improve 
oversight and accountability.
    Utilized CBPnet to remind law enforcement personnel of the 
reporting requirements for lost, stolen, or missing firearms.
    Developed a presentation that addresses the proper methods for 
safeguarding and controlling firearms, which CBP plans to use annually.
United States Secret Service
    Conducting an overall firearms policy review.
    Continues to place a strong emphasis on weapons accountability and 
security with all current employees who carry firearms and new hires 
participating in training.
TSA
    Accounts for firearms in the Federal Air Marshal Information System 
(FAMIS)--a data system that tracks the issuance, movement, repair, and 
destruction of firearms.
    Question. In 2009, TSA modified FAMIS to track ``In-Transit'' 
weapons and generate an electronic notification for all weapons 
shipments.
    At a Senate Judiciary Committee hearing this past November, 
Attorney General Holder expressed his support for my legislation to 
close the Terror Gap that allows known and suspected terrorists to buy 
guns legally.
    Does the Department of Homeland Security also support closing this 
loophole?
    Answer. The administration does not have an official position on 
this legislation at this time.
    Question. It is estimated that Haiti was home to more than 350,000 
orphans before the devastating January 12 earthquake and many more 
children have lost their parents as a result of this catastrophic 
disaster.
    Does the Department of Homeland Security support expanding the 
humanitarian parole policy to include orphans that have close family 
members in the United States who are willing to provide a temporary or 
permanent location for them?
    Answer. In coordination with the Department of State, on January 
18, 2010, DHS announced a policy for providing humanitarian parole to 
Haitian orphans who were in the process of being adopted by U.S. 
citizens or who had been matched with prospective U.S. citizen parents 
prior to January 12, 2010. These eligible children and the adoptive 
families were previously known to the Haitian and U.S. Governments and 
sufficiently screened such that both governments could proceed with 
confidence on an extremely fast track.
    DHS is engaged in Operation Protect Children, led by the U.S. 
Government Special Advisor on Orphans and Vulnerable Children, which 
focuses on efforts to provide protection and assistance to orphans and 
vulnerable children in Haiti. UNICEF and other aid organizations, in 
coordination with the Government of Haiti, are establishing protected 
areas for children and working to reunite separated children with their 
families. DHS agrees with interagency partners and international child 
protection organizations that these efforts are the most critical area 
in need of U.S. Government support at this juncture.
    Question. Did the department conduct a risk and vulnerability 
assessment in determining the number of Marine Safety and Security 
Teams (MSST) to eliminate?
    Answer. To make the most of current operating capabilities, the 
fiscal year 2011 Budget Request transitions the Maritime Safety and 
Security Teams (MSST) to a regional model, enabling the Coast Guard to 
rapidly deploy teams of skilled professionals to ports and operating 
areas across the country based on risk and threats as needed. The teams 
were selected based on existing Coast Guard presence in their region. 
Transitioning the MSSTs to a regional model will enable the Coast Guard 
to rapidly deploy teams of skilled professionals to ports and operating 
areas across the country based on risk and threats as needed. The Coast 
Guard will also continue to leverage all available intelligence 
resources and partnerships across DHS, the Federal Government and State 
and local law enforcement to collectively mitigate risks and ensure the 
security of the Nation's ports.
    Question. Can you provide that risk and vulnerability assessment on 
the decision to eliminate the MSST for the New York/New Jersey region?
    Answer. The New York Coast Guard Sector has one of the largest 
concentrations of Coast Guard units, boats, and people in the country 
with more than 700 personnel and 35 vessels, and is well equipped and 
prepared to protect the State's waterways and maritime borders. 
Further, the security system of the port of New York is supported by 
significant interagency resources from other State, local, and Federal 
agencies and port facilities, many of which have been substantially 
increased through port security grants. Moreover, the New York region 
is covered by a Maritime Security Response Team in the event of high 
threat-high consequence event and is proximal to the Atlantic Strike 
Team for Chemical, Biological, Radiological, and Nuclear response and 
incident management.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich
                         grants--effectiveness
    Question. The Department's fiscal year 2011 request includes $4 
billion for grants to improve the preparedness and response 
capabilities of State and local governments. This is 9.1 percent of the 
Department's total discretionary request of $43.6 billion. More 
importantly, this $4 billion will be in addition to the $28 billion 
that has been appropriated since fiscal year 2004, including emergency 
supplemental appropriations. This is a significant investment, but we 
have no reliable data or measures to show that the equipment, training, 
and planning purchased to date have improved or made the Nation 
sufficiently capable of responding to disasters. There is a significant 
difference between knowing how many fire trucks have been bought with 
grant dollars, and being able to draw conclusions that more fire trucks 
means we are better prepared to respond to a nuclear event.
    In October of 2009, Timothy Manning, Deputy Administrator for the 
National Preparedness Directorate, Federal Emergency Management Agency, 
testified to the Homeland Security Committee of the U.S. House of 
Representatives:
    ``Given the size of this investment [in grant funding], it is 
critical for us as stewards of Federal dollars, to be able to identify, 
measure and assess what these dollars have bought and what the 
investment has returned. At the end of the day, we need to answer some 
very fundamental questions. The most fundamental of theses is simply, 
`What have we bought?' Once we are able to answer this basic question, 
we should then be able to ask the more important one that logically 
follows, `Are we better prepared?' . . . Intuitively, we could answer 
the question `Are we better prepared?' with a `yes.' We could validly 
point to the amount and type of equipment that has been purchase, [etc] 
. . . However, intuitive conclusions are not good enough. DHS and FEMA 
are committed to answering questions of preparedness with a greater 
degree of accuracy.''
    Clearly Mr. Manning's testimony confirms that we are no closer 
today than we were 5 years ago to being able to measure the effect $28 
billion in grants have had on our Nation's preparedness. Further 
evidence of our inability to measure is confirmed by the Government 
Accountability Office (GAO). In the GAO report entitled ``National 
Preparedness: FEMA has Made Progress but Needs to Complete and 
Integrate Planning, Exercise, and Assessment Efforts'' it states:
    ``The Post-Katrina Act requires that FEMA establish a comprehensive 
system to assess the Nation's prevention capabilities and overall 
preparedness . . . FEMA has established reporting guidance for State 
preparedness and has created a program office to develop and implement 
an assessment approach that considers past efforts and integrates its 
ongoing efforts related to measuring the results of Federal grants and 
assessing gaps in disaster response capabilities. However, FEMA faces 
challenges in developing and completing this approach . . . FEMA faces 
methodological challenges that include deciding how information and 
data from different sources will be used to inform the system and 
developing an approach for coordinating with Federal, State, and local 
stakeholders in developing and implementing the system and reporting on 
its results. Moreover, FEMA has faced similar challenges in three 
previous attempts to assess capabilities since at least 1997. For 
example, from 2006 through 2008, FEMA spent $15 million on a Web-based 
system to identify capability data among States. However, FEMA 
discontinued the effort, in part because the data produced were not 
meaningful.''
    How can the Department continue to request such large sums of money 
for grants when it lacks the capacity to measure whether risk is being 
reduced or mitigated? Secretary Napolitano, you have indicated that the 
Department is reviewing existing performance measures. Please provide a 
copy of the existing measures used by the Department to track and 
measure effectiveness of grants and a timeline for the ongoing review. 
Further, provide a timeline for implementing the findings of the 
review.
    Answer. The grants in the fiscal year 2011 Budget Request are 
critical to the preparedness and response capabilities of State and 
local governments as well as our national efforts to combat terrorism 
and other threats. FEMA continuously monitors grantees, from both a 
financial and programmatic perspective, crafts grant guidance and 
requirements to ensure maximum effectiveness and is in the process of 
developing assessment tools to measure results.
    For reviewing existing measures, FEMA has performance measures that 
are used as part of the Government Performance and Results Act (GPRA), 
which include:
  --Percent of grantees reporting significant progress toward the goals 
        and objectives identified in their State homeland security 
        strategies;
  --Percent of significant progress toward implementation of National 
        Preparedness priorities;
  --Percent of States and territories accredited by the Emergency 
        Management Accreditation Program; and
  --Percent reduction in firefighter injuries in jurisdictions 
        receiving Assistance to Firefighter Grants compared to the 
        national average.
    In addition, FEMA is continuing to work on additional measures for 
measuring grant effectiveness and has also undertaken the larger effort 
on revising its data collection tools and strengthening its assessments 
through the Quadrennial Homeland Security Review and Bottom Up Review.
    With regards to an implementation timeline, FEMA leadership is 
carefully reviewing the products of the data collection review, grant 
effectiveness work, existing performance measures, and assessment tools 
in order to develop a way forward.
                     disaster relief (drf) funding
    Question. The President's fiscal year 2011 Budget includes a 
request for $3.6 billion in supplemental appropriations for fiscal year 
2010 for Disaster Relief. Less than 2 weeks later, the President 
submitted an amendment to increase that request to $5.1 billion.
    Is the current supplemental request for fiscal year 2010 of $5.1 
billion for Disaster Relief adequate to sustain this important function 
through the end of this fiscal year?
    Answer. Yes, the $5.1 billion supplemental request will provide 
sufficient funds to sustain this function through fiscal year 2010.
    Question. Will $5.1 billion in supplemental appropriations for 
fiscal year 2010 cover all of the estimated liabilities from 
arbitration proceedings and the Recovery School District?
    Answer. Yes, the $5.1 billion supplemental request will provide 
sufficient funds to cover the estimated liabilities from arbitration 
proceedings and the Recovery School District.
    Question. How much funding is included in the fiscal year 2011 
request for prior disaster liabilities? How does this match the current 
estimate for these liabilities?
    Answer. DHS projects that approximately $1.6 billion will be 
required for costs related to prior disaster liabilities. Further, 
given the difficulties associated with predicting costs associated with 
future catastrophic disasters, funding was not included in the 2011 
Budget Request for these liabilities. DHS believes that budgeting 
annually for the noncatastrophic 5-year rolling average and addressing 
catastrophic disasters through the supplemental appropriations process 
continues to be the best approach.
                                real id
    Question. As Governor of Arizona, Secretary Napolitano, you signed 
legislation barring Arizona's compliance with Real ID, calling it an 
unfunded Federal mandate and saying your support of the Real ID Act was 
contingent upon adequate Federal funding for States to implement the 
program. However, many other states are moving ahead with improving the 
security of their driver's license issuance process. One important 
element is linking the databases States need access to for identify 
verification. The Department was appropriated $50 million in fiscal 
year 2009 for REAL ID information sharing and verification systems. 
Additionally, $17 million was awarded to a consortium of States in 
fiscal year 2008 to work on the development of the verification hub 
requirements generation, system development, and deployment project. 
What is the status of developing the various data links and databases 
necessary for the States to verify documents issued by other States and 
the Federal Government?
    Answer. A core team of five States, led by the State of 
Mississippi, in addition to the combined efforts of 25 other States 
have developed the business and technical requirements for the State-
to-State component of the verification system. These requirements are 
currently being verified and validated prior to being formally 
presented to DHS for approval.
    DHS has also partnered with the Department of Transportation 
Federal Motor Carrier Safety Administration and the American 
Association of Motor Vehicle Administrators on the verification and 
validation process of business and technical requirements. Once the 
requirements have been validated and approved by DHS, this initiative 
will move forward to the system design phase.
         visa waiver program/biometric air exit implementation
    Question. As you know, I am a strong supporter of the Visa Waiver 
Program and I believe the United States receives untold public 
diplomacy benefits and improved security from this program. I believe 
it should be expanded to more countries. However, Congress has passed 
laws that tie the expansion of the Visa Waiver Program to the 
implementation of a biometric air exit system. Solely in the context of 
passengers arriving and departing the United States by air, Secretary 
Napolitano, do you believe that a biometric air exit system is the most 
cost effective way to track the departure by air of legitimate 
travelers leaving the United States?
    Answer. DHS currently has programs in place that use airline 
manifest information, border crossing records, document readers enabled 
by the Western Hemisphere Travel Initiative (WHTI), and information 
collected under the US-VISIT program to record who enters and exits the 
country by air. Based on this information, DHS assesses whether an 
individual has overstayed the terms of their admission.
    Over the past 3 years, DHS has been planning and testing possible 
solutions for integrating biometric exit requirements into the 
international air departure process. Congress required DHS, through the 
fiscal year 2009 DHS Appropriations Act, to test and provide a report 
assessing specific options with respect to collection of biometrics 
from most non-U.S. citizens exiting the United States. DHS conducted 
two pilots from May to July 2009. The results of these pilots are 
contained in a report submitted to the Committee. Cost effectiveness 
and efficiencies are amongst the critical factors that will contribute 
to the decisions made on implementing a biometric exit program, but the 
Department has not made any decisions at this time.
    Question. Again, limiting the discussion solely to passengers 
departing the United States by air, is there a more cost effective and 
better alternative to biometrics to track the departure of these 
travelers?
    Answer. DHS currently has programs in place that use airline and 
ship manifest information, border crossing records, document readers 
enabled by the Western Hemisphere Travel Initiative, and information 
collected under the US-VISIT program to record who enters and exits the 
country for most individuals, and based on this information, assess 
whether an individual has overstayed the terms of their admission. Cost 
effectiveness and efficiencies are amongst the critical factors that 
will contribute to the decisions we make on implementing a biometric 
exit program, but we have not made any decisions at this time.
    Question. What programs other than a biometric air exit system 
could be funded at the Department of Homeland Security that would be 
equally effective in identifying visa overstays? If we do go down the 
path currently required by law, how much will full implementation 
solely of a biometric air exit system cost? The fiscal year 2011 budget 
request includes no additional funds for implementing biometric air 
exit. When do you anticipate implementation will begin?
    Answer. The US-VISIT program analyzes entry records to help U.S. 
Immigration and Customs Enforcement (ICE) apprehend individuals who 
remain illegally in the United States; enables U.S. Customs and Border 
Protection (CBP) to deny admission to individuals who are ineligible to 
enter the United States; assists U.S. Citizenship and Immigration 
Services in denying immigration benefits to individuals who have 
violated the terms of their admission; and assists the Department of 
State in denying or revoking visas to individuals who may have 
overstayed but are no longer in the United States. Since September 
2004, US-VISIT has provided immigration and border management officials 
with records of the entries and exits of individual foreign nationals. 
US-VISIT currently tracks overstay violator records based on airline 
and ship manifest information, border crossing records, document reads 
enabled by the Western Hemisphere Travel Initiative, arrival/departure 
form I-94 data, and other information collected under the US-VISIT 
program.
    The ICE Compliance Enforcement Unit (CEU) is responsible for 
identifying and investigating foreign students, exchange visitors, and 
other nonimmigrant aliens who violate their authorized terms of 
admission to the United States. The CEU focuses on preventing criminals 
and terrorists from exploiting the U.S. immigration system by 
proactively developing cases for investigation from the Student and 
Exchange Visitor Information System (SEVIS), the National Security 
Entry/Exit Registration System (NSEERS), and US-VISIT. These systems 
allow the CEU to access information on the millions of students, 
tourists, and temporary workers present in the United States at any 
time, and to proactively identify those who violate their status or 
overstay their visas.
    Additionally, over the past several years DHS has made significant 
strides in its ability to identify visa overstays as the percentage of 
air departure records collected has increased from less than 90 percent 
in the 1990s to more than 99 percent today. Continued improvements in 
the systems and processes used to capture automated records of 
nonimmigrant arrivals and departure have also improved DHS's ability to 
identify visa overstays.
    Question. With regards to full implementation solely of a biometric 
air exit system cost, based on the pilots conducted over the last 
several years, DHS estimates that implementation of a biometric air 
exit system will cost between $3 billion and $9 billion over 10 years, 
depending on the specific solution implemented.
    A full schedule will be developed pending a decision on a biometric 
exit program before the implementation will begin.
    During the hearing, Secretary Napolitano, you referenced the $50 
million made available in the fiscal year 2010 Department of Homeland 
Security Appropriations Act for implementation of biometric air exit. 
Do you intend to obligate the funding made available for this purpose 
in fiscal year 2010? If so, when? If not, please explain.
    Answer. The Department has not developed a timeline for 
implementation of a new air exit program. A full schedule and plans for 
obligating funds will be developed pending a decision on a biometric 
exit program.
    Question. What progress has been made in bringing the original 27 
visa waiver countries up to the same information sharing standards as 
the agreements signed with the countries recently admitted to the Visa 
Waiver program?
    Answer. DHS--in cooperation with the Departments of State and 
Justice--has made substantial progress in bringing the 27 pre-2008 visa 
waiver countries into compliance with the information sharing 
requirements of the Implementing Recommendations of the 9/11 Commission 
Act (9/11 Act). The 9/11 Act requires Visa Waiver Program (VWP) 
countries to enter into an agreement with the United States to report 
lost and stolen passport (LASP) data to the United States. To date all 
36 VWP countries report LASPs to Interpol in some fashion. Thirty VWP 
countries--or 21 of the pre-2008 members--have signed either a 
memorandum of understanding or a diplomatic note memorializing their 
commitment to continue to report LASPs via Interpol according to 
Interpol's best practices, or to report to the United States via an 
equivalent mechanism (e.g., the Regional Movement Alert System (RMAS))
    The 9/11 Act also requires that VWP countries enter into an 
agreement with the United States to share information on travelers that 
may represent a threat to the security or welfare of the United States 
or its citizens. The U.S. Government (USG) pursues two agreements to 
satisfy this requirement: (1) a Preventing and Combating Serious Crime 
(PCSC) Agreement to exchange information on potential criminals and; 
(2) a Homeland Security Presidential Directive 6 (HSPD-6) Arrangement 
to share terrorist screening information with the United States. The 
interagency reviews existing agreements on a case-by-case basis to 
determine if such agreements meet the necessary information sharing 
threshold. To date, five pre-2008 VWP countries have signed PCSC 
Agreements with the United States (Finland, Germany, Italy, Portugal, 
and Spain).
    Additionally, the interagency has determined that the United 
Kingdom has met the criminal information sharing requirement through a 
number of pre-existing agreements. PCSC negotiations with several other 
countries are ongoing and DHS expects to conclude additional agreements 
in the coming months. Details on pre-2008 VWP countries that have 
signed HSPD-6 Arrangements are classified, but if requested, DHS can 
provide this information through appropriate channels.
                          worksite enforcement
    Question. According to statistics from U.S. Immigration and Customs 
Enforcement, there has been a dramatic decrease in the number of 
administrative and criminal arrests in worksite enforcement. 
Administrative arrests--and I want to be clear these are arrests of 
illegal aliens who do not have the right to work in this country--have 
gone from 5,184 in fiscal year 2008 to 1,654 in fiscal year 2009. 
Criminal arrests of aliens, not employers, went from 968 in fiscal year 
2008 to 296 in fiscal year 2009. How is the Department measuring the 
outcomes of the new worksite enforcement guidance announced on April 
30, 2009, versus the outcomes of the old policy?
    Answer. ICE's new, comprehensive worksite enforcement strategy 
targets employers who cultivate illegal workplaces by breaking the 
country's laws and knowingly hiring illegal workers. This strategy 
protects employment opportunities for the Nation's lawful workforce by 
targeting the magnets that attract illegal workers to the United 
States.
    A successful immigration enforcement strategy includes the use of 
all available civil and administrative tools at our disposal, including 
civil fines and debarment, to deter employers who knowingly hire 
illegal labor. Employers need to understand that the integrity of their 
employment records is just as important to the Federal Government as 
the integrity of their tax files or banking records. Accordingly, ICE 
has increased inspections to ensure that businesses are complying with 
employment laws, and is aggressively pursuing prosecution, fines and 
debarment where justified. In fact, ICE audited more employers 
suspected of hiring illegal labor in a single day in 2009 than had been 
audited in all of 2008.
    These strategies are working. Since January 2009, DHS has audited 
more than 2,300 employers suspected of hiring illegal labor (compared 
to 500 audits in 2008), debarred 70 companies and 63 individuals, and 
issued more than $15 million in fines.
    Question. The new policy appears to have had the effect of greatly 
increasing simple paper audits and decreasing the number of employers 
that are being investigated. How many paper audits of I-9's (Employment 
Eligibility Verification forms, required to be kept by employers for 
all newly hired employees) were initiated in fiscal year 2009? How many 
indictments were filed as a result of those audits? How many I-9 audits 
were initiated in fiscal year 2008? How many indictments were filed as 
a result of fiscal year 2008 audits?
    Answer. Form I-9 inspections allow ICE to investigate far more 
employers than was previously possible. As evidenced by the table 
below, the number of worksite enforcement cases continues to increase. 
These I-9 audits have already led to criminal search warrants.

                  WORKSITE ENFORCEMENT CASES INITIATED
------------------------------------------------------------------------
                                                               Cases
                       Fiscal year                           initiated
------------------------------------------------------------------------
2007....................................................           1,093
2008....................................................           1,191
2009....................................................           1,461
2010 (as of 2/28/10)....................................           1,530
------------------------------------------------------------------------

    In fiscal year 2009, ICE conducted 1,444 Form I-9 inspections.
    In fiscal year 2008, ICE conducted 503 Form I-9 inspections. I-9 
audits have already led to criminal search warrants.
    ICE does not track the correlation between Form I-9 inspections and 
indictments; however, I-9 audits have already led to criminal search 
warrants.
                     tactical border infrastructure
    Question. What is the path forward for SBInet at this time? When do 
you expect to have the results of the joint Science and Technology 
Directorate and U.S. Customs and Border Protection review of SBInet 
technology announced last month?
    Answer. Not only do we have an obligation to secure our borders, we 
have a responsibility to do so in the most cost effective way possible. 
The system of sensors and cameras along the Southwest border known as 
SBInet has been plagued with cost overruns and missed deadlines. For 
this reason, DHS is redeploying $50 million of Recovery Act funding 
originally allocated for the SBInet Block 1 to other tested, 
commercially available security technology along the Southwest border, 
including mobile surveillance, thermal imaging devices, ultra-light 
detection, backscatter units, mobile radios, cameras and laptops for 
pursuit vehicles, and remote video surveillance system enhancements. 
Additionally, DHS is freezing all SBInet funding beyond SBInet Block 
1's initial deployment to the Tucson and Ajo regions until the 
assessment Secretary Napolitano ordered in January is completed.
    The Department-wide review is motivated by two major 
considerations. The first is that the continued and repeated delays in 
SBInet raise fundamental questions about SBInet's viability and 
availability to meet the need for technology along the border. The 
second is that the high cost of SBInet obligates this administration to 
conduct a full and comprehensive analysis of alternative options to 
ensure DHS is maximizing the impact and effectiveness of the 
substantial taxpayer resources we are devoting to border security 
technology.
    Results are expected to be available by August 2010.
    Question. Secretary Napolitano, do you support constructing the 
high priority tactical infrastructure projects identified by the Border 
Patrol, including fencing?
    Answer. DHS is committed to continuing to secure our borders to 
reduce illegal immigration and potential security breaches, and our 
plan to do so includes substantial investments in technology, tactical 
infrastructure (including fencing, roadways, and lighting), and 
enforcement personnel.
    Question. With the delays that have been experienced in the SBInet 
program, what is being done to fill the gaps that exist along the 
border today? Will the Department be evaluating any less sophisticated 
but already in use technology that could be quickly deployed? Does the 
fiscal year 2011 budget support this?
    Answer. The assessment of SBInet ordered in January 2010 has a 
near-term and a long-term phase. The near-term phase is intended to 
address concerns that delays in SBInet have left critical areas of the 
border more vulnerable than they should be. In this phase, DHS is 
reviewing other, stand-alone technology options. Where there is an 
urgent need for technology along the border, and where Block 1 will not 
be available in time to meet that need, DHS is using some of our fiscal 
year 2009 ARRA funding and fiscal year 2010 and fiscal year 2011 BSFIT 
funding to ensure these needs are met.
    Yes. DHS is evaluating the procurement and deployment of a range of 
existing technologies such as Remote Video Surveillance Systems, Mobile 
Surveillance Systems, Unattended Ground Sensors, Scope Trucks, and 
thermal imaging devices.
    Yes. The BSFIT fiscal year 2011 request includes funds for existing 
technologies that could be deployed quickly along both the northern and 
southern borders.
    Question. Do you believe the Department can field something in the 
near term that can benefit the frontline Border Patrol agent?
    Answer. Yes. The Department is redeploying $50 million of Recovery 
Act funding originally allocated for the SBInet Block 1 to other 
tested, commercially available security technology along the Southwest 
border, including mobile surveillance, thermal imaging devices, ultra-
light detection, backscatter units, mobile radios, cameras and laptops 
for pursuit vehicles, and remote video surveillance system 
enhancements. These technology enhancements will increase agents' 
situational awareness in the field and assist them in effectively 
securing the border.
                                e-verify
    Question. Last year an amendment on the Senate floor to the fiscal 
year 2010 Department of Homeland Security Appropriations bill would 
have provided private sector employers the option to use E-Verify to 
check the eligibility of current workers and not just newly hired 
employees. The Department indicated it opposed the inclusion of this 
Senate bill language in the conference report on the grounds that this 
would impose large new burdens on the E-Verify system and that those 
duties had not been budgeted for. Specifically, in the materials 
outlining the Secretary's conference position, the following was 
included:

``Senate General Provision 576, which provides private sector employers 
the option to use E-Verify to check the eligibility of current workers, 
has significant implementation challenges and would impose large new 
burdens on the E-Verify system that have not been budgeted. I support 
the general intent to expand and improve employers' ability to verify 
the employment eligibility of their workforce, but oppose this 
provision until such an expansion can be implemented in a measured and 
well-planned fashion.''

    Information provided to the Subcommittee does not appear to support 
this objection. U.S. Citizenship and Immigration Services had the 
capacity to run 65 million queries in fiscal year 2009 and was working 
to double that capacity. In all of fiscal year 2009, the Department 
only received 8.7 million queries. As a part of the preparations for 
requiring Federal contractors to verify the eligibility of their 
workers, USCIS developed the capability for the contractors to self 
select to verify their current workforce. Further, the fiscal year 2010 
appropriation for E-Verify was $25 million higher than the requested 
amount primarily for strengthened compliance capabilities and made 
available for 2 years, raising questions about the idea that funding is 
not available to allow employers to voluntarily check their current 
workforce. Don't you agree that employers should have the option to 
verify their entire workforce? Do you now support allowing employers 
the option of verifying their current workforce through E-Verify? What 
message does not providing this option send to employers seeking a 
mechanism to comply with our immigration laws?
    Answer. E-Verify currently has the capacity to query for work 
eligibility as many as 65 million employees per year, which is the 
estimated number of new employees hired per year. It does not currently 
have the capacity to query an additional 120 million employees, which 
is the estimated size of the existing workforce in the United States. 
To achieve that capacity, DHS would need funding for additional 
hardware to service the expanded use of E-Verify, and both DHS and the 
Social Security Administration would need additional staff to address 
the significantly increased workload that would follow from such a 
sizeable expansion of E-Verify's use.
    In addition, such a sizeable expansion of E-Verify's use would 
require the enhancement of processes and safeguards to reduce errors 
and to ensure that the E-Verify system is not used to improperly screen 
existing workers nor is otherwise abused.
    Substantial progress has been made toward improvements, but the 
existing pattern of growth in E-Verify usage, with 1300 new employers 
joining each week, allows DHS to refine these systems in a measured 
way. Any new expansions in the coverage of E-Verify should be 
accomplished with a well-considered schedule for additional funding and 
for phased expansion of electronic verification.
    As noted previously, I support the general intent to expand and 
improve employers' ability to verify the employment eligibility of 
their workforce provided that the proper processes and resources are 
put in place to address issues that would accompany this significant 
change.
    Those employers seeking to comply with our immigration laws are 
encouraged to work with ICE, through its outreach program, IMAGE. IMAGE 
offers training and education for employers who are interested in 
complying with the immigration laws. ICE recommends employers use a 
series of best practices, one of which is E-Verify for new hires, to 
ensure they employ only lawful workers. Other best practices include 
implementing hiring and anti-discrimination policies, training 
employees on the completion of the Form I-9 and E-Verify, and 
periodically conducting independent audits of the hiring process. ICE 
can also provide training for employers concerned about false or 
fraudulent documents. The IMAGE program also contains a partnership 
component, where employers agree to utilize best practices and have 
their workforce vetted by ICE, ensuring the employer has an authorized 
workforce. External to DHS, employers can use the Social Security 
Number Verification Service to ensure the integrity of payroll data of 
current employees by verifying information with the Social Security 
Administration. Additional information on ICE, the IMAGE program and 
best practices can be found at: http://www.ice.gov/partners/opaimage/
index.htm
                         fee-funded activities
    Question. The fiscal year 2011 budget includes a number of requests 
for appropriated funds to shore up fee-funded programs due to 
shortfalls in revenues and the failure of the administration to press 
forward with fee increase/restricting proposals. Included in these are: 
$152 million to fund the asylum and refugee programs, $34 million to 
fund the Systematic Alien Verification Entitlements program, and $44 
million to shift costs within U.S. Customs and Border Protection from 
the Immigration User Fee to Salaries and Expenses. How have you 
determined that substituting appropriated dollars is the right priority 
here? Can the Department afford to continue to bear the cost of 
shortfalls in fee-funded activities with appropriations? What is the 
Department doing to advocate for fee reform proposals to avoid this?
    Answer. The fee reform included in the fiscal year 2011 budget 
request falls into two distinct categories: (1) Fee reform that will 
improve the linkage between the level of a specific fee and the actual 
costs necessary to implement the activities associated with that fee 
(e.g., the fees associated with a particular naturalization application 
should match the costs associated with the naturalization process); and 
(2) Fee reform that targets programs where fees are currently funding 
activities, such as law enforcement (e.g., nearly 37 percent of CBP 
Officers are funded through fees, but while user fees are impacted by 
the economy, enforcement actions are not). In the second case, the goal 
of the fee reform is to ensure that appropriate dollars are available 
to fund the critical base level of activity.
    In targeting programs to include within these fee reform 
initiatives, the Department used OMB Circular A-25 on user charges. 
This circular sets government-wide policy on determining fees including 
information on the scope and types of activities that should be 
included when setting fees.
    The goal of fee reform is not to bear the cost of shortfalls in 
fee-funded activities with appropriations. The goal of fee reform is to 
ensure compliance with Federal policy on setting user fees by making 
sure that fees are set only at the level necessary to recover the costs 
of providing a benefit or service.
    Comprehensive fee studies performed on a regular basis are 
essential to ensure that fees are set at the appropriate level to avoid 
shortfalls.
    Question. If workload that is funded through fee revenue is going 
down for some organizations--such as air passenger loads--do current 
staffing levels make sense?
    Answer. There are a number of fee-funded programmatic areas within 
DHS where staffing levels are not immediately tied to fee revenue. In 
airport security, for example, a drop in passenger volume (and 
therefore a decrease in fee revenue) may not lead to a proportional 
drop in the need for baggage screeners and other security personnel.
    However, there are some circumstances in which staffing reductions 
may be appropriate. For example, U.S. Citizenship and Immigration 
Services reduced its contractor and Federal workforce to bring staffing 
levels in line with existing and anticipated future workloads.
    Start-up costs and the need for a flexible and responsive workforce 
means that this issue must be considered continuously and on a case-by-
case basis to ensure that staffing levels are appropriate for the 
existing and anticipated workloads.
                       tsa collective bargaining
    Question. We have discussed the Department's consideration of 
whether to administratively extend collective bargaining rights to 
Transportation Security Officers. I remain concerned about the cost of 
the proposed conversion, and have received estimates from the 
Department that include an annual recurring cost of $300 million. Is 
this estimate still accurate? How would these costs be funded? I see no 
additional funding being requested in fiscal year 2011. What is the 
Department's timeline for making a decision? Is the Department 
continuing to hold conversations with union representatives in 
preparation for this decision?
    Answer. Estimates for the cost of administratively extending 
collective bargaining rights to Transportation Security Officers 
continue to be refined. No final decision has been made about 
collective bargaining.
    If a decision is made to extend collective bargaining rights to 
Transportation Security Officers, TSA will review all funding options 
and associated costs and will advise the Committee.
    DHS is waiting for a permanent Assistant Secretary to be confirmed 
to lead TSA. Once confirmed, DHS expects the Assistant Secretary to 
review the issue and make recommendations to the Secretary.
    The Chief Human Capital Officer and representatives of TSA have met 
with leaders from the American Federation of Government Employees and 
the National Treasury Employees Union to respond to their questions 
concerning employee issues and representation rights for the 
Transportation Security Officers (TSOs). The unions have been advised 
that any decisions regarding collective bargaining will be made after a 
new TSA Administrator is confirmed and has had time to consider the 
matter fully before making such a decision.
                               management
    Question. On December 29, 2009, Under Secretary Duke wrote to me 
about seven initiatives the Department intends to focus on to drive 
management integration across DHS. What are the near and long term 
budgetary needs for each of those initiatives, and how does the fiscal 
year 2011 budget request support those needs?
    The amount requested for Departmental Management and Operations is 
approximately two percent of the Department's fiscal year 2011 budget 
authority. Do you believe this amount is sufficient to meet the major 
management challenges facing the Department?
    Answer. Responses are provided as follows:
Transformation and Systems Consolidation (TASC)
    The fiscal year 2011 Budget Request for TASC is $11 million. In 
addition to this request, Resource Management Transformation (RMT) 
Division assumes a carryover from fiscal year 2010 of $2.2 million. 
This combined funding in fiscal year 2011 provides for the migration of 
two medium components, data center support services, and purchase of 
software licenses.
    The Independent Government Cost Estimate (IGCE) for the contract is 
$450 million over the 10-year contract life, assuming all option years 
are exercised. This estimate is consistent with other financial system 
benchmarks within the Federal Government. The actual cost of the work 
will be determined by the solution selected through the competitive 
acquisition process.
    The Lifecycle Cost Estimate (LCCE) for TASC includes accounting of 
the cost of people, systems engineering, procurement, operations, 
support and disposal over the 10-year contract life, assuming all 
option years are exercised. This estimate is derived from source cost 
data received from DHS data calls as well as other outside agencies 
including NASA and HHS. The Acquisition Program Management Division is 
utilizing the Cost Analysis Division to independently verify the LCCE. 
This work will be completed by the end of April.
Human Resources Information Technology (HRIT)
    The Department's Chief Human Capital Officer (CHCO) and Chief 
Information Officer (CIO) are currently partnering to develop a long-
term strategic plan for HRIT. This strategy will be completed in 2010 
and will replace the now-defunct MaxHR strategy that assumed 
flexibilities in Title V that are no longer valid. The goal of the new 
strategy is to deliver an enterprise platform for a Title V environment 
that provides core HR functionality across the DHS enterprise in a way 
that optimizes efficiency. While DHS currently operates four enterprise 
solutions, i.e., NFC Corporate (Payroll/Personnel), EmpowHR 
(Personnel), webTA (Time and Attendance); and the eOPF (Electronic 
Personnel Folders), there remains a critical need for enterprise 
solutions in areas such as staffing, learning management, and 
performance management. Implementation of the new strategy will 
commence in fiscal year 2010, with full-fledged efforts in fiscal year 
2011 to move toward department-wide adoption/deployment and full, 
cross-system integration. The fiscal year 2010 enacted and fiscal year 
2011 budget request for this initiative is $17.1 million. The future 
budgets for this initiative remain at this level.
Balanced Workforce Strategy
    The fiscal year 2011 budget requests $900,000 for the Office of the 
Chief Human Capital Officer to support efforts to reduce the 
Department's reliance on contractors. Specifically, the funds will 
support a program management office focused on balanced workforce 
matters and in sourcing positions that are inherently governmental or 
provide critical core services. This office, which is in the process of 
being established with existing resources, will assess the long-term 
budgetary needs for the balanced workforce initiative.
Data Center Migration
    In fiscal year 2011, the DHS total request for Data Center 
Migration is $200 million. This includes component and headquarters 
funding for consolidation efforts entailing planning, engineering, 
hardware, and software application alignment, construction, power 
upgrades and other infrastructure requirements. Data Center Migration 
total estimated cost is $574 million. Based on the Migration amounts 
enacted for fiscal year 2010, the balance needed to complete migrations 
beginning in fiscal year 2011 is $424 million. DHS anticipates Data 
Center Migration completion by fiscal year 2014.
IT Governance Initiative
    Short-term (remainder fiscal year 2010), the Department will re-
allocate staff to support this effort. Long-term (fiscal year 2011 and 
forward), the Department is determining the outyear IT Governance 
structure and FTE requirements.
HSPD-12 Deployment
    The Office of Security fiscal year 2011 budget request does not 
include funding for HSPD-12 Deployment. The Department is working with 
components to identify funding, such as component base funding for 
legacy badging systems, to meet fiscal year 2011 and outyear 
requirements. The Department is committed to fulfilling its 
requirements under HSPD-12 utilizing base resources.

                                     FIVE-YEAR HSPD-12 FUNDING REQUIREMENTS
----------------------------------------------------------------------------------------------------------------
                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
                                    2011 funds      2012 funds      2013 funds      2014 funds      2015 funds
                                     required        required        required        required        required
----------------------------------------------------------------------------------------------------------------
HSPD-12 Deployment..............     $24,236,000     $11,152,000     $11,487,000     $11,832,000     $12,187,000
----------------------------------------------------------------------------------------------------------------

St. Elizabeths Consolidation
    The DHS Headquarters Consolidation plan will transform the 
dispersed portfolio from 46, and growing, locations down to 
approximately eight locations. The plan consists of the St. Elizabeths 
development for mission execution functions of the department and the 
consolidation of remaining mission support functions to promote 
efficiency and effective management across the National Capital Region.
    The total cost of the St. Elizabeths development is estimated at 
about $3.4 billion inclusive of GSA and DHS costs. GSA's share is about 
$2 billion and DHS about $1.4 billion. To date GSA and DHS have 
received a total of about $1.1 billion.
    A total of $287.8 million is included in the fiscal year 2011 
Budget Request for DHS to continue the development of the DHS 
Consolidated Headquarters at St. Elizabeths. This request will build on 
the fiscal year 2009 and the American Recovery and Reinvestment Act 
funding provided to both DHS and GSA. The funding provides for the 
outfitting of Phase 1, the U.S. Coast Guard and shared use occupancies 
and initiates construction of Phase 2A, the DHS Headquarters, and the 
National Operations Center/Collocation of Component Operations Centers 
immediately adjacent to the USCG site.
    The DHS budget request for St. Elizabeths complements the GSA 
request for buildout of the consolidated campus. The combined total of 
the request in the fiscal year 2011 budget will allow us to maintain 
the current construction schedule, ensuring a timely move of DHS to the 
St. Elizabeths campus. Underfunding either the DHS or GSA request for 
funds for this project may result in construction delays, increased 
costs, and delays in moving DHS employees to St. Elizabeths.
    The mission support consolidation is estimated by GSA to be a total 
cost of about $263 million with the expectation that DHS will lease 1.2 
million rentable square feet of space with a two-phase implementation 
schedule in calendar years 2013 and 2014. In cooperation with DHS and 
OMB, a Mission Support Consolidation Prospectus for lease authority was 
submitted by GSA to Congress in October 2009 that addresses the 
Department's current housing needs. As the prospectus is for leased 
office space, GSA does not require a separate appropriation and all 
costs for tenant fit out requirements will pass directly to DHS. The 
$75 million included in the fiscal year 2011 budget request will 
initiate the mission support consolidation effort by providing the 
necessary funding to acquire 1.2 million square feet of office space 
included in our prospectus. Remaining funding requirements will be 
requested in future budgets to deliver the space in fiscal year 2013 
and fiscal year 2014.
    With regards to the amount request being sufficient: Yes, the 
fiscal year 2011 Budget Request is sufficient to meet the major 
management challenges facing the Department.
                 border patrol station--sandusky, ohio
    Question. U.S. Customs and Border Protection (CBP) has been 
planning to construct or buy a facility in the Sandusky, Ohio, area for 
more than a year. Reports indicate that the site will house Border 
Patrol, Office of Field Operations, and CBP Air and Marine offices. 
What is the status of this project?
    Will the project be impacted either by the fiscal year 2011 
requests to cancel $99 million of prior-year unobligated construction 
funds, or to forgo hiring 120 Air and Marine staff?
    Answer. CBP is currently in the process of determining whether the 
previously identified Visitors Center property will meet CBP's 
requirements. While this determination is underway, CBP is reviewing 
other available real estate options in Erie County. CBP is targeting 
the completion of land acquisition activities by early 2011.
    Additionally, a planning/design charrette was held in December 
2009, with follow-on work completed in January and February of 2010. 
Some preliminary activity has been initiated for the project's design 
phase; however, these efforts are limited, pending final site 
selection.
    CBP does not anticipate that this project will be impacted by the 
request to cancel the $99 million.
                       federal protective service
    Question. During my time in Congress, I have participated in a 
number of hearings regarding the Federal Protective Service and the 
challenges it faces in protecting our Federal buildings and the people 
who work and visit those buildings. The hearings have demonstrated how 
the lack of resources hinders the Service's ability to get the job 
done. I was surprised to see that the President's fiscal year 2011 
budget recommends a flat funding level for the Federal Protective 
Service. I am further troubled that the administration has requested to 
remove the personnel floor set by Congress in the Appropriations Act. 
What is the rationale for these requests?
    Answer. The fiscal year 2011 Budget Request was determined by 
estimating costs to support operations at the current service level, as 
well as reviewing estimated revenue, collections, and anticipated 
carry-forward of unexpended revenue earned in prior fiscal years.
    Question. It is estimated that the Federal Protective Service will 
need to provide between 100 and 150 full-time employees for the 9/11 
terrorism trials, should they occur in New York or another jurisdiction 
in the United States. There is no indication of the Service's ability 
to perform such a surge in its mission with a flat budget. How will the 
Federal Protective Service meet the surge necessary to support the 
terrorist trails? Especially in light of the fact that the budget 
proposes $200 million in State and local support for increased 
enforcement efforts connected with the terrorist trials in the United 
States.
    Answer. The Federal Protective Service (FPS) Regional Office in New 
York City is coordinating closely with its counterparts from the U.S. 
Marshals and the New York Police Department in planning for the 
possible conduct of the terror trials at the Daniel P. Moynihan U.S. 
District Courthouse.
                              coast guard
    Question. A total of $16.8 million was included in the fiscal year 
2010 Appropriations Act for Coast Guard Station Cleveland Harbor. No 
additional funding is included in the fiscal year 2011 budget request 
for this project although I understand that additional funding will be 
required for phases two, three, and four of the project. What 
additional funding will be required beyond that provided for fiscal 
year 2010 to complete this project?
    Answer. The Coast Guard's Facilities Design and Construction Center 
is currently in the final stages of completing the Project Proposal 
Report for Phase One of the new facilities at Station Cleveland Harbor.
    In February, the FDCC began development of the Design-Build (D-B) 
Request for Proposal (RFP) for project design and construction with an 
estimated D-B contract award date of September 2010. The estimated 
project cost to design and construct Phase One of the new facility 
funded in fiscal year 2010 remains at $16.8 million. Phase One focuses 
on construction of the Station, Marine Safety Unit and Electronics 
Support Division building and associated site utilities.
    Plans and cost estimates for the remaining phases are still under 
development and not yet budget-ready at this time. The multi-phased 
project is planned to include demolition of the older facilities, 
parking/site improvements, waterfront recapitalization, boathouse/shop 
space, and a Coast Guard Exchange.
    Question. The Great Lakes host nearly 5 million registered 
recreational boaters and are a major transshipment point for people and 
illegal drugs, regardless of the season. Intelligence reports indicate 
that the Northern border may be a more likely transit path for 
terrorists. Given the potential threats along the Northern Border, why 
is the Coast Guard seeking to reduce its air asset footprint on the 
Great Lakes by closing two Air Facilities?
    Answer. The fiscal year 2011 Budget Request provides for 
replacement of five H-65s with four H-60 aircraft to maximize 
capabilities in this region. The H-60 aircraft have greater endurance, 
range, speed, survivor capacity, and all-weather capability. With four 
H-60s, the Coast Guard will meet search and rescue aircraft readiness 
and response standards throughout the region from the single Coast 
Guard Air Station in Traverse City.
    Question. What assurances can you provide to the Committee that 
Search and Rescue (SAR) operations will not be impacted by these 
closures? With the delay of implementation of Rescue 21 on the Great 
Lakes, it would seem prudent to maintain these air assets.
    Answer. The Coast Guard will maintain the search and rescue 
response standard as described in the Coast Guard Addendum to the U.S. 
National Search and Rescue Supplement.
    Question. While the HH-60's may be better suited for the Great 
Lakes mission, it troubles me that 4 of 5 rotary wing aircraft proposed 
to be removed from service were recently upgraded with new engines and 
instrumentation. What type of return on investment is the Federal 
Government earning when new engines and instruments are transferred to 
a warehouse of spare parts?
    Answer. Before removing aircraft from service, the Coast Guard 
conducts an assessment of its entire aircraft inventory to ensure the 
best return on investment is achieved. Aircraft removed from service 
are retained for future needs and/or spares.
    Question. How would the fiscal year 2011 budget proposal to close 
both of the Great Lakes AIRFACs impact both SAR and drug interdiction 
missions with respect to response times?
    Answer. The Coast Guard will maintain the search and rescue 
response standard as described in the Coast Guard Addendum to the U.S. 
National Search and Rescue Supplement.
    Question. If the Congress does not approve the budget proposal to 
close the Great Lakes Air Facilities, but agrees with the proposal to 
replace HH-65s with HH-60s, what would be the appropriate placement of 
those air assets operating on the Great Lakes?
    Answer. Partial implementation of the President's proposal to 
realign rotary wing capability will not result in optimal return on 
investment and is not recommended. The Coast Guard would not be able to 
achieve Search and Rescue operational standards simultaneously at Coast 
Guard Air Station Traverse City and Air Facility Muskegon with only 
four HH-60s.
                            haiti earthquake
    Question. The Department of Homeland Security has made a 
significant contribution to our Government's efforts to assist Haiti 
following last month's devastating earthquake. The Coast Guard, FEMA, 
CBP and ICE, among others, have all lent their assistance and expertise 
to Haiti and its people in the wake of this catastrophe. What 
additional cost has this been to the Department and which expenses are 
being borne by the Department and which are being reimbursed?
    Answer. The Department is paying for this largely out of funding 
appropriated in fiscal year 2010.
    Question. How will the Department cover its additional unfunded 
costs?
    Answer. On March 24, 2010, OMB submitted a supplemental 
appropriation for $60 million to recoup the costs associated with the 
Department's activities in Haiti.
    Question. Will fiscal year 2010 supplemental appropriations be 
required?
    Answer. On March 24, 2010, OMB submitted a supplemental 
appropriation for $60 million to recoup the costs associated with the 
Department's activities in Haiti.
    Question. If so, when do you anticipate a supplemental request will 
be submitted to the Congress?
    Answer. On March 24, 2010, OMB submitted a supplemental 
appropriation for $60 million to recoup the costs associated with the 
Department's activities in Haiti.
                      ports-of-entry modernization
    Question. Both the fiscal year 2009 and fiscal year 2010 Department 
of Homeland Security Appropriations Acts require U.S. Customs and 
Border Protection in consultation with the General Services 
Administration to submit a 5-year plan for all Federal land border port 
of entry projects. No plan has been submitted. The Appropriations 
Committee must make funding decisions without the benefit of all 
relevant information on the state of ports of entry without this plan. 
When will this plan be submitted?
    Answer. The 5-Year LPOE Modernization Plan was transmitted to 
Congress on March 9th, pursuant to the legislative language set forth 
in the fiscal year 2009 and fiscal year 2010 DHS Appropriations Acts.
                        tactical communications
    Question. Funds for upgrading law enforcement tactical 
communications have been provided to U.S. Customs and Border Protection 
and U.S. Immigration and Customs Enforcement through the annual 
appropriations Acts as well as the American Recovery and Reinvestment 
Act of 2009. It is my understanding that much of this funding is still 
being held up and not being put to use improving the operating 
conditions for frontline employees. What is the status of obligating 
the American Recovery and Reinvestment Act appropriations for tactical 
communications? What obstacles have prevented those funds from being 
committed before now?
    Answer. CBP is currently working on the competitive actions to 
award ARRA-funded TACCOM projects in the Houlton Sector (Maine), El 
Paso Sector (Western Texas and the State of New Mexico) and Rio Grande 
Valley Sector (Southeast Texas).
    CBP is performing due diligence to ensure that its TACCOM 
acquisition strategy and procurements are structured to maximize 
competitive opportunities, provide for small business participation, 
and ensure responsible expenditure of taxpayer dollars. The TACCOM 
project includes significant environmental work, civil construction and 
integration of communications systems. CBP is taking prudent steps in 
the procurement process to ensure project success.
                 radiation detection future development
    Question. The fiscal year 2011 budget proposes moving 
transformational research of new methods of detecting radiation from 
the Domestic Nuclear Detection Office to the Science and Technology 
Directorate, which will bring all research and development in the 
Department under the umbrella of one component. As the Department 
prepares for this potential transition, will an independent review, by 
an entity such as a Federally Funded Research and Development Center, 
be conducted of the on-going research as well as other technologies 
under development outside of DHS to determine which direction future 
research in radiation detection should go?
    Answer. S&T's established Integrated Product Team (IPT) process 
will guide investments in radiological and nuclear (rad/nuc) research. 
Before the transition of rad/nuc research from the Domestic Nuclear 
Detection Office (DNDO), S&T will: conduct a program review to 
determine the progress and status of the existing rad/nuc research 
programs; establish a rad/nuc Capstone IPT to bring DHS customers and 
stakeholders together to determine the highest priority capability gaps 
and needs; and survey existing government and industry rad/nuc 
detection and countermeasure technology. After these preparatory steps, 
S&T will make decisions regarding the rad/nuc research portfolio.
    S&T will consider an appropriate third party, such as a Federally 
Funded Research and Development Center, to help in program reviews.
                     state and local fusion centers
    Question. Please provide a cross-cut table showing all Department 
of Homeland Security funding that is provided to State and Local Fusion 
Centers, and any grant funds that are used by State or local entities 
for Fusion Centers, for fiscal year 2009 and 2010, and proposed in the 
fiscal year 2011 budget.
    Answer. A chart marked For Official Use Only has been provided 
separately to the Committee. It shows funding that is provided to State 
and Local Fusion Centers for purposes such as hiring intelligence 
analysts and providing equipment and training, all of which supports 
frontline law enforcement activities, and any grant funds that are used 
by State or local entities for Fusion Centers for fiscal years 2009 and 
2010 and proposed in fiscal year 2011. DHS has identified fusion 
centers as a priority in the Homeland Security Grant Program guidance 
and has recommended that State and local grantees prioritize the 
allocation of grant funding to support fusion centers. As such, based 
upon the self-reported information from State and local grantees, it is 
estimated that State and local jurisdictions have leveraged 
approximately $1.3 billion in support of fusion center-related 
activities between fiscal years 2004 and 2009.
                       alternatives to detention
    Question. The Department continues to work on developing a 
Nationwide Alternatives to Detention Plan. Based on information 
received by the Subcommittee, I expect the plan to call for working to 
decrease the average length of stay for participants from the current 
310 days to a target of 180 days. The Department has successfully 
achieved such goals in the past, i.e., the reduction in length of stay 
for aliens apprehended along the Southwest border, through the use of 
high level multi-component work groups studying each step of the 
detention and removal process to re-think how the work is accomplished. 
The elimination of ``catch and release'' shows that this process can 
work.
    Do you intend to bring the same high level focus to streamlining 
the removal process currently used for participants in the alternatives 
to detention program?
    Answer. ICE continues to improve the Alternatives to Detention 
(ATD) program and is monitoring the rate of compliance with removal 
orders among those supervised on ATD. Currently, the Executive Office 
for Immigration Review (EOIR), within the Department of Justice, 
expedites all cases of detained aliens. In collaboration with EOIR, ICE 
is piloting a ``fast-track'' process in an effort to decrease the 
amount of time a participant spends in the ATD program, thereby 
reducing the overall cost of the ATD program.
    Question. What effort is currently dedicated to reviewing the 
removal process used for participants in the alternatives to detention 
program?
    Answer. Please see the previous response.
                       special hiring authorities
    Question. The Department is using special hiring authorities to 
fill approximately 1,000 cyber security positions. Is 1,000 the 
appropriate workforce to adequately meet the Department's cyber 
security needs?
    Answer. The National Cyber Security Division (NCSD) needs the 
flexibility to both match salaries using accelerated pay and provide 
recruitment bonuses and incentives that are competitive with the 
market. NCSD also needs additional direct or Schedule A hiring 
authority for programmatic positions that deal with mission functions 
such as large-scale Information Technology acquisitions and investments 
for cybersecurity systems, supply-chain risk management, software 
assurance, control-systems security, cyber education and awareness, 
international cyber policy, and program management.
    Question. Given the demand for these specialized skill sets, does 
the Department anticipate difficulties in meeting its staffing goals?
    Answer. The Department remains committed to hiring the staff 
necessary to perform its cybersecurity mission.
    Question. What, if any, additional personnel flexibilities does the 
Department believe would help meet its cyber hiring needs?
    Answer. The National Cyber Security Division (NCSD) needs the 
flexibility to both match salaries using accelerated pay and provide 
recruitment bonuses and incentives that are competitive with the 
market. NCSD also needs additional direct or Schedule A hiring 
authority for programmatic positions that deal with mission functions 
such as large-scale Information Technology acquisitions and investments 
for cybersecurity systems, supply-chain risk management, software 
assurance, control-systems security, cyber education and awareness, 
international cyber policy, and program management.
    Question. Other components of the Department indicate that they are 
in need of direct hire authority or other special hiring flexibilities. 
What is the Department doing to work with the Office of Personnel 
Management to meet these needs or, where necessary, to seek required 
statutory authorities?
    Answer. DHS approached OPM in September 2009 in order to request a 
Direct Hire authority for Cyber Security positions across the 
Department. Though Direct Hire was not granted, DHS was provided a 
Schedule A excepted service authority to hire up to 1,000 Cyber 
Security positions nation-wide. DHS has had follow-on discussions with 
OPM about broadening our Direct Hire authority to positions where 
mission failure is a possibility if vacancies are not filled. DHS is 
currently gathering requirements across the Department and will submit 
a request to OPM for Direct Hire authority based on this critical need 
in the near future.
                        cyber security training
    Question. The fiscal year 2011 request proposes to transfer the 
National Computer Forensics Institute (NCFI) from the National 
Protection and Programs Directorate (NPPD) to the Federal Law 
Enforcement Training Center (FLETC).
    Given that this Institute is actually administered by the United 
States Secret Service (USSS) why aren't these funds being requested in 
the USSS budget in fiscal year 2011?
    Answer. The intention is to continue operating NCFI in the same 
manner as it is currently operating today. The mission-support training 
is better aligned to FLETC's core mission versus Secret Service's 
operational mission.
    Question. What is the benefit of having the NCFI funds appropriated 
to FLETC to reimburse the USSS as NPPD does now?
    Answer. The benefit derived from aligning law enforcement training 
to the training mission is the realization of efficiencies and shared 
best practices.
    Question. Given that FLETC may require additional authority to 
operate NCFI why not give the funds and the authority to USSS?
    Answer. Providing funds to FLETC will help better align and 
coordinate law enforcement training.
                    national special security events
    Question. The fiscal year 2011 budget proposes a new $20 million 
fund to reimburse State and local governments for costs associated with 
``unplanned'' National Special Security Events (NSSE). How will 
``unplanned'' be defined for purposes of eligibility for these funds? 
How is ``planned'' defined for NSSE today?
    Answer. An unplanned NSSE is an event that is unknown when planning 
for a particular fiscal year. For example, the G-20 in Pittsburgh was 
not a known NSSE during the budget process and therefore agencies could 
not budget for and request resources from Congress to cover the 
security costs associated with it.
    A planned NSSE is an event that can be budgeted for as it is known 
beforehand that it will occur within a particular fiscal year. Some 
examples include presidential nominating conventions, and presidential 
inaugurations. While the dates may be unknown, we know these occur 
every 4 years.
    Question. What Federal funding is currently available to or 
provided to State and local governments for costs associated with 
``planned'' NSSEs?
    Answer. Planned NSSEs, such as presidential nominating conventions, 
have received direct appropriations from Congress since fiscal year 
2000. As such, the cities hosting nominating conventions have received 
the funding directly.
    Question. Rather than start anew funding program, why isn't the 
administration proposing to make ``unplanned'' NSSEs eligible for the 
same funding sources available to State and local governments for 
``planned'' NSSEs?
    Answer. The purpose of the designation of an event as a National 
Special Security Event ensures the coordinated efforts of the U.S. 
Secret Service, the FBI and the Federal Emergency Management Agency to 
plan for the security, response and recovery at an event if an incident 
were to occur.
    NSSEs, planned and unplanned, currently have no DHS source of 
funding. In the past, planned NSSEs such as presidential nominating 
conventions have received direct appropriations from Congress. As such, 
the host cities hosting have received the funding directly.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Over the past 20 years, more than $4 out of every $5 
appropriated by Congress to the Disaster Relief fund have been provided 
through supplemental appropriations bills. Over the past 20 years, an 
average of nearly $7 billion annually has been appropriated for 
Disaster relief, yet you requested only $1.95 billion for fiscal year 
2011. Your budget documents state that these requested funds are only 
for ``non-catastrophic disaster activity.'' Meanwhile, communities and 
school districts along the Gulf Coast are still struggling to navigate 
the red tape of the Federal Government nearly 4\1/2\ years after 
Hurricane Katrina.
    Do you believe that budgeting for only non-catastrophic activity on 
an annual basis is a wise way for the Federal Government to do 
business?
    Answer. It is difficult to predict with any certainty future 
catastrophic disasters, or the cost that will be associated with them. 
Given this unpredictability, we believe that budgeting annually for the 
non-catastrophic 5-year rolling average and addressing catastrophic 
disasters through the supplemental appropriation process is a 
reasonable approach.
    Question. Do you believe that our Nation's emergency response laws, 
including the Stafford Act, should be amended to include a new category 
of catastrophic disaster declarations to provide for smarter budgeting 
and reduced bureaucracy in cases like the events of September 11, 
Hurricane Katrina or a potential New Madrid earthquake?
    Answer. The Stafford Act provides flexibility to assist survivors 
regardless of the scale of the disaster. The Post-Katrina Emergency 
Reform Act added important new authorities to the Stafford Act that are 
specific to addressing the needs that are created by extraordinarily 
large and catastrophic disasters such as incident management teams, 
Federally assisted evacuations, semi-permanent and permanent housing 
construction, disaster case management, recovery planning technical 
assistance, and transportation assistance. The National Disaster 
Housing Task Force, State-led Housing Task Forces, and FEMA's Long-Term 
Community Recovery function (ESF-14) provide for the delivery of more 
effective and streamlined recovery assistance to survivors and 
communities.
    Question. While your fiscal year 2011 budget request acknowledges 
that funding for Coast Guard Aircraft will be used for Unmanned Aerial 
System pre-acquisition activities, it does not identify specific 
funding for these purposes as it does for every other traditional Coast 
Guard aircraft asset.
    Of the $101 million requested for Aircraft activities, how much 
would be used for Unmanned Aerial System activities?
    Answer. The $101 million request does not include funding for 
Unmanned Aerial System (UAS) activities. Research, Development Testing, 
and Evaluation funding provided in prior years will be used to continue 
UAS pre-acquisition work in 2011.
    Question. Do you believe the Coast Guard's efforts to assess 
available land-based Unmanned Aerial Systems, including earnest 
participation the DOD SOUTHCOM demo of the Heron UAS, is adequately 
examining the capabilities of a diverse set of vehicles across the 
spectrum of available technologies?
    Answer. Yes.
    Question. With regard to cutter-based Unmanned Aerial Systems, how 
much would it cost the Coast Guard to convert existing aircraft 
remaining from the Army's cancellation of the Fire Scout program to a 
Coast Guard configuration?
    Answer. This option is currently under review, and costs will be 
developed as a part of our evaluation.
    Question. With adequate funding, would you entertain the notion of 
converting these currently unused aircraft for use by the Coast Guard 
as soon as possible?
    Answer. This option is currently under review, and costs will be 
developed as a part of our evaluation.
    Question. In 2007, Congress mandated that DHS be able to scan all 
cargo entering our country by 2012. Recent GAO reports describing the 
inadequacies of the Domestic Nuclear Detection Office's Advanced 
Spectroscopic Portal (ASP) monitors raise significant concerns about 
our ability to prevent nuclear materials from being smuggled into our 
country. Please describe the current status of ASP testing and whether 
you believe this technology is on a path to be able to perform the 
portal monitoring function.
    Answer. Based on a recent review of data collected to date, the 
Department announced changes to the ASP program in February 2010. In 
order to most effectively enhance security, the ASP program will focus 
on secondary inspections. Performance results to date show that ASP 
RPMs in the secondary position show a significant improvement in 
operational effectiveness over current screening techniques.
    Question. What is ASP's capability for detecting shielded nuclear 
material?
    Answer. The ability of ASP systems--or any other nuclear detection 
system--to detect shielded nuclear materials depends upon a number of 
factors, including shielding type, thickness, scanning speed, and size 
of the source. More details about the performance of ASP systems 
against specific configurations of shielded threats can be provided in 
a classified briefing to review test results, upon request.
    It is important to note that ASP systems are not operated in 
isolation as a sole means for detecting potential nuclear threats. DNDO 
supports a multifaceted approach to cargo scanning, including but not 
limited to analysis of the container information collected by CBP and 
the use of both passive (e.g., radiation portal monitors) and active 
(e.g., radiography) technologies to detect a wide range of potential 
threats.
    Question. Do you consider shielded nuclear materials a significant 
threat?
    Answer. The Department considers the illicit shipment of any 
nuclear materials--including shielded nuclear materials--to be a 
significant threat, and accordingly supports a comprehensive, 
multifaceted approach to detecting them.
    Question. Are there other technologies under consideration by DHS, 
such as Muon Tomography, that could detect both shielded and unshielded 
nuclear materials? I understand if you need to respond to these 
questions in a classified setting.
    Answer. In addition to the technologies currently deployed to 
detect nuclear materials, DNDO is researching a number of technologies 
to detect both shielded and unshielded nuclear materials, including 
muon tomography.
    Question. I, like many members of this body and I assume many 
people at your Department, was troubled by our Nation's inability to 
detect the explosive devices carried on board an airplane by the so-
called Christmas Day Bomber. I sent you a letter on February 2, 2010 
that included some questions I have about passenger screening 
technologies. I have not yet received a response.
    Can you describe the new Advanced Imaging Technology screening 
systems you are currently reviewing for deployment and implementation 
at our airports?
    Answer. Advanced Imaging Technology (AIT) is a passenger screening 
capability that is used at airport checkpoints to screen passengers for 
concealed weapons (metallic and non-metallic), explosives, and other 
prohibited items.
    TSA ensures passenger privacy through the anonymity of AIT images--
a privacy filter is applied to blur all images; images are permanently 
deleted immediately once viewed and are never stored, transmitted or 
printed; and the officer viewing the image is stationed in a remote 
location so as not to come into contact with passengers being screened.
    The next generation of AIT machines will be deployed as a primary 
passenger screening technology in addition to the Walk-Through Metal 
Detector. These new machines will include the latest security 
enhancements to detect new and evolving threats.
    Question. Based on recent tests, which of the existing 
technologies, backscatter or millimeter wave, would have better 
detected the threat posed by the Christmas Day bomber? Describe 
proposed fiscal year 2011 activities by the Transportation Security 
Administration to assist airports in making room for these devices, 
which are significantly larger than current passenger screening 
equipment.
    Answer. TSA has tested both millimeter wave and backscatter AIT. 
Both systems meet the required detection performance and are considered 
operationally effective and suitable. TSA is working closely with 
airports to deploy AIT units based on risk, airport readiness, and 
operational suitability.
    Question. The fiscal year 2011 budget proposes $538 million for 
production of the fifth Coast Guard National Security Cutter. The 
future-year budget plan includes $640 million over the next 3 fiscal 
years and $70 million in fiscal year 2015. I appreciate very much the 
department's commitment to this platform. It appears that this program 
may be primed to begin a multi-year procurement for NSCs 5 through 8.
    Such a strategy could allow the Coast Guard to buy material for 4 
NSCs and place the ships on construction intervals that would increase 
shipyard performance and efficiency while minimizing cost. Are you 
considering a multi-year procurement for NSCs 5-8? If not, does the 
Department risk a gap in production and additional costs to the program 
if additional funds are not provided in fiscal year 2011 for long-lead 
materials for the sixth National Security Cutter?
    Answer. The Coast Guard is not considering a multi-year 
procurement. As reflected in the fiscal year 2011 Capital Investment 
Plan, the remaining National Security cutters are fully funded at the 
planned rate of one per year.
    Question. What additional funds are needed for long lead materials 
for the sixth National Security Cutter?
    Answer. The fiscal year 2011 Capital Investment Plan includes 
funding for the sixth National Security Cutter. In accordance with OMB 
Circular A-11, no separate request will be made for any long lead 
materials, with the possible exception of the lead asset in a 
procurement.
    Question. I am very pleased that the fiscal year 2011 budget 
request contains significant funding for data center migration efforts 
department-wide. Your department's leadership in data consolidation is 
to be commended. Such efforts are critical to our future as data 
operations are scattered throughout Federal agencies with little rhyme 
or reason and are consuming energy at an alarmingly growing rate.
    Of the nearly $186 million requested for Security Activities by the 
Office of the Chief Information Officer, how much would be used for 
activities at DHS Data Center 1 (DC1)?
    Answer. An estimated $28 million will be used for activities at DHS 
Data Center 1 including infrastructure, power and Local Area Network 
upgrades. DHS components have requested a total of $178.5 million for 
costs associated with migrating component data centers to the two new 
DHS data centers.
    Question. How critical do you believe data center consolidation is 
to the Department's ability to operate effectively and efficiently?
    Answer. Data center consolidation is essential to improving the 
flow of information among the various elements of the Department.
    Question. Do you and your Chief Information Officer Richard Spires 
intend to continue the Department's commendable consolidation efforts?
    Answer. Yes. DHS will continue to manage, facilitate and monitor 
Components' migration efforts to the two Enterprise Data Centers.
                                 ______
                                 
                Question Submitted by Senator Judd Gregg
    Question. I commend the Department's efforts to accelerate critical 
improvements in our Nation's homeland security apparatus in the wake of 
the Christmas Day bomber's failed terrorist attack. However, I am 
concerned that vulnerabilities remain in several key areas, including 
our document screening capabilities. By improving document screening, 
we may be able to cheaply improve our ability to interdict terrorist 
attacks before they occur. It is my understanding that commercial off-
the-shelf technology is available, and in some instances is already 
being used in other countries.
    What is the Department doing to improve our ability to accurately 
verify documents that a person might utilize to obtain a government-
issued ID?
    Answer. The Department of Homeland Security (DHS) strongly supports 
the validation and verification of identification documents to ensure 
they are authentic. There are several mechanisms through which DHS 
works to identify and prevent the use of a fraudulent documents and the 
use of valid documents by an imposter.
    The Immigration and Customs Enforcement's Fraudulent Document 
Laboratory and the Customs and Border Protection's Fraudulent Document 
Analysis Unit conduct on-the-spot assistance to review suspected 
fraudulent documents.
    The Transportation Security Administration (TSA) is also focused on 
identifying and acquiring new technology to combat the use of 
fraudulent documents. TSA is currently testing the Credential 
Authentication Technology/Boarding Pass Scanning System (CAT/BPSS) to 
ensure that only legitimate passengers, airport personnel and 
affiliated airline crews, and embedded Law Enforcement Officers (LEOs) 
or Federal Air Marshals (FAMs) gain access to secure areas in the 
Nation's airports. The CAT/BPSS will be used to extract and read data 
and security features embedded in boarding pass and identification 
documents (e.g., driver's licenses) and automatically authenticate 
whether the document is genuine or suspect and whether any 
discrepancies exist between the data fields stored in the ID and the 
boarding pass.
    DHS also works across the interagency to ensure immigration and 
travel documents incorporate multiple layers of security features, are 
resistant to counterfeiting, and are able to be accurately verified. 
For example, the Western Hemisphere Travel Initiative (WHTI), 
established document requirements for travelers entering the United 
States who were previously exempt, including citizens of the United 
States, Canada, and Bermuda. WHTI increases security by requiring 
travelers to present a limited number of approved documents that can be 
electronically verified with the issuing source.
    DHS also strongly supports national standards for identification 
documents to strengthen security while enhancing privacy safeguards and 
protections of personally identifiable information. DHS is committed to 
moving forward both administratively and with Congress to implement 
this key 9/11 Commission recommendation to help prevent terrorism, 
reduce fraud, and improve the reliability and accuracy of personal 
identification documents.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. The proposed 2011 DHS budget moved $4 million for the 
National Computer Forensics Institute (NCFI) from under the National 
Protection & Programs Directorate (NPPD), where it has been since 2008, 
to under the Federal Law Enforcement Training Center (FLETC). All 
indications and reports have been that the program has been an enormous 
success at its current location in Hoover, AL.
    What is the purpose and intended outcome of moving the NCFI program 
under FLETC?
    Answer. The requested transfer is intended to better align and 
coordinate law enforcement training.
    Question. Is the move of the money an indication of a relocation of 
the program from Hoover to Brunswick, Georgia?
    Answer. No. The intention is to continue operating NCFI in Hoover, 
AL.
    Question. At the time the program was initiated, was there not a 
study done to determine the best site for the program that included 
Hoover and Brunswick? And that Hoover was selected based on the 
facility and partnership in place with the State government? Have any 
factors changed since that time?
    Answer. FLETC was not involved in the studies associated with the 
establishment of the NCFI, but intends to continue operating NCFI in 
Hoover, Alabama, in partnership with the Secret Service.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
             national bio- and agro-defense facility (nbaf)
    Question. The President's fiscal year 2011 budget request contains 
no funding for the construction of the National Bio- and Agro-defense 
Facility, but instead proposes to fund NBAF construction in fiscal year 
2011 through a reprogramming of $40 million in unobligated balances in 
the Science and Technology Directorate's budget.
    Where does this reprogramming request stand now and when will it 
come to the Hill?
    Answer. The Department is currently evaluating prior year balances 
and will submit a reprogramming in fiscal year 2011 to support 
construction of the central utility plant which will begin that year.
    Question. Is it your understanding that the reprogramming request 
is subject to Congressional approval?
    Answer. The Department plans to submit the reprogramming request to 
the Appropriations Committees, in accordance with section 503(b) and 
(c) of the fiscal year 2010 Department of Homeland Security 
Appropriations Act. The Department does not intend to move forward with 
the reprogramming until the Committees' comments have been heard and 
addressed.
    Question. What specific purposes will the $40 million be used for 
and when will those funds be expended?
    Answer. The Science and Technology Directorate intends to use the 
$40 million, in conjunction with $40 million that the State of Kansas 
has raised towards clearing the land where the facility will be built 
and getting it ready for construction., and to build the central 
utility plant at the National Bio- and Agro-Defense Facility. The funds 
will be obligated in fiscal year 2011 and expended in fiscal year 2011 
through fiscal year 2013.
       national bio- and agro-defense facility (nbaf)/plum island
    Question. Congress has authorized DHS to liquidate the Plum Island 
assets and retain the proceeds of the sale. This authorization provides 
that any proceeds could be used to offset costs associated with 
construction of the NBAF. I note the fiscal year 2011 DHS budget 
narrative states that NBAF construction has been delayed one year due 
to DHS' inability to sell Plum Island.
    Could you detail for the committee the process and current status 
DHS will undertake to sell Plum Island?
    Answer. DHS and the General Services Administration (GSA) have 
signed a memorandum of understanding (MOU) outlining the process for 
the sale of Plum Island. Ongoing outreach to stakeholders continues as 
DHS and GSA conduct real estate and regulatory due diligence.
    In January 2010, DHS initiated the National Environmental Policy 
Act (NEPA) process for use of Plum Island. Next steps include 
conducting an independent real estate assessment, developing a 
marketing strategy, and hosting a bidders' conference. The public 
auction will be conducted online and a public Web auction process will 
be established.
    Question. While the level of proceeds is uncertain, what assurances 
can you give us that the necessary DHS and GSA activities to market and 
sell the Island will be completed in a timely manner to facilitate a 
potential sale without further delay?
    Answer. Under the memorandum of understanding (MOU) signed by the 
Department of Homeland Security (DHS) and the General Services 
Administration (GSA) outlining the process for the sale of Plum Island, 
a team of GSA and DHS personnel meet frequently to measure progress and 
resolve outstanding issues and have developed a schedule identifying 
the project's critical milestones. In addition, DHS and GSA have 
engaged with local stakeholders to discuss the marketing plans, zoning, 
environmental impacts, and general concerns to allow GSA and DHS to 
mitigate any adverse actions and prevent delay.
    The public auction is the central activity of this process and will 
be supported by a national real estate firm, a public Web auction, and 
a bidders' conference early in the process.
    Question. Has DHS slated any other projects to be funded from the 
proceeds of Plum Island?
    Answer. DHS does not currently intend to use the proceeds from the 
sale of Plum Island for any other purpose than building the National 
Bio- and Agro-Defense Facility (NBAF) until the facility is completed. 
Once NBAF is completed, remaining funds from the sale proceeds may be 
used for the consolidated DHS headquarters facility.
               floodplain remapping, levee certification
    Question. Last year at this hearing, I discussed with you FEMA's 
floodplain remapping process. In particular, I highlighted the plight 
of Garden City, Kansas and the inclusion of two drainage ditches and 
their surrounding area into the floodplain. Since that time, several 
other communities in Kansas and throughout the Nation have struggled 
with floodplain remapping issues. While the levees in Gypsum, Kansas 
have been inspected every year by the U.S. Army Corps of Engineers, 
FEMA's regulations require a more rigorous process for levee 
certification, leaving a town with a population of 400 people to find 
$50,000 a mile, almost $200,000 total, to certify their levee to FEMA's 
standards. The Army Corps has the authorization to do this 
certification but does not have the funding to do so. It seems to me we 
need to bring a common sense approach to this bureaucratic process as 
we are placing a large financial burden on these communities.
    Has FEMA reexamined the requirements and process for levee 
certification to identify avenues to ease the financial burden on the 
communities?
    Answer. Yes, FEMA is reexamining the requirements and processes for 
levee certification to ease the financial burden on communities. While 
FEMA is statutorily required to revise and update all floodplain areas 
and flood risk zones, it does not have authority nor does it receive 
funding to build or maintain levees, dams or other flood control 
infrastructure.
    Communities with levees can utilize the following programs:
  --Provisionally Accredited Levee (PAL) Program.--Levee owners who do 
        not have the necessary paper work to certify that their levee 
        meets safety and structural standards--but are willing to 
        certify that they are unaware of any problems with their 
        levee--can have their levees provisionally accredited for 2 
        years. While the levee is provisionally accredited the homes 
        protected by the levee are not required to purchase flood 
        insurance.
  --Area of Restoration (AR) Zone.--For levee owners who have 
        identified defects in their levee, FEMA allows homeowners 
        behind the damaged levee to access discounted flood insurance 
        rates while repairs are being made. Once ``adequate progress'' 
        has been made in the repairs to the levee, homeowners are not 
        required to purchase flood insurance. Federal statute defines 
        ``adequate progress'' as meeting all of the following criteria:
    --100 percent of the project cost of the system has been 
            authorized;
    --At least 60 percent of the project cost of the system has been 
            appropriated;
    --At least 50 percent of the project cost of the system has been 
            expended, and
    --The system is at least 50 percent completed.
    FEMA continues to examine the requirements of the National Flood 
Insurance Program to ensure it meets the legislative direction and 
effectively helps communities and individuals buy down their risk of 
flooding through insurance and other floodplain management activities. 
At present, a FEMA NFIP Reform Working Group is conducting an analysis 
of NFIP issues and developing a portfolio of public policy 
alternatives, with expected completion in early May. In addition, FEMA 
is actively working with USACE on public outreach on levees and flood 
risk management. DHS will continue to meet and work with Congress to 
inform best solutions, and will work within the Department to identify 
short term policy and administrative solutions.
    Question. Has FEMA approached the U.S. Army Corps of Engineers 
about altering their annual levee inspections to meet FEMA's levee 
certification process?
    Answer. FEMA and USACE coordinate on a regular basis regarding 
national levee issues in an effort to improve transparency and 
efficiency across agencies. Currently, FEMA uses these inspection 
reports as a consideration for determining levee status.
    Question. Can you outline any other steps FEMA has taken to work 
with local communities to address this issue?
    Answer. FEMA works closely with local and community officials 
confronting levee issues, frequently visiting impacted communities to 
address questions and concerns. FEMA has also published outreach 
materials to assist local communities and levee owners in understanding 
the requirements for having a levee recognized. These materials are 
available on the FEMA Web site at: http://www.fema.gov/plan/prevent/
fhm/lv_state.shtm

                          SUBCOMMITTEE RECESS

    Senator Byrd. The subcommittee stands in recess, and I 
thank you, Madam.
    Secretary Napolitano. Thank you.
    Senator Byrd. The subcommittee stands in recess subject to 
the call of the Chair.
    [Whereupon, at 3:58 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
